<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-458]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-458
 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2012

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   on

                               H.R. 2551

AN ACT MAKING APPROPRIATIONS FOR THE LEGISLATIVE BRANCH FOR THE FISCAL 
         YEAR ENDING SEPTEMBER 30, 2012, AND FOR OTHER PURPOSES

                               __________

             Architect of the Capitol (except House items)
                      Congressional Budget Office
                    Government Accountability Office
                       Government Printing Office
                          Library of Congress
                          Office of Compliance
                      United States Capitol Police
                              U.S. Senate

                               __________

         Printed for the use of the Committee on Appropriations


   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations




                  U.S. GOVERNMENT PRINTING OFFICE
64-612                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3552455a75564046415d5059451b565a581b">[email&#160;protected]</a>  


                               __________

                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi, Ranking
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 KAY BAILEY HUTCHISON, Texas
PATTY MURRAY, Washington             LAMAR ALEXANDER, Tennessee
DIANNE FEINSTEIN, California         SUSAN COLLINS, Maine
RICHARD J. DURBIN, Illinois          LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            LINDSEY GRAHAM, South Carolina
MARY L. LANDRIEU, Louisiana          MARK KIRK, Illinois
JACK REED, Rhode Island              DANIEL COATS, Indiana
FRANK R. LAUTENBERG, New Jersey      ROY BLUNT, Missouri
BEN NELSON, Nebraska                 JERRY MORAN, Kansas
MARK PRYOR, Arkansas                 JOHN HOEVEN, North Dakota
JON TESTER, Montana                  RON JOHNSON, Wisconsin
SHERROD BROWN, Ohio

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

                 Subcommittee on the Legislative Branch

                     BEN NELSON, Nebraska, Chairman
JON TESTER, Montana                  JOHN HOEVEN, North Dakota
SHERROD BROWN, Ohio                  LINDSEY GRAHAM, South Carolina
DANIEL K. INOUYE, Hawaii (ex         THAD COCHRAN, Mississippi (ex 
    officio)                             officio)
                           Professional Staff
                               Lila Helms
                    Rachelle G. Schroeder (Minority)
                         Katie Batte (Minority)

                         Administrative Support

                             Maria Veklich


                            C O N T E N T S

                              ----------                              

                        Thursday, March 3, 2011

                                                                   Page

Architect of the Capitol.........................................     1
Office of Compliance.............................................    18

                        Thursday, March 17, 2011

Government Accountability Office.................................    45
Government Printing Office.......................................    54
Congressional Budget Office......................................    61

                        Thursday, March 31, 2011

Library of Congress..............................................    87

                         Thursday, May 12, 2011

U.S. Senate:
    Office of the Secretary......................................   121
    Sergeant at Arms and Doorkeeper..............................   192
United States Capitol Police.....................................   217
  


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                        THURSDAY, MARCH 3, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:32 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senators Nelson and Hoeven.

                        ARCHITECT OF THE CAPITOL

STATEMENT OF STEPHEN T. AYERS, ARCHITECT OF THE CAPITOL


                opening statement of senator ben nelson


    Senator Nelson. The subcommittee will come to order 
officially. Good afternoon, everyone, and welcome.
    This is our first hearing of fiscal year 2012, and I want 
to start by welcoming my new ranking member, Senator Hoeven, 
from North Dakota, a former Governor.
    I look forward to working closely with you, Senator, as I 
did with my former ranking member and good friend, Senator 
Murkowski.
    I also want to welcome the other members of the 
subcommittee: Senator Tester, Senator Brown, and Senator 
Graham.
    I look forward to having the additional assistance in 
providing appropriations and oversight for the legislative 
branch of our Government.
    It seems a little odd to be meeting today, talking about 
fiscal year 2012 appropriations, but we do live in interesting 
times, and finishing up our fiscal year 2011 appropriations 
bill has proven to be more than a slight challenge. Maybe the 
greatest challenge I'll have today is to stay on track as we 
discuss fiscal year 2012 requests while operating at fiscal 
year 2010 levels during fiscal year 2011.
    Nevertheless, we do meet today to take the testimony on the 
fiscal 2012 budget requests from the Architect of the Capitol 
(AOC) and the Office of Compliance (OOC).
    I want to welcome our two witnesses today: Stephen Ayers, 
Architect of the Capitol and Tamara Chrisler, Esq., Executive 
Director of the Office of Compliance.
    Mr. Ayers, when we met here last year, I introduced you as 
``Acting'' Architect of the Capitol. And so, I want to first 
congratulate you on your recent confirmation as the 11th 
Architect of the Capitol.
    Mr. Ayers. Thank you, Mr. Chairman.
    Senator Nelson. We appreciate your service over the last 
few years and wish you all the best in this endeavor.
    I also want to congratulate Ms. Beth Plemmons, on your 
staff, for her recent appointment as CEO of Visitor Services.
    Your budget request this year totals $706 million, an 
increase of $104 million, or 17 percent, more than the current 
year. And by ``current year'', I'm once again referring to 
fiscal year 2010 enacted, which is what we are currently 
operating under.
    Mr. Ayers, you are understandably under an awful lot of 
pressure to accomplish what you need to in keeping the campus 
operating safely and efficiently. I, on the other hand, am also 
under a great deal of pressure to control Government spending. 
So, we'll need to work together to tighten this budget where we 
can, without subjecting our Visitors Services employees to 
hazardous conditions.
    Included in your request is $179 million worth of line-item 
construction projects, out of which two-thirds is for repairs 
and improvements, campuswide, and one-fifth involve life 
safety. Now, as important as these projects are, the reality is 
that many of these will have to be suspended and wait until 
another time.
    Ms. Chrisler, the fiscal year 2012 budget request for the 
OOC totals $4.8 million, an increase of $405,000, or 9 percent, 
more than the current year.
    As I just noted regarding Mr. Ayers' request, this is 
something the subcommittee may not be able to support in the 
current budget environment. However, we appreciate the efforts 
that both of your agencies have made to work cooperatively 
toward resolving the many fire- and life-safety needs around 
the complex given the limited resources.
    We look forward to your testimonies, in both cases, and to 
discussing the status of health and safety conditions 
throughout the Capitol.
    And now it's my pleasure to turn to the ranking member, 
Senator Hoeven, for any opening remarks that he may have.


                    STATEMENT OF SENATOR JOHN HOEVEN


    Senator Hoeven. Thank you, Senator Nelson. I look forward 
to working with you, as the Chairman, on this subcommittee, and 
also want to thank both Mr. Ayers and Ms. Chrisler for being 
here today, and look forward to listening to your testimony.
    Like you, Senator Nelson, I bring a background as a 
Governor to this job, and certainly in that respect, working 
not only with a legislative body, as is the case with this 
Congress, but also working on a budget. And, of course, as a 
State, we had to balance a budget. I know that's true in 
Nebraska, as well. And the Chairman's right, obviously--and 
something that you all well know--that we have to work within 
the confines that we have. And that is that we have a 
significant and growing deficit and debt. And so we're going to 
have to find ways to trim and prioritize. And that's part of 
the process that we'll go through together and do the very best 
job that we can.
    Obviously I have a learning curve here with understanding 
your budgets. It's certainly good to hear directly from you and 
to work on this prioritization, and do the very best job we can 
for the people that we represent. Your expertise is vital in 
the process. I respect that greatly, and am going to work to do 
the best I can to produce the very best budget within the 
constraints that we have, both as we work through the balance, 
of fiscal year 2011, but also as we to get into working on 
fiscal year 2012.
    And I'm very hopeful that, as we do, we're going to get 
into a process where we go through that normal budgeting 
process, where we do our subcommittee work, where we, you know, 
have our authorizations, where we work on our appropriations, 
where we provide that opportunity for testimony and input, and 
that we bring those budgets up, and that we not only do our 
subcommittee work, then we get to the full committee, and from 
there to the floor, we take each of these appropriation budgets 
up to the floor, have our debate--our colleagues in the House 
do the same thing--and go do our subcommittee work in our 
conference committee. And that is the process, and I'm very 
anxious to get going on that for fiscal year 2012. So, we're 
hopefully working ahead of the curve within the process that we 
should have here in the Congress.
    Throughout that process, and throughout this process, in 
terms of finishing up fiscal year 2011, again, I do want to 
emphasize that I certainly recognize that you're the experts in 
this area and will do everything I can to take your input and 
use it to best advantage. At the same time, we have limitations 
we're going to have to work within and meet.
    Senator Hoeven. Thank you for being here today.
    Senator Nelson. Thank you, Senator.
    Now I'd like to begin with the witnesses. If it's possible 
to keep your opening statements to somewhere around 5 minutes 
and submit the rest for the record, that would work best.
    So, we'll start first, Mr. Ayers, with you, and then we'll 
hear from Ms. Chrisler. So, please proceed.


                 SUMMARY STATEMENT OF STEPHEN T. AYERS


    Mr. Ayers. Good afternoon, Mr. Chairman and Senator Hoeven. 
Thank you for the opportunity to testify today regarding our 
fiscal year 2012 budget request.
    Today, we face significant challenges as our facilities and 
infrastructure continue to age and our mission continues to 
expand. In fact, we currently have a backlog of nearly $1.5 
billion in deferred maintenance and capital renewal projects 
that, if left unaddressed, could greatly impact the safety and 
security of the Capitol campus. And, as steward of this Capitol 
campus, I know that investment in our aging and historic 
infrastructure is vital. However, I also realize that the 
current fiscal environment presents a very difficult challenge 
for us to do more with less, and I think our budget request 
reflects this challenge.
    To ensure that we make the maximum use of every taxpayer 
dollar, we continue to identify cost savings and efficiencies 
and to aggressively address the most effective ways to use our 
limited resources. We've implemented comprehensive performance 
metrics, and they've led to significant improvements and cost 
savings in our organization.
    For example, we've recently reduced our inventory of 
supplies on hand from $56 million down to $7.5 million. We've 
consolidated information technology (IT) equipment across the 
agency and eliminated 150 printers and fax machines. And we've 
successfully leveraged the use of performance specifications, 
thereby eliminating unnecessary design fees for several 
projects. Little things like this add up, and we can use those 
savings toward our more important projects.
    We've utilized public private partnerships to finance 
energy reduction projects, allowing us to invest appropriated 
funds in higher priorities. We've also renegotiated several 
leases to get lower rates, and have reduced our staff through 
attrition, without impacting our ability to achieve our 
mission.


                 <GREEK-l>AOC DEG.PRIORITIZED PROJECTS


    In addition to implementing operational and business-
process efficiencies, we've carefully prioritized projects and 
operational funding. We've examined all existing accounts, 
identified available funds from nearly completed projects, and 
took on additional risk by reducing our construction 
contingency funding on several of these projects. And through 
this effort, we funded nearly $15 million in new projects with 
money that's already been appropriated to us. And this has 
enabled us to further reduce our fiscal year 2012 request.
    This budget reflects the highest requirements to prevent or 
delay further deterioration in our buildings. We've also 
included projects to improve security and safety across the 
campus. And, in addition, Mr. Chairman, we have deferred nearly 
$130 million of projects that are necessary and ready to 
proceed.


              <greek-l>AOC DEG.AOC'S COMMITMENT AND STAFF


    Through the work of our professional staff, we're able to 
address client needs on a daily basis, maintain our facilities 
and mitigate the amount the project funds currently require. 
However, even at this level of funding, the operational budget 
alone won't enable us to defer projects indefinitely. In fact, 
problems will only become more severe and, in the end, cost 
more.
    The AOC embodies a commitment to preserving and maintaining 
the historic fabric of our country. And our fiscal year 2012 
request reflects the seriousness with which we take this 
commitment. We continue to be successful in our mission due to 
the skilled work and talent of our dedicated staff. We 
continually reap the benefits of their knowledge, skills, and 
experience. And I'm proud and honored to lead this dedicated 
team.


                           PREPARED STATEMENT


    And their work has not gone unnoticed, as our 2010 customer 
satisfaction surveys have shown again that more than 90 percent 
of our customers are fully satisfied with the level of service 
we provide them on a daily basis. And we're very proud of that.
    Again, thank you, Mr. Chairman, for the opportunity to 
testify. And I would be happy to answer any questions you may 
have.
    [The statement follows:]

                 Prepared Statement of Stephen T. Ayers

    Mr. Chairman, Senator Hoeven, and members of the subcommittee, 
thank you for the opportunity to testify today regarding the Architect 
of the Capitol's (AOC) fiscal year 2012 budget request.
    I would like to begin by expressing my thanks to this subcommittee 
and to the Congress for its support of the AOC over the past several 
years as we worked to fulfill our mission of serving the Congress and 
the American people by maintaining and preserving the wonderful 
historic treasures entrusted to our care.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We know first-hand the challenges of preserving historic buildings 
and planning for current and future requirements. It requires 
ingenuity, craftsmanship, perseverance, astute planning, diligence, and 
judicious management of resources. Our staff works around the clock to 
provide a safe and accessible environment for all who work and visit 
here.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    With the Congress' support, significant investments have been made 
in the buildings and infrastructure. Today, we face even greater 
challenges as the facilities continue to age and our mission continues 
to expand. In fact, we currently have a backlog of nearly $1.5 billion 
in deferred maintenance and capital renewal projects that, if left 
unaddressed over a significant length of time, could greatly impact 
safety and security across the Capitol campus.
    As steward of the Capitol campus, I know that investment in our 
aging and historic infrastructure is vital. However, we do realize that 
the current fiscal environment presents a very difficult challenge for 
the Congress, the AOC, and the American public to do more with less 
funding. Our fiscal year 2012 budget request reflects this challenge. 
We have carefully and systematically prioritized projects and 
meticulously developed our operational funding.
    To further ensure that we make the maximum use of every taxpayer 
dollar, we continue to identify additional cost savings and 
efficiencies, and to aggressively address the most effective way to use 
limited resources. We have implemented comprehensive performance 
measurements and metrics for nearly every aspect of our organization 
and these have led to significant agency improvements and cost savings. 
This data-driven management culture permeates our agency and gets 
results. For example, by improving our internal controls and requiring 
more extensive reporting, we have dramatically decreased leave errors 
in our time and attendance process. We also have established goals to 
improve efficiencies in our operations, such as our efforts to increase 
procurement opportunities for small businesses. In fiscal year 2010, we 
exceeded those goals by awarding more than $20 million in contracts to 
small businesses.
    Assisting me in these efforts is our Chief Operating Officer, 
Christine Merdon. Ms. Merdon joined the AOC in September 2010, and she 
brings a wealth of experience to our organization from both the public 
and private sectors, including small business acumen.
    She began her Federal career in 1981 as a cooperative education 
engineering student for the Navy. After earning her Bachelor of Science 
degree in 1987, from the University of Maryland in Civil Engineering, 
she continued her career with the Navy as a project engineer and 
project manager. In 1998, she received a Master of Science degree in 
Civil Engineering.
    In 1990, she joined the White House Military Office as a Project 
Manager responsible for managing classified design and construction 
projects at the White House, Camp David, and other Presidential support 
facilities. In 1998, Ms. Merdon was hired by Clark Construction, LLC, 
where she was project manager and superintendent for numerous projects 
including the American Red Cross Headquarters, Bethesda Place II, and 
the renovation of Baltimore's historic Hippodrome Theater.
    Ms. Merdon joined McKissack & McKissack in 2000, where she ascended 
to the role of Senior Vice President of Program and Construction 
Management. Her responsibilities included operations and business 
development for program and construction management contracts in 
Washington, DC; Chicago, Illinois; and Los Angeles, California. There 
she was responsible for the successful management of more than $11 
billion in major construction projects and programs including: 
Washington Nationals Major League Baseball stadium; O'Hare 
Modernization Program; Eisenhower Executive Office Building life-safety 
upgrades; Martin Luther King, Jr. National Memorial; Smithsonian 
Institution's National Museum for African American History; and the 
Lincoln and Thomas Jefferson Memorial Renovations.
    Over the past several months, Ms. Merdon and I have been working to 
save the taxpayers time and money. For example, we reduced our 
inventory of supplies on hand from $56 million to $7.5 million. We are 
also consolidating information technology equipment agency-wide and 
have eliminated more than 150 printers and fax machines over the past 
18 months. We have successfully leveraged the use of performance 
specifications to avoid unnecessary design fees for several Senate 
projects, and we are using in-house staff on many of our major 
construction projects, which has resulted in saving hundreds of 
thousands of taxpayer dollars.
    We also modified how we staffed the postelection office moves, 
bringing on temporary staff versus contracting out for the services, 
which resulted in significant savings. During one of the hottest 
summers on record last year, we expanded our energy curtailment program 
from a few hours on ``gold days'' to 24 hours a day, 7 days a week 
during State work periods. In addition, we have utilized public-private 
partnerships to finance energy reduction projects, allowing us to 
invest appropriated funds in other priority projects. At the Capitol 
Power Plant (CPP), we utilized a ``free cooling'' initiative where we 
used cold, outside air to create chilled water without running the 
chillers, thereby conserving electricity and saving money. We also 
renegotiated several leases to get the best rates, and we have looked 
to reduce staff through attrition where we can without impacting our 
ability to achieve our mission.

        <greek-l>aoc deg.FISCAL YEAR 2012 CAPITOL BUDGET REQUEST

    In addition to implementing these operational and business process 
efficiencies, we have carefully and meticulously prioritized projects 
and operational funding.
    For example, in fiscal year 2010, we examined all of our existing 
accounts, worked to identify available funds from projects that were 
nearly complete, and took on additional risk by decreasing construction 
contingency funding in some cases. Through this effort, we were able to 
fund nearly $15 million in new projects with existing resources, 
further decreasing our need for fiscal year 2011 funding. This, in 
turn, enabled us to further decrease our fiscal year 2012 request. 
Moving forward, we will continue to evaluate our ongoing projects, 
assess associated risks to congressional operations, and continue to 
find ways to fund projects with existing funds.
    However, we also identified projects or requirements that could be 
deferred, albeit not without significant risk. As funding is delayed, 
the requirements will worsen, the risk will escalate, and when funded, 
the projects will be more costly.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As a result of these exercises, we are requesting funding for only 
the most urgent projects and operational shortfalls. Our fiscal year 
2012 request of $706 million is nearly $50 million lower than our 
fiscal year 2011 request, and represents a 6.5 percent decrease from 
our fiscal year 2011 request.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The fiscal year 2012 budget request reflects the highest 
requirements to prevent or delay further deterioration and system 
malfunctions and/or failures. We have included more than $7 million for 
projects to improve security on the Capitol campus, and $38.4 million 
for life-safety projects.
    As I noted earlier, we have identified projects that might be 
deferred, but we have also assumed a level of risk in doing so. We will 
rely on our operating budgets to manage these risks. This will enable 
us to continue to maintain and sustain equipment, components, and 
systems; however, it would not guarantee that we could provide the 
necessary replacements in the event of system failure.

   <greek-l>aoc deg.CAPITOL BUDGET REQUEST AND PROJECT PRIORITIZATION

    We currently have a backlog of nearly $1.5 billion in deferred 
maintenance and capital renewal projects. One of our greatest 
challenges is to prioritize our efforts to ensure every taxpayer dollar 
goes toward the most important work. We have developed a world-class 
project prioritization process that ranks these projects based on the 
condition of the facilities, and the level of maintenance required to 
ensure they remain functional and viable working environments.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This triage process for facilities attends to the most serious 
issues first, while addressing the necessary life-safety issues, 
security requirements, energy-savings projects, historic preservation 
measures, and the needs of our clients, while deferring the growing 
need for Capitol improvement and Capitol construction projects until 
later.
    We believe we have built our fiscal year 2012 budget that best 
balances these needs and requirements in these fiscally constrained 
times. We are requesting $179.2 million for Capitol projects, which is 
a $37 million or 17 percent decrease from the fiscal year 2011 Capitol 
projects request. We also are recommending that an additional $129 
million in necessary work, which is ready to proceed, be deferred to a 
later fiscal year due to the austere budget environment.
    We have several tools that we use to assess which facilities need 
emergency care versus those that can be nursed along until funding 
becomes available to address specific deferred maintenance and/or 
capital renewal projects in those particular buildings. These tools 
include facility condition assessments, the Capitol Complex Master 
Plan, jurisdiction plans, and the Five-Year Capitol Improvements Plan, 
which examines phasing opportunities, project sequencing, and other 
factors to better facilitate the timing of the execution of major 
deferred maintenance and capital renewal projects.
    Our comprehensive prioritization process rates projects on a number 
of objective factors to produce an overall hierarchy of importance. 
During this process, projects are classified by type and urgency. The 
projects are then scored against six criteria:
  --security;
  --safety and regulatory compliance;
  --historic preservation;
  --mission;
  --economics; and
  --energy efficiency and environmental quality.
    We rank projects based on a composite rating consisting of 
classification, urgency, and project importance. This year, we also 
applied a criticality and risk-decision model to the overall 
prioritization list, and the resulting outcome was used as one filter 
to inform which projects should be included in the fiscal year 2012 
budget request. We also recognize that our facilities need life-safety, 
security, and functional improvements to provide a safe working 
environment to support the Congress' mission, and our request reflects 
improvements in those areas.
    To further refine the data on which our planning is based, for the 
past several years we have conducted independent, third-party facility 
condition assessments. These assessments identify the most critical 
issues in the facilities, and the objective data collected during this 
process helps us identify the urgent needs that must be addressed.
    The charts on the next page compare the facility condition index 
from fiscal year 2009 to fiscal year 2010. While the condition of the 
majority of congressional facilities, which are rated poor or fair, 
have not changed significantly, facilities once rated as excellent are 
beginning to trend downward. In fiscal year 2009, nine buildings were 
rated in excellent condition. In fiscal year 2010, there were just six. 
In fiscal year 2009, three buildings were listed as good. Now there are 
seven.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Without regular and prudent investments made in these facilities, 
this unfortunate trend will continue, and the deterioration will 
continue, possibly to the point of impacting congressional operations. 
We will work to reduce the deterioration to avoid operational impacts, 
however, in this fiscally restrained climate; we will need to focus 
resources on those activities and projects that most directly support 
the Congress.
    To provide us with a 20-year, strategic look ahead to queue up 
priorities, investments, and projects, we use the Capitol Complex 
Master Plan. We have worked with the Congress over the past several 
years to develop the Master Plan and its related jurisdiction plans.
    There are nine jurisdiction plans that describe the facilities that 
are maintained and improved by each jurisdiction, detail the current 
use of space, and identify long-term facility needs of each 
jurisdiction. These plans help us make future decisions about facility 
renewal requirements and new projects. For example, there may be 
instances where major, whole building renovations should be undertaken 
rather than a myriad of smaller projects.
    The Capitol Complex Master Plan assumes incremental decisionmaking; 
providing the AOC and the Congress with a blueprint for facility-
related decisionmaking and investment. It is an important tool because 
it:
  --Establishes stakeholder goals and direction on key decision points.
  --Assesses physical condition and capacities of buildings.
  --Identifies short- and long-range facility requirements.
  --Addresses sequencing issues.
  --Guides the Capitol Improvements Plan and funding requirements.
  --Manages stakeholder and building occupants' expectations.
    The Five-Year Capitol Improvements Plan helps us meet several goals 
by analyzing all of the facility requirements, grouping them into 
logical and economical sequencing and phasing, prioritizing the 
resulting requirements using a set of objective criteria, and 
establishing measureable outcomes.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The chart above provides a snapshot of proposed funding requests in 
future years by appropriation. If investments are not made to address 
the backlog of deferred maintenance and capital renewal projects, the 
bow wave will continue to grow into a tidal wave of projects that could 
potentially lead to catastrophic results including system failures or 
building closures.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    A large portion of our Capitol budget request is to address 
deferred maintenance--$76.7 million or nearly 43 percent--that is 
critical to prevent or delay further deterioration. Several of these 
deferred maintenance projects that we are requesting funding for in 
fiscal year 2012 also address life-safety and security issues.
    These include:
  --Utility Tunnel Improvement Program.
  --Sprinkler system installation, Thomas Jefferson Building.
  --Skylight replacement, Hart Senate Office Building.
  --Structural repairs to underground garage, John Adams Building.
  --West House underground garage rehabilitation.
  --Modernize mechanical systems, Dirksen Senate Office Building.
    Other Capitol projects will help improve energy efficiencies, and 
thereby help save money, such as the relocation and replacement of 35-
year-old chillers at the CPP, and upgrading utility distribution system 
components throughout the Capitol campus, including completing the 
Utility Tunnel Improvement Program, or support our Government's time-
honored traditions with the construction of the stands and the planning 
of the support activities associated with the 2013 Presidential 
Inaugural ceremony.

    <greek-l>aoc deg.LIFE-SAFETY ENHANCEMENTS AND ENERGY EFFICIENCY 
                              IMPROVEMENTS

    Two areas that are top priorities for our agency are safety and 
energy reduction, and we continue to see dramatic results due to our 
efforts in identifying and managing risks, and increasing efficiencies 
and reducing energy consumption, which in turn, saves taxpayers money.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Just as we have a robust and successful project prioritization 
process, we have a focused and proactive process in place to abate 
hazards, and have made substantial improvements to the Capitol campus 
infrastructure to enhance safety. With the Congress support, we have 
made significant investments to improve fire and life-safety systems 
within congressional buildings and on the Capitol grounds. As a result, 
the Capitol campus is safer today than ever, as evidenced by a 59 
percent reduction in hazards identified by the Office of Compliance 
since the 109th Congress. This is particularly significant because the 
amount of square footage of facilities that we maintain has 
dramatically increased over the same period of time. Between the 109th 
Congress and the 110th, the physical inventory that the AOC maintains 
was increased by 10 percent in additional square footage. During the 
111th Congress, another 3 percent was added.
    Moving forward, we will continue to partner with the Congress to 
execute life-safety projects in a planned manner that is fiscally 
responsible, efficient, and effective in order to further protect those 
who work in and visit the Capitol campus.
    Capitol-wide energy reduction efforts have yielded great results 
for the fifth year in a row. In fiscal year 2010, the Congress met the 
Energy Independence and Security Act of 2007 (EISA 2007) requirement of 
reducing energy consumption by 15 percent.
    To reduce reliance on direct appropriations, we are using privately 
financed public-private partnerships, known as Energy Savings 
Performance Contracts, to fund the project work that needs to be 
completed to conserve resources and reduce energy consumption. For 
example, in the Senate, we have begun construction on the following 
energy conservation projects:
  --installing 31,000 energy-efficient lighting fixtures in each of the 
        Senate office buildings;
  --upgrading existing pneumatic and electronic controls for heating, 
        ventilating, and air-conditioning systems with direct digital 
        controls;
  --replacing existing transformers with high-efficiency transformers; 
        and
  --installing removable insulation covers for steam valves to reduce 
        heat loss.
    After implementation of all energy conservation measures over the 
36-month construction period, the Senate office buildings are estimated 
to potentially realize a 36 percent reduction in total energy 
consumption, and approximately $3.9 million in annual energy savings. 
We anticipate that this investment will save approximately 7 percent 
annually toward the EISA 2007 goal.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In the House office buildings this past year, we installed 30,000 
energy-efficient light fixtures, and converted 2,700 bathroom fixtures 
to automatic, low-flow units. We have achieved a 23.3 percent reduction 
in water consumption in the House office buildings from fiscal year 
2009 to fiscal year 2010. In addition, approximately 1,250 bathroom 
fixtures were diverted from landfills and sent to a local asphalt plant 
for recycling. We also installed a new dimmable LED lighting technology 
in the Rayburn cafeteria. In a matter of months, energy consumption for 
lighting in the cafeteria was reduced by more than 70 percent.
    After implementation of all energy conservation measures over the 
30-month construction period, the House office buildings are estimated 
to potentially realize a 23 percent reduction in total energy 
consumption, and approximately $3.3 million in annual energy savings. 
We anticipate this investment will save approximately 5.4 percent 
annually toward the EISA 2007 goal.
    In the Capitol Building, the following projects are ongoing: 
upgrading existing light fixtures with high-efficiency lamps, ballasts, 
and reflectors; modernizing Building Automation Systems, including 
existing pneumatic and electronic controls for heating, ventilating, 
and air-conditioning systems with direct digital controls, and 
replacing air-handling systems.
    After implementation of all energy conservation measures over the 
27-month construction period, the Capitol Building is estimated to 
potentially realize a 38 percent reduction in total energy consumption, 
and approximately $2.2 million in annual energy savings. This will 
contribute an anticipated 5 percent annually toward the EISA 2007 goal.
    In addition, our employees are doing their part to help save energy 
by using the mass transit and flexible work schedule programs. More 
than 35 percent of AOC employees use public transportation to commute 
to work. In addition, more than 930 AOC employees participate in the 
flexible work schedule program, and more than 125 are enrolled in the 
AOC's Telework Program.
    Because the CPP plays a critical role in our long-term energy 
conservation strategy, we are continually working to improve and 
upgrade operations there. In December 2010, the CPP marked its 100th 
anniversary of steady service of steam and chilled water to heat and 
cool congressional buildings. In that century of service, the plant has 
undergone significant changes as new buildings were built, and modern 
equipment was installed. However, in order to continue to provide these 
services into the future, significant investment is needed to replace 
aging infrastructure and to install new, energy-efficient equipment.
    Last year, with the assistance of the National Academy of Science, 
we completed our Strategic Long-Term Energy Plan, which we are using to 
guide our future energy program planning, and to identify and explore 
options that will help realize continued energy efficiencies and 
opportunities to save money.
    After careful review of several technologies that can further 
improve efficiencies and help meet future energy requirements of the 
Capitol campus, we are planning to incorporate the use of cogeneration 
at the CPP to generate on-site power. Cogeneration is the use of a 
combustion turbine in order to generate both useful heat and 
electricity. It is anticipated that the equipment would generate enough 
electricity to operate the CPP, and the use of the heat generated from 
this operation would produce enough steam to reduce reliance on the 
existing boilers. This would increase system reliability and the 
increased efficiency would help save money. The proposed cogeneration 
system also would significantly reduce emissions while providing a 
reliable source of electricity to the CPP and steam for heating 
congressional facilities. We are proposing the use of a utility energy 
services contract to finance construction of the cogeneration plant. 
This public-private partnership leverages private funding allowing us 
to initiate design and execute construction in a timelier manner, and 
allows us to use limited appropriated funds for other priorities, such 
as deferred maintenance or life-safety projects.

            <greek-l>aoc deg.ANNUAL OPERATING BUDGET REQUEST

    Our fiscal year 2012 annual operating budget request for $436.4 
million provides funding for continuing the critical activities of 
operating and maintaining the infrastructure which supports the 
Congress, other legislative branch agencies, and the public, as well as 
other AOC essential mission support services. This is a slight decrease 
from our fiscal year 2011 budget request. Some of these services 
include safety, human resources, financial management, project and 
construction management, planning and development, communications, 
information technology, and procurement. In our effort to further 
improve efficiencies and reduce costs, we are requesting funds to add 
internal controls software tools, and to update obsolete planning and 
project software.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Through the work of our in-house, professional staff, we are able 
to address client needs on a daily basis, maintain facilities, and 
mitigate the amount of project funds required at the present time. 
However, even at this level of funding, the operating budget alone will 
not enable us to defer projects indefinitely. The longer we delay in 
addressing these issues, the more conditions will continue to worsen. 
Ignoring these issues will not make them go away. In fact, the problems 
will only become more serious and, in the end, cost more.
    Mr. Chairman, one of the many areas in which our employees excel is 
in the preservation of our heritage assets. We take great pride in 
maintaining and conserving the national treasures entrusted to our 
care, and last year our efforts were recognized with the 2010 Award for 
Outstanding Commitment to the Preservation and Care of Collections. 
Heritage Preservation and the American Institute for Conservation of 
Historic and Artistic Works presents the award to the organization that 
has been exemplary in the importance and priority it has given to 
conservation concerns, and in the sustained commitment it has shown to 
the preservation and care of cultural property. The AOC was recognized 
as ``a model of exemplary stewardship of the historic collections in 
its care.''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    It was a great honor to receive this award because it recognized 
the efforts of our talented and dedicated staff that work to preserve 
these irreplaceable treasures, serve the Congress, and welcome millions 
of visitors every year. They take great pride in what they do and they 
put their unique and special skills to work every day to ensure our 
U.S. Capitol continues to stand as a powerful and iconic symbol of our 
Government.

                  <greek-l>aoc deg.AOC ACCOMPLISHMENTS

    Receiving this award was one of many significant achievements the 
AOC recorded this past year. As I mentioned earlier, we have 
implemented comprehensive measures and metrics across the agency that 
have led to significant improvements. For example, we continued to 
improve our cost accounting procedures and internal controls, and 
received our sixth consecutive clean audit opinion from independent 
auditors on all of our financial statements. In addition, our annual 
building services customer satisfaction surveys for fiscal year 2010 
again showed that a large majority of our customers are satisfied or 
very satisfied with the level of service the AOC is providing them.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Not only do we take care of our customers, we take care of our 
people. We are committed to being the best in our industry, and we have 
implemented several programs to recruit and retain the best talent. To 
further this goal, worker safety remains one of our top priorities, and 
we have successfully reduced our injury and illness rate by 75 percent 
since fiscal year 2000. We reduced the claims rate of 17.9 injuries per 
100 employees in fiscal year 2000, to fewer than 4 injuries per 100 
employees in fiscal year 2010.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Our talented staff have completed a number of projects this past 
year in our efforts to maintain and preserve the historic assets 
entrusted to our care, including painting the Capitol dome as an 
interim step to protect and weatherproof the cast-iron structure; 
repairing and replacing the Thomas Jefferson Building's lantern windows 
and frames, as well as conserving the Blashfield mural, ``Human 
Understanding'', and installing a lift system to provide access to the 
House rostrum, and allowing, for the first time in the Chamber's 
history, a Representative in a wheelchair to preside over a House 
session.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Our employees work tirelessly on the front lines to create a 
positive first impression of the Congress, the Capitol, and public 
stewardship. In 2010, the Capitol Visitor Center welcomed its 4 
millionth visitor. At the U.S. Botanic Garden, more than 1 million 
guests enjoyed its amenities and educational programs, including the 
annual orchid show.

                               CONCLUSION

    Mr. Chairman, the AOC embodies a commitment to preserving and 
maintaining the historic fabric of our country, including the U.S. 
Capitol Building and its iconic dome that serves as a symbol of our 
country and our Government.
    Our fiscal year 2012 budget request reflects the seriousness with 
which we take this commitment. We understand the challenges that an 
austere fiscal environment presents, and we have developed this budget 
request in an effort to balance our stewardship responsibilities with 
fiscal responsibility.
    We have been successful in our mission due to the tireless work of 
our skilled craftsmen and professional staff who maintain and preserve 
our national treasures. Their efforts ensure that we continue to 
provide exceptional services to the Congress, and they have prevented 
catastrophic system and facility failures to date. The full measure of 
the dedication they display in their jobs may be difficult to measure, 
but we continuously reap the benefits of their knowledge, skills, and 
experience. I am very proud to lead this wonderful and dedicated team.
    We look forward to continuing to work with this subcommittee, the 
congressional leadership, and our oversight committees to address our 
mutual concerns for conserving the past while planning for the future 
of the Capitol and the facilities for the Congress and the American 
people.
    I would be happy to answer any questions you might have.

    Senator Nelson. Thank you.
    Ms. Chrisler.

                          OFFICE OF COMPLIANCE

STATEMENT OF TAMARA E. CHRISLER, ESQ., EXECUTIVE 
            DIRECTOR, OFFICE OF COMPLIANCE

    Ms. Chrisler. Thank you, Mr. Chairman, Senator Hoeven.
    I'm honored to appear before you today on behalf of the 
OOC. As you know, the OOC is a small agency with a broad 
statutory mission established by the passage of the 
Congressional Accountability Act of 1995 (CAA). The OOC is 
required to carry out a Dispute Resolution Program (DRP) for 
employing offices and employees, inspect legislative branch 
facilities for compliance in safety and health and disability 
access laws, promulgate regulations for implementation of 
applicable laws under the CAA, and educate members of the 
covered community about their rights and responsibilities under 
the act. These are our mandates. This is the work you have 
asked us to do.
    With the continued support of this subcommittee, we have 
been able to do our work. You have allocated the resources 
necessary for us to complete required inspections, you have 
authorized needed personnel to manage our Safety and Health 
Program and to oversee the implementation of the settlement 
agreement to abate life-threatening hazards in the Capitol 
Power Plant (CPP) utility tunnels.
    Mr. Chairman, it was through your efforts on this 
subcommittee, and your membership on the Rules Committee, that 
a blue ribbon panel of architects and fire-safety experts was 
convened to provide an independent assessment of fire-safety 
issues in the Russell Senate Office Building.
    Indeed, it is this subcommittee's dedication to fire-safety 
issues that paved the way for the OOC and the Office of the AOC 
to engage in a cooperative effort to set abatement priorities 
among the fire- and life-safety hazards present in legislative 
branch facilities.
    Surely, the scheduling of the two agencies today to appear 
before you is reflective of the subcommittee's commitment to 
address these issues promptly and comprehensively. With the 
sustained support of this subcommittee, the OOC can continue to 
do the work that you've asked us to do.
    For fiscal year 2011, the OOC requested approximately 
$298,000 in additional funding to support several initiatives, 
two in particular: the development and implementation of the 
risk-based inspection, an abatement approach that the 
Conference Committee on fiscal year 2010 directed OOC to 
institute; and essential improvements to our anticipated and 
increasingly inefficient IT infrastructure.

         <greek-l>OOC deg.RISK-BASED APPROACH TO INVESTIGATIONS

    The first is the risk-based approach. This approach to 
inspections and abatement allows the OOC to target the riskiest 
workplaces and work activities, such as machine shops, high-
voltage areas, and boiler rooms, where the risks are highest. A 
risk-based approach is resource-intensive because our staff 
will carefully examine written programs, observe employees 
while they work, and engage them in discussion to determine 
their understanding of safety programs. It's different than 
just conducting an inspection of a building. It takes more 
time, but it's cost effective and it makes sense. And it's what 
you've asked us to do.
    We'll focus our assistance on reducing the on-the-job 
injuries and illnesses, and remedy those violations that pose 
the more serious threats to worker safety, which, in the end, 
will save money, with fewer injuries and accidents, fewer 
illnesses, and less workers compensation.

                  <greek-l>OOC deg.NEED FOR INSPECTORS

    The OOC approached the 2012 appropriations cycle knowing 
that only minimal funding would be available. That being the 
case, we did not seek contract funding for a safety and health 
inspector, despite the facts that, one, we have fewer 
inspectors, one fewer inspector than in the past; two, the 
risk-based approach requires more time and expertise than 
inspections in the past; and three, we are facing roughly 18 
million square feet of legislative branch workspace to inspect 
this fiscal year and next.
    Our efforts to obtain a nonreimbursable detailee from the 
Department of Labor or another executive branch agency has 
failed, as fiscal and other constraints have prevented other 
agencies from supplying a detailee. As a result, the OOC will 
be unable to offer the same level of service as in prior years. 
We won't be able to inspect every workspace. Instead, we'll 
rely on employing offices to conduct self-inspections of 
certain lower-risk offices and administrative areas.

                 <greek-l>OOC deg.IMPACT OF BUDGET CUTS

    Should there be cuts below the current spending level of 
fiscal year 2010, the OOC will be forced to cut back on the 
services that you have mandated.
    Funding our DRP facilitates parties' ability to reach 
confidential settlements at an early stage of the process. A 
reduction in this funding might force us to reduce the number 
and duration of our contracts with mediators and hearing 
officers, which may impact the success of early resolution. For 
example, just last week, the OOC was able to provide additional 
mediation services to parties in a particular case. These 
additional services enabled the parties to reach an amicable 
settlement. A cut to these resources would mean less mediation 
time, thus diminishing the likelihood of favorable settlements. 
The result is protracted litigation involving depositions, 
testimony, pleadings, appeals, all of which are resource 
intensive and all of which put an unnecessary drain on taxpayer 
dollars.

                           PREPARED STATEMENT

    As I stated, the OOC is realistic about the available 
resources in fiscal year 2012. We understand the challenges 
faced by the Federal Government and, in particular, this 
subcommittee. We recognize the need to present a bare-bones 
appropriations request, so we've done just that. What that 
leaves us with, however, with is reduced services. Our work is 
vital to the Congress. We administer basic fundamental rights. 
With the requested funding, we can ensure that these 
protections continue to be administered.
    I thank you for your time, and am happy to answer any 
questions you have.
    [The statement follows:]

                Prepared Statement of Tamara E. Chrisler

    Mr. Chairman, Senator Hoeven, and distinguished members of the 
subcommittee, I am honored to appear before you today on behalf of the 
Office of Compliance (OOC). Joining me today are General Counsel Peter 
Ames Eveleth; Deputy Executive Director Barbara J. Sapin; Deputy 
Executive Director John P. Isa; and Budget and Finance Officer Allan 
Holland. Collectively, we present to you the OOC's request for 
appropriations for fiscal year 2012, and we seek your support for our 
request.
    For fiscal year 2012, the agency is requesting a total of 
$4,782,000, a $106,509 or 2.28 percent increase over the agency's 
fiscal year 2011 requested appropriations level of $4,675,491, and an 
increase of $405,001 or 9.25 percent increase from the fiscal year 2010 
enacted appropriations level of $4,377,000. This funding would provide 
the OOC with the resources necessary to continue the most critical 
services that are required by the Congressional Accountability Act of 
1995 (CAA). As discussed below, however, even with the requested 
funding, certain mandatory services will be beyond our means. The 
minimal increase for fiscal year 2012 includes funding for increased 
costs of administrative services from the Library of Congress (LOC) and 
funding for basic operations to perform our core programs:
  --administrative dispute resolution services, safety and health and 
        disability access inspections; and
  --education and outreach services, all of which are mandated by the 
        CAA.
    The OOC is a small agency with a broad statutory mission. 
Established by the passage of the CAA, this agency was created by the 
Congress to administer the workplace rights laws, safety and health 
laws, and public accessibility laws that applied to the private sector 
and, in the case of some laws, to the rest of the Federal Government. 
The CAA requires that the OOC carry out a dispute resolution program 
(DRP) for employing offices and employees; inspect legislative branch 
facilities for compliance with safety and health and disability access 
laws; promulgate regulations for implementation of applicable laws 
under the CAA; and educate members of the covered community about their 
rights and responsibilities under the act. These are our mandates; this 
is the work you have asked us to do.
    Over the years, this subcommittee has demonstrated a real 
appreciation for the work performed by the OOC. In particular, this 
subcommittee has shown strong support for our safety and health program 
by allocating the resources necessary for us to complete the required 
inspections of legislative branch workplaces. Further, the subcommittee 
has authorized needed personnel to manage our safety and health program 
and to oversee the implementation of the settlement agreement that is 
abating the life-threatening hazards in the Capitol Power Plant (CPP) 
utility tunnels. Mr. Chairman, it was through your efforts on this 
subcommittee and your work on the Rules Committee that a Blue Ribbon 
Panel of architects and fire-safety experts was convened to provide an 
independent assessment of fire-safety issues in the Russell Senate 
Office Building. Indeed, it is this subcommittee's dedication to fire-
safety issues that paved the way for the OOC and the AOC to engage in a 
cooperative effort to set abatement priorities among the fire- and 
life-safety hazards present in legislative branch facilities. Surely, 
the scheduling of the two agencies to appear before you today is 
reflective of the subcommittee's commitment to address these issues 
promptly and comprehensively.
    With the sustained support of this subcommittee, the OOC has been 
able to ensure that legislative branch workplaces are subject to the 
same laws applicable to workplaces in the private sector and other 
Federal agencies. Our fiscal year 2012 requested increase is minimal: 
$106,509, almost half of which is attributable to the LOC increased 
charge for administrative services it provides to this agency. The 
remainder of the increase reflects additional costs due to inflation 
and for minimal operational costs. We have essentially presented you 
with a flat budget for fiscal year 2012.

 <greek-l>ooc deg.WHAT WE CAN DO WITH FISCAL YEAR 2011 AND FISCAL YEAR 
                              2012 FUNDING

    In fiscal year 2011, the OOC requested an additional $298,491 in 
funding to support several initiatives:
  --the development and implementation of the risk-based inspection and 
        abatement approach that the Conference Committee on fiscal year 
        2010 legislative branch appropriations directed the OOC to 
        institute;
  --essential improvements to our antiquated and increasingly 
        inefficient IT infrastructure; and
  --the salary increase required by Federal law.
    For the fiscal year 2011 appropriations cycle, staff of the OOC 
examined our programs in conjunction with our statutory mandates and 
made significant efforts to streamline our appropriations request to 
reflect the country's and the Government's economic difficulties. As a 
result, we presented an appropriations request that contained only 
those items necessary to meet the most fundamental of our statutory 
mandates.
    Fiscal year 2012 funding at the requested level (inclusive of 
fiscal year 2011 requested funding) will allow the OOC to employ the 
risk-based biennial inspection and abatement approach contemplated in 
the fiscal year 2011 budget request. This risk-based approach is 
resource-intensive for our agency, but should result in cost savings 
across other agencies in the legislative branch. This approach allows 
the OOC to target the riskiest workplaces and work activities, such as 
machine shops, high-voltage areas, and boiler rooms. We would 
concentrate our limited resources on areas where the risks are highest 
(the CPP and hazardous chemical storage rooms, for example); focus the 
technical assistance we provide on reducing on-the-job injuries and 
illnesses; and remedy those violations that pose the most serious 
threats to workers' safety. Of course, cooperation with the AOC's 
staff, as well as with other employing offices, is an integral part of 
the development and implementation of this approach. Working with the 
employing offices, our inspectors would carefully review and assist in 
the development of written safety programs that protect employees who 
work with certain hazardous materials. Our staff will observe employees 
while they work to determine their understanding of safety programs 
designed to protect against injuries. A careful examination of fire 
prevention programs is essential in the many Capitol Hill facilities 
that have serious life-safety deficiencies.
    This subcommittee's support of the OOC's requested appropriations 
for fiscal year 2011 and fiscal year 2012 will allow the OOC to 
continue to work with high-quality mediators and hearing officers. One 
of the OOC's core statutory functions is to provide confidential and 
timely counseling, mediation, and hearing services to assist employees 
and employing offices in resolving workplace rights claims, such as 
discrimination and harassment. Supplying the parties with highly 
skilled mediators and hearing officers allows the OOC to equip the 
parties with the tools necessary to reach amicable agreement and to 
fairly resolve and adjudicate claims.
    In addition, fiscal year 2012 funding at the requested level 
(inclusive of fiscal year 2011 requested funding) will allow the OOC to 
update its out-of-date communications and IT systems to improve 
efficiency and enhance the security of vital information. The OOC's IT 
systems are the warehouse for workplace rights claims filed against 
Members of Congress. Accordingly, it is essential that these systems 
use the best security measures available to protect your confidential 
information. The OOC has already begun collaborative efforts with the 
LOC to share services and develop OOC IT systems that maintain the 
confidentiality of this information and meet the highest of security 
standards.

     <greek-l>ooc deg.WHAT WE CANNOT DO EVEN WITH WHAT WE REQUESTED

    Our fiscal year 2012 request is basically flat. We approached 
fiscal year 2012 knowing that only minimal funding essential to meet 
the bare requirements of our mission would be available. That being the 
case, we did not seek contract funding for a safety and health 
inspector despite the fact that we have one fewer inspector than in the 
past. In our fiscal year 2010 and fiscal year 2011 budget requests, we 
noted our need for such an inspector, but indicated our intention to 
fill the need by obtaining a nonreimbursable detailee from the 
Department of Labor or other executive branch agency. Fiscal and other 
constraints have prevented other agencies from supplying such a 
detailee, and we have been advised that no detailee will be available 
in the foreseeable future. The need remains, however: the risk-based 
approach requires more time and expertise than the inspections of the 
past. At the same time, we are facing roughly 1 million additional 
square feet of legislative branch work space (to add to the existing 17 
million square feet) that is expected in fiscal year 2011 and 2012. As 
a consequence, our agency will be unable to offer all the services 
described above at the same level as in prior years. Some services may 
be reduced, while others may need to be discontinued altogether. In 
particular, the tradeoff is that we will not be able to inspect every 
workplace; instead, we will rely on employing offices to self-inspect 
certain lower-risk offices and administrative spaces. While we intend 
to inspect high-hazard workspaces, our ability to inspect all such 
areas is likely to be limited as well.

      <greek-l>ooc deg.WHAT HAPPENS WITH CUTS BELOW CURRENT LEVELS

    Should there be cuts below the current spending level of fiscal 
year 2010, the OOC will be forced to cut other services, as well as 
associated resources. As a statutorily mandated service agency, our 
business is largely driven by requests to our office--requests for 
information, requests for counseling, requests for mediation, requests 
for technical assistance, requests for inspection. Given that our 
agency's visibility has increased over the years, we are currently 
receiving more requests than we have in the past, from employees and 
employing offices alike. Consequently, any gap between our resources 
and our work will be immediately apparent to the covered community.
    The OOC's staff remains small. There are no overlapping functions. 
Thus, reductions to our resources could require us to eliminate not 
only positions, but entire programs as well. Should our resources be 
reduced below current levels, we will be faced with cutting back the 
services that you have mandated, and the delivery of remaining services 
may suffer.
    Specifically, as mentioned above, the OOC will struggle to meet our 
safety and health mandate even if our request is fully funded. Further 
reductions will mean fewer electrical shops inspected, less time 
observing workers' use of hazardous chemicals and reduced reviews of 
fire prevention programs in buildings with deficient emergency exits. 
The result would likely be more workplace injuries and illnesses, which 
in turn require higher workers' compensation costs, more overtime hours 
and reduced productivity--all on top of the pain and suffering 
experienced by the injured employee. Further cuts would thus be both 
painful and counterproductive.
    Additional reductions would likely force us to reduce or even 
terminate our disability access activities. We are obligated to ensure 
that members of the public do not confront barriers when seeking access 
to their elected representatives. With full funding, we will survey the 
routes between public transportation and congressional buildings to 
ensure that they are barrier-free. Any cuts below present levels may 
require us to discontinue this effort.
    In addition, funding for our DRP facilitates parties' ability to 
reach confidential settlements at an early stage of the process. A 
reduction in funding might force us to reduce the number and duration 
of our contracts with mediators and hearing officers. These resources 
are vital to the success of early resolution efforts. In fact, just 
last week, the OOC was able to provide additional mediation services 
for the parties to a particular dispute. These additional services 
enabled the parties to reach an amicable settlement. A cut to these 
resources would mean less mediation time, thus diminishing the 
likelihood of favorable settlements. The result is protracted 
litigation--involving depositions, testimony, pleadings, appeals--all 
of which are resource-intensive, and all of which put an unnecessary 
drain on taxpayer dollars.

                               CONCLUSION

    As stated above, the OOC is realistic about the available resources 
in fiscal year 2012. We understand the challenges faced by the Federal 
Government, and this subcommittee in particular. We recognize the need 
to present a bare-bones appropriations request; so we have done just 
that. What that leaves us with, however, is reduced services. The OOC's 
work is integral to the safety and health of each and every employee of 
the legislative branch; it is essential to the fair workplace that the 
Congress provides; and it is needed by people with disabilities who, 
like all other citizens, deserve access to their elected officials. Our 
work is vital to the work of the Congress: we administer basic, 
fundamental rights for individuals, and we do so because you have 
determined that you want these protections. With the requested funding, 
we can ensure that these protections continue to be administered.
    On behalf of the Board of Directors and the entire staff of the 
Office of Compliance, I thank you for your support of this agency. I 
would be pleased to answer any questions.

                <greek-l>AOC deg.BUDGET CUTS AND IMPACT

    Senator Nelson. Thank you. Thanks, to both of you.
    If it's okay, maybe we can do about a 5-minute round of 
questions, here.
    First of all, as it relates to the AOC, your fiscal year 
2012 budget totals $706 million, which, as I said, is an 
increase of $104 million, or 17 percent. It's not exactly the 
right direction, but as you explained it might have been even 
more if you had been unrestrained in how you could approach 
this.
    What would be the impact of an actual cut of 5 percent or 6 
percent or 7 percent to the current budget, without any 
increase, but a cut? And give us some idea of what you would 
have to defer, what you would have to put aside, and what you 
would have to reduce in overhead expenditures.
    Senator Nelson. You can it to give us, generally; and then 
for the record, you can do it--to lay it out in more detail. 
But, just for the moment, give us some idea of what that impact 
would be.
    Mr. Ayers. Absolutely. Mr. Chairman, the overarching theme 
would be--we have two large portions of money in our budget. 
One is our operations and maintenance budget and the second 
part is our capital improvements or line-item construction 
project budget. And on that line-item construction project 
portion, we have a really good prioritization process that 
presents to the subcommittee a list of the projects that need 
to be done, that are in priority order. We do that as a tool to 
help the subcommittee, and us, work collectively to make 
adjustments to that.
    So, typically what we would do is move the funding line 
from where we've recommended it up to wherever that budget cut 
needs to be. So, in essence, the first thing that would happen 
is many of the projects and capital improvements that we have 
identified in our budget would be cut. So, that would then 
increase our backlog of deferred maintenance and capital 
renewal work; the condition of our facilities would deteriorate 
and worsen. As I know you know, those projects that ultimately 
need to be done and will cost a little more later.
    On the operational side, we would work to find areas where 
we can be more efficient. We would work to find areas where we 
can cut services. We would work across the legislative branch 
to see where there are any areas of duplication which we can 
eliminate to begin to work to reduce the operational side.
    Senator Nelson. It was noticed that the increase in your 
operation budgets has been 47 percent over the past 6 years. 
That's why I raise the question of what would be the impact on 
your operations. I understand the capital accounts would be--
for construction improvements--would--could be deferred, but 
what about the operational--the growth in operational expenses 
over that period of time of 6 years? You're only accountable 
for part of that, but maybe you can explain that.
    Mr. Ayers. Well, I think much of that increase in growth 
comes from new mission requirements. A great example of that is 
opening the Capitol Visitor Center (CVC), 2 years ago, where we 
have approximately 250 employees there in the CVC. So, that 
represents probably the biggest increment of that operational 
growth in those salaries that you see on the operations side of 
our budget.
    Senator Nelson. That's what I was hoping you would point 
out.
    Now, this is one of those smaller items, but I don't know 
what the impact would be. I note that you recently updated your 
Web site and logo; and so, I'm assuming that that results in 
all kinds of other changes to literature, printing 
requirements, and so forth. In the decision to do that, did you 
consider what the cost would be, versus the necessity to incur 
the costs at this challenging budget time?
    Mr. Ayers. We did. And that was one of the important tenets 
that we used to make that decision. What we've done is 
eliminate the need for stationery. We created a logo that's 
computer printer friendly. We since we've changed that logo, we 
no longer purchase preprinted stationery. Our logo is all 
generated--and our memoranda are all generated from our 
computer system. So, we think, ultimately, in the end, that 
will save money.
    In addition, our approach with our staff has been, ``Use 
all existing resources. Don't throw anything away. Use 
everything you have before you switch to using these new 
products.''
    Senator Nelson. That's all I have, for the moment.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.

            <greek-l>AOC deg.PROJECT PRIORITIZATION PROCESS

    This is a question I would address to each of you. Just 
putting in context I anticipate our resource base being for the 
balance of this cycle, and then going into 2012. Right now, if 
you look at the legislation that the House has passed, they're 
at a total of about $60 to $61 billion below the current 
spending level, which is the fiscal year 2010 spending level. 
That's the spending level we're at now. So, that's one number 
that's out there.
    On the Senate side, the majority in the Senate has said, 
``Well, more in line, or in keeping with the administration 
budget, we should hold funding about at the current spending 
level.'' So, if you take those two as ends of the spectrum, and 
then there's certainly the possibility that we could end up at 
one of those, or somewhere in between. In that context, what 
I'd like you to do is talk in terms of these budgets, rather 
than--in both cases, you've submitted budgets with increases; 
and, in the case of the AOC, I think it's 6.5 percent increase 
from the fiscal year 2011, and I think it's around 9.5 or 9.6 
percent in the case of the OOC.
    So, I think, in terms of a level budget to a budget where 
you could be looking at up to a 10 percent reduction, or in 
that range, prioritize for me how you would work to get to that 
level, and then even with a reduction. Talk about that 
prioritization in terms of operating budget and people, and 
then also your project budget.
    Mr. Ayers, maybe you'd like to start.
    Mr. Ayers. I'd be happy to. First, I haven't had the 
opportunity to explain the project prioritization process 
before, Mr. Hoeven. So, I'd like to take a minute to do that.
    It really is a good process that we've worked really hard, 
over a number of years, to put together. First, it takes every 
capital project that comes to us, from ourselves or our 
customers or our consultants or whomever it is, and puts it 
through a process where we evaluate it and give it a numeric 
score with a set of predetermined criteria on mission, 
economics, energy, regulatory compliance, security, and 
historic preservation. We evaluate the whole project and give 
all of those elements a numeric score. Then we also determine 
whether it's an immediate requirement or of immediate urgency, 
or high or medium or low. Then, last, we categorize that 
project as either deferred maintenance through the spectrum to 
capital construction; deferred maintenance being something 
that's broken that needs to be fixed. Capitol construction, on 
the other end of the spectrum, is something that's new 
construction.
    So, then our algorithm prioritizes these hundreds of 
projects that come in to us, and ultimately delivers what you 
see in our budget request: a list of prioritized projects where 
you literally can move the line from the bottom of the list up 
and still have confidence that what remains are the highest-
priority projects for us to execute.
    So, that would be the first thing we'd do. We would use 
that tool and move that line up to where that reduction needs 
to be.
    And similarly, we would go through our operational budget 
with the same kind of tenacity to make reductions across the 
board in all of our operating budgets and our overhead rates 
and our lease rates and, you name it, to get to that objective.

<greek-l>AOC deg.ADDRESSING DEFERRED PROJECTS WITHIN BUDGET CONSTRAINTS

    Senator Hoeven. Well, I'm still obviously new to this 
process, but I expect, at some point, we're going to have a 
number that we're going to have to achieve. So, I want to 
commend you--and I may have to come back, in my next 5 minutes, 
to you, Ms. Chrisler--and certainly want to do that.
    I have that prioritization right in front of me, both for 
construction projects and for deferred. I think that's an 
excellent way to do it. And I think you went right where I kind 
of thought you might, and rightly so. Because, at some point, 
that is probably how we're going to have to do this. We're 
going to have to work through these projects and do as many as 
we can within the constraint that we're given, and then balance 
that with--going back to that operating line and having you 
talk about--and working with our analysts, saying, ``Okay, what 
do we do there?'' In other words, in a sense, you've almost and 
rightly so--prepared yourself, on the project side, both for 
new projects and for deferred. And I commend you for that.
    But, we're going to have to mix that in with the operating 
side, and take a hard look there. And I know, when you're 
talking about with people it's tougher, always. So, you know, 
we really need to work with you on that piece. Also, in terms 
of how we marry up the deferred versus the new projects. And, 
of course, that's going to be a function of what, in your 
expert judgment and those of your people, which deferred items 
absolutely need to be done.
    I know sometimes it comes down to it would be cheaper and 
better to do it new and--you know, if you had the dollars, that 
is perhaps the most cost-effective way to go. But, in some of 
these cases, we may have to go to the deferred maintenance to 
keep it going for another 5 years or 7 years, versus perhaps 
what we'd like to do otherwise.
    So, I think you've got a good start here, and I think 
that's the direction I would try to work with you in terms of 
probably setting up these different scenarios so we're prepared 
for the number that we're ultimately going to get, in terms of 
the budget we have to achieve.
    And, Ms. Chrisler, in my next 5 minutes, I'd love to come 
and kind of go through some of the same things with you.
    Ms. Chrisler. Thank you.
    Senator Hoeven. Yes.

                   <greek-l>AOC deg.BLUE RIBBON PANEL

    Senator Nelson. Well, Ms. Chrisler, you mentioned the blue 
ribbon panel that met. Could you give us what their 
recommendations were, or what their conclusions were, with 
respect to, first, the Russell Senate Office Building stairs. 
That was an issue that we spent time on last year. It still 
raises questions about how you deal with life-safety issues in 
connection with historic buildings. So, maybe you can give us 
what you've taken from their report, their recommendations.
    Ms. Chrisler. The blue ribbon panel has submitted its final 
report. I know the Rules Committee is waiting to receive that 
report. Our office has taken a look at it and has prepared a 
response that we would be happy to provide for the record. We 
would also be happy to provide that to the Rules Committee once 
they have received the final report.
    There are a number of recommendations that the panel made 
with respect to different options. And, so that I don't 
misquote those----
    Senator Nelson. Sure enough.
    Ms. Chrisler [continuing]. Recommendations, I'd be happy to 
provide them for the record.
    [The information follows:]

    Under the life-safety code, buildings on Capitol Hill must provide 
protected exit routes so that their occupants will be able to safely 
leave the buildings during an emergency evacuation without being 
exposed to fire, smoke, or toxic gasses. Because the Russell House 
Office Building (RHOB) does not have enclosed stairwells or other 
protected escape route, the General Counsel of the Office of Compliance 
(OOC) issued a citation (Citation 19) in 2000 to require that this 
life-threatening hazard be abated. In 2008, the Architect of the 
Capitol (AOC) developed a plan to abate this hazard (known as the 
Senate Alternative Life Safety Approach or SALSA) that was subsequently 
approved by the OOC general counsel. The SALSA plan was designed to 
provide an alternative to enclosing monumental stairways within the 
RHOB. It proposed to create separate ``fire zones'' within the building 
that would both contain the fire and provide protected areas within the 
building and would enable occupants to either completely exit the 
building or be sheltered in place, free from exposure to fire, smoke, 
and toxic gases. This compartmentalization would be accomplished by 
installing fire-rated doors mounted flush with corridor walls that 
would be closed automatically upon activation of fire alarms. 
Thereafter, at the request of the Senate Committee on Rules and 
Administration, the AOC established a Blue Ribbon Panel (Panel) of 
experts to address concerns about the effect the SALSA plan might have 
on the historic fabric of the RHOB.
    In its final report, dated August 23, 2010, the Panel assessed both 
fire-safety and historic-preservation concerns. As the Panel found, the 
hazards in the RHOB include unprotected exit pathways, insufficient 
emergency exit capacity, and excessive exit travel distances in 
contravention of life-safety code requirements. It concluded that fire-
safety hazards in the RHOB could be rectified ``in a manner that is 
consistent with historic preservation goals.'' The Panel considered 
three design options, along with the AOC's SALSA plan, to address the 
deficiencies and proposed nine ``general recommendations'' to be 
implemented in addition to whichever design option was selected. The 
general recommendations are divided into immediate, short-term, and 
long-term recommendations. The immediate recommendations involve attic 
improvements (removal of stored combustible materials or installation 
of automatic sprinkler protection along with smoke barriers and 
compartmentalization), basement workshop and storage improvements 
(removal of the furniture refinishing workshop, enclosing other 
workshops with 1-hour fire separation and removal of combustible 
materials in the basement corridor), and inspections (develop and 
implement an annual inspection program focusing on fire prevention best 
practices). As to these items, the Panel concluded that they ``will 
have a significant impact on the level of fire safety in the buildings 
and are envisioned as viable, discreet, and relatively easy to 
accomplish. These improvements should be undertaken as soon as 
possible.''
    The short-term recommendations involve providing smoke control in 
the atrium and providing a remote means of egress for all assembly 
spaces with occupant loads exceeding 50 persons. The long-term 
recommendations include adding protective materials to the attic roof 
structure, modifying, or replacing the HVAC systems to eliminate air-
transfer openings, providing fire stopping for or replacing utility 
shafts and floor openings, and removing the combustible courtyard 
structure.
    The Panel evaluated SALSA and the three design options by 
considering the historic preservation goals as well as nine life-safety 
objectives:
  --maintaining structural integrity during a fire;
  --separating hazardous areas from the remainder of the building;
  --restricting smoke movement from rooms to the exit corridors and to 
        other areas of the building;
  --providing protected occupant egress paths;
  --restricting vertical smoke movement in the Atrium;
  --restricting vertical smoke movement throughout the building;
  --providing adequate egress capacity;
  --limiting exit travel distances; and
  --creating contiguous protected exit paths.
    While the Panel acknowledged that SALSA together with the general 
recommendations would meet these nine safety objectives, the Panel 
dismissed this as an option because it failed to meet historic 
preservation goals.
    The Panel did not evaluate option 1 in detail. It provides for an 
extended automatic sprinkler system for fire and smoke control, 
improvements that already are underway. Option 2 would meet both the 
historic preservation goals and the life-safety objectives because, in 
addition to extending sprinklers and smoke detectors, it provides for 
compartmentalization of the RHOB into separate fire zones. This is 
accomplished by installing fire-rated pocket doors within the walls 
that are activated only in the event of a fire thereby preventing the 
spread of fire and toxic gasses while creating protected areas for 
occupants to escape safely from the building. Option 3 would also meet 
the historic preservation goals and life-safety objectives through the 
use of a smoke control system, perhaps in conjunction with 
compartmentalization, to limit the amount and extent of fire spread in 
the building. However, the Panel cautioned that the feasibility and 
potential benefit of this approach have not been evaluated and would 
require further technical investigation and computational fire and 
egress modeling.
    In sum, design option 2 and the AOC's SALSA plan, together with the 
general recommendations, address all of the life-safety objectives that 
the Panel identified. Design option 3 requires further study and may be 
neither technologically nor economically feasible. Design option 1, 
which the Panel found provided the least potential for risk reduction, 
addresses none of the identified life-safety objectives.
    The OOC has concluded:
  --In addition to whichever design option is selected, each of the 
        general recommendations developed by the Panel for improving 
        the level of fire safety should be implemented on an immediate, 
        short-term, and long-term basis as soon as practicable.
  --Design option 1, unlike the other options, does not create separate 
        fire zones in order to compartmentalize and therefore limit the 
        area of smoke and fire spread. Hence, it would neither prevent 
        the spread of fire, smoke, and toxic gases throughout the RHOB 
        nor address the building's lack of exit capacity or excessive 
        travel distances. Hence, it would not abate citation 19. 
        Consequently, the OOC cannot support this option as currently 
        proposed. Vertical compartments reduce the number of occupants 
        exposed to the effects of a fire, allow the occupants to egress 
        horizontally (an essential feature for those who are physically 
        unable to use stairs), reduce exit travel distances, increase 
        available egress capacity, and create areas of safety to 
        protect occupants from the effects of a fire in an adjacent 
        compartment. That said, we assume that the AOC will continue to 
        extend automatic sprinkler protection and upgrade the fire 
        detection and alarm system to provide area smoke detection 
        throughout the building as contemplated by option 1.
  --Design option 2, if implemented with the general recommendations, 
        would abate citation 19. Options 2a, 2b, 2c and SALSA, in 
        conjunction with the general recommendations, all are 
        sufficient to establish a reasonable level of fire protection 
        within the RHOB. Unlike the cross-corridor solid doors in the 
        SALSA plan that would remain open except in an emergency, all 
        variations of option 2 involve installation of concealed cross-
        corridor accordion (Won Door) partitions. The three variations 
        of option 2 differ in cost, extent of compartmentalization 
        within the building, the degree of building intervention, and 
        level of fire protection.
  --Design option 3 requires extensive further study and computer-
        generated smoke modeling to determine its feasibility and 
        benefit. Accordingly, without such information, the OOC is 
        unable to opine on the merits of this option at this time.
    Thus, we agree in major part with the Panel's findings respecting 
fire and life-safety conditions as well as the measures necessary to 
achieve an acceptable level of fire safety.
    The Panel's final report also contained a legal analysis of the 
OOC's citation authority. We agree with parts of this analysis and 
strongly disagree with other parts. We agree to the extent it 
recognizes that the OOC has clear authority to issue citations for 
alleged violations of the Congressional Accountability Act (CAA), that 
the OOC's issuance of a citation for these types of hazards is 
consistent with Occupational Safety and Health Administration's 
practices regarding similar historic buildings, and that these hazards 
can reasonably be viewed as a violation of section 5 of the 
Occupational Safety and Health Act of 1970 (OSHAct). However, we do 
take strong issue with the report respecting two significant matters as 
to which we believe it is in substantial error. First, it questions the 
authority of this office to require compliance with the safety and 
health standards promulgated by the Secretary of Labor under the OSHAct 
absent adoption by OOC of regulations incorporating those standards and 
approval of those regulations by the Congress. The analysis disregards 
the plain language of the CAA requiring employing offices to comply 
with the standards. In so doing, it ignores the well-recognized 
distinction between ``standards'' and ``regulations''. Only the OOC 
promulgated regulations that implement standards, unlike the standards 
themselves, require congressional approval. The legislative history of 
the CAA supports this interpretation of the CAA. Second, the analysis 
errs by challenging the exclusive authority of the general counsel of 
the OOC to make compliance decisions and to enforce its citations. 
Again, the CAA makes plain that this enforcement authority lies 
exclusively with the general counsel of the OOC.

    Senator Nelson. Sure. We'd like them for the record. But, 
can you give us, generally, some idea of whether--and maybe 
this is a better question for Mr. Ayers, as an architect--are 
they consistent with architectural integrity? Because that was 
one of our concerns. Obviously, we want things to be safe. But, 
we don't want to destroy the architectural integrity. Were the 
recommendations, do you think, consistent with that?
    Mr. Ayers. I think so, Mr. Chairman. The group did go out 
and look at a number of other historic buildings, both locally 
and in other cities, and determined that other buildings in 
other jurisdictions have implemented the kind of controls we're 
looking to implement, as well. And many jurisdictions have 
decided to implement them, and some have decided, ``We're not 
going to implement them.'' I think the blue ribbon panel gave 
us a series of recommendations that go from ``do nothing,'' was 
one of their recommendations, through sort of a sliding scale 
of implementing full building smoke compartmentation throughout 
the building. I think, ultimately, the answer will be somewhere 
in between.
    Senator Nelson. Okay. Thank you.

                 <greek-l>AOC deg.CAPITOL DOME PROJECT

    For the Capitol dome project, last year you requested, we 
had included, in our fiscal year 2011 bill, $20 million for 
repairs to the Capitol dome; and because of the continuing 
resolution, the funding has not been made available. Can we 
still begin the project, given the timeframe of the 2013 
Inaugural? I think that was one of the time points that was 
important. Or, will we have all kinds of construction going on 
in the Capitol dome at the time of the Inaugural?
    Mr. Ayers. We certainly cannot let that happen, Mr. 
Chairman----
    Senator Nelson. Right, exactly.
    Mr. Ayers [continuing]. And rest assured, we won't.
    Senator Nelson. All right.
    Mr. Ayers. We've looked at that, and we think we can still 
implement that project up until June of this year. If we don't 
receive that money prior to June, we think it's best to 
postpone it until after the 2013 Inaugural. It's about a year-
and-a-half in construction. So we're comfortable with June of 
this year.
    Senator Nelson. Okay. And if we do put it off--obviously, 
deferred maintenance has its challenges--does it create any 
more extraordinary issues, in terms of life safety or 
deterioration of the dome?
    Mr. Ayers. I wouldn't characterize it as extraordinary, no. 
Waiting from 2011 until 2013 would not be extraordinary, in my 
mind, but deterioration will increase.
    Senator Nelson. But, we are going to have to do it----
    Mr. Ayers. Yes. It is of immediate urgency.
    Senator Nelson [continuing]. As I understand it.
    Mr. Ayers. Yes, sir.

         <greek-l>AOC deg.UTILITY TUNNEL REPAIRS--RADIO PROJECT

    Senator Nelson. On the utility tunnel repairs, you 
requested $17.4 million. Are you on schedule to complete the 
repairs in 2012, recognizing we're still dealing with 
continuing resolutions?
    Mr. Ayers. Yes, Mr. Chairman. We are on schedule. We're 
very confident we will complete that required work by June 
2012.
    Senator Nelson. And I know you also have some 
responsibilities for the Capitol Police (USCP) radio project, 
the facilities portion. Can you give us a bit of an update on 
your work with the USCP radio modernization effort, recognizing 
how important it is for that to function the way we want it to 
function for Capitol Hill's security?
    Mr. Ayers. I'd be happy to. That is a very important 
project. We have four overarching responsibilities as part of 
our work on that project. One is the design and construction of 
the primary site. The second is the design and construction of 
the mirror site, or the backup site. Third, is the creation of 
pathways and conduits for the antenna, to be run throughout all 
of the office buildings here on campus. And then, the last part 
of that is coordinating throughout the District of Columbia, 
finding places and antenna towers to lease antenna space and 
get utilities to that space.
    So, on the primary site, we are nearly finished with that. 
I think we're about 95 percent complete with construction. On 
the mirror site, we've just awarded the construction contract. 
We'll be finished with that by July or August of this year, so 
both of those are within schedule. The antenna infrastructure 
within the buildings is proceeding well and on schedule. We've 
completed a number of buildings, like--the CPP and the USCP 
headquarters, among others, are complete, and others are in 
progress. And we're comfortable with the schedule there. And 
then, finally, the leasing of antenna sites throughout the 
city; we are just now getting started on that process, 
identifying the sites and working with the radio manufacturer 
or, radio designer, U.S. Naval Air Systems Command, to study 
the interference between their system and other antennas that 
are on the sites that we've outlined.
    Senator Nelson. Thank you. I know Senator Hoeven will be 
interested in the radio project, given that when 9/11 occurred, 
it was clear that our radio facilities were totally inadequate 
to deal with the communications required on Capitol Hill, 
perhaps just in ordinary circumstances, let alone the emergency 
that we experienced. So, when Sergeant at Arms Gainer and Chief 
Morse are here, we'll probably go into that a little bit more.
    Thank you.

                <greek-l>AOC deg.REDUCING COSTS/SERVICES

    Senator Hoeven. Well, I'm not too surprised to hear that. I 
think there were a lot of places around the country--found out 
on 9/11 that, in terms of their radio systems and 
interoperability that they had some challenges. So, I'm not too 
surprised to hear that.
    Ms. Chrisler, maybe you could comment a little bit on some 
of those level to a reduction in funding. How--and I know 
you're certainly personnel-intensive, in terms of what you do--
how would you approach that?
    Ms. Chrisler. Thank you for the question. And it's 
something that we've thought about.
    As you mentioned, our agency is heavily personnel- and 
resource-reliant, with respect to our infrastructure. The other 
side of that same coin is that the work that we have is largely 
controlled by the congressional population, with respect to our 
DRP. We have counseling services, mediation services, hearing 
services, and administrative dispute resolution services that 
we offer to employees and employing offices when they need 
them. So, they come to us when they need us. So, it's not as if 
it's a cost or an amount of work that we can control. If, by 
some instance, 100 employees come to our office in a given 
month, requesting our services, we're mandated to provide those 
services. So, in some respects, the costs that we incur are not 
within our control.
    Even with that in mind, there are things that we've thought 
about. There are things that we have done to reduce the cost of 
our services. We've engaged in interagency agreements with 
executive branch agencies and other agencies to reduce the cost 
of our mediation and our hearing services. We have 
contemplated, and have tried to organize, teleconferences for--
we have a five-member board of directors, who are experts in 
the substantive areas of our office and live across the 
country. They convene in Washington, DC, periodically, for 
meetings. We try to cut those meetings down and hold them 
telephonically so that we can save costs. So, the cost-cutting 
efforts that we've made continue.
    Looking forward at a reduction in our funding means that we 
will have to reduce--prior to reducing services, we'll have to 
look at a different way to do business. Perhaps, the additional 
mediation services that we offer employees, we won't--and 
employing offices--we won't be able to offer. We may have to 
limit the rounds of mediation. We may have to limit our 
services in other respects. So, not eliminating the services, 
because it's a--it's a mandate of the statute, but reducing the 
duration of the contracts, reducing the number of contracts, 
renegotiating our contracts with other entities, is something 
that we've looked at, as well. That's the services.
    The other side of that is that we have staffing that would 
more than likely need to be reduced. Within our Safety and 
Health Program, we have inspectors. We're short one inspector 
now, so we're--with additional cuts, we would be looking at 
additional shortages, which is difficult to conduct the work 
that we are mandated by the statute to do, and in a--in a cost-
effective way. The risk-based approach to inspections and 
abatement is the smart way to do things. But, it is resource-
intensive. So, looking at where we're going to save money. Are 
you going to save money on the front part? Or, are we going to 
save money on the back part? And the back part is where the 
money--the real savings comes in, because we're looking at 
reduction of illnesses and injuries and accidents and workers 
compensation. That's a real savings.
    Similar with the DRP. We have the mediation, so we can cut 
funding and cut services on the front end, or do we want to cut 
it on the back end? Cost savings when we enter into an amicable 
settlement between the parties, as opposed to engaging in the 
protracted litigation.
    These are the considerations that we've made.
    Senator Hoeven. So, if your requirement to handle these 
cases for remediation, and so forth, remains the same, and you 
have a smaller resource base, does that mean it just generates 
a backlog? Is that essentially what ends up happening? Or what 
are you anticipating?
    Ms. Chrisler. Right. Pardon me. That's one of the results. 
We would have the backlog. And again, we would have to reduce 
the services. So, yes, the services would be offered in the 
dispute resolution, but they wouldn't be offered to the level 
that we offer them now. We work with the parties exhaustively 
for them to reach a mutually acceptable settlement or a 
mutually acceptable agreement. You know, we may not be able to 
extend services that comprehensively. We may just be able to 
just give them the bare bones and meet the requirements of the 
statute, as opposed to engaging with them and helping them meet 
the solution that's best suited for them. That's on the dispute 
resolution end.
    On the safety and health end, we may not be able to conduct 
inspections of every facility. We've--we completed three 
comprehensive biennial inspections. So, each Congress, we've--
for the last three Congresses, we've conducted comprehensive 
inspections. So, we've seen a lot of places. We've worked with 
the employing offices in a lot of areas. So, we may not, to the 
extent that we have in the past, conduct inspections of 
absolutely every facility. We may rely on the offices to 
conduct self-inspections. And then we would spot check and go 
to those areas that have the highest risk. So, yes, we would be 
offering the services that we're required to, but at a much 
lower level.
    Senator Hoeven. Are there statutory changes that come to 
mind that would help you streamline any of that process?
    Ms. Chrisler. As I sit here, I can't think of a statutory 
change that would assist us in that, because the statute is 
requiring that we offer the services that are necessary to give 
the protections that the act contemplates, that we offer the 
inspections, and that we engage in administering the rights 
that the statute is providing to employees and employing 
offices. So, it's not a matter of amending the statute. That 
would result in limiting the protections, which I don't think 
anyone is really looking to do.
    Senator Hoeven. Okay. But, I think it's something to think 
about if there are statutory changes that would strengthen your 
ability to do some of these things more effectively or more 
efficiently, in a streamlined way--contract for services, any 
number of things--you ought to think about it. And then, 
depending on the wishes of the Chairman, I do have another 
question about your computer system, but I can come back----
    Senator Nelson. You can go ahead.
    Senator Hoeven. Okay.
    You're operating on a computer system that requires, as I 
understand it that each of your employees use two computers. 
And I have to use two BlackBerrys, because one's personal and 
one's for all the Senate stuff. And I do my best to keep all 
that in the right spot. But, one's personal, so I really only 
have one BlackBerry for Senate use. But, my understanding is 
that your employees are having to operate with two work 
computers, which doesn't seem like the most cost-effective or 
efficient way to do things. So, if you would, just explain why 
that's the case and then what your plan is to migrate away from 
it, and the costs involved the one time, and then the savings 
you would hope to realize.
    Ms. Chrisler. Sure. Thank you. And you're absolutely right, 
it's not effective--it's not efficient way to conduct business. 
And as we migrate to a more technological society, it hinders 
the work of our staff. It prevents us from telecommuting. It 
prevents us from accessing documents remotely. The reason 
behind it is because of the location of the agency and the way 
that our IT structure is designed. Right now, our agency is 
physically located in the Adams Building of the LOC. And as a 
very small agency, we, in essence, piggyback on their server to 
connect with the outside world. So, we have one computer that 
connects to the LOC's server that allows us to access the 
Internet and communicate with the outside world. The LOC has--
administers that network. And we have an internal network, 
where we keep our confidential information claims that 
discrimination--claims that--are filed against Members of 
Congress--all confidential information that we maintain under 
the statute, we maintain within our internal server. So, we 
have two computers that we work on. It's not efficient. It is 
cost prohibitive. But, because of the way our office functions 
and the mandates that we have, it's the best way for us, at the 
moment, to protect that information.
    What we're doing is working with the LOC to be able to 
migrate our two computers into one and put up a firewall so 
that we can maintain the protection of the information, but 
still be connected to the system, because that is very cost 
effective for our agency--to be able to utilize the LOC's 
network for the external--the Internet purposes. As a very 
small agency with, what you see, a very small budget, having 
the fiscal--the financial responsibility of maintaining that on 
our own would just be costs that are unnecessary----
    Senator Hoeven. Right.
    Ms. Chrisler [continuing]. Given the situation that we have 
now. So, putting that firewall up and--will allow us to migrate 
to the one box.
    Senator Hoeven. Mr. Chairman, I have a couple followups. 
Should I continue, or would you----
    Senator Nelson. Yes, go ahead.
    Senator Hoeven. Okay.
    Well, then building the security system or the firewall is 
the issue, right? In other words, it's most cost effective for 
you to use the LOC computer. As you said, small agency. That 
makes sense. So, you're on their server and so forth.
    Ms. Chrisler. Right.
    Senator Hoeven. So, the real issue is just programming, 
building an adequate firewall for that secure information.
    Ms. Chrisler. That's right. And that's a cost and that we 
have requested in prior appropriations requests. It's something 
that we continue to work with the LOC on. Right now, they're 
engaged in an extensive restructuring of their security 
systems. And they have been working with us on migrating to one 
box, but we've made some modifications to that plan, because of 
the changes that they're making to their security system. So, 
we continue to work with them to get that firewall up. Once 
that's in place, we can move forward for our cost savings. And 
the numbers, I can provide for you for the record.
    Senator Hoeven. Do they, in essence, act as a service 
bureau, where you just pay them a fee out of your budget for 
the use of their time on their servers and their computers? Is 
that how it works?
    Ms. Chrisler. We have an interagency agreement with the LOC 
that involves a lot of different things, and one of them is for 
the IT work.
    Senator Hoeven. And are they actually building that 
security system, or firewall, so that you then can migrate to 
the one computer, and it's just a matter of them getting that 
done?
    Ms. Chrisler. I don't think they're building it. We've got 
IT staff within our agency that have taken this initiative, and 
we're working collaboratively with the LOC from our end. And 
so, I don't think they're needed to build it, but they--we need 
their help to implement it, of course.
    Senator Hoeven. And they're working on that now.
    Ms. Chrisler. Well, they are--they've indicated that they 
will continue to work with us once they've met some other 
priorities that they have.
    Senator Hoeven. Okay. If you could have them give us that 
cost, that anticipated time to build it, and then what the 
resulting savings might be, that would be helpful.
    [The information follows:]

    The Congressional Accountability Act of 1995 requires the Office of 
Compliance (OOC) to maintain confidentiality of certain information 
that is brought to our agency. As a result, we currently maintain a 
dual network system: one internal/closed system (which consists of 
servers, desktops, custom applications, and an email system) to allow 
for the maintenance of confidential information, and one external/open 
system, provided by the Library of Congress (LOC) to allow for access 
to the Internet. The OOC maintains agency data within the closed 
network.
    This configuration allows the agency to maintain confidential 
information; however, there are many drawbacks in the current 
separation of the networks. There are significant costs associated with 
maintaining the internal network infrastructure; the cost of updating 
two computers (one for the external and one for the internal) is an 
additional expense incurred by the agency; and the loss of productivity 
for each OOC employee to use two computers daily is an inefficient way 
to conduct business.
    The OOC has designed a plan to install a firewall on the backbone 
of the LOC network. This design will allow the OOC to eliminate the 
internal network and move all OOC servers, custom applications and data 
to the open LOC network, where our Internet-accessible desktops 
currently sit. The firewall will provide the necessary security 
measures required to maintain the confidentiality of OOC data. The 
OOC's information technology staff will no longer need to maintain an 
internal email system or internal desktops, and the human resources 
costs associated with operating in a dual network environment will be 
eliminated.
    The OOC expects to realize the following from the elimination of 
the internal network:
  --One computer for each employee, rather than two;
  --Offset a forthcoming $50,000 cyclical computer desktop replacement 
        cycle in fiscal year 2012; and
  --A significant decrease in annual productivity costs.
    Currently, the OOC loses 3 percent of productivity per staffer, 
daily, as a result of our current configuration. Given an agency of our 
size, with our limited resources and the multiple job duties performed 
by each staffer, a 3 percent daily loss is comparable to a 30 percent 
loss in a larger agency.

    Ms. Chrisler. Thank you. And I want to thank you for your 
question about changes to the act. That is something that we 
will think about. We'll talk to Rachelle and Lila about and----
    Senator Hoeven. Well, sometimes you have to go through a 
series of steps which may make sense or, based on the statute, 
now that you've been doing this you may want to say, ``You 
know, if we didn't have to do a couple of these things, we 
could still get a good outcome.''
    Ms. Chrisler. Sure.
    Senator Hoeven. So. If there is something like that.
    Ms. Chrisler. Thank you.
    Senator Hoeven. You bet.
    Senator Nelson. In that regard, Ms. Chrisler, probably the 
act requires you to take certain actions for inspections. It 
doesn't specify how many or how often or that you have to do 
it, which is what--I believe--you are trying to do as 
judiciously as you can and with as much effort toward 
protecting life, fire, and safety issues. So, maybe it wouldn't 
be required to change the language authorizing you to do it, 
and empowering you to do it, unless it's too specific and you 
can't meet the requirements because of the reduction in staff.
    Ms. Chrisler. That is--that the language within this--the 
OSHA inspection section is something that we will definitely 
take a look at and sit down and examine thoroughly to address 
the amount of inspections. I do believe it does say ``every 
Congress.'' So, there--it gives us that requirement that we do 
have to do this every Congress. And it may say ``each 
facility.'' So, it may be specific. But, we'll take a look at 
it and follow up, as necessary.
    Senator Nelson. And if it needs to be modified, it wouldn't 
necessarily prohibit self-inspections with oversight. Is that 
possible?
    Ms. Chrisler. I'm sorry?
    Senator Nelson. Well, if we did change the language in some 
way, you could still have directions for inspections without 
prohibiting self-inspection. In other words, authorizing some 
self-inspections with your oversight, with your requirements, 
and then seeing if they comply.
    Ms. Chrisler. And I think that we would want to maintain 
that relationship.
    Senator Nelson. Absolutely.
    Ms. Chrisler. Yes.
    Senator Nelson. I understand that. Yes.

       <greek-l>AOC deg.INTEGRATING FINANCIAL MANAGEMENT SYSTEMS

    Now, we've been thinking, for some time, how we can realize 
some cost savings and efficiencies by converting the all the 
legislative branch agencies' financial management systems to a 
single entity. And we're back to the LOC. The General 
Accounting Office has found this idea to be a logical approach. 
And, as a first step, the USCP recently went through a very 
successful conversion of their financial management. We're not 
talking about IT, here, as much as it is financial management 
system to the LOC's. Mr. Ayers, have you looked at perhaps 
doing that, from the standpoint of your office?
    Mr. Ayers. We have begun to, Mr. Chairman--we have begun to 
consider that. Our proposal was to let the USCP do it first----
    Senator Nelson. Yes, sure.
    Mr. Ayers [continuing]. Quite frankly, and shake out the 
bugs for us. And I think they've done that. It was successful. 
And there were very few and very minor issues with that 
conversion. I think that has paved the way for the rest of us 
in the legislative branch to do the same thing.

                     <greek-l>AOC deg.GAP ANALYSIS

    Senator Nelson. Well, I have to ask you, Ms. Chrisler, has 
Dr. Billington already done that in your case? Are you looking 
at it yet?
    Ms. Chrisler. This is something that our agency has been a 
part of for some time now.
    Senator Nelson. Yes.
    Ms. Chrisler. Yes.
    Senator Nelson. And he continues to collect his money, I 
suspect.
    Mr. Ayers, have you done what might be called the ``gap 
analysis'' that might be important to close in that connection, 
now that perhaps the first entity, the USCP have been able to 
go through it? Because there will be a gap to close.
    We have not done a gap analysis. We do think that one 
should be done before we move our appropriations over and our 
financial management systems over. We obviously did convert, a 
year ago, as you may know or may recall, Mr. Chairman, that we 
were using a company, that was hosting our financial management 
system. We competed that and moved it to a different company, 
and saved $1 million a year in doing just that.
    So, we're familiar with those conversions. We do think a 
gap analysis is necessary. But, we've not done one yet.
    Senator Nelson. You did mention that you're working on the 
CPP. I notice you're requesting $16.4 million for the east 
plant chiller relocation project. Is that as a result of the 
question of compliance, the citation that was issued some time 
ago?
    Mr. Ayers. No, Mr. Chairman, that's not a result of a 
safety problem or anything from the OOC or citation or anything 
like that.

             <greek-l>AOC deg.ENERGY REDUCTION REQUIREMENTS

    There are two areas in the CPP where we make chilled water. 
One of them is in the west plant, and there's money in our 2012 
request to upgrade some of those chillers. And, similarly, 
there are two relatively new pieces of equipment--I think they 
date from 2003--that are in the east plant that are not 
connected to the west plant. We need to move them into the west 
plant to utilize those pieces of equipment. So, that's what 
those two projects are.
    Senator Nelson. I see. Will we realize any savings from the 
House's decision to discontinue the Greening the Capitol 
Initiative? In other words, I know that initially, there are 
costs associated with conversion, but not converting, will we 
save some money up front that would perhaps cost us on the back 
end later?
    Mr. Ayers. Would you repeat the question?
    Senator Nelson. Well, what I'm saying is, the House has 
decided, as I understand it, to discontinue the project called 
``Greening the Capitol.'' In other words, making it much more 
energy efficient, with some changes to requirements that would 
do it. For example, if you look at your fiscal year 2012 
budget, do you have anything in that budget for the greening 
project that if they prevailed, would not be spent for that 
project up front, recognizing that investing up front for the 
greening project could end up being cost effective at a later 
date? But, there could be some cost savings up front of not 
having the money spent.
    Mr. Ayers. Yes, I understand. I think if that program is 
discontinued, I think the immediate savings would be the staff 
that are focused on that, that are funded by the Chief 
Administrative Officer of the House. I think, subsequent to 
that, in the AOC's appropriation, we have a number of energy-
savings projects that we think are required for us to meet the 
energy savings and----
    Senator Nelson. But, they wouldn't necessarily be a part of 
that initiative.
    Mr. Ayers. They would not. Not necessarily, no.
    You know, all of the--or, most of the energy saving 
initiatives and ideas that come out of that office, we are the 
implementer of those. And ultimately, they help us meet our 
statutory energy reduction goals.
    Senator Nelson. But it also raises the questions about, 
Where do you cut and what do you cut?
    Thank you.
    Senator Hoeven. Thanks, Mr. Chairman, just a couple other 
questions.
    Mr. Ayers, how would you, in terms of both this concept of 
a level budget and then even a 10 percent reduction budget, so 
I know what those scenarios look like, and that we're prepared. 
And I also think that that will lead you to come back to me and 
really point out the tough spots. And we'll do what we can.

         <greek-l>AOC deg.DEFERRED MAINTENANCE VS. NEW PROJECTS

    But, under that scenario, just address, for a minute, how 
much you bring in on the deferred, versus how much on the new. 
That's one question. Because there may be some correlation 
there. In other words, if you don't do new--some of the new 
stuff, you may have to do more of the deferred, and so forth. 
And again, that may be something you have to kind of analyze. 
That would be one question.
    The other is, in these projects, both the new and the 
deferred, does that affect your personnel cost? In other words, 
are all the costs of doing those projects--is the personnel 
cost, the operating variable cost, built in there? Or, if 
you're not doing some of those new projects, then does that 
make a difference in terms of what your other operating and 
personnel costs are?
    So, those two questions.
    Mr. Ayers. Yes, sir. I think there may be a little 
confusion over the two lists that we provided in our budget 
that you may have before you. One of those lists, and the first 
one, is called our ``Recommended Project List''. And I think 
that totals $179 million.
    Senator Hoeven. $179,168,000.
    Mr. Ayers. Correct.
    Senator Hoeven. Not including the $50 million that's in 
what you call this ``House Historic Buildings Revitalization 
Trust Fund'', which I'm going to ask you about, too. So.
    Mr. Ayers. Yes.
    Senator Hoeven. That's the list I'm looking at.
    Mr. Ayers. So, that list is the list of projects that we 
recommend be funded.
    The second list that we include in our budget, simply for 
information purposes only, is the second page there. That's a 
list of projects that I've considered. My staff has brought 
them to me. They're ready to execute. And we have made the 
decision to defer those and not seek the money for those.
    Senator Hoeven. Oh, so that's not deferred maintenance.
    Mr. Ayers. No, no.
    Senator Hoeven. That's actually deferred projects. So, this 
$128,982,000 is--that's what's coming someday, not----
    Mr. Ayers. Yes.
    Senator Hoeven [continuing]. Deferred maintenance that 
needs to be addressed.
    Mr. Ayers. Some are deferred maintenance, many of them. 
They need to be addressed. But I've made the decision not to 
request them this year.

           <greek-l>AOC deg.OPERATIONS BUDGET PERSONNEL COSTS

    Senator Hoeven. So, your priority list is your priority 
list. Got that. Then what about the variable costs?
    Mr. Ayers. The way we approach these capital improvements, 
most of those have personnel costs built into them. And 
typically, if we do a major construction effort, we obviously 
will have to ramp up staff at the beginning and throughout it; 
and at the end, that staff then departs. And we do that, 
typically, through consulting services, construction management 
companies, and companies that provide program and construction 
management. Those kinds of costs are built into the numbers you 
see before you. However, our staff typically remains the same 
size. We hire consultants to help us through the ups and downs 
of various capital improvements.
    Senator Hoeven. So, it won't affect your other personnel 
and operating costs.
    Mr. Ayers. Not generally.
    Senator Hoeven. How far we go down that list, which we'll 
see, won't affect your other operating line.
    Mr. Ayers. Well, I think we could fund all of those 
projects in our project operations budget, and staff would not 
go up, because we would hire consultants to temporarily help us 
with those. When the projects are over, the consultants go 
away.
    Senator Hoeven. Then the----
    Mr. Ayers. So, our operations side stays the same.
    Senator Hoeven. Okay. Then the other thing, as it relates 
to the operating, is, you know, with our analysts, we'll want 
to make sure that you go through and really look at the 
operating, vis a vis how far we go down that capital project 
line. I mean, it's going to be important to hit the right 
balance there, particularly in your case. Obviously, in Ms. 
Chrisler's case, it's tougher, because it's pretty much all 
people and operating. But, we need a good balance, so we're 
taking a good look at the personnel and the operating line.

  <greek-l>AOC deg.HOUSE HISTORIC BUILDINGS REVITALIZATION TRUST FUND

    The second thing is, if you would, just tell me how this 
$50 million works, on what you refer to as the ``House Historic 
Buildings Revitalization Trust Fund''.
    Mr. Ayers. Yes, sir. On the first one, you're absolutely 
right, finding that right balance between the capital budget 
improvements--the operating budget. And our look at that is 
that, as we tighten the capital projects, the value and the 
necessity for the operating budget increases, because we're not 
doing the projects, we're not revitalizing, and we're not 
replacing equipment; therefore, our staff that keeps this 
equipment running day-to-day becomes more and more important to 
that. So, finding that balance, you're absolutely right, is 
important, and not cutting one or the other one too deeply.
    On the House Historic Building Revitalization Trust Fund, 
we think that that's a really important approach to the long-
term viability of the Capitol campus. There are--as you see--
have seen in our budget, there are some major building 
revitalizations that are before us--5 years out, 10 years out, 
15 and 20 years out. And those building revitalizations could 
cost a half a billion or a $1 billion, depending upon what 
building they are. And to be able to accommodate a project of 
that magnitude and make a request of $750 million in one fiscal 
year, and to have the legislative branch be able to appropriate 
that in one year, for us to execute the building 
revitalization, we don't think is a sustainable approach, and 
we don't think it's reality, quite frankly.
    So, we think a better approach is to invest in our future, 
and invest in our infrastructure incrementally, and to build up 
a corpus of funds so that when a historic building needs to be 
revitalized, we have money there to do it.
    And I think, second, with that--and most importantly to 
me--is that if we don't do that, that money will then compete 
for the projects, the deferred maintenance projects that are on 
this list. And those deferred maintenance projects won't get 
done. And that's when I think we really get in trouble with our 
building systems and our infrastructure.
    Senator Hoeven. Well, and you, being an architect, would 
have a good understanding of how best to do that. That's a 
better approach than a phased approach, where, if it were $50 
million, one option would be to put $50 million in that fund to 
build to a certain number that you can do the whole project. 
Another approach would be to say, ``Okay, we're going to do 
phase one of five phases, or whatever. And we're going to do 
$50 million worth of work.'' So, that's a better approach than 
a phased approach, is what you're saying?
    Mr. Ayers. Well, I think both of those are viable 
approaches, quite frankly.
    Senator Hoeven. Okay. Is it project dependent? Is that kind 
of how that works?
    Mr. Ayers. It typically is project dependent. It depends. 
There are efficiencies and inefficiencies in both of those 
approaches. Phasing, obviously, is a little more inefficient. 
And when we have to move people out of a building, it become 
extremely complicated.

                   <greek-l>AOC deg.BUDGET CHALLENGES

    Senator Hoeven. Sure.
    Is there anything that either of you would want to bring up 
that I haven't asked you about? I mean, is there something 
that, as you look at these budgets, or as we've talked about 
these things today, that you think it's important to bring up 
that we haven't talked about?
    Mr. Ayers. Not me.
    Ms. Chrisler. I think that we've talked about the 
significant issues. I would love to be able to maintain the 
line of communication and continue to meet with Rachelle and 
Lila so that we can work through these issues as we explore the 
different levels that you've mentioned and, you know, deal with 
the challenges that we face.
    Senator Hoeven. Thank you. And I think that's absolutely 
the right approach. And I appreciate that.
    Thanks.
    Senator Nelson. Yes, I would agree 100 percent with that. 
We're facing a situation where a number of our colleagues are 
out there with a number or a percentage for cuts, in search of 
a plan. Our approach is to find the plan and work our way into 
it, so that we don't get into a situation where, in order to 
meet the objective, somebody thinks we should close the CVC 2 
days a week, or something like that.
    What we want to do is preserve the security on Capitol 
Hill. We want to preserve the integrity of the structures on 
Capitol Hill. We want to preserve the function of Government on 
Capitol Hill. We're just faced with doing it in tight times. 
And so, working together, I think, will help us develop the 
smoothest possible approach to meeting all those objectives, 
and doing the best we can with the taxpayers' money in the 
process.
    So, thank you. I've asked everything I plan to ask today, 
except I'll ask the same thing of my colleague--``What question 
haven't I asked that I should ask?'' You know, I guess that's 
sort of the way to hear it. If you think of something, please, 
during our continuing discussions, share it.
    Mr. Ayers. Thank you.
    Senator Nelson. Thanks, to both of you.
    Ms. Chrisler. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response subsequent to the 
hearing:]
                 Questions Submitted to Tamara Chrisler
               Questions Submitted by Senator John Hoeven

                              BUDGET CUTS

    Question. How would a reduction in appropriated funds affect your 
operations, services, and programs?
    Answer. We believe that any reduction in our funding below current 
levels would be a false economy because such action would only serve to 
shift costs to or increase costs for other legislative branch agencies 
as well as the judicial branch.
    Based on our analysis, we have determined that any reduction in 
funding for our occupational safety and health program would seriously 
jeopardize the risk-based inspection process we have inaugurated at the 
urging of this subcommittee. The importance of our biennial inspections 
in identifying and reducing hazards cannot be overemphasized: during 
the 109th Congress, we identified more than 13,000 serious hazards; in 
the latest biennial inspection in the 111th Congress, we found 5,400 
hazards--a significant reduction in hazards and a corresponding 
increase in safety. The safety and health inspections are currently 
being performed with a skeletal staff consisting of one full-time 
employee and one full-time contractor. With higher-risk areas being 
dispersed over an area that is greater than 17 million square feet, the 
inspection staff is spread as thin as it can be. The risk-based 
inspection program requires that the work of these inspectors be 
supplemented by staff that can thoroughly analyze the procedures being 
followed in higher-risk areas such as the machine shops, mechanical 
spaces, and utility areas so that hazards can be identified. This staff 
must then work with the employing offices to adjust processes and 
procedures so that potential hazards are minimized or abated. To 
perform this process in a collaborative manner requires more time and 
resources than simply performing walk-through inspections and issuing 
citations wherever violations are found. While we are confident that 
implementing this risk-based inspection process is worth the time and 
resources the Congress has invested in the program because it will 
result in a significant reduction in injuries illnesses, and the 
related costs incurred by legislative branch agencies when these 
injuries and illnesses occur, we are also very cognizant that we have 
stretched our resources as far as we can to provide this enhanced 
service. As it stands now, we are uncertain whether we will be able to 
complete this targeted schedule with our current level of funding. Any 
further reduction in funding would probably force us to abandon the 
risk-based approach and return to an enforcement method involving walk-
through inspections and citations. This would mean that the anticipated 
savings in injury costs associated with the risk-based program would be 
lost.
    Moreover, as we look to the immediate future, the Office of 
Compliance (OOC) sees an increased need for thorough inspections of 
higher-risk areas as maintenance and capital improvement projects are 
being deferred in order to save costs. Deferral of capital projects not 
only increases maintenance costs, but increases the need for frequent 
safety inspections. If facilities use mechanical and electrical systems 
well beyond their useful life expectancy, the risk that these systems 
will fail and cause fire or injury increases dramatically. It may make 
sense to defer expensive capital improvement projects during this time 
of budget constraints; however, it must be recognized that this type of 
deferral will also increase the need for maintenance and inspection 
(and the costs associated with them). When these systems reside in 
buildings with known egress and fire-hazard deficiencies, the failure 
to be vigilant about safety inspections can be catastrophic. Interim 
measures such as increasing fire prevention through the use of 
inspections are a cost-effective way to allow continued use of outdated 
facilities and systems while maintaining an acceptable level of safety.
    Similarly, any reduction in the OOC's funding would reduce our 
Americans With Disabilities Act (ADA) inspections and would be more 
than offset by the increased costs that the Architect of the Capitol 
(AOC) would incur. As it stands, ADA inspections can only be performed 
occasionally when we are able to squeeze time out of the schedules of 
employees and contractors who are assigned to other duties. There is no 
specific funding for this program so there is nothing there to cut. In 
addition, this program is being administered in a way that should 
result in significant savings. The ADA requires that new construction 
and alterations be designed and constructed in strict compliance with 
the ADA Standards for Accessible Design. In the past, the AOC has 
incurred additional costs when it was discovered that alterations and 
new construction did not comply with the ADA standards. The OOC is now 
finding ways to work with the AOC at the design and preconstruction 
stages to ensure that new construction and alterations comply with the 
ADA, thereby saving the costs associated with re-constructing completed 
projects so that they comply with the standards. Our inspection of the 
Capitol Visitor Center, prior to the completion of construction, is a 
perfect example of how ADA inspections result in cost savings.
    In addition, reducing funding to our employment dispute resolution 
program would result in diminished services and not in any net savings. 
The success of the confidential counseling and mediation program is 
largely due to the OOC's ability to offer these services in an 
expedited manner. The Congressional Accountability Act (CAA) requires 
that counseling be completed within 30 days of the request for 
counseling and that mediation, which lasts 30 days, be commenced within 
15 days of the end of counseling. See CAA Sec. Sec. 402 and 403. Based 
upon our experience with this program, we have found that employment 
disputes can often be resolved efficiently and less expensively when 
access to confidential mediation services can be provided before the 
parties incur substantial costs, become entrenched in their stances, 
and begin ``trying'' their cases in the press. We, therefore, believe 
that any cuts to this program will reduce the level of mediation 
services and drive up the cost of unnecessary litigation.
    The OOC also anticipates that the number of requests for counseling 
relating to employment disputes will increase as funding for 
legislative branch offices is reduced. These budget cuts will result in 
more layoffs and terminations, which in turn will likely result in more 
employees filing requests with the OOC challenging those layoff and 
termination decisions. Furthermore, because the cuts are occurring 
throughout all levels of Government, more terminated and laid-off 
employees will be unable to obtain another Government position after 
termination or layoff. This too is likely to fuel an increase in the 
number of employees filing with the OOC. As unemployment rates 
increased in the private sector during the last few years, the Equal 
Employment Opportunity Commission (EEOC) saw a dramatic increase in the 
number of discrimination complaints filed with its offices. In fiscal 
year 2010, the EEOC received almost 100,000 complaints (99,992). In the 
10 years between fiscal year 1997 and 2007, the EEOC consistently 
averaged approximately 80,000 complaints per year (fluctuating between 
75,428 and 84,442). In the last 3 years, the EEOC is averaging closer 
to 95,000 complaints per year (95,402 in fiscal year 2008, 93,277 in 
fiscal year 2009, and 99,992 in fiscal year 2010). The OOC anticipates 
that it, too, will experience a large increase in the number of filings 
as budget cuts cause staff reductions. Again, we do not believe that it 
makes sense to reduce funding for these services at a time of overall 
budget cuts because this is a time when both the need for these 
services will be increasing and the probable litigation costs incurred 
by not providing these services will undoubtedly surpass any apparent 
savings associated with cutting the services.

                           CHANGES TO THE CAA

    Question. Please describe any statutory changes that could help 
make your programs or processes more ``streamlined'' or efficient or 
that would otherwise save money?
    Answer. Pursuant to section 102b of the CAA, each Congress, the 
board of directors prepares a report analyzing current laws and 
determining whether those laws should be made applicable to the 
legislative branch. This most recent 102b report ``Recommendations for 
Improvements to the Congressional Accountability Act'' not only 
provides key recommendations, but also focuses on how these 
recommendations can produce cost savings across the legislative branch.

     SAFETY AND HEALTH AMENDMENTS THAT WILL RESULT IN COST SAVINGS

    Subpoena Authority in Safety and Health Investigations.--Unlike the 
Department of Labor (DOL) and other State and Federal entities, 
subpoena authority in aid of investigations was not given to the OOC 
under the CAA. This exemption limits the OOC's ability to investigate 
promptly and effectively safety and health hazards within congressional 
workplaces. Currently, the OOC is dependent on information that is 
voluntarily provided by employing offices and employees when it 
conducts safety and health investigations. In some instances, the 
absence of investigatory subpoena authority has significantly 
contributed to protracted delays in investigations, which results in 
additional personnel costs for OOC staff conducting the investigation 
and congressional staff responding to the investigatory requests. 
Inordinate delay or provision of only partial information results in 
faulty witness recollection, the lack and loss of evidence, untimely 
completion of inspections, and unnecessarily prolonged employee 
exposure time to hazardous conditions.
    Safety and Health Recordkeeping.--The recordkeeping requirements 
included in section 8c of the Occupational Safety and Health Act of 
1970 recognize the need for full and accurate information to administer 
effectively a safety and health program. With records, the OOC could 
better pinpoint worksites with high numbers of injuries and illness and 
identify and analyze their causes and use targeted safety programs to 
reduce and prevent such hazards.
    At the urging of this subcommittee, the OOC is no longer conducting 
the type of ``wall-to-wall'' inspections that were performed during the 
prior three Congresses. Beginning with the 112th Congress, the OOC has 
implemented a risk-based inspection process that allows us to focus our 
inspections on higher-risk areas. We implemented this risk-based 
process by hiring an Occupational Safety and Health Program Manager who 
has experience working in the insurance industry performing risk-based 
assessments of safety hazards. She has worked with the employing 
offices to develop a risk-based inspection process that focuses on 
higher-risk areas and allows lower-risk areas to be self-inspected by 
the employing offices based upon criteria established by the OOC, with 
oversight and spot-checking also provided by the OOC. We believe that 
this approach to inspections is consistent with the existing statutory 
language which grants sufficient discretion to the OOC's general 
counsel regarding the procedure and methods used to conduct the 
biennial inspections mandated by CAA Sec. Sec. 215(e).
    While the OOC has implemented this process by compiling a tentative 
and somewhat speculative list of higher-risk areas, the OOC has been 
hampered in its ability to identify higher-risk areas because there is 
no requirement in the CAA that legislative branch agencies maintain 
injury and illness logs or records. Nor does the CAA require that these 
logs or records be provided to the OOC when they are being maintained 
by agencies.
    Without these logs and records, the OOC general counsel cannot 
access the information needed to develop fully and efficiently a 
targeted risk-based inspection program aimed at the causes and 
prevention of occupational injuries and illnesses, as was envisioned by 
this subcommittee. As the DOL recognized, ``analysis of the data is a 
widely recognized method for discovering workplace safety and health 
problems and tracking progress in solving these problems.'' See, 
``Frequently Asked Questions for OSHA's Injury and Illness 
Recordkeeping Rule for Federal Agencies'', www.osha.gov/dep/fap/
recordkeepingfaqs.html.
    In February 2004, the then General Accounting Office (GAO) issued 
its report, Office of Compliance, Status of Management Control Efforts 
to Improve Effectiveness, GAO-04-400. In its report, the GAO made a 
number of recommendations to improve the OOC's effectiveness, one of 
which was to increase ``its capacity to use occupational safety and 
health data to facilitate risk-based decisionmaking'' to ensure that 
the OOC's activities contribute to ``a safer and healthier workplace.'' 
(pp. 4, 14). The inability to acquire relevant and targeted employing 
office accident and injury data (OSHA section 8(c)(2)) hinders the 
general counsel's effort to tailor the biennial inspections, focusing 
its limited resources on work areas that have the highest incidence of 
illness or injury.

      WORKPLACE RIGHTS AMENDMENTS THAT WILL RESULT IN COST SAVINGS

    Notice Posting of Rights.--Almost all Federal anti-discrimination, 
anti-harassment, safety and health, and other workplace rights laws 
require that employers prominently post notices of those rights and 
information pertinent to asserting claims for alleged violations of 
those rights. By providing such notices, employees have a clearer 
understanding of their rights. Such notices also serve as a reminder to 
supervisors and co-workers that certain behaviors, such as sexual 
harassment, are not tolerated in the congressional workplace and that 
there are legal consequences for such behaviors. By deterring such 
behavior, it is anticipated that workplace conflict would diminish and 
the Congress would spend less money and time defending against 
discrimination claims.
    Mandatory Anti-discrimination/harassment Training.--The private 
sector and Federal executive branch have long recognized the benefits 
of mandatory anti-discrimination training for all employees. Much like 
with ethics laws, managers who do not understand their obligations 
under workplace rights laws are bound to run afoul of them. By helping 
managers to better understand workplace rights laws, compliance with 
those laws improve. Furthermore, managers will know how to quickly 
address such workplace strife rather than allowing it to fester and 
grow, resulting in greater legal consequence. It also informs employees 
about their workplace rights and how workplace conflicts can be 
resolved. The short amount of time spent on anti-discrimination 
training ``at the front end'' can prevent much greater time spent on 
litigation. The OOC is looking into the possibility of implementing 
this training through computer-based programs, a method that appears to 
be on the increase in the private sector. This could prove to be cost-
efficient as well as effective.
    Consolidation of Dispute Resolution Programs for All Legislative 
Branch Agencies.--Another area of potential statutory change involves 
expanding the coverage of OOC procedures to include those legislative 
branch agencies currently excluded from some of the provisions of the 
CAA, i.e., the Library of Congress (LOC), the Government Accountability 
Office (GAO), and the Government Printing Office (GPO). Such a change 
would be consistent with ongoing efforts to consolidate specific 
services in particular legislative branch offices, such as 
consolidating all police and security services with the U.S. Capitol 
Police (USCP) (eliminating a separate LOC police force), moving all 
accessibility services to a separate Congressional Office of 
Accessibility Services (eliminating separate House and Senate offices), 
and implementing a uniform financial management system across all 
legislative branch agencies. Pursuant to a mandate from the House 
Committee on Appropriations Subcommittee on the Legislative Branch in 
fiscal year 2005, this issue has been under study since fiscal year 
2006 by the foregoing agencies. The OOC could accelerate this process 
to identify potential cost savings that would result from such a 
legislative change.
    Although the GPO is part of the legislative branch, it is not 
subject to any of the provisions of the CAA. Most GPO employees are 
included in the Federal competitive service and employment laws that 
apply generally in the executive branch apply at GPO. While covered 
under their own statutory schemes, the GAO and LOC are not subject to 
the provisions of the CAA providing protections in the areas of 
employment discrimination, Fair Labor Standards, labor-management 
relations, genetic information use and disclosure, veterans' 
preference, and disability access to public services and 
accommodations. The GAO and LOC, however, are subject to the provisions 
in the CAA relating to occupational safety and health, and presumably 
to those provisions covering polygraph use and procedures, worker 
adjustment and retraining, uniformed services employment and re-
employment, and family and medical leave.
    In the areas where there is no coverage under the CAA, GAO, LOC, 
and GPO utilize their own internal procedures and staff to provide the 
processes and procedures they are otherwise required to provide by law. 
In some cases, these agencies also use related agency employment 
dispute resolution panels or executive branch agencies. Thus, in 
addition to its own internal processes, the GAO is subject to the 
dispute resolution procedures of its own Personnel Appeals Board. Labor 
relations matters of the LOC are regulated by the Federal Labor 
Relations Authority and the GPO is covered by employment dispute 
agencies of the executive branch (the Merit Systems Protection Board, 
the EEOC, the Office of the Special Counsel, and the Federal Labor 
Relations Authority). Many of the processes used by the LOC, GAO, and 
GPO are duplicative of the services provided to the legislative branch 
by the OOC under the CAA.
    The mandatory counseling and mediation provisions of the CAA 
provide a cost-effective means to resolve employment disputes. Indeed, 
these procedures are already in use by such agencies of the legislative 
branch such as the AOC, the Congressional Budget Office, and the USCP. 
Employing offices within the House of Representatives and the Senate 
also utilize the case processing procedures of the OOC. The CAA's 
hearing process is a cost-effective alternative to litigation for all 
parties. Consolidating all counseling, mediation, and hearing services 
for all legislative branch agencies with the OOC would eliminate the 
needless duplication of resources that is currently occurring in the 
LOC, GAO, and GPO.
    Recordkeeping.--Another recordkeeping recommendation involves 
workplace rights other than those listed above with respect to safety 
and health. Most Federal workplace rights statutes that apply to 
private and public sector employers require the employer to retain 
personnel records in a certain manner and for a certain period of time. 
Although some employing offices in the Congress keep personnel records, 
there are no legal requirements to do so under the CAA. Mandating these 
requirements would assist in speedier resolution of claims because 
documentary evidence would be available to assist in adjudicating the 
merits of an employee's claims: employers would be able to use records 
to assist in demonstrating that personnel actions were carried out in a 
nondiscriminatory manner; employees would be able to show that the 
employer acted improperly; mediators may use such records to assist the 
parties in arriving at a resolution; and hearing officers may use such 
records to determine the merits of a case and whether certain cases 
should proceed to a hearing or be dismissed without a hearing. In the 
absence of such records, both parties must present their evidence with 
lengthy depositions and witness testimonies, all resulting in increased 
expenditure of taxpayer dollars.
    Whistleblower Protections.--The Congress has long recognized 
whistleblowers as saving taxpayer dollars by exposing waste, fraud, and 
abuse. The anti-retaliation provisions of the CAA only provide 
protection to employees who exercise their rights under current 
provisions of the CAA, and provisions for disclosures of alleged 
violations of law, abuses, or mismanagement are not included in the 
CAA. If the CAA were amended to include whistleblower protections, the 
OOC would not investigate or prosecute claims of waste, fraud, or abuse 
(the proper authorities would); rather employees who face retaliation 
for reporting waste, fraud, or abuse to the proper authorities would 
bring retaliation claims through the confidential alternative dispute 
resolution process as they would any other workplace rights claim. As 
in the private sector and Federal executive branch, congressional 
staffers would have whistleblower protections and the Congress would 
witness the taxpayer savings that whistleblower protections bring.

                          SUBCOMMITTEE RECESS

    Senator Nelson. The hearing is recessed.
    [Whereupon, at 3:42 p.m., Thursday, March 3, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                        THURSDAY, MARCH 17, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:28 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senator Nelson.

                    GOVERNMENT ACCOUNTABILITY OFFICE

STATEMENT OF GENE L. DODARO, COMPTROLLER GENERAL

                OPENING STATEMENT OF SENATOR BEN NELSON

    Senator Nelson. This meeting will come to order. Senator 
Hoeven is not going to be able to join us today. So we will 
proceed as we would ordinarily.
    We meet this afternoon to take testimony on the fiscal year 
2012 budget request from the Government Accountability Office 
(GAO), the Government Printing Office (GPO), and the 
Congressional Budget Office (CBO).
    And I am happy to welcome today our witnesses--Gene Dodaro, 
Comptroller General; William Boarman, Public Printer; and Doug 
Elmendorf, Director of the CBO.
    I want to reiterate a few of my concerns going into fiscal 
year 2012. Here, in Washington, it is clear that we need to get 
serious about controlling and cutting costs. And I can't fix 
the entire problem of overspending in the Congress, but I hope 
we can set an example here in the legislative branch.
    I started this process last year, as everyone here and the 
witnesses can attest to, when Senator Murkowski and I worked 
together to make reductions to this bill. And this year, it is 
the goal of Senator Hoeven and I, to work together to make even 
further cuts to next year's budget.
    Cutting spending for the Congress is an effort to lead by 
example. In many ways, our message, to paraphrase Harry Truman, 
is, ``The buck shrinks here.''
    I appreciate the contributions made by each of our agencies 
in assisting the Congress in its service to the country. We are 
truly grateful for the work you do, and we look forward to 
hearing from you and discussing your budget requests.
    Mr. Dodaro, last year when you appeared before this 
subcommittee, I introduced you as Acting Comptroller General of 
the GAO. So I want to congratulate you on your confirmation as 
the eighth Comptroller General of the United States and also to 
recognize you for being the first career GAO employee to 
achieve this impressive milestone. That is really quite an 
accomplishment, and obviously, we wish for you to continue your 
good work and have our good wishes.
    This year, the GAO is requesting a total of $556.8 million, 
the same as the fiscal year 2010 enacted level, and a total of 
3,220 full-time equivalents (FTEs). I appreciate the work that 
you and your staff have put into keeping the GAO's budget 
request flat this year, and I look forward to hearing the 
specifics of the request, specifically where we might, if 
necessary, as we think it would be, to make some additional 
cuts.
    As you know, unfortunately, no good deed goes unpunished. 
And so, we will try to avoid having that happen. But thank you.
    This is your first time appearing before this subcommittee 
since your December 29 appointment to the post of Public 
Printer, Mr. Boarman. Congratulations on your appointment, and 
welcome.
    And I understand that the GPO recently celebrated 150 years 
of service to the Federal Government, and I would like to 
congratulate you and your entire staff on that accomplishment, 
as well. The GPO is requesting a total of $148.5 million, which 
is $1 million, or 0.7 percent, more than the fiscal year 2010 
enacted level.
    Dr. Elmendorf, it is always good to see you and good to see 
you again here today. The CBO is requesting $46.8 million in 
fiscal year 2012, an increase of roughly $1.7 million, or 3.8 
percent, more than the current year. As you and as I have 
discussed, there are some explanations that would be very 
helpful in relating previous years to the current year request, 
and I look forward to discussing the particulars of your budget 
in just a few minutes.
    Now let us begin, I would like to call on Mr. Dodaro for 
your opening statement, followed by Mr. Boarman, and then Dr. 
Elmendorf. And I hope, if you could, keep your opening 
statements as brief as possible, perhaps as little as 5 
minutes. But we wouldn't want to shut down your opportunity for 
opening comments.

                  SUMMARY STATEMENT OF GENE L. DODARO

    Mr. Dodaro. Thank you very much, Mr. Chairman.
    I appreciate the opportunity to be here today to discuss 
the GAO's budget request for fiscal year 2012. I want to make 
sure we answer all your questions, so I will be very brief. I 
would like to make just four points.
    The first has to do with the breadth and scope of the GAO's 
support to the Congress. Second, is the return on investment 
that the Congress and the taxpayers receive as a result of 
their investment in the GAO. Third, is the importance we place 
on having a dedicated, skilled, and motivated workforce. And 
fourth, briefly, the rationale for our budget submission.
    First, in terms of the breadth of our support to the 
institution of the Congress, the GAO supports every standing 
committee of the Congress, and 70 percent of the subcommittees 
have requested our assistance. We issue hundreds of reports and 
testimonies every year across the full breadth of the Federal 
Government's responsibilities--from healthcare to defense. Just 
last week, for example, we testified at 13 hearings on 
everything from flood insurance to cybersecurity.
    The return on investment last year, as a result of the 
Congress and agencies implementing our recommendations, was 
$49.9 billion in financial benefits. That is an $87 return for 
every $1 invested in the GAO.
    Beyond this record, more than 1,300 other documented 
benefits occurred as a result of the GAO's work that didn't 
result in financial benefits, but resulted in improved service 
to the public or greater efficiencies and effectiveness of 
Government programs. For example, recommendations that we made 
improved oversight of nursing home safety.
    Eighty-two percent of our recommendations are implemented 
over a period of time. So we think we make--on a continual 
basis--a good effort to help ensure the accountability of the 
Federal Government and improve its performance.
    Now these accomplishments aren't possible without 
dedicated, talented people, and at the GAO we have a 
multidisciplinary workforce, as you know. We put a lot of 
effort into making sure that we have the right skills and types 
of people, both in technical disciplines and subject areas. To 
work on this, we provide support in making sure that they keep 
their training up to date so that we are using the most state-
of-the-art methodologies and technologies. And we also put a 
big investment on working with our employees.
    As you know, and as you have commented in the past, we are 
rated as one of the best places to work in the Federal 
Government. We are very proud of that record. We work hard with 
our employees and with our union to have good, constructive 
ongoing relationships. We value that, and we are making good 
progress in that regard.
    Last, as the auditor of the consolidated financial 
statements of the Federal Government, I am acutely aware of the 
fiscal stress that our Government is under. And as we have said 
for a number of years, it is on an unsustainable long-term 
path. But I also recognize that during these times of making 
decisions on where to cut and how to allocate resources, that 
GAO's services are even that much more important to the 
Congress in order to help it make the best decisions possible 
to eliminate waste, to deal with a variety of issues, and to 
make cuts without having unintended negative consequences on 
the citizens.

                           PREPARED STATEMENT

    And so, therefore, we put forth what we believe to be a 
prudent, modest request. We have tried to gain as many 
efficiencies as possible, and we believe, with the request that 
we have put forward, that we can meet the highest-priority 
needs of the committees across the Congress.
    I know this subcommittee will give careful consideration, 
as you have in the past, to our request, and I look forward to 
answering your questions.
    [The statement follows:]

                  Prepared Statement of Gene L. Dodaro

    Mr. Chairman, Ranking Member Hoeven, and members of the 
subcommittee: I appreciate the opportunity to be here today to discuss 
the Government Accountability Office's (GAO) budget request for fiscal 
year 2012. I want to thank the subcommittee for its continued support 
of the GAO. We very much appreciate the confidence you have shown in 
our efforts to help support the Congress in carrying out its 
constitutional responsibilities and to help improve Government 
performance and accountability for the benefit of the American people.
    With this subcommittee's support, in fiscal year 2010, the GAO 
provided assistance to every standing congressional committee and 70 
percent of their subcommittees. Our work yielded significant results 
across the Government, including financial benefits of $49.9 billion--a 
return on investment of $87 for every $1 invested in the GAO. In 
addition, we documented more than 1,300 other benefits resulting from 
our work that helped improve services to the public, promote improved 
management throughout Government and change laws, such as the Improper 
Payments Elimination and Recovery Act of 2010.\1\
---------------------------------------------------------------------------
    \1\ GAO-11-2SP, United States Government Accountability Office 
Performance and Accountability Report Fiscal Year 2010 and GAO-11-3SP, 
Summary of GAO's Performance and Financial Information Fiscal Year 
2010.
---------------------------------------------------------------------------
    Recently, we issued two major reports that underscore the GAO's 
continuing value in helping the Congress and the administration reduce 
costs and improve Government, particularly in a time of reduced 
resources.
  --First, just last week on March 1, 2011, we detailed 81 
        opportunities to reduce duplication, overlap, or 
        fragmentation.\2\ These opportunities span a range of Federal 
        Government mission areas such as agriculture, defense, economic 
        development, energy, general government, health, homeland 
        security, international affairs, and social services. Within 
        and across these missions, our report touches on hundreds of 
        Federal programs, affecting virtually all major Federal 
        departments and agencies. By reducing or eliminating 
        unnecessary duplication, overlap, or fragmentation and by 
        addressing the other cost-saving and revenue-enhancing 
        opportunities contained in the report, the Federal Government 
        could save tens of billions of tax dollars annually and help 
        agencies provide more efficient and effective services.
---------------------------------------------------------------------------
    \2\ GAO-11-318SP, Opportunities to Reduce Potential Duplication in 
Government Programs, Save Tax Dollars and Enhance Revenue.
---------------------------------------------------------------------------
  --Second, our high-risk update issued on February 17, 2011, 
        identified 30 Federal areas and programs at risk of fraud, 
        waste, abuse, and mismanagement, and those in need of broad-
        based transformation. Solutions to high-risk problems offer the 
        potential to save billions of dollars, dramatically improve 
        service to the public, and strengthen confidence and trust in 
        the performance and accountability of the U.S. Government.\3\
---------------------------------------------------------------------------
    \3\ Our 2011 High-Risk List is included in Appendix I.
---------------------------------------------------------------------------
    Looking ahead to fiscal year 2012, the GAO is acutely aware of our 
dual responsibilities in a time of fiscal austerity. First, the 
Congress has rightly come to rely upon the GAO to help identify 
billions of dollars in cost-saving opportunities to tighten Federal 
budgets or to point out revenue enhancement opportunities. We know our 
mission becomes ever more critical when the Nation faces difficult 
financial times. But second, the GAO must also ensure it meets this 
responsibility while implementing all possible cost savings in its own 
operations without diminishing our traditionally high-quality work that 
lays the foundation for critical decisionmaking and oversight by the 
Congress.
    Accordingly, we are seeking only to maintain our fiscal year 2010 
funding level of $556.8 million in fiscal year 2012 and plan to 
maintain our current authorized staffing levels. While operating at 
this funding level with no increase poses challenges, the GAO is 
committed to reducing our own costs as much as possible in order to 
absorb the additional demands and increasing costs of the coming year 
without additional resources. Our budget request attempts to balance 
tradeoffs and assumes that we will be able to manage at reduced funding 
levels, and try to maintain our staffing levels to provide insightful 
analyses on the most important priorities for congressional oversight 
and decisionmaking.
    However, if the GAO's funding is reduced below the requested level, 
more drastic measures would be needed, such as reductions in our staff 
capacity, which would result in increased delays in responding to 
congressional requests, limit our ability to provide timely responses 
to support congressional oversight, and reduce the number of requests 
that we could complete.

 <greek-l>gao deg.THE GAO'S EFFORTS HELP THE CONGRESS ADDRESS DOMESTIC 
                      AND INTERNATIONAL CHALLENGES

    The GAO stands ready to serve the Congress and the American people 
at this historically critical juncture and is uniquely positioned to 
help address our Nation's challenges and identify opportunities. 
Pressures to reduce the Federal deficit following an economic recovery 
will mean a greater need for analyses of programs and their 
effectiveness, as well as a reduction in improper Federal payments and 
closing the gap between taxes owed and paid.
    Congressional demand for GAO services remains high as evidenced by 
our workload. We expect that trend to continue as a result of the 
pressures on Federal finances and our economy. For example, we will be 
working to produce future annual reports outlining duplication, 
overlap, and fragmentation as well as opportunities to reduce costs and 
enhance revenue. Additionally, the Wall Street Reform Act contained 44 
new statutory requirements or authorities for GAO assistance, including 
audits related to the Federal Reserve.
    Our past performance is evidence of the critical role our dedicated 
staff play in helping the Congress and the American people better 
understand issues, both as they arise and over the long term. For 
example, in fiscal year 2010, the GAO issue-area experts testified 192 
times before the Congress on a wide range of issues, ranging from air 
cargo, border and cyber security issues and the Department of Defense's 
planning for the drawdown of United States forces from Iraq to the 
Medicare prescription drug program, processing of disability claims and 
funding for broad band services.\4\
---------------------------------------------------------------------------
    \4\ A list of selected issues on which GAO staff testified before 
the Congress during fiscal year 2010 is included as Appendix II.
---------------------------------------------------------------------------
    The GAO's strategic plan for serving the Congress and the Nation, 
highlights the broad scope of our efforts to help the Congress respond 
to domestic and international challenges, such as:
  --threats confronting U.S. national security interests;
  --fiscal sustainability and debt challenges;
  --economic recovery and restored job growth; and
  --advances in science, technology, engineering, and mathematics.
    The GAO seeks not only to help position the Government to better 
manage risks that could compromise the Nation's security, health, and 
solvency, but also to identify opportunities for managing Government 
resources wisely for a more sustainable future.
    Our strategic plan covers the following goals and objectives:
    Goal 1.--Help the Congress address current and emerging challenges 
to the well-being and financial security of the American people.
  --Financing and programs to serve the health needs of an aging and 
        diverse population;
  --Lifelong learning to enhance U.S. competitiveness;
  --Benefits and protections for workers, families, and children;
  --Financial security for an aging population;
  --A responsive, fair, and effective system of justice;
  --Viable communities;
  --A stable financial system and consumer protection;
  --Responsible stewardship of natural resources and the environment; 
        and
  --A viable, efficient, safe, and accessible national infrastructure.
    Goal 2.--Help the Congress respond to changing security threats and 
the challenges of global interdependence.
  --Protect and secure the homeland from threats and disasters;
  --Ensure military capabilities and readiness;
  --Advance and protect U.S. foreign policy interests; and
  --Respond to the impact of global market forces on U.S. economic and 
        security interests.
    Goal 3.--Help transform the Federal Government to address national 
challenges.
  --Analyze the Government's fiscal position and opportunities to 
        strengthen approaches to address the current and projected 
        fiscal gap;
  --Identify fraud, waste, and abuse; and
  --Support congressional oversight of major management challenges and 
        program risks.
    Our strategic plan framework is included in Appendix IV.

      <greek-l>gao deg.CONSTRAINED FISCAL YEAR 2012 BUDGET REQUEST

    Our requested funding level of $556.8 million will allow us to try 
to support a staffing level of 3,220 FTEs to provide insightful 
analysis on the most important priorities for congressional oversight 
and decisionmaking. We will continue to outreach to the Congress to 
understand and set priorities to ensure that we focus on the most 
important issues for congressional oversight.
    Although operating under a flat budget for 3 years provides 
significant operational challenges, we have carefully considered our 
resource requirements and made tradeoffs to ensure that we try to 
maintain our staff capacity within our current funding level to allow 
us to provide the Congress with high-quality, timely, and objective 
analyses of Government programs, operations, and finances--information 
that the Congress needs to make policy choices, ensure transparency and 
accountability, and protect the taxpayer.
    However, since 80 percent of our budget covers staff compensation 
and benefits, our flexibility to control costs without diminishing our 
staff capacity is limited. Without additional funding in fiscal year 
2013 and beyond, we would need to reduce our staff capacity which would 
increase the delay in starting work on congressional requests, limit 
our ability to provide timely responses and analyses to support 
congressional oversight, and reduce the number of requests that we 
could undertake.
    <greek-l>gao deg.the gao maintains effective workforce relations
    We could not have achieved our level of performance without the 
hard work and dedication of our professional, diverse, and 
multidisciplinary staff. Recognizing that the GAO's accomplishments are 
a direct result of our dedicated workforce, we continuously strive to 
maintain a work environment that promotes employee well-being and 
productivity. We are also proud of the results from our 2010 annual 
employee feedback survey, which indicate that employee satisfaction 
continues to increase and that we continue to make progress toward our 
goal to create a more inclusive work environment. In 2010, the GAO was 
once again rated second on the list of the ``Best Places to Work'' in 
the Federal Government by the Partnership for Public Service.
    The GAO regularly seeks and values the input we receive from our 
employee organizations. Recently, we reached tentative agreement with 
the GAO's Employees Organization--International Federation of 
Professional & Technical Engineers, Local 1921--on a master contract 
that has since been ratified by its members and is pending legal 
review. We are also working with our Employee Advisory Council and the 
Diversity Advisory Council on a range of issues.

                           CONCLUDING REMARKS

    I believe that you will find our prudent budget request is fiscally 
responsible and essential to ensure that we can maintain our capacity 
to assist the Congress in this challenging period in our Nation's 
history.
    We have a proven track record of helping the Congress evaluate 
critical issues of national importance and improving the transparency 
and accountability of our national government. Our new strategic plan 
for serving the Congress through fiscal year 2015 provides the 
framework for reporting on progress toward our institutional goals.
    We remain committed to providing accurate, objective, nonpartisan, 
and constructive information to the Congress to help it conduct 
effective oversight and fulfill its constitutional responsibilities. I 
appreciate, as always, your careful consideration of our submission and 
look forward to discussing our proposal with you.
    Mr. Chairman, Ranking Member Hoeven, members of the subcommittee, 
this concludes my prepared statement. I would be pleased to respond to 
any questions that you or other members of the subcommittee might have.

      <greek-l>gao deg.APPENDIX I.--THE GAO'S 2011 HIGH-RISK LIST

    Strengthening the foundation for efficiency and effectiveness:
  --Management of Federal oil and gas resources (new);
  --Modernizing the outdated U.S. financial regulatory system;
  --Restructuring the U.S. Postal Service to achieve sustainable 
        financial viability;
  --Funding the Nation's surface transportation system;
  --Strategic human capital management; and
  --Managing Federal real property.
    Transforming the Department of Defense (DOD) program management:
  --DOD approach to business transformation;
  --DOD business systems modernization;
  --DOD support infrastructure management;
  --DOD financial management;
  --DOD supply chain management; and
  --DOD weapon systems acquisition.
    Ensuring public safety and security:
  --Implementing and transforming the Department of Homeland Security 
        (DHS);
  --Establishing effective mechanisms for sharing and managing 
        terrorism-related information to protect the homeland;
  --Protecting the Federal Government's information systems and the 
        Nation's critical cyber infrastructures;
  --Ensuring the effective protection of technologies critical to U.S. 
        national security interests;
  --Revamping Federal oversight of food safety;
  --Protecting public health through enhanced oversight of medical 
        products; and
  --Transforming the Environmental Protection Agency's (EPA) process 
        for assessing and controlling toxic chemicals.
    Managing Federal contracting more effectively:
  --DOD contract management;
  --the Department of Energy's (DOE) contract management for the 
        National Nuclear Security Administration and Office of 
        Environmental Management;
  --NASA acquisition management; and
  --Management of interagency contracting.
    Assessing the efficiency and effectiveness of tax law 
administration:
  --Enforcement of tax laws; and
  --Internal Revenue Service (IRS) business systems modernization.
    Modernizing and safeguarding insurance and benefit programs:
  --Improving and modernizing Federal disability programs;
  --Pension Benefit Guaranty Corporation insurance programs;
  --Medicare program;
  --Medicaid program; and
  --National flood insurance program.

 <greek-l>gao deg.APPENDIX II.--SELECTED TESTIMONY TOPICS: FISCAL YEAR 
                                  2010

    Goal 1.--Address current and emerging challenges to the well-being 
and financial security of the American people.
  --Unemployment insurance trust funds;
  --Social Security disability;
  --Underfunded pension plans;
  --Proprietary schools;
  --Medicare high-cost drugs;
  --Toxic substance abuses disease registry;
  --Concussions in high school athletes;
  --Children's access to Medicaid dental services;
  --Corporate crime;
  --the Department of Justice's Civil Rights Division enforcement 
        efforts;
  --Community emergency preparedness;
  --Fannie Mae and Freddie Mac;
  --Department of the Interior's oversight of oil and gas;
  --Clean Water Act enforcement efforts;
  --U.S. Postal Service financial viability;
  --Federal facilities security;
  --High-speed rail projects; and
  --Commercial aviation consumer fees.
    Goal 2.--Respond to changing security interdependence threats and 
the challenges of global independence.
  --Financial markets regulation;
  --National flood insurance program;
  --Climate change;
  --Alien smuggling along Southwest Border;
  --Aviation security advanced imaging technology;
  --Terrorist watchlist screening;
  --Combating nuclear smuggling;
  --Iran sanctions;
  --Counternarcotics and anticrime efforts in Mexico;
  --Global food security;
  --Intellectual property enforcement efforts;
  --Afghanistan security force capacity;
  --DOD military and civilian employee compensation;
  --Warfighter contract support; and
  --Joint Strike Fighter challenges.
    Goal 3.--Help transform the Federal Government to address national 
challenges.
  --Defense space acquisitions;
  --Military language skills;
  --Interagency collaboration for national security interagency 
        contracting strategies;
  --NASA management and program challenges;
  --Balancing the Government-to-contractor workforce;
  --Iraq and Afghanistan contract and grant management;
  --American Recovery and Reinvestment Act (ARRA) oversight;
  --First-time homebuyer tax credit;
  --Equal employment opportunity at DHS;
  --2010 Census management challenges;
  --U.S. Government financial statements;
  --DHS financial management systems consolidation;
  --Protecting Federal information systems;
  --Environmental satellites;
  --Debt settlement risks to consumers;
  --Service-disabled, veteran-owned small business program fraud 
        prevention;
  --HEAD START Program fraud; and
  --Defense contract audit agency vulnerabilities.

<greek-l>gao deg.APPENDIX III.--HOW THE GAO ASSISTED THE NATION: FISCAL 
                               YEAR 2010

    Goal 1.--Address current and emerging challenges to the well-being 
and financial security of the American people.
  --Identified ways for the Department of Health and Human Services to 
        strengthen inspections of ambulatory surgical centers leading 
        to a fourfold increase in the proportion of centers found to 
        have deficient practices;
  --Appointed 49 experts and stakeholders to three organizations 
        created in new healthcare legislation;
  --Recommended food safety improvements that the Congress included in 
        legislation for the Department of Agriculture's school lunch 
        program;
  --Facilitated expedited claims process for the Department of Labor's 
        black lung benefits program;
  --Increased the EPA focus on environmental threats to children's 
        health;
  --Identified factors to consider in restructuring Fannie Mae and 
        Freddie Mac;
  --Proposed changes to improve control of toxic chemicals in consumer 
        products; and
  --Identified hidden fees for air travel that should be disclosed to 
        consumers.
    Goal 2.--Respond to changing security threats and the challenges of 
global interdependence.
  --Led the Federal Emergency Management Agency (FEMA) to begin 
        developing a strategic plan to improve the national public 
        alert and warning system;
  --Exposed weaknesses in the Transportation Security Administration's 
        behavior-based identification of high-risk air passengers;
  --Recommended changes that FEMA implemented to better plan for 
        national emergency response capabilities;
  --Informed the DHS's top-level review of weaknesses and risks in the 
        multibillion dollar Secure Border Initiative;
  --Contributed to a more robust missile defense acquisition policy;
  --Encouraged reforms in the United Nations' procurement, internal 
        oversight, and employment processes;
  --Provided insight to the Congress that led to expanding United 
        States sanctions against Iran; and
  --Informed development of a framework to reform the U.S. export 
        control system.
    Goal 3.--Help transform the Federal Government to address national 
challenges.
  --Informed the IRS' decision to extend regulation of paid tax 
        preparers, including requiring them to obtain an identifying 
        number and be tested for competency;
  --Exposed ENERGY STAR as a self-certification program by obtaining 
        certification for bogus products which led the DOE and EPA to 
        adopt improvements in their approval process;
  --Led General Services Administration to strengthen requirements due 
        to improper spending on premium-class Government travel;
  --Surfaced weaknesses in the Department of Veterans Affairs 
        outpatient scheduling IT systems;
  --Developed a methodology adopted by the Congress to efficiently 
        target billions of dollars in Medicaid assistance through the 
        ARRA;
  --Assessed IT risks for the 2010 Census to ensure successful 
        execution; and
  --Profiled selected DHS investments in a 2-page format to provide the 
        Congress with a new, easy reference on acquisition oversight, 
        planning, and execution.
    Goal 4.--Maximize the value of the GAO by enabling quality, timely 
service to the Congress and being a leading practices Federal agency.
  --Implemented leading practices to attract a more diverse workforce 
        and foster an inclusive work environment;
  --Leveraged technology to facilitate business process improvements in 
        financial and administrative IT systems;
  --Improved access to our products with a new mobile Web site for 
        users of small screen devices and a new electronic product 
        format;
  --Collaborated with international accountability organizations to 
        enhance their audit guidelines by incorporating private sector 
        international auditing standards; and
  --Led development of a strategic plan for the international 
        accountability community.

<greek-l>gao deg.APPENDIX IV.--SERVING THE CONGRESS AND THE NATION: THE 
                     GAO'S STRATEGIC PLAN FRAMEWORK

    Mission.--The GAO exists to support the Congress in meeting its 
constitutional responsibilities and to help improve the performance and 
ensure the accountability of the Federal Government for the benefit of 
the American people.
    Trends.--National security threats; fiscal sustainability 
challenges; economic recovery and growth; global interdependence; 
science and technology; networks and virtualization; shifting roles of 
Government; and demographic and societal change.

------------------------------------------------------------------------
                   Goals                             Objectives
------------------------------------------------------------------------
Provide timely, quality service to the
 Congress and the Federal Government:
    To address current and emerging         Healthcare needs; lifelong
     challenges to the well-being and        learning; benefits and
     financial security of the American      protections for workers,
     people related to                       families, and children;
                                             financial security;
                                             effective system of
                                             justice; viable
                                             communities; stable
                                             financial system and
                                             consumer protection;
                                             stewardship of natural
                                             resources and the
                                             environment; and
                                             infrastructure.
    Respond to changing security threats    Homeland security; military
     and the challenges of global            capabilities and readiness;
     interdependence involving               advancement of U.S.
                                             interests; and global
                                             market forces.
Help transform the Federal Government to    Government's fiscal position
 address national challenges by assessing.   and options for closing
                                             gap; Fraud, waste, and
                                             abuse; and major management
                                             challenges and program
                                             risks.
Maximize the value of the GAO by enabling   Efficiency, effectiveness,
 quality, timely service to the Congress     and quality; diverse and
 and being a leading practices Federal       inclusive work environment;
 agency in the areas of.                     professional networks and
                                             collaboration; and
                                             institutional stewardship
                                             and resource management.
------------------------------------------------------------------------

    Core Values.--Accountability, integrity, and reliability.

                   <greek-l>gao deg.THE GAO'S MISSION

    The GAO--the audit, evaluation, and investigative arm of the 
Congress--exists to support the Congress in meeting its constitutional 
responsibilities and to help improve the performance and accountability 
of the Federal Government for the American people. The GAO examines the 
use of public funds; evaluates Federal programs and policies; and 
provides analyses, recommendations, and other assistance to help the 
Congress make informed oversight, policy, and funding decisions. The 
GAO's commitment to good government is reflected in its core values of 
accountability, integrity, and reliability.

    Senator Nelson. I appreciate your opening statement, and 
your point is well-made.
    So, Mr. Boarman, we would appreciate your thoughts, too.

                       GOVERNMENT PRINTING OFFICE

STATEMENT OF WILLIAM J. BOARMAN, PUBLIC PRINTER
    Mr. Boarman. Thank you, Mr. Chairman.
    And it is an honor for me to be here today in my first time 
testifying before your subcommittee, and I will keep my 
statement brief. But there are some important points that I 
would like to make about the GPO and its accountability and 
what it does for the Congress.
    The GPO, of course, is responsible for the production and 
distribution of information products for all three branches of 
the Government. These include passports for the State 
Department and the official publications of the Congress, 
Federal agencies, and the courts. We provide products in both 
print and a variety of digital formats.
    We support open and transparent Government by providing 
online access to authenticated information at no charge through 
our Federal Digital System (FDSys). FDSys has more than 250,000 
Federal titles and more than 25 million documents downloaded 
every month.
    We also partner with more than 1,200 libraries nationwide, 
participating in the Federal Depository Library Program. The 
libraries work with us to provide free public access to 
Government information in print and in digital form.
    Following my appointment by the President in late December, 
I returned to the GPO, where I had worked as a practical 
printer more than 35 years ago. The GPO today is a much 
different agency than the one that I left.
    At that time, there were more than 8,000 employees. Now 
there are barely more than a quarter of that number, but we are 
responsible for a broad range of products and activities that 
could only have been dreamed of back then--online databases of 
official Federal documents, passports, and smart cards and 
electronic chips carrying biometric data, print products on 
sustainable recycled paper using vegetable oil inks, and a 
robust information technology (IT) enterprise architecture, and 
more.
    These operations are managed by a uniquely skilled, small, 
and dedicated staff. Their support for the Congress is 
exemplary. They work through the night--sometimes under 
extremely difficult workloads and conditions such as snowstorms 
that close the rest of the Government--to assemble the 
databases and publications you need to carry out your 
critically important work.
    Our present and future are being defined by digital 
technology. The Congressional Record, bills, reports, and 
hearings, and other documents are generated from digital 
databases the GPO creates in response to the information needs 
of the Congress. No other agency is equipped to carry out that 
mission.
    Let me repeat that. No other agency is equipped to carry 
out this mission.
    Our use of databases has cut the cost of congressional 
information products over the past generation by more than two-
thirds measured in constant dollars. Our databases are the 
foundation of our online dissemination capability, which has 
been in operation since 1994. The capability has expanded 
public access to Government information exponentially while 
reducing the cost of distributing print products.
    Our databases are also the platform for several key 
information systems serving the Congress today. They are used 
by the Library of Congress (LOC) to support the THOMAS system, 
as well as the legislative information systems the LOC makes 
available to the Senate and House offices.
    Creating these databases is the majority of the work funded 
by the congressional printing and binding appropriation. Even 
though the name on this account may be old-fashioned, it is the 
source of the financing for the digital information platform we 
have built and manage for the Congress. Because of the way it 
is structured, this appropriation can only be accessed when we 
actually print for the Congress.

            <greek-l>GPO deg.GPO'S SUPPORT FOR THE CONGRESS

    The GPO's support for the Congress is extensive. My guess 
is that our work is more closely integrated with your daily 
operations than any other congressional support agency, as 
important and as valuable as their work is. But it is provided 
quietly in the background, and it is often not immediately 
clear what we do, but we are working to educate Members of 
Congress and their staff of our essential services.
    Since taking office, I have met with Members, officials, 
and staff of the Senate and House to discuss how the GPO can 
best service their needs. We have also been working 
cooperatively with the Appropriations Committees. We have 
reduced spending within the GPO by cutting travel, outside 
hiring, and by other costs. We have cut $5.2 million from the 
2012 appropriations request originally submitted to Office of 
Management and Budget by my predecessor late last year.

                           PREPARED STATEMENT

    For the record, our request includes two one-time 
components--$1.4 million for printing-related items for the 
2013 Presidential Inauguration and another $1.4 million to fund 
a shortfall in congressional printing carried forward from 
fiscal year 2009. Without these, our request would be $1.8 
million under the level of funding provided to the GPO by the 
continuing resolution.
    Also, we have $2.5 million left over from fiscal year 2006 
that could be transferred to the revolving fund under current 
law. With the transfer, our overall request for new funding 
would be reduced by this amount, which would also bring us 
under the level provided by the continuing resolution.
    [The statement follows:]

                Prepared Statement of William J. Boarman

    Mr. Chairman, Senator Hoeven, and members of the Subcommittee on 
the Legislative Branch: It is an honor to be here today to present the 
appropriations request of the U.S. Government Printing Office (GPO) for 
fiscal year 2012. Our request is for the congressional printing and 
binding appropriation and the salaries and expenses appropriation of 
the Superintendent of Documents, both of which are included in the 
annual legislative branch appropriations bill. These two accounts cover 
the GPO's provision of congressional information products and services 
as authorized by law and our provision of public access to 
congressional and other Government information products through 
statutorily established information dissemination programs under the 
Superintendent of Documents.
    All other the GPO functions and activities--including the 
production of U.S. passports for the State Department as well as secure 
credentials for congressional and agency use, the procurement of 
information products and services in partnership with the private 
sector, the sales of Government information products and services to 
the public, and related operations--are financed on a reimbursable 
basis through the GPO's business-like revolving fund, which is 
authorized through the annual legislative branch appropriations bill.

                          <greek-l>gpo deg.GPO

Background
    With just 2,200 employees, the GPO is the Federal Government's 
primary centralized resource for producing, procuring, cataloging, 
indexing, authenticating, disseminating, and preserving the official 
information products of the U.S. Government in digital and tangible 
forms. The agency is responsible for the production and distribution of 
information products for all three branches of the Federal Government, 
including U.S. passports for the Department of State as well as the 
official publications of the Congress, the White House and other 
Federal agencies, and the courts.
    Along with sales of publications in digital and tangible formats to 
the public, the GPO supports openness and transparency in Government by 
providing permanent public access to Federal Government information at 
no charge through its Federal Digital System (www.fdsys.gov), which has 
more than 250,000 Federal titles online and sees more than 25 million 
documents downloaded every month, and through partnerships with 
approximately 1,220 libraries nationwide participating in the Federal 
Depository Library Program. In addition to the GPO's Web site, 
www.gpo.gov, we communicate with the public routinely via Twitter 
twitter.com/USGPO, YouTube www.youtube.com/user/gpoprinter, and 
Facebook www.facebook.com/USGPO.
    We first opened our doors for business 150 years ago this month, on 
March 4, 1861, the same day Abraham Lincoln was inaugurated as our 16th 
President. Our mission can be traced to the requirement in Article I of 
the Constitution that each House shall keep a journal of its 
proceedings and from time to time publish the same. Senator Schumer put 
as statement in the Congressional Record recognizing the GPO's 
anniversary, which I'm pleased to attach to this statement.
    In our history we have produced every great American state paper--
and an uncounted number of other Government publications--since 
President Lincoln's time, including the Emancipation Proclamation. 
Social Security cards, Medicare and Medicaid information, Census forms, 
tax forms, citizenship forms, military histories ranging from the 
Official Records of the War of the Rebellion to the latest accounts of 
our forces in Iraq and Afghanistan, emergency documents like the ration 
cards and the ``Buy Bonds'' posters used during World War II, the 
Warren Commission Report on President Kennedy's assassination, the 
Watergate transcripts, the 9/11 Commission Report, Presidential 
Inaugural Addresses, Supreme Court opinions, and the great acts of the 
Congress that have shaped our society--all these as well as millions of 
other documents from the historic to the humble have been produced by 
the GPO on their way to use by the Congress, Federal agencies, and the 
American public.
    For the Secretary of the Senate, the Clerk of the House, and the 
committees of the Senate and House, we produce the documents and 
publications required by the legislative and oversight processes of the 
Congress, including the daily Congressional Record, bills, reports, 
legislative calendars, hearings, committee prints, and other documents, 
as well as stationery, franked envelopes, and other materials such as 
memorials and condolence books, programs and invitations, phone books, 
and the other products needed to conduct business of the Congress. We 
also detail expert staff to support the information product 
requirements of Senate and House committees and congressional offices 
such as the Senate Office of Legislative Counsel.
    The production of the Congressional Record alone is a remarkable 
job, averaging about 170 pages per issue, but ranging in size from a 
few pages to hundreds of pages per night depending on the amount of 
business transacted, all formatted, paginated, proofed, corrected, 
uploaded for online access, printed, and delivered overnight, every 
night the Congress is in session. The history of our Nation as revealed 
in the proceedings of the Congress is preserved for generations to come 
in the permanent edition of the Congressional Record and in the 
Congressional Serial Set, containing all the numbered reports and 
documents of each Congress and published continuously since 1817, both 
produced by the GPO.
    Since taking office in early January, I've met with the Secretary 
of the Senate and the Clerk of the House and various Members and staff, 
and have heard repeatedly about the utility of the products we provide 
for Members and staff in performing the work of their offices and their 
committees. Ensuring that utility--supporting the Congress in carrying 
out its constitutional legislative function--is our most important job. 
In addition, with the Library of Congress (LOC) and the National 
Archives, the work we perform is a basic part of governmental openness 
and transparency, and an integral part of the creation and preservation 
of the record of our Government for the American people.

The GPO and Digital Information Technologies
    As Archivist of the United States David Ferriero recently said, the 
GPO has not rested with drums of printer's ink and rolls of paper 
measured by the ton. Our present and future are clearly being defined 
by digital technology, and digital technology itself has radically 
changed the way printing is performed today. This is especially true 
where the information products used by the Senate and House of 
Representatives are concerned. The GPO's conversion to digital 
databases for the composition of congressional publications occurred 
more than a generation ago. Today the activities associated with 
creating congressional information databases comprise the majority of 
the work funded by our annual congressional printing and binding 
appropriation.
    In addition to using these databases to produce printed products as 
required by the Congress, we upload them to the Internet via our online 
information systems, known previously as GPO Access and today as the 
GPO's FDSys. Since we first went online with congressional information 
in 1994, these systems have provided the Congress and the public with 
the definitive source not only of legislative but executive and 
judicial information online.
    Our creation of digital databases of congressional information from 
which we can print and provide online public access has dramatically 
increasing productivity and dramatically reduced costs to the taxpayer. 
As our budget submission shows, our digital production systems have 
reduced the level of the congressional printing and binding 
appropriation by more than two-thirds in constant-dollar terms since 
1975 while expanding our information capabilities exponentially.
    The GPO's congressional database systems also form the basic 
building blocks of other information systems supporting the Congress. 
Our congressional information databases are provided directly to the 
LOC to support its THOMAS system as well as the legislative information 
systems the LOC makes available to Senate and House offices. The GPO 
and the LOC are also collaborating today on the digitization of 
previously printed documents, such as the Congressional Record and the 
Statutes at Large, to make them more broadly available to the Congress 
and the public, and we are jointly developing a new process for 
updating the digital edition of the Constitution Annotated.
    The GPO's digital systems also support other key Federal 
publications, including the U.S. budget and, most importantly, the 
Federal Register and associated products, which we also produce. 
Through the GPO's efforts, the online Federal Register is being made 
available in extensible markup language (XML) to support bulk data 
downloads via www.data.gov, and with the Office of the Federal Register 
we developed the online Federal Register 2.0, an innovative approach to 
making information on Federal regulations and related documents 
available to the public. Our advanced authentication systems, supported 
by public key infrastructure (PKI), are an essential component for 
assuring the digital security of congressional and agency documents.
    The other major products that the GPO produces are U.S. passports 
for the Department of State, the premier component of our secure and 
intelligent documents business unit. At one time no more than a 
conventionally printed document, passports today incorporate a chip and 
antenna array capable of carrying biometric identification data, which 
with other security features has transformed this document into the 
most secure identification credential obtainable. We have also 
developed a line of secure identification ``smart cards'' to support 
the credential requirements of the Department of Homeland Security for 
certain border crossing documents, and our secure credential unit has 
been certified as the only Government-to-Government provider of 
credentials meeting the requirements of Homeland Security Presidential 
Directive 12.

The GPO in Partnership With Industry
    Other than congressional and inherently governmental work such as 
the Federal Register, the budget, and secure and intelligent documents, 
we produce virtually all other information product requirements via 
contract through a longstanding partnership with the private sector 
printing industry. In fact, our procurement operation handles 
approximately 75 percent of all work sent to the GPO for production, 
amounting to $450-$500 million annually. This system is one of the 
Government's longest running and most successful programs of utilizing 
the private sector, which is represented by more than 16,600 individual 
firms registered to do business with us, the vast majority of whom are 
small businesses averaging 20 employees per firm. Contracts are awarded 
on a purely competitive basis; there are no set-asides or preferences 
in contracting other than what is specified in law and regulation, 
including a requirement for the Buy American Act. This partnership 
provides great economic opportunity for the private sector.

The GPO and Open, Transparent Government
    Producing and distributing the official publications of our 
Government fulfills an informing role originally envisioned by the 
Founders, when James Madison said:

    ``A popular Government without popular information, or the means of 
acquiring it, is but a Prologue to a Farce or a Tragedy, or perhaps 
both. Knowledge will forever govern ignorance, and a people who mean to 
be their own Governors, must arm themselves with the power which 
knowledge gives.''

    A key mechanism for this purpose is the Federal Depository Library 
Program, which today serves millions of Americans through a network of 
some 1,220 public, academic, law, and other libraries located in 
virtually every Congressional District across the Nation. These 
libraries are critical links between ``We the People'' and the 
information provided by the Federal Government. The GPO provides the 
libraries with information products in online or tangible formats, and 
the libraries in turn make these available to the public at no charge 
and provide additional help and assistance to depository library users. 
One of the other programs we operate is in fulfillment of an 
international treaty. Under it, we distribute certain Federal 
publications to other governments abroad as designated by the LOC. In 
return, they send the LOC their official publications, which the LOC 
then makes available for the use of the Congress and the public. This 
helps maintain the universal nature of the LOC's collections, as 
Librarian of Congress James Billington recently pointed out.
    Along with these programs, we also provide public access to the 
wealth of official Federal information through public sales featuring 
secure ordering through an online bookstore for the GPO sales 
publications and a partnership with the private sector to offer Federal 
publications as e-Books, and we operate effective and efficient 
information distribution programs for other Federal agencies on a 
reimbursable basis, including the General Services Administration's 
Consumer Information Center publications.

Recent Actions
    Since taking office on January 3 this year, my management team and 
I have worked to reduce spending and ensure that the GPO's finances 
remain sound in the face of ongoing constraints on the Federal budget. 
We have reduced our appropriations request for fiscal year 2012 by more 
than $5 million from what was originally submitted to Office of 
Management and Budget (OMB). We cut the GPO's annual spending plan as 
previously submitted to the Joint Committee on Printing by $15 million 
and implemented controls on hiring, travel, certain contractual 
services, and related discretionary accounts. We realigned the GPO's 
organization so the Chief Financial Officer reports directly to me 
rather than through subordinate officers, and implemented a task force 
on recovery of outstanding payments from Federal agencies. Otherwise, 
there is continuity of ongoing initiatives such as the development of 
FDSys, support for our Oracle suite of business enterprise services, 
and planning for continuity of operations (COOP). We are also pursuing 
additional revenue opportunities, particularly in the field of secure 
credentialing, as well as increased utilization of our printing 
procurement capability by Federal agencies.
    My meetings with the Secretary of the Senate and the Clerk of the 
House were to discuss how the GPO can best assist them in supporting 
the needs of the Congress. We have been meeting with both staff and 
Members of the appropriations committees and cooperating with them in 
their effort to provide for appropriations beyond the current 
continuing resolution. We fully understand the intention of the 
Congress to control its spending and you will have our cooperation in 
meeting this goal.

        <greek-l>gpo deg.FISCAL YEAR 2012 APPROPRIATIONS REQUEST

    For fiscal year 2012, we are requesting a total of $148,474,000, a 
reduction of $5.2 million, or 3.4 percent, from the amount submitted to 
the Office of Management and Budget late last year, and an increase of 
just $1,013,000 more than the continuing resolution (Public Law 111-
242, as amended).
    Our request includes two one-time components: $1.4 million for work 
supporting the 2013 Presidential Inauguration and $1.4 million to fund 
a shortfall in the congressional printing and binding appropriation 
carried forward from fiscal year 2009. Excluding these one-time 
requests, our overall request would be $145,674,000, a decrease of 
$1,787,000 from the current continuing resolution.
    There is an unexpended balance of $2.5 million in the salaries and 
expenses appropriation from fiscal year 2006 that could be transferred 
to the revolving fund under current law. If the transfer is approved by 
the Appropriations Committees, it would reduce our overall request for 
new funding to $145,974,000.
    Our funding request for fiscal year 2012 is designed to:
  --meet projected requirements for congressional information products 
        and services as authorized by law, provide the necessary funds 
        for materials required for the 2013 Presidential Inauguration, 
        and recover the shortfall in this account carried forward from 
        fiscal year 2009;
  --fund the operation of the GPO's statutory programs that provide 
        public access to congressional and other Government information 
        products nationwide; and
  --continue the development of the GPO's FDSys, which provides the 
        Congress, Federal agencies, and the public with no-fee digital 
        access to a vast range of congressional and other Federal 
        information products, and support our Oracle-based enterprise 
        infrastructure.

Congressional Printing and Binding Appropriation
    We are requesting $100,001,000 for this account to cover the 
estimated cost of congressional information products and services as 
authorized by law. This represents an increase of $6,233,000 more than 
the level provided by the current continuing resolution.
    Of the increase, $1.4 million is estimated to be required for work 
to support the 2013 Presidential Inaugural and $1,390,000 is required 
to fund the shortfall in this appropriation carried forward from fiscal 
year 2009. The balance of the increase, or $3,443,000, includes 
$2,909,000 for estimated volume increases in certain work categories--
principally the Congressional Record, business calendars, and 
hearings--offset by estimated volume decreases in other categories, 
primarily miscellaneous publications and bills. It also includes 
$534,000 for price level changes averaging 0.6 percent that are 
attributable to existing wage contracts and projected cost increases 
for materials and supplies.

Salaries and Expenses Appropriation of the Superintendent of Documents
    We are requesting $42,173,000 for this account to support public 
access to congressional and other Government information products 
through the GPO's statutory information dissemination programs, 
primarily the Federal Depository Library Program. Our request 
represents an increase of $1,262,000 more than the level approved in 
the current continuing resolution.
    Included in the increase is $196,000 for mandatory pay costs 
(pertaining only to within-grade increases) and price level changes, 
$262,000 for the level of the GPO overhead required to be distributed 
to salaries and expenses programs, and $304,000 for FDSys annual 
operating costs attributable to Superintendent of Documents programs. 
In addition, we are requesting $500,000 to continue legacy systems 
migration and modernization costs, as well as historical digitization 
projects approved by the Joint Committee on Printing and involving 
collaboration with the LOC.
    As noted above, there is an unexpended balance of $2.5 million in 
the salaries and expenses appropriation from fiscal year 2006 that 
could be transferred to the revolving fund under current law. If the 
transfer is approved by the Appropriations Committees, it would reduce 
our request for new funding to the salaries and expenses appropriation 
by that amount.

Revolving Fund
    We are requesting $6.3 million for this account, to remain 
available until expended, to fund essential investments in information 
technology development. These include $5 million to continue developing 
FDSys and $1.3 million for support for our Oracle-based enterprise 
infrastructure. The GPO has requested these funds as additions to the 
revolving fund's working capital to enable the fund to continue 
financing other investments in upgrades of technology, equipment, and 
plant modernization.
    Mr. Chairman, Senator Hoeven, and members of the subcommittee, this 
concludes my prepared statement. We look forward to working with you 
and the subcommittee in your consideration of our appropriations 
request for fiscal year 2012.
                                 ______
                                 

             [From the Congressional Record, March 4, 2011]

          150th Anniversary of the Government Printing Office
                    (By Senator Charles E. Schumer)

    Mr. SCHUMER. Mr. President, I rise today as the chairman of the 
Joint Committee on Printing to recognize the Government Printing 
Office, GPO, on the occasion of its 150th anniversary. GPO opened its 
doors on March 4, 1861, the same day that President Abraham Lincoln 
took the oath of office for his first term. Since that time, the agency 
has used constantly changing technologies to meet the needs of the 
Congress, Federal agencies, and the public. During GPO's early days, 
employees relied on ink and paper to publish the text of President 
Lincoln's Emancipation Proclamation. Today, as another President from 
Illinois leads the Nation, GPO employees are using the latest digital 
technology to document the activities and decisions of our Government 
and to fulfill GPO's founding mission, which is ``Keeping America 
Informed.''
    While GPO's past has been about printing, its present and future 
are being defined by electronic publishing. GPO has been investing for 
more than a generation in digital production and dissemination 
technology, an investment that has yielded significant improvements in 
productivity, capability, and savings for the taxpayers. The GPO 
estimates that converting to electronic, digital technology has 
resulted in a savings of 66 percent on the cost of congressional 
printing alone. Deploying such technology has also reduced the number 
of employees to fewer than at any time in the past century. And it has 
reduced dramatically the number of copies of official documents that 
are printed.
    GPO's partnership with the printing industry supports tens of 
thousands of jobs. At the same time, by using GPO as a central 
procurement agency, the Federal Government reduces substantially the 
cost of these contracts to the taxpayers.
    GPO now has a range of products and services that could only have 
been dreamed of 30 years ago: Online databases of Federal documents 
with state- of-the-art search and retrieval capabilities available to 
the public without charge, Government publications available as e-
Books, and a public presence not only on the Web but also on Twitter, 
Facebook, and You Tube. No longer is GPO primarily a publisher of 
printed government documents, but a fully integrated electronic 
publisher and clearinghouse whose products are available in many 
Internet-based locations. In addition, the State Department relies on 
GPO to provide highly secure U.S. passports containing sophisticated 
smart chips. GPO does this in conjunction with the private sector, 
which supplies certain critical components.
    Another key function of GPO is its partnership with more than 1,200 
Federal depository libraries across the country. These libraries, 
established by statute in all 50 States, make Federal documents 
available to millions of students, researchers, businesses, and others 
every year in both digital and print formats.
    In short, GPO is responsible for the production and distribution of 
information products and services for all three branches of the Federal 
Government, including U.S. passports for the Department of State as 
well as the official publications of the Congress, the White House, and 
other Federal agencies. In addition to publication sales, GPO offers 
permanent public access to Federal Government information at no charge 
through GPO's Federal Digital System--www.fdsys.gov--and through 
partnerships with approximately 1,200 libraries nationwide that are 
part of the Federal Depository Library Program.
    I ask my colleagues to join me in congratulating the GPO on its 
150th anniversary and on its contributions to keeping the public 
informed.

    Mr. Boarman. Mr. Chairman, thank you very, very much, and I 
will be happy to answer any questions that you have.
    Senator Nelson. Thank you.
    Dr. Elmendorf.

                      CONGRESSIONAL BUDGET OFFICE

STATEMENT OF DOUGLAS W. ELMENDORF, Ph.D., DIRECTOR
    Dr. Elmendorf. Thank you, Mr. Chairman.
    I appreciate the opportunity to present the CBO's budget 
request for fiscal year 2012.
    As you know, the CBO's mission is to provide the Congress 
with objective, impartial analyses of budget and economic 
issues, including the information and cost estimates needed for 
the congressional budget process.
    There are about 250 people currently working at the CBO. In 
the coming year, we anticipate a workload of roughly 650 formal 
cost estimates. It is worth emphasizing that the formal 
estimates are just the tip of the iceberg because more and 
more, we are being asked for informal estimates or proposals at 
early stages of the legislative process. We will do, literally, 
thousands of those in the coming year.
    We also expect to release approximately 100 analytic 
reports and other publications, covering our budget and 
economic outlook, analysis of the President's budget, long-term 
budget projections, monthly budget reviews, and in-depth 
analyses of a broad range of policy issues, including 
healthcare delivery and financing, policies for increasing 
economic growth and employment, tax reform, and proposals to 
address the country's long-term budgetary imbalance.
    In fulfilling our mission, the CBO relies on a highly 
skilled workforce. Most of our analysts have advanced degrees 
and are in high demand outside the Government and in agencies 
in the executive branch. So we need to recruit them and retain 
them in a highly competitive job market.

                      <greek-l>CBO deg.CBO BUDGET

    As a result, about 90 percent of our budget represents 
compensation for the agency staff. About 5 percent is for IT 
equipment and services, and the remainder is for training, 
office supplies, and other items.
    Therefore, the contour of the CBO's budget is closely 
linked to the agency's staffing level. The staffing level is, 
in turn, closely linked to the output we can provide to the 
Congress.
    Of course, we do not expect and are not requesting to be 
spared from the budget stringency facing the rest of the 
Federal Government. Our proposed budget for fiscal year 2012, 
prepared a few months ago, is equal to the total resources that 
were provided to the agency 2 years earlier, in 2010. That 
represents a scaling back of the multiyear staffing plan that 
was the basis for our budget request last year.
    As you noted, Mr. Chairman, comparing our 2012 budget 
request with our 2010 resources is complicated by the fact that 
the agency received a 2009 supplemental appropriation, which 
was available for use in 2010 as well. And the figure I think 
you may have in front of you and is in the written testimony 
tries to summarize that situation.

                  <greek-l>CBO deg.SUPPLEMENTAL FUNDS

    A small amount of supplemental funds was used in 2009. Most 
was used in 2010. Indeed, the CBO's regular 2010 appropriation 
was reduced to take account of the availability of those 
supplemental funds.
    As a result, the CBO's overall resources received little 
net boost from the supplemental, and the 2010 regular 
appropriation was artificially low. The CBO's request for 2012, 
the far right bar in the picture, of $46.9 million equals our 
2010 appropriation of $45.2 million, plus the $1.7 million from 
the 2009 supplemental that was used in 2010.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

              <greek-l>CBO deg.CURRENT FISCAL YEAR FUNDING

    But let me say just a few words about our funding in the 
current fiscal year. Like the rest of the Government, we have 
been operating under a continuing resolution so far. The 
funding for the CBO has been equal to the agency's regular 2010 
appropriation, as shown in the figure. But that represents an 
effective cut in resources relative to last year because only 
$45.2 million of last year's funding came from the regular 
appropriation, with the rest coming from the supplemental.
    As a result, if the CBO's funding for this fiscal year 
remained at the continuing resolution level, we would face a 
reduction of about 4 percent in our funds relative to last 
year. If our funding for this year is cut below the continuing 
resolution level, we would face, of course, a larger reduction 
relative to last year's resources. For example, if the CBO's 
funding was cut 5 percent below the continuing resolution 
level, we would face roughly a 9 percent cut from the funding 
provided for 2010.
    In recognition of the possibility of a cut relative to the 
continuing resolution level, we have stopped hiring, except for 
a small number of key management positions that have come open. 
We have delayed purchases of IT equipment and other things, 
purchases of data for our analysis, canceled our summer 
internship program on its paid basis, and cut back sharply on 
travel and training.
    Without new hiring, attrition will lead to a reduction in 
the size of the CBO staff. Still, because the continuing 
resolution level is already below last year's funding, a 
further significant cut relative to the continuing resolution 
level would probably require a more rapid decline in staffing 
than can be achieved through attrition alone.

                           PREPARED STATEMENT

    In closing, I want to thank the subcommittee for the 
support you provide to the CBO, enabling us to carry out our 
responsibilities to provide budgetary and economic information 
to the Congress.
    Thank you.
    [The statement follows:]

               Prepared Statement of Douglas W. Elmendorf

    Mr. Chairman, Senator Hoeven, and members of the subcommittee, 
thank you for the opportunity to present the Congressional Budget 
Office's (CBO) budget request for fiscal year 2012.
    The CBO's mission is to provide the Congress with objective, 
impartial analyses of budget and economic issues, including the 
information and cost estimates needed for the Congressional budget 
process. In fulfilling that mission, the CBO depends on a highly 
skilled workforce. Roughly 90 percent of the CBO's budget represents 
compensation for the agency's staff, about 5 percent is for information 
technology (IT) equipment and services, and the remainder is for 
training, office supplies, and related items. Therefore, the contours 
of the CBO's budget and the agency's staffing level are closely linked.
    The CBO's proposed budget for fiscal year 2012--$46.9 million--is 
equal to the total resources that were available to the agency 2 years 
earlier, in 2010. This proposal incorporates a scaling back of the 
multiyear staffing plan that was the basis for the agency's 2011 budget 
request. Even with a reduction in proposed staffing, supporting the 
work of the agency in 2012 with the same resources provided in 2010 
would be possible only by significantly restraining salaries and 
spending on IT. Neither of those two actions can be sustained 
indefinitely without diminishing the support that the CBO provides to 
the Congress.
    Comparing the CBO's 2012 budget request with its 2010 resources is 
complicated by the fact that the agency received a 2009 supplemental 
appropriation, which was available for fiscal year 2010 as well. In 
fact, most of it was used in 2010, and the 2010 appropriation was 
reduced to take account of the availability of those supplemental 
funds. As a result, the CBO's overall resources received little net 
boost from the supplemental appropriation, and the 2010 appropriation 
was artificially low. The CBO's request for 2012 equals the agency's 
2010 appropriation of $45.2 million plus the $1.7 million from the 2009 
supplemental appropriation that was used in 2010.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                <greek-l>cbo deg.RECENT FUNDING HISTORY

    Between fiscal year 2001 and fiscal year 2008, the number of full-
time-equivalent positions (FTEs) at the CBO averaged 230, and the 
number varied little from year to year. In 2008, however, the CBO 
became concerned that it did not have sufficient resources to analyze 
policy changes regarding the delivery and financing of healthcare that 
were emerging as a critical issue in the Congress. In addition, the 
agency was delivering an increasing number of testimonies and formal 
cost estimates and engaging in a growing amount of informal 
communications with congressional staff on a wide range of topics, so 
shifting a significant number of positions from other areas in order to 
analyze healthcare proposals did not seem feasible.
    Accordingly, the CBO proposed to the Congress a multiyear plan to 
boost the size of the agency to 259 FTEs, an increase of a little more 
than 10 percent. The Congress approved the first leg of the proposed 
increase in the CBO's fiscal year 2009 budget, and the agency averaged 
242 FTEs that year. As expected, analyzing competing healthcare 
proposals absorbed a huge share of the CBO's resources. At the same 
time, the financial crisis led to a jump in the Federal Government's 
involvement in the financial sector (including the creation of the 
Troubled Asset Relief Program, the conservatorship of Fannie Mae and 
Freddie Mac, and expanded activities of the Federal Reserve and the 
Federal Deposit Insurance Corporation), which increased congressional 
demand for analyses, budget projections, and cost estimates in that 
area. Consequently, during the course of fiscal year 2009, the Congress 
approved a 2-year supplemental appropriation of $2 million, aimed 
particularly at enhancing the CBO's ability to analyze complex health 
proposals. Of that amount, the CBO used about $0.3 million during 
fiscal year 2009 and remaining $1.7 million in 2010.
    For fiscal year 2010, the Congress approved an appropriation of 
$45.2 million for the CBO. That amount was $1.2 million less than the 
agency's request for that year, reflecting the availability of funds 
from the 2009 supplemental appropriation. The total funding of $46.9 
million--$45.2 million from the regular appropriation and $1.7 million 
from the earlier supplemental appropriation--was intended to support an 
additional 12 FTEs ``to increase CBO's capacity to analyze healthcare 
policy, financial and housing markets, and other areas of high 
Congressional interest.'' Accordingly, the CBO averaged about 250 FTEs 
during fiscal year 2010.
    For fiscal year 2011, the CBO requested $47.3 million in funding to 
support 258 FTEs, which would have essentially completed the multiyear 
increase that the agency proposed 3 years ago. The enactment last year 
of significant healthcare legislation has made the CBO's regular budget 
projections and analyses of most healthcare proposals much more complex 
and labor-intensive than had previously been the case. Moreover, the 
demand for analysis of major new healthcare proposals has abated only a 
little. In addition, the depth and duration of the economic downturn, 
as well as the surge in Federal debt and projected deficits, have led 
the Congress to ask the CBO for more analyses on a range of economic 
and budgetary issues.
    Like the rest of the Federal Government, the CBO has been 
functioning under continuing resolutions so far in fiscal year 2011. 
The funding for the CBO has been equal to the agency's regular 2010 
appropriation--but that represents an effective cut in resources, 
because only $45.2 million of the CBO's $46.9 million in 2010 funding 
came from the regular appropriation. If the CBO's funding for 2011 
remained at that continuing resolution level, the agency would have 
about $1.7 million less to work with this year than in 2010--a 
reduction of about 4 percent.
    If the CBO's funding for 2011 was cut below the continuing 
resolution level, the agency would face a larger reduction relative to 
its 2010 resources. For example, if the CBO's funding was cut 5 percent 
below the continuing resolution level, the agency would face roughly a 
9 percent total cut from the funding provided for 2010. In recognition 
of the possibility of a cut relative to the continuing resolution 
level, the CBO has stopped hiring (except for a small number of key 
management positions that have come open), is delaying purchases of IT 
equipment and other things, has canceled its paid summer internship 
program, and has cut back sharply on travel and training. Without new 
hiring, attrition will lead to a reduction in the size of the CBO 
staff. Still, because the continuing resolution level is already below 
last year's funding, a further significant cut relative to the 
continuing resolution level would probably require a more rapid decline 
in staffing than could be achieved through attrition alone and 
therefore would probably require a reduction in force.

  <greek-l>cbo deg.SOME DETAILS OF THE CBO'S FISCAL YEAR 2012 BUDGET 
                                REQUEST

    In fiscal year 2012, the CBO will continue to focus on its core 
functions of providing nonpartisan budgetary and economic information 
and analyses to the Congress, including budget and economic outlook 
reports, an analysis of the President's budget, long-term budgetary 
projections, cost estimates, mandate statements, and scorekeeping 
reports. In addition, the CBO will continue to prepare in-depth 
analyses of a broad range of program and policy issues, as requested by 
committees or Members. The specific issues that the Congress will be 
addressing in 2012 will, of course, depend on circumstances at the 
time, but the CBO's analyses are likely to include work on healthcare, 
policies for increasing economic growth and employment, energy policy, 
tax reform, immigration issues, infrastructure, defense policy, the 
Government's role in financial markets, and proposals to address the 
long-term budgetary imbalance. The agency will devote effort to further 
improving its long-term analyses of legislative proposals for 
healthcare, Social Security, and broad fiscal policy changes by 
continuing to develop its budgetary and economic models.
    The CBO anticipates a workload of roughly 650 formal cost estimates 
(most of which include both estimates of Federal costs of legislation 
and assessments of the cost of mandates in the legislation that would 
affect State, local, and tribal governments or the private sector) and 
thousands of informal estimates; approximately 100 analytical reports 
along with other publications; and a substantial schedule of 
congressional testimonies. The formal estimates are just the tip of the 
iceberg because, more and more, the CBO is being asked for informal 
estimates of the budgetary impact of proposals at early stages in the 
legislative process and of potential floor amendments.
    Recognizing the stringency of the Government's budget situation, 
the CBO proposes to cut short the planned multiyear increase in the CBO 
staff and to continue with the currently budgeted number of 254 FTEs 
for fiscal year 2012. In addition, consistent with the rest of the 
Federal Government, the CBO is not providing any across-the-board 
increase in salaries for employees in calendar years 2011 or 2012 and 
has reduced the size of performance-based pay raises.
    Specifically, the CBO's request supports the following:
  --$32.2 million for personnel compensation;
  --$10.4 million for personnel benefits; and
  --$4.3 million for services, equipment, training, and supplies.
    Funding at this level would enable the CBO to continue to provide 
the kinds and quantity of estimates and analyses that the agency has 
been producing for the Congress during the past 2 years.
    In closing, I would like to thank the subcommittee for the support 
it has provided the CBO, enabling the agency to carry out its 
responsibilities to provide budgetary and economic information to the 
Congress.

    Senator Nelson. Thank you.
    The votes were supposed to begin at 3 p.m. They have moved 
it up.
    But let me ask a couple of questions first before I go. Mr. 
Boarman, I heard from a colleague that we are now into 
paperless production of information. Therefore, we don't need a 
``printing office.'' Perhaps we ought to consider changing the 
name of your office to something ``communications'' or whatever 
it is to avoid having that happen because, obviously, it is not 
simply about printing. Certainly not just printing on paper, 
although obviously that is one of the major things that we 
have.
    Not everybody is IT trained or able to pull everything up. 
So we are still going to be stuck with paper in some areas. Can 
you tell me what percentage of your budget might be used in 
paper communication? Is that possible?
    Mr. Boarman. Well----
    Senator Nelson. Just a rough estimate.

                    <greek-l>GPO deg.PRINTING COSTS

    Mr. Boarman [continuing]. Yes. Using the Congressional 
Record as an example, about 70 percent of it is the IT side, or 
the pre-press. Getting it prepared, to putting it up online 
every night so that----
    Senator Nelson. You would have that expense anyway?
    Mr. Boarman. Exactly. And so, the 30 percent left for 
printing is the smallest piece of it because once the press 
starts to run, I mean, the first impression might cost you $250 
a page. After that, it is about a penny.
    I have met with a number of Members of Congress who have 
raised the very issue you did. Actually, I had a chairman of a 
committee say, you know, I have got a bunch of new Members who 
don't like Government, and they don't understand why we have 
printing. And when I explained to him, well, do they know that 
we have the digital platform, that we produce all of the 
information electronically every night, he said, ``No, they 
don't know that.''
    So we are going to try to educate Members so that they 
understand that the GPO is the only agency that provides the 
information so that you can go paperless. Now, if you decide to 
do that, I am sure there are going to be people printing copies 
out in their office. That is the thinking that is going on.
    And when you do that, it is nearly 7 cents a page to do it 
on your office printer. We can do it for 5.5 cents a page. And 
when a document gets above 64 pages, the cost per page drops to 
4 cents a page. And we print on both sides of the page. We 
print on recycled paper. We use vegetable oil-based ink, which 
is good for the environment and saves a lot of money.
    This is last night's Congressional Record. It is about a 
half an inch thick, printed on both sides. If you printed this 
out on an office printer, it would probably be this thick at 7 
cents a copy. And so, when I talk to Members and staffs, both 
in the House and Senate, they say we don't know how we could 
function without our Congressional Record.
    Let me just give you a couple of statistics. In 1994, we 
printed 20,000 copies of the Congressional Record every day. 
Today, we only print a little more than 3,700 a day. And of 
that, the House gets 950 copies, and the Senate gets 1,100, and 
the rest are distributed to depository libraries, the White 
House, and others. We get about 30 copies in our office for 
indexing.
    So we have dropped from 20,000 to 3,700 daily copies. And 
once the press starts to run, after we have done all of the 
infrastructure of building the platform to run it, it is very 
inexpensive to continue to print small quantities. I hope that 
answers your question.
    Senator Nelson. That does. And I think we need to get that 
information out.
    I will go vote and be right back.
    Thank you.
    We will continue.
    Your fiscal year 2012 budget request totals $148.5 million. 
It is $1 million above the 2010 enacted level, and is 
relatively flat. But you have a $1.4 million for the 
Presidential Inaugural. What is your timeframe for producing 
printed materials and credentials for the 2013 Presidential 
Inauguration?
    I know you can't start up the day of the Inauguration. But 
what kind of a timeframe are we looking at here? Is it within 
the parameter that some of this could be held off until the 
following year, or is it necessary to print documents well in 
advance, which would mean that it would be included in this 
budget?

                  <greek-l>GPO deg.INAUGURAL PRINTING

    Mr. Boarman. Well, historically, Mr. Chairman, I think that 
for each Inauguration, the money is asked for and appropriated 
in this particular cycle. And so, I am told that it needs to be 
in this budget.
    A lot of people don't understand that the Inauguration is a 
congressional event. They think of the parade and balls. But 
the Congress pays for the actual swearing-in ceremony, and I 
think this is a small portion of what you are actually going to 
lay out. But we do credentials. We do all the invitations and 
programs. We do all the tickets and signs for entry to the area 
for the Inauguration.
    And I think at some point, the Joint Congressional 
Committee on Inaugural Ceremonies will be coming together in 
fiscal year 2012, and they will be spending money. And so, my 
understanding is, that is why it is there.
    Senator Nelson. And I hope that in putting the preparations 
together, I know it is not all your responsibility to direct. 
You have got security issues. You have got other things.
    Mr. Boarman. Right.
    Senator Nelson. This is essentially the documentation or 
anything that is related to that?
    Mr. Boarman. Right. And of course, we did do credentials 
last time. We had probably the most secure credentials in the 
history of the Inauguration, the GPO did. But my understanding 
is the Capitol Police did pay for that, and so it came out of 
the legislative branch, but it was not out of the GPO's budget.
    Senator Nelson. When it comes to Capitol improvement costs 
that are being appropriated through the revolving fund, you 
request $6.3 million for two Capitol improvement projects: one, 
FDSys at $5 million and, two, the GPO Business Information 
System at $1.3 million.
    Why are these costs separated out for a specific 
appropriation rather than being factored into and charged to 
all agencies as part of the cost of doing business?

                   <greek-l>GPO deg.INVESTMENT FUNDS

    Mr. Boarman. Well, these are essentially additions to 
working capital for our revolving fund, which is where our 
monies for investment come from. And we do have money in that 
fund from other agencies. For instance, the State Department 
allocates money to our capital improvement fund, but it can 
only be used, obviously, for capital improvements for passport 
issues and State Department issues.
    This digital technology is so expensive. I had a meeting 
with Congresswoman Jo Ann Emerson from Missouri yesterday, and 
she is a member of the Legislative Branch Appropriations 
Subcommittee on the House side, and she also serves as chair of 
their Financial Services Subcommittee.
    And she was saying to me that the cost of this IT is just 
out of hand, and you have got to try to get a handle on it. The 
Congress has made a tremendous investment in the FDSys program. 
Probably from 1994 on, when GPO first went online, maybe $100 
million. In the last 5 years, maybe $40 million to get us to 
where we are.
    Now we have to maintain this platform as well as our Oracle 
system. We can't allow them to collapse. I am not an IT expert, 
but I have people that are, and they tell me in order for us to 
make sure that we can authenticate and do the other things that 
are necessary, this is what it is going to cost.
    Additionally, we are working in cooperation with the LOC, 
and they are helping us digitize a lot of the older documents. 
Everything from 1994 on, we have been able to digitize. But 
before that, it all has to be digitized.
    So these things are what the money is for, and in view of 
their importance to the Congress, I think it is appropriate 
that they are funded by appropriations to the revolving fund.
    Senator Nelson. Thank you.

   <greek-l>GAO deg.GAO RESOURCES USED TO OVERSEE THE TROUBLED ASSET 
                         RELIEF PROGRAM (TARP)

    Mr. Dodaro, your fiscal year 2012 budget request totals 
$556.8 million in appropriated funding, which is the same as 
the fiscal year 2010 level and totals the same level of 
staffing at 3,220 FTEs. Now, in your budget submission, we 
noted that you have an additional 25 FTEs that are reimbursed 
by the Department of the Treasury for TARP-related work.
    If you know, how much does the Department of the Treasury 
pay in reimbursement for those 25 FTEs? And perhaps, as well, 
how long will these 25 FTEs be dedicated to the TARP-related 
activities?
    Mr. Dodaro. As you will recall, when the TARP program was 
created in October 2008, it was outside of the normal 
appropriations cycle. So we never built funding for it into our 
appropriation.
    I am told here that it would be approximately $7.1 million 
in fiscal year 2011 for 30 FTEs and $5.2 million in fiscal year 
2012 for 25 FTEs that is reimbursed. Now the law requires that 
we provide reports every 60 days on the TARP program. Given the 
status of the program now, I am planning to seek legislative 
relief to provide less frequent reporting, which I think is 
appropriate given the status of the program.
    The Economic Stabilization Act requires us to audit TARP 
money until the last dollar is repaid. So we are in it for the 
long haul, until AIG and the automakers repay their loans. The 
home mortgage modification program is set to expire at the end 
of 2012, but for other entities that have to repay the money, 
it could take a significant amount of time.
    But we are hoping our costs go down, and we are also 
required to do an annual financial audit of the TARP funds, 
which we do.
    Senator Nelson. One would hope that when we are down to the 
last dollar, we wouldn't still have the need for 25 FTEs. So I 
am assuming there will be some point in time when the numbers 
become less significant and we might be able to find another 
way to do this, which wouldn't add to the total cost with a 
significant number of FTEs?
    Mr. Dodaro. I expect that figure to go down gradually as 
the money is repaid. And if I can get legislative relief from 
the 60-day reporting requirement, that would further reduce the 
costs.
    Senator Nelson. Well, keep us posted on how you are doing 
in terms of getting legislative relief because we certainly 
would be supportive of every effort to do that, recognizing 
that you are still going to have a need for a certain number. 
But hopefully, that would reduce the requirement.
    Mr. Dodaro. Yes, it would. I would note also in the Wall 
Street Reform Act that was passed last July, there were 44 new 
mandates for GAO work, and very few of those involved 
reimbursement.
    Senator Nelson. Expect that to happen in your spare time.
    Mr. Dodaro. Yes.
    Senator Nelson. Thank you.

      <greek-l>GAO deg.METHODOLOGY BEHIND GAO'S REPORT ON PROGRAM 
                       DUPLICATION--GAO-11-318SP

    We are looking at your March 1 report on redundancy in 
Government. I am going to pay close attention to it because I 
think it is important that if we are going to be cutting our 
budget we need to be aware of where there is redundancy and how 
we can root it out and save the taxpayers money. Because that 
is, at the end of the day, what we want.
    So you highlight this report. Can you tell us a little bit 
about your methodology and how you came about to actually 
producing this report? Did you consult with the CBO or the 
Office of Management and Budget (OMB)? At the end of the day we 
are all interested in the same thing, but maybe you can help me 
understand how the GAO went about doing this?
    Mr. Dodaro. We first did research on existing GAO studies 
where we had tackled this issue across the Federal Government. 
In fact, many of the items covered in the report we had already 
looked at as a result of requests from more than 60 percent of 
the committees in the Senate and in the House.
    We also looked at other reports--the CBO, the OMB, what was 
in the President's budget submission--as opportunities to 
reduce overlap and duplication. We did literature reviews on 
studies by think tanks and others to gather an inventory. We 
tapped into our institutional knowledge of the Government to do 
initial work going forward.
    The original concept was to cover the entire Federal 
Government over a 3-year period. This was our first 
installment. We are doing our planning activities right now for 
year 2 and year 3, and we are going to create a methodology to 
make sure that we cover all areas where there are potential for 
overlap and duplication.
    We also had extensive consultations with the Congress. 
While the legislation did not require us to report to specific 
committees, we focused on the Appropriation Committees, the 
Budget Committees, and our oversight committees in the 
Congress. We had extensive consultations with them to get their 
ideas and to discuss our work plans with them. I felt that we 
did a very thorough job.
    Now we also added to the report, beyond overlap, 
duplication, and fragmentation, other ideas we had about cost-
savings opportunities and revenue enhancements to help provide 
a fuller menu for the Congress to look at, because they all 
have the same objective--how to reduce cost, and enhance 
Government revenues. And so our recommendations were based upon 
previous GAO work that we updated for the report.
    And we are also planning in future reports, Mr. Chairman, 
to include a listing of what actions were taken as a result of 
the prior year's report so there is a clear scorecard going 
forward.
    Senator Nelson. You were anticipating where I was going 
perhaps because that was my next point. It would be helpful to 
develop a scorecard because I suspect that as you went back and 
looked at other reports, some of the things that were suggested 
in the past were still not done and questions still not 
answered.
    So it would be helpful to know, as things are considered 
and as we move forward, whether or not your recommendations are 
being considered. And I am sure some of them will be 
objectionable to some folks, but not all of them. So, 
hopefully, that scorecard would help us see how we are doing in 
rooting out the redundancies.
    Mr. Dodaro. Yes, we will definitely do that.
    Senator Nelson. Dr. Elmendorf, I know you are concerned 
about making certain that we get it right with respect to your 
budget. And so, we are focused on that. I think we internally 
understand the discrepancies between numbers and years.
    So I suspect that if we don't get it quite right, we would 
ask for a CBO study to help us get that in order.
    Dr. Elmendorf. We trust you entirely, Mr. Chairman.
    Senator Nelson. In 2012, we notice that you have increased 
funding for your staff levels by 6.6 percent above fiscal year 
2010 enacted level, and you proposed to reduce funding for IT 
infrastructure by $1.2 million, or 51 percent below fiscal year 
2010 enacted.

                     <greek-l>CBO deg.IT RESOURCES

    While other agencies are using technology to improve their 
efficiency, you are actually cutting your IT. And I am not 
opposed to cutting. My question is what IT projects are you 
cutting, and how are you finding some efficiencies there to be 
able to do that perhaps could be shared with others as well?
    Dr. Elmendorf. I think what you are seeing there, Mr. 
Chairman, is principally a cycle in the replacement of aging 
equipment. For a number of years coming up to now, we did not 
have sufficient funds to keep up with the pace of advancing 
technology. We were able to direct a piece of our appropriated 
funds in the past few years, though, to catching up in a way.
    That is very important. One of the simple uses that we put 
that supplemental appropriation to was buying faster computers 
that could--which we could use to run our complicated models of 
the health insurance system more rapidly. So we are very 
attentive to the need to maintain high-level technology to keep 
our productivity high.
    But having made that investment now in the past few years, 
we see less need for that in the coming year or two, and we 
don't want to just buy new computers because they are new and 
out there. So we have deliberately scaled back on that. As we 
say in the budget, that is not sustainable for the long run. 
There will come a need to do that replacement later.

                    <greek-l>CBO deg.STAFFING LEVEL

    But in order to maintain the staffing level, which we think 
we need to provide the service we provide to the Congress, in 
the face of a competitive labor market for the people that we 
are trying to attract and retain while keeping the overall 
funding level for the agency in 2012, as we proposed it the 
same as it was in 2010, requires us to spend somewhat more on 
those people. And we have been able to do that in our proposal 
by squeezing down on the money we spend in other areas.

                    <greek-l>CBO deg.COST ESTIMATES

    Senator Nelson. Now you are anticipating a request for 
roughly, 650 formal cost estimates in fiscal year 2010, in 
addition to the thousands of informal estimates, and 
approximately, 100 analytical reports. If you could, help me 
understand what does it cost for a typical CBO analysis?
    Let us first take the formal request and then perhaps the 
informal. Of the formal requests, do you have sort of a 
ballpark number of what the cost is internally?
    Dr. Elmendorf. No I don't. Partly because there is a 
tremendous variation in the complexity in the cost estimates.
    Senator Nelson. And there probably is no average, right?
    Dr. Elmendorf. I think that is right. I mean, we do a lot 
of estimates that are a page or two pages. A single analyst 
might spend a few days talking to the various Government 
agencies or people in the private sector or whatever is 
necessary to learn enough to do the estimate well. So that 
would be just one analyst for a few days.
    Then we do other estimates, for example, of healthcare 
reform, where we had dozens of people working for months. So it 
is just tremendous variation. We haven't tried to calculate an 
average. I am not sure it would be very helpful.
    Senator Nelson. And in addition to having your own internal 
costs, don't you engage specialists outside to come and help 
where perhaps you don't have that level of expertise or you are 
looking for a second approach?
    Dr. Elmendorf. Yes, we do exactly that. We reach out to a 
lot of people on the outside who will help us for free. We talk 
to analysts and universities and analysts in the private 
sector, many of whom will just talk with us because they 
recognize that it is an opportunity for them to be helpful in 
important work.
    But on the other hand, there are some services we do need 
to pay for. We have a contract with actuaries. And when we do 
our work on health insurance, when we first started doing work 
on financial issues, the CBO did not have a very deep bench in 
that area. And as the Government plunged in to more and more 
large financial transactions, we initially hired some of those 
services from the outside.
    As we gained the capacity and built the capacity internally 
to deal with that, we stopped those contracts. We think, in 
many cases, over time we can acquire the knowledge ourselves, 
and that is a little cheaper. But when it is necessary for us 
to learn from outside people, we don't want to pretend we have 
all the knowledge in-house because we don't.

                  <greek-l>CBO deg.REQUEST FOR STUDIES

    Senator Nelson. When you are requested for a study, I know 
you have to prioritize what you currently have versus what you 
are being asked to do. Can you give me some idea of how, I am 
not asking who you put highest in priority, but how you 
prioritize, in general, other than by who is asking?
    Dr. Elmendorf. Well, so the who is asking is part of it. 
The Congressional Budget Act that established the CBO set our 
priorities as working first for the Budget Committees, then for 
the Ways and Means and Finance and Appropriations Committees, 
then for other committees and Members, to the extent time 
allows. So that does matter.
    We also try to focus on the proposals that are receiving 
the most attention in the Congress. In order to be the most 
helpful to the most Members that we can, we direct more energy 
to proposals that are moving through the legislative process 
that seem to be headed for action by committees, votes on the 
floor of the Senate or the House.
    And we consult with the Budget Committees, with the other 
main committees I mentioned, with the leadership in the Senate 
and the House on a regular basis to try to be sure that we are 
working on the projects that are most helpful. It is often hard 
to be sure what will be helpful.
    One recent example, when the House was debating on the 
floor H.R. 1, the continuing resolution, they had an open 
amendment process. I think there were more than 600 amendments 
that were filed. We produced cost estimates of more than 300 of 
them in the space of a frantic week.
    We tried to do the ones that seemed to be attracting the 
most attention among House Members. I am sure we didn't get 
that exactly right. We did the very best that we could, but the 
limitation on resources, of course, affects the amount of the 
product that we can provide to the Congress.

                 <greek-l>CBO deg.ENTITLEMENT ANALYSES

    Senator Nelson. Well, assuming that the Congress gets 
totally serious about dealing with entitlements and chooses to 
do all the entitlements at the same time, will your staff, at 
the current level, be able to deal with the requests that are 
going to be very obvious, such as, the analyses that are going 
to be requested for Social Security, Medicare, and perhaps on 
some other areas as well, Medicaid?
    Dr. Elmendorf. We will do our absolute best to keep up with 
the Congress. It is challenging. In the space of the last month 
or two, as we have worked on our updated baseline estimates and 
analysis of the President's budget that we will be releasing 
tomorrow, actually, we have had to put aside work on a variety 
of proposals that various committees in the Senate and the 
House wanted very much for us to move ahead on, and we told 
them that we can't do that now.
    So we are always setting priorities. We have lost a number 
of health staffers who I think basically were worn out by the 
events of the past 2 years. We have been able to hire some 
replacements. But we have stopped hiring now, given the budget 
situation. So we are leaner than I would like us to be, and I 
am more worried about that.
    But you and your colleagues should have confidence that we 
will work desperately hard to provide you what we can, given 
the resources that remain available to us.

                  <greek-l>CBO deg.STAFFING AND HIRING

    Senator Nelson. And that you will be totally candid about 
what your needs are at that time. Either you are adequately 
staffed for the requests, or if you are not, what the delay 
would be or what the cost to meet those requirements might be.
    Dr. Elmendorf. We try to be straightforward about that. As 
you understand, part of the problem is that one can't create 
the capacity overnight. So, for example, in the economist job 
market, much of the hiring happens in the winter. We had lined 
up a number of promising candidates to work in key areas that 
we expect the Congress to be pressing us for analysis in.
    We did not make job offers to those people. We cut that 
process off in midstream because of the uncertainty about this 
year's budget and next year's budget. It is not easy to hire 
those people now, in a sense. We have, for a number of those 
people, we basically passed on this entire annual cycle, and 
our next chance to hire many of those people will be next 
winter.
    It is just a peculiarity of the way this particular job 
market works. Other areas, we can hire more readily throughout 
the year. But even then, people don't come in with all the 
expertise usually that we need. We hire people who are 
terrifically well-trained and have various different 
experiences, but not necessarily doing the precise sort of work 
that we do.
    So we can't really ramp up overnight. And that is part of 
what concerns me is, given the freeze that we have on hiring 
now, that we will end up with attrition in areas that may not 
be--well, there is no good place, but maybe in the areas that 
would be of particular interest to the Congress. And if we 
don't have the funds to replace those people, then I am worried 
that we will not be able to do as much as we otherwise would be 
able to do.
    Senator Nelson. Thank you.

        <greek-l>GAO deg.GAO BALANCES RESOURCES WITH PRIORITIES

    Mr. Dodaro, would that be true in your case as well with 
the accountability requirements that are constantly being asked 
from you?
    Mr. Dodaro. Definitely. Our highest priorities are 
statutory requirements, either in law, conference reports, or 
committee reports because they are an expression of a broader 
congressional interest. By law, we also have to respond to 
requests from chairs of committees where we have the competency 
to do so. We treat ranking members the same to maintain our 
nonpartisan status, and then requests from Members of Congress.
    We haven't been able to respond to a request from an 
individual Member of Congress for many years because of the 
workload demands. But when unusual circumstances come up, as in 
the case of the TARP program, I thought it was reasonable to 
ask the Congress to have that reimbursed since it was outside 
of the appropriations cycle.
    The American Recovery and Reinvestment Act was a similar 
situation. The Congress gave us one-time funds of $25 million 
to help as we deployed people across the country to track the 
money.
    So when unusual requirements arise, I am not bashful in 
asking the Congress for help. Our base appropriation, if our 
request is granted, would be enough, I believe, to work with 
the committees on their highest-priority needs as we know them 
now.
    Senator Nelson. Mr. Boarman, what about yours? Obviously, 
you are affected by things that go on in the Congress. If 
priorities change or suddenly there is a workload increase, you 
are affected by that as well. How does that impact you, your 
budget, and your thinking about the future?

                     <greek-l>GPO deg.GPO STAFFING

    Mr. Boarman. Well, when I came onboard, Mr. Chairman, we 
had around 2,300 FTEs, and we are down to nearly 2,200. And so, 
in anticipation of a flat budget or less, we haven't hired 
anybody.
    But I am concerned on the operations side of the house 
where all the work is done and where the chargeable hours are, 
we are very, very slim in staffing. And these are the people 
that mostly work on the nightshift that come in and respond to 
the overnight needs of the Congress, and we are down to almost 
800 people in that area.
    I mentioned earlier in my testimony, we had 8,000 people 
working there when I worked there back 35 years ago. And just 
in the division that I worked in, we had 1,600. Today, we have 
800 in all of these different divisions--bindery, press, 
prepress, IT. So, obviously, I am concerned.
    But we get it. We know there is an issue, there is a 
problem here, and we are going to try to do the best we can 
with less. I have cut out all travel except what is necessary, 
and any hires have to come to me and be approved because we 
have no idea what the Congress is going to do with the budget. 
But we hope they will recognize that we are a valuable, 
valuable partner, and we provide, like Dr. Elmendorf and Mr. 
Dodaro, we provide services that I don't think anybody else 
could do for the Congress.
    I don't think you could operate, open your doors every day 
without the services we do. And I just hope that the 
Appropriations Committee will keep that in mind because we do 
work hard for you.
    Senator Nelson. Well, I will ask all three of you, is there 
something I should have asked that I haven't.
    Dr. Elmendorf. Well, Mr. Chairman, as usual, your questions 
were right on point.
    Senator Nelson. Well, thank you.
    Dr. Elmendorf. I think, I guess, the final thing I would 
say is that I think we are already doing as much as we can with 
the resources that we are provided. We strive every day to work 
hard and give the Congress the best value that we can for the 
resources we were provided with.
    And if the Congress decides that it wants a smaller CBO, 
that is, of course, the prerogative of you and your colleagues. 
But I think that should be done with an understanding that it 
will reduce the output that we can give you. There will be 
fewer cost estimates. The analyses will be less fully worked 
out. It will take longer to get things done. And obviously, 
that is what happens when one has to make hard choices about 
where to use resources.
    But I think cutbacks should not be made with a sense that 
somehow we will do more with less.
    Senator Nelson. Yes.
    Dr. Elmendorf. We are doing all we can. And I think if we 
get less, then we will, unfortunately, do less.
    Senator Nelson. Mr. Boarman.

                 <greek-l>GPO deg.GPO ESTIMATES OF WORK

    Mr. Boarman. Mr. Chairman, I think your first question was 
certainly the most important, and I was happy to have a chance 
to get that on the record because I think it is important.
    But beyond that, I think that what would concern me is that 
if our appropriation was so low and the Congress continued to 
order printing beyond what we were appropriated, we would still 
have to do the work. And then we would be in what is called 
deficit spending, and that is something that the Congress is 
trying to get out of.
    In our appropriations, we are asking for some additional 
money because of our estimates. We estimate what we think you 
are going to do. And it is based on historical data. If it is a 
Presidential election year, usually the Congress is in less 
than they are in a non-Presidential election year. And so, we 
make our best guess, but we are not always right. And so, when 
we come up short, we ask that we be paid for the work that we 
did.
    And so, if we estimate that you are going to print 700 
reports, and then you print 850, which I think was the case in 
the previous year, we have to print it. The law requires us to 
do that, and you require us to do that.
    So that would be the one thing if you would ask me that, 
that I would say we will do it. But at some point, it would put 
GPO in a position where the comptroller or the chief financial 
officer, who is sitting behind me, would be tapping me on the 
shoulder, saying, ``You know, we have no money to pay anybody. 
So we have to shut down.''
    And that would be a terrible thing. So I just ask you to 
keep that in mind.
    Senator Nelson. Well, thank you. You gave me an idea.
    Mr. Boarman. I didn't intend to do that.
    Senator Nelson. No, no. It just struck me that if we are in 
session less, there would be less paper, less printing, less 
work.
    Mr. Boarman. Well----
    Senator Nelson. You have to share that with the majority 
leader. As a matter of fact, if people have wanted us to give 
them less Government, this would certainly be one way to do it.
    Mr. Boarman  [continuing]. For years, I think Public 
Printers have told the Congress if you want to reduce your 
printing budget, you have to talk a little bit less.
    Senator Nelson. Never happened.
    Mr. Boarman. But that has never happened. So I mean, it is 
not up to me to decide how late the Congress stays in session 
at night. We stay there. When we see the light on in the Dome, 
we know we have got to be there all night and late into the 
morning, and we do whatever we have to do to get the 
Congressional Record and the bills and the hearings and the 
calendars and the reports.
    I get a report on my BlackBerry every morning from Lyle 
Green, who is sitting behind me, who is our Congressional 
Publishing Director, telling me we are going to be on time with 
this and we are going to be on time with that. And I go, 
``Whew.'' Because it is so important that we do these.
    The Congress pays for it, and we want to be on time. And 
most of the times we are.

   <greek-l>GAO deg.GAO ASSISTANCE HELPS THE CONGRESS MAKE INFORMED 
                               DECISIONS

    Senator Nelson. And we appreciate that.
    Mr. Dodaro, anything that I haven't asked that I should 
have?
    Mr. Dodaro. At the risk of giving you another idea, I would 
venture two points. One, I certainly understand the desire of 
the Congress to lead by example in cutting their own 
operations. But I think that the magnitude of our problems and 
challenges on the fiscal front are so significant that the 
Congress also ought to be asking whether it has the proper 
information and resources to make informed, difficult choices 
in the years ahead?
    And certainly, cutting both congressional staff and the 
support office staffs is something that bears a lot of careful 
deliberation and that consequences because I think the country 
want the Congress to lead by example, but also to make really 
well-informed decisions in what is going to be a difficult 
period for everybody in the country until we can get on a more 
sustainable path.
    The second point that I would make would be that the extent 
to which we can have some sort of stability over a multiple-
year period would really help us properly plan ahead. It is 
something I really never wanted to become an expert at, but 
managing under continuing resolutions is not an easy process. 
While I recognize that this is a difficult issue to deal with, 
I think that sort of stability would be the other idea I would 
try to leave you with.
    Senator Nelson. Well, your point is well made. In the 
absence of predictability and stability, no one could run a 
business. And the absence of that in our case makes it very 
difficult to continue to function at the level we need to. My 
hope is that we just voted for the last short-term continuing 
resolution and that the next effort at the end of this 3-week 
period we will finish out the rest of the year and the 2012 
budget we are working on right now will be treated in the 
ordinary course of business by regular order.
    And I hope that it is where we will be able to function. It 
certainly is a time when we want business to invest here at 
home. A stable Government, predictable policy, and predictable 
regulatory responses are all essential to the decisions to 
invest here. And where investment occurs is where jobs will be 
created.
    So this is why it is essential that we get out of this rut 
that we are in and just kicking the can down the road, for 
whatever purpose.

<greek-l>GAO deg.<greek-l>GPO deg.<greek-l>CBO deg.ADDITIONAL COMMITTEE 
                               QUESTIONS

    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                 Questions Submitted to Gene L. Dodaro
               Questions Submitted by Senator John Hoeven

                    <greek-l>gao deg.GENERAL BUDGET

    Question. Considering that the Government Accountability Office 
(GAO) budget request of $556.8 million is equivalent to the fiscal year 
2010 enacted level and the current fiscal year 2011 continuing 
resolution, under which the agency has been operating for the last 5 
months, would you please tell the subcommittee what steps has GAO has 
already taken to reduce costs?
    Answer. GAO is committed to implementing cost savings and 
efficiencies without diminishing our traditionally high-quality work 
that lays the foundation for critical decisionmaking and oversight by 
the Congress. This will entail difficult tradeoffs as we face 
increasing workload demands while trying to support the staff capacity 
of 3,220 full-time equivalents we need to maintain our level of service 
to the Congress without additional resources.
    In fiscal year 2010, we reduced hiring in anticipation of limited 
funding in fiscal year 2011. In fiscal year 2011, we further reduced 
hiring and have begun implementing significant reductions across a 
broad range of programs to streamline our operations, reduce 
discretionary spending, reduce and defer investments, and leverage 
technology to help us achieve our mission more effectively and 
efficiently. These areas include:
  --limiting hiring to only replace critical staff losses;
  --reducing staff travel while leveraging other means of 
        communication, including teleconference and video-conference 
        capabilities, whenever practical;
  --limiting contracts related to congressional engagements to those 
        that obtain critical subject or technical expertise;
  --limiting external training opportunities to staff who represent the 
        GAO at professional forums or necessary to meet certain 
        professional certification requirements, such as State bar 
        requirements;
  --deferring some security clearance upgrades for employees and 
        contract staff;
  --reducing the cost of operating our facility, including energy 
        consumption;
  --reducing contract support in information technology and other 
        sensitive areas;
  --deferring technology enhancements which would improve staff 
        efficiency; and
    deferring investments in critical infrastructure programs to 
improve aging building systems.
    Question. What percentage of GAO's budget covers staffing? How will 
reduced funding in fiscal year 2011 and 2012 impact support of 
congressional requests?
    Answer. As a knowledge-based organization, about 80 percent of 
GAO's budget funds staff compensation and benefits with the balance of 
our budget funding mandatory operating expenses, such as operating 
costs for our headquarters and field facilities, security services, and 
other critical infrastructure services required for ongoing operations.
    While difficult, reducing our costs is necessary to fulfill our 
goal to balance efficiency and productivity in a tight budget 
environment. Despite the added challenges, at a fiscal year 2010 
funding level GAO will still be able to meet the highest-priority 
congressional needs in a timely manner. We will outreach to the 
Congress to understand and set priorities to ensure that we focus on 
the most important issues for congressional oversight. However, if GAO 
is funded below the requested fiscal year 2010 funding level, it would 
negatively impact our ability to provide timely GAO to the range of 
congressional requests and mandates, increase the length of time it 
takes us to staff requested assignments, diminish our capacity to 
conduct engagements, increase the number of pending requests, and 
adversely impact our ability to effectively assist the Congress in 
addressing the broad array of challenges facing the Nation.
    Question. How many legislative mandates requiring GAO to do work 
have been written into law in the past year and how many individual 
legislative requests have been sent directly to GAO? Is this an 
increase or decrease over the previous year?
    Answer. Over the last 4 years, the number of congressional requests 
and legislative mandates averages almost 1,100 annually. In fiscal year 
2010, GAO received 979 congressional requests, including 173 
legislative mandates and 806 requests from committees, subcommittees, 
and Members requesting GAO to do work. In fiscal year 2010, the number 
of new legislatively mandated studies increased by more than 30 percent 
more than the prior fiscal year.
    We have identified a number of legislative mandates that we believe 
need to be modified or repealed. For example, many of the mandates 
impose recurring reporting requirements on GAO. We are outreaching to 
the appropriate committees to discuss the potential for legislative 
relief from these mandates. Eliminating these mandates would conserve 
resources while preserving the option for congressional committees to 
request GAO work in areas covered by the specific mandates.

                  <greek-l>gao deg.DUPLICATION REPORT

    Question. How does the first annual GAO report on ``Opportunities 
to Reduce Potential Duplication in Government Programs, Save Tax 
Dollars, and Enhance Revenue''--the ``duplication report''--differ from 
the High-Risk Series that the GAO has issued on a biennial basis since 
1990? Is the new report a duplication of effort on the part of GAO?
    Answer. The two reports have very different purposes. The primary 
purpose of the ``duplication report'' is to identify Federal programs 
or functional areas where unnecessary duplication, overlap, or 
fragmentation exists, the actions needed to address such conditions, 
and the potential financial and other benefits of doing so. From our 
prior work, we also highlighted other areas of potential cost savings 
or enhanced revenues. In contrast, the biennial high-risk report 
identifies Government operations that are at high risk due to their 
greater vulnerabilities to fraud, waste, abuse, and mismanagement or 
the need for transformation to address economy, efficiency, or 
effectiveness challenges. There are a limited number of areas 
identified in both reports as an opportunity to reduce potential 
duplication and as a high risk based upon one body of work. An example 
is food safety oversight which is highly fragmented. In addition, the 
current system has caused inconsistent oversight, ineffective 
coordination, and inefficient use of resources.
    We prepared GAO's first annual report to the Congress in answer to 
a statutory requirement included in the public debt limit increase that 
GAO identify Federal programs, agencies, offices, and initiatives, 
either within Departments or Government-wide, which have duplicative 
goals or activities. The Congress asked GAO to conduct this work and to 
report annually on our findings. This work will inform Government 
policymakers as they address the rapidly building fiscal pressures 
facing our national government. GAO's most recent update of its annual 
simulations of the Federal Government's fiscal outlook underscores the 
need to address the long-term sustainability of the Federal 
Government's fiscal policies.
    In the report, we included 81 areas for consideration based on the 
GAO's prior and ongoing work. We presented 34 areas where agencies, 
offices, or initiatives have similar or overlapping objectives or 
provide similar services to the same populations; or where Government 
missions are fragmented across multiple agencies or programs. These 
areas span a range of Government missions:
  --agriculture;
  --defense;
  --economic development;
  --energy;
  --general government;
  --health;
  --homeland security;
  --international affairs; and
  --social services.
    Within and across these missions, this report touches on hundreds 
of Federal programs, affecting virtually all major Federal departments 
and agencies. Overlap and fragmentation among Government programs or 
activities can be harbingers of unnecessary duplication. Reducing or 
eliminating duplication, overlap, or fragmentation could potentially 
save billions of tax dollars annually and help agencies provide more 
efficient and effective services. The areas identified in the report 
are not intended to represent the full universe of duplication, 
overlap, or fragmentation within the Federal Government. We will 
continue to identify additional issues in future reports.
    Given today's fiscal environment, we also presented 47 additional 
areas--beyond those directly related to duplication, overlap, or 
fragmentation--describing other opportunities for agencies or the 
Congress to consider taking action that could either reduce the cost of 
Government operations or enhance revenue collections for the Treasury. 
These cost savings and revenue opportunities also span a wide range of 
Federal Government agencies and mission areas.
    In 1990, we began our high-risk program to highlight long-standing 
challenges facing the Federal Government. Historically, we designated 
high-risk areas based on their increased susceptibility to fraud, 
waste, abuse, and mismanagement. As the program has evolved, we have 
increasingly used the high-risk designation to draw attention to the 
need for broad-based transformation to achieve greater efficiency, 
effectiveness, accountability, and sustainability of key Government 
programs and operations. This effort, supported by the Senate Committee 
on Homeland Security and Governmental Affairs and the House Committee 
on Oversight and Government Reform, has brought much-needed focus to 
problems impeding effective Government and costing billions of dollars 
each year. To help improve these high-risk operations, GAO has made 
hundreds of recommendations and the administration and agencies have 
addressed, or are addressing, many of them and the Congress continues 
to take actions that are important to helping resolve high-risk issues.
    In the past two decades, attention to high-risk areas has brought 
results. More than one-third of the areas previously designated as high 
risk have been removed from the list because sufficient progress was 
made to address problems. Further, progress had been made in nearly all 
of the areas that remain on GAO's list as a result of congressional 
oversight and action, high-level administration attention, efforts of 
the responsible agencies, and support from GAO through our many 
recommendations and consistent follow-up on the implementation of 
recommended actions. In three areas--strategic human capital 
management, managing Federal real property, and Department of Defense 
support infrastructure management--progress has been sufficient for GAO 
to narrow the scope of the high-risk issue. However, additional 
progress is both possible and needed in all 30 high-risk areas to save 
billions of dollars more and further improve the performance of Federal 
programs and operations.
    Question. If the Congress and the executive branch have not had 
ample time to address the issues detailed in the first report, and 
policy and funding changes have not been fully implemented, is it 
reasonable to assume that GAO will be able to produce a valuable 
duplication report on an annual basis?
    Answer. Yes. The original concept was to cover the entire Federal 
Government over a 3-year period. We are currently planning activities 
for year 2 and year 3. We plan to create a methodology to ensure that 
we cover all areas where there is a potential for overlap and 
duplication. Also, future reports will include a listing of the actions 
taken as a result of the prior year's report and actions that remain 
open.
    Question. What are the costs to GAO for compiling each of these 
reports? If committees and Members of Congress are going to continue to 
ask GAO to produce these reports, and at the same time provide reduced 
funding for the agency, it would be helpful to know the general cost 
associated with producing a report so that we might re-evaluate and 
streamline our own requests.
    Answer. As a knowledge-based organization, GAO's most significant 
resource is its staff. As a result, GAO manages engagements based on 
the staffing resources needed to conduct the engagement rather than 
applying a dollar or budget figure to represent the engagement's cost. 
In addition, we allocate staff resources and measure our performance by 
strategic goal rather than by engagement, as described in our annual 
``Performance and Accountability Report''. It should be noted that the 
data GAO collects and analyzes when conducting its work is often used 
on multiple engagements and because there are so many engagements that 
share data, it would not be cost-effective--or perhaps even possible--
to accurately isolate the cost of any particular engagement.
    To produce these reports we draw upon an extensive body of work 
across GAO, including ongoing and previously completed work. The body 
of work used in this effort was performed for a wide variety of 
committees and subcommittees in both chambers, including more than 60 
percent of the committees in the House and more than 60 percent of the 
committees in the Senate. Our first report on overlap and duplication 
also included updates to prior GAO work and recommendations, and in 
some cases, required that we complete ongoing work or conduct new work 
to identify what additional actions agencies may need to take and the 
Congress may wish to consider, and considered the work of other 
agencies such as the Office of Management and Budget and the 
Congressional Budget Office.
    Question. What are the benefits to GAO of compiling these reports? 
What sort of return does GAO's work generate for the taxpayer?
    Answer. As a result of the information contained in the GAO's first 
annual report on duplication and overlap, the Federal Government has 
the opportunity to save tens of billions of tax dollars annually by 
reducing or eliminating unnecessary duplication, overlap, or 
fragmentation and by addressing the other cost-saving and revenue-
enhancing opportunities contained in the report.
    Solutions to high-risk problems offer the potential to save 
billions of dollars, dramatically improve service to the public, and 
strengthen confidence and trust in the performance and accountability 
of the U.S. Government. In fiscal year 2010, we issued 151 reports, 
delivered 67 testimonies to the Congress, and prepared several other 
products, such as briefings and presentations, related to our high-risk 
work. In addition, we documented nearly $27 billion in financial 
benefits and 522 nonfinancial benefits related to high-risk areas. 
These results are based on reviews spanning a wide range of issues such 
as implementing and transforming the Department of Homeland Security, 
revamping Federal oversight of food safety, executing the 2010 Census, 
and managing Federal real property.

                   <greek-l>gao deg.GAO FIELD OFFICES

    Question. When GAO's field offices were established in the 1950s, 
there may have been a real need for setting these up around the country 
because of the limited ability to travel, the costs associated with 
travel, and the inability to gather and share information as easily and 
quickly as we can now in this instant communication age. Is it still 
necessary for GAO to maintain 11 field offices?
    Answer. As telecommunications, transportation, and access to 
information has improved, GAO has reduced the number of field locations 
from 43 to 11. We believe 11 offices are needed at this time. We 
periodically assess our field structure and believe it is appropriate 
to maintain field office locations to do original data collection and 
provide first-hand information on Federal activities and expenditures 
around the country. This information is obtained through direct 
observation, interviews, inspections, and examination of activities 
where the action takes place and Federal funds are spent.
    GAO's strategic plan for 2010 to 2015 discusses challenges facing 
the Nation and issues we plan to address over the next 5 years. 
Together with its headquarters' office, the GAO's field structure 
provides excellent coverage of Federal expenditures on such areas as 
national defense operations; protecting the homeland by securing ports, 
borders, and critical assets; management of the Nation's natural 
resources; and hundreds of billions of dollars in Federal aid to States 
and localities through programs that provide medical assistance, 
education, child nutrition, income support, and highway investment. 
Illustrative examples follow:
  --Much of GAO's national security work is conducted at military 
        facilities, such as the Aeronautical Systems Center (Air Force 
        Materiel Command) at Wright-Patterson Air Force Base in Dayton, 
        Ohio, which manages most major Air Force aircraft programs. Our 
        Norfolk staff recently completed work at naval commands in 
        Virginia such as the Aegis Training Center in Dahlgren, 
        Virginia and the U.S. Fleet Forces Command in Norfolk, 
        Virginia. In addition, Redstone Arsenal in Huntsville, Alabama 
        is home to the Army Aviation and Missile Command, the Army 
        Aviation Research, Development, and Engineering Center, the 
        Missile Defense Agency, and NASA's Marshall Space Flight 
        Center, and minutes away from our Huntsville field office.
  --A majority of our Customs and Border Protection work is performed 
        in the field. For example, our Los Angeles office offers easy 
        access to the Ports of Los Angeles and Long Beach, the Nations' 
        top two ports. It also is proximate to the Mexican border, 
        where much enforcement and interdiction activity is focused.
  --A large portion of GAO's healthcare work is done in our field 
        office locations. For example, our Atlanta staff is currently 
        performing work at the Centers for Disease Control, 
        headquartered in Atlanta.
  --GAO field staff conduct critical work in our western field offices 
        that are proximate to numerous facilities where nuclear weapons 
        development, nuclear cleanup, and other activities are subject 
        to GAO reviews occur. Maintaining a core group of GAO staff at 
        these field offices that has the necessary security clearances 
        to access sites and that has knowledge of associated programs, 
        allows the agency to accomplish its work more efficiently and 
        help inform multiple engagements simultaneously.
  --Most of GAO's oil and gas development and other work on Federal 
        lands occurs in the Western States; having staff positioned in 
        Denver, San Francisco, and Seattle has allowed us easy access 
        to these areas and to Federal and State offices and officials 
        who manage these programs. Ongoing work on oil and gas 
        development in the Gulf of Mexico has also benefited from the 
        participation of GAO staff in Dallas.
    Moreover, the ability to draw and retain top talent in locations 
with less competition for that talent than in Washington, DC allows the 
GAO to maintain a highly skilled, diverse workforce that lives and 
works where the Congress' constituents live and work. This provides the 
GAO the opportunity to recruit from a large pool of academic 
institutions, bringing diverse perspectives to our work from many 
regions of the country.
    In addition, GAO field staff partner with their accountability 
professional colleagues through the intergovernmental audit forums 
across the country with State and local auditors. This allows GAO to 
develop local, State, and Federal geographically dispersed networks to 
share information and best practices from all levels of government. 
These relationships were extremely beneficial when conducting our 
American Recovery and Reinvestment Act work as we quickly deployed 
field staff to cover 16 States for a 2-year period. These already 
established networks provided quick access to the organizational 
entities we needed to engage and allowed strong collaboration across 
the multiple layers of government.
    Question. Would there be any savings realized by GAO if any, or 
all, of the field offices were eliminated? Or would eliminating the 
field offices increase the travel costs for employees?
    Answer. GAO has not done a recent analysis to determine what if any 
savings could be realized through closure of some or all of the field 
offices. In order to continue to provide the same level of service to 
the Congress in future years, GAO would need to maintain our staff 
capacity, which includes subject matter expertise housed in our field 
locations. Theoretically, we would continue to incur the same types of 
costs whether staff are located in the field or in headquarters and 
could potentially increase travel costs as a result of closing offices 
in close proximity to many sites that we visit to conduct our work.
    GAO periodically revisits our field structure, resulting in 
multiple realignments over the years, specifically undertaking a number 
of initiatives to realign our field structure in response to changing 
conditions and workloads. The overriding goal of these initiatives has 
been to realize long-term efficiencies in the way we do our work. Most 
recently, we have taken actions to maximize efficiencies and reduce the 
costs of travel to maintain our current field structure (e.g., 
increased videoconferencing capability, virtual meetings, Internet 
Protocol television (IPTV), document sharing through technology, 
centralized training hubs, and e-learning.) With these cost-saving 
initiatives, coupled with the mission-related benefits, we believe that 
the decision to maintain our field structure is well supported.
    Question. I understand that GAO has established a field presence in 
Iraq and is working with the State Department on similar activities in 
support of its work in Afghanistan and Pakistan. Why is it necessary 
for GAO to have a permanent presence in these countries? How many staff 
will be stationed in these locations? Does GAO receive any 
reimbursement from the State Department for these activities?
    Answer. We currently have three long-term temporary duty staff 
stationed in the International Zone in Baghdad, Iraq. We plan to 
continue this level of presence into fiscal year 2012. The staff work 
on multiple GAO engagements related to U.S. military and civilian 
activities and afford us a firm oversight presence in the country that 
has been supported by numerous Members of Congress. We believe it is 
critical to have a limited number of GAO staff on the ground in Iraq to 
effectively carry out GAO's mission and to serve the broad interests of 
the Congress. The State Department and the Chiefs of Mission have 
afforded GAO excellent support and cooperation in our efforts to access 
the necessary data, facilities, and representatives of the Government 
of Iraq and other program implementers in Iraq. Our presence in Iraq is 
further necessary to address recent congressional mandates to assess 
the campaign plan for Iraq, review the effect of drawing down resources 
in Iraq, and evaluate contracting activities there.
    We are currently planning on establishing a presence in Afghanistan 
to meet congressional mandates and interests in the region. As is the 
case in Iraq, we believe having staff on the ground will allow us to 
establish the relationships and have ready access to information and 
people to be more responsive to concerns raised by the Congress. As in 
Iraq, we have congressional mandates to assess United States progress 
toward achieving goals in the integrated civilian-military plan and to 
evaluate contracting activities in Afghanistan. Having a presence in 
Afghanistan will enable us to leverage multiple GAO engagements related 
to United States military operational activities, civilian agency 
programs, and contract oversight of billions of dollars invested in 
Afghanistan.
    In late 2009, we requested State Department support in establishing 
a five-person temporary duty presence in Kabul, Afghanistan. We are 
currently awaiting State Department's approval of our request.
    We continue to conduct engagements in Pakistan, but we have no 
plans to establish a long-term presence at this time.
    The GAO does not receive any reimbursement from the State 
Department for these activities.
                                 ______
                                 
               Questions Submitted to William J. Boarman
               Questions Submitted by Senator John Hoeven

          <greek-l>gpo deg.CONGRESSIONAL PRINTING AND BINDING

    Question. Of the requested increase for congressional printing and 
binding, $1.39 million is required to reimburse the Government Printing 
Office (GPO) for services it provided to the Congress in fiscal year 
2009 beyond the funding that was appropriated for this account. Why was 
the estimated cost to cover congressional printing not sufficient to 
cover expenses in fiscal year 2009? Does a shortfall of this nature 
happen often?
    Answer. The estimated cost was not sufficient because the volume of 
printing required was underestimated. Based on past trends, GPO 
estimated that in fiscal year 2009, the volume of hearings would be 
about 263,000 pages and the volume of bills, resolutions, and 
amendments would be about 131,000 pages. The actual volumes were 
substantially higher, a total of 311,350 pages of hearings and 183,000 
pages of bills, resolutions, and amendments were required. There are 
often estimating variances in this account because GPO does not control 
the actual volume of work required to be performed. If a shortfall 
occurs, GPO is obligated to perform the work and temporarily finance 
the shortfall through its revolving fund. GPO will then seek to have 
the shortfall funded in a subsequent appropriation.
    Question. Almost $3 million of the requested increase for 
congressional printing and binding is attributed to estimated volume 
increases in some work categories, offset by decreases in other 
categories. How does GPO calculate the estimation for congressional 
printing and binding when formulating its budget request?
    Answer. The estimation is based on actual historical data for the 
specific categories of congressional work in past congressional session 
years and any known special printing requirements for the budget year. 
For example, in fiscal year 2012, obligations for the 2013 Presidential 
Inaugural will be incurred.

    <greek-l>gpo deg.SALARIES AND EXPENSES OF THE SUPERINTENDENT OF 
                               DOCUMENTS

    Question. I understand that $500,000 of the requested increase for 
salaries and expenses of the Superintendent of Documents is needed for 
legacy systems migration and modernization, and historical digitization 
projects that have been approved by the Joint Committee on Printing in 
collaboration with the Library of Congress (LOC). Please describe for 
the subcommittee the legacy systems and historical digitization 
projects that would benefit from this funding. What is the plan for 
digitizing legacy collections of Federal publications? If the 
subcommittee is not able to provide the requested funding in fiscal 
year 2012, what is the impact to these projects?
    Answer. The GPO is migrating five critical legacy systems that are 
not currently supportable to a modern sustainable architecture (the 
Depository Distribution Information; Acquisitions, Classification, and 
Shipment Information; Automated Depository Distribution; Item Lister; 
and Amendment to Item Selection systems). This is called the Library 
Information System Transformation (LIST) Project, and it is part of an 
ongoing effort for system modernization that has been funded in the 
past. Approximately $400,000 is needed to complete the migration. An 
additional $100,000 is required to support an ongoing collaboration 
with the LOC to digitize historic printed issues of the Congressional 
Record dating to 1873. Lack of funding will result in project delays, 
and where legacy systems are concerned, will prolong the vulnerability 
of these dated systems to malfunction or breakdown.
    Question. Of the requested increase, $304,000 is for the annual 
operating costs of the Federal Digital System (FDSys). Is this an 
increase from previous annual operating costs? If so, why has this cost 
increased?
    Answer. The increase is attributable to necessary support tasks 
that were not initiated in fiscal year 2011, including support for 
parsers, applications, and developmental tools that has not been 
contracted for in fiscal year 2011. The GPO anticipates that an 
additional $304,000 will be required to support FDSys to enhance 
permanent public access and ensure system availability.

                    <greek-l>gpo deg.REVOLVING FUND

    Question. I understand that $5 million is included in the fiscal 
year 2012 budget request to continue the development of the FDSys. How 
much has been spent to date on getting this new system up and running? 
How much additional funding is necessary to complete the installation 
of this system? When it is completed, what is the anticipated annual 
cost of maintaining FDSys?
    Answer. FDSys is the successor system to GPO Access, our original 
Web site, which began operations in 1994 and provided free online 
access to information from the Congress, Federal agencies, and the 
courts. FDSys provides free public access to the same range of 
information and features state-of-the-art content management and 
information search and retrieval systems that meet the needs of today 
Government information users. Through February 2011, total spending on 
FDSys has been approximately $43.6 million, and the GPO has completed 
release 1 of the system, which fully replaces GPO Access, including a 
failover continuity of operations capability. Release 2, which is the 
submission functionality of the system, is currently being developed. 
The costs of this work are expected to increase total system 
development costs to between $45 million and $50 million. In addition, 
annual operating costs are anticipated to be $3.25 million, including 
licensing, staffing, and system refresh costs (these costs are 
anticipated to decrease to the extent we can transfer contractor 
functions to the GPO staff). Future developmental costs, which are 
optional, could potentially reach $4.75 million annually. The funding 
requested for fiscal year 2012 is to complete development of release 2 
and help support annual operating cost requirements.
                                 ______
                                 
              Questions Submitted to Douglas W. Elmendorf
               Questions Submitted by Senator John Hoeven

                   <greek-l>cbo deg.DECREASE FUNDING

    Question. While I appreciate the fact that the Congressional Budget 
Office (CBO) has presented a budget request for fiscal year 2012 that 
represents no change from the funding level provided in fiscal year 
2010, if the subcommittee is not able to provide the full funding 
request for fiscal year 2012, what would be the impact to the CBO?
    Answer. The impact of a budget reduction in 2012 would depend on 
the magnitude of the reduction. If it were modest, CBO would try to 
accommodate that reduction in ways that did not significantly affect 
the amount of information and analysis we provide to the Congress. As a 
first step, CBO would reduce its nonpay spending--primarily for 
information technology--as much as possible without degrading necessary 
support requirements. But more than 90 percent of CBO's budget 
represents compensation for the agency's staff. (About 5 percent is for 
IT equipment and services, and the remainder is for training, printing, 
furniture, office supplies, and related items.) Therefore, a 
significant reduction in the agency's budget would necessitate a 
downsizing of CBO staff--preferably by attrition--but under some 
scenarios, layoffs might be necessary.
    Because the demand for CBO's analysis by the Congress already far 
exceeds the agency's current ability to provide it, reducing staffing 
could slow the production of cost estimates and mandate statements for 
pending legislation, delay analyses of large-scale budget proposals, 
limit the types and complexity of analyses the agency could undertake, 
reduce the number and scope of alternative legislative provisions the 
agency could examine, and decrease the number of amendments to bills on 
the floor of the House and Senate for which estimates can be generated. 
CBO would prioritize requirements to meet the most critical efforts 
required for the Congress to accomplish its mission. However, 
downsizing accomplished through little or no new hiring to replace 
departing staff would probably result in an allocation of staff that 
was not well-matched to Congress's needs.

                  <greek-l>cbo deg.IMPACT ON ANALYSES

    Question. What can the Congress do to change its requirements and 
expectations of the analyses that CBO provides, given the fact that we 
may have to decrease funding for the agency?
    Answer. Both the timeliness and the quantity of CBO's products 
could be affected. The agency would work closely with the budget 
committees to identify the ways to adjust CBO's output so as to 
maintain the most support possible for the congressional budget 
process.
    As specified by the Congressional Budget Act, much of CBO's work is 
for committees. They might need to allow more time between when bills 
are marked up and when they are reported in order to obtain CBO cost 
estimates and mandate statements for reported bills. (Those are 
required by the Congressional Budget Act.) Committees might seek less 
analytical support in drafting legislation in the form of fewer 
requests for cost estimates for alternative policy proposals and for 
broad policy studies--and they might need to allow for greater 
turnaround time on such work. The preparation of testimony is very time 
consuming; the CBO might need to limit testimony to the highest-
priority requests.
    When feasible, the CBO also tries to respond to requests for 
information from individual Members. If the CBO were smaller, Members 
would need to anticipate that fewer of those requests could be 
addressed. The CBO also has been doing more and more estimates for 
floor amendments; the leadership and the Budget Committees might need 
to allow more time for such estimates or allow for the fact that the 
CBO might be able to prepare fewer such estimates in the short time 
that is usually available.

                          SUBCOMMITTEE RECESS

    Senator Nelson. So I appreciate very much your answers and 
your proposals. Obviously, we are going to continue to try to 
work together to get this done in a fair and appropriate way.
    So thank you all.
    With that, we are recessed. Thank you.
    [Whereupon, at 3:58 p.m., Thursday, March 17, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                        THURSDAY, MARCH 31, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:31 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senator Nelson.

                          LIBRARY OF CONGRESS

STATEMENT OF HON. JAMES H. BILLINGTON, LIBRARIAN OF 
            CONGRESS
ACCOMPANIED BY:
        ROBERT DIZARD JR., CHIEF OF STAFF
        DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
        MARIA PALLANTE, ACTING REGISTER OF COPYRIGHTS, COPYRIGHT OFFICE

                OPENING STATEMENT OF SENATOR BEN NELSON

    Senator Nelson. The subcommittee will come to order.
    Good afternoon, everyone, and welcome.
    We meet this afternoon to take the testimony on the fiscal 
year 2012 budget request for the Library of Congress (LOC) and 
the Open World Leadership Center (OWLC).
    Senator Hoeven may be able to join us later, but he asked 
that we go ahead and proceed. And I hope to be joined by maybe 
one or the other of the other members of the subcommittee this 
afternoon as well.
    I want to welcome our witnesses today--Dr. James 
Billington, the Librarian of Congress and Ambassador John 
O'Keefe, Executive Director of the OWLC. It's always good to 
have you gentlemen here, and we look forward to hearing from 
you. It would be helpful if you could keep your statements 
brief, about 5 minutes, and we'll accept the rest of your 
testimony for the record.
    One thing we established at our first two hearings, and I 
think it bears repeating, is that we're in no position to 
entertain increases to the legislative branch budget this year. 
As you know, the fiscal year 2011 appropriations process has 
proven to be quite a challenge, as we find ourselves more than 
half the way through the fiscal year without a bill. And I 
don't imagine fiscal year 2012 is going to be an easy task for 
us, or an easy year for us, either. We're looking for your 
guidance in helping us to address your agencies' needs in 2012, 
but this is not the year for the ``nice to haves''. Senator 
Hoeven and I have looked forward to working with you in this 
regard, and we hope that we can create a partnership.
    Dr. Billington, I want to welcome you and your Chief of 
Staff, Robert Dizard Jr. On behalf of the subcommittee I want 
to thank you for your service as the Librarian of Congress for 
the last 23 years. Your service in this capacity is highly 
commendable, and is greatly appreciated.

           <greek-l>LOC deg.ACKNOWLEDGEMENT OF DAN MULHOLLAN

    I also want to take a moment to acknowledge Dan Mulhollan, 
Director of the Congressional Research Service (CRS), who's 
retiring this week--or next--after 42 years of service to the 
Congress. Dan joined the LOC in 1969 and has served as the 
Director of CRS since 1994. Prior to that he led CRS' efforts 
on issues such as the Watergate hearings, and a number of 
congressional reform efforts before becoming chief of CRS' 
Government Division in 1991.
    On behalf of this subcommittee I want to thank Dan for his 
invaluable service to the Congress, and to wish him all the 
best in his future endeavors.
    And I know that Dr. Billington is going to get that very 
last minute out of you before you leave. Please stand.
    Let's recognize Dan. Thank you.
    The LOC's fiscal year 2012 request totals $660.7 million, 
an increase of $23.3 million, or 3.6 percent more than the 
fiscal year 2010 enacted level. I understand that part of this 
increase is for information technology (IT) security 
enhancements totaling $2.75 million, and five additional full-
time equivalents (FTEs) for LOC.
    You're also requesting an increase of $4.6 million and 17 
additional FTEs for CRS.
    I also want to welcome Ambassador O'Keefe of the OWLC. Your 
budget request totals $12.6 million, an increase of $600,000, 
or 5 percent more than the current year. I strongly support the 
work of OWLC, and look forward to hearing your testimony, as 
well.
    Now we'll turn to Dr. Billington for his opening statement, 
followed by Ambassador O'Keefe.

             SUMMARY STATEMENT OF HON. JAMES H. BILLINGTON

    Dr. Billington. Thank you very much, Mr. Chairman. And 
thank you for recognizing Dan Mulhollan's extraordinary record 
of leadership.
    I should also point to one other person who hasn't appeared 
before--the Acting Register of Copyrights, Maria Pallante, who 
is here and is doing a wonderful job, as we look for new 
permanent leadership in both CRS and the Copyright Office.
    Mr. Chairman, the Congress of the United States has been 
the greatest patron of a library in the history of the world. 
All of us at LOC are deeply grateful that for the last 211 
years the Congress has created, sustained, and instructed its 
library through good times and bad. Thanks to the Congress, 
this institution has become, first of all, the world's largest 
collection of knowledge in almost all languages and formats; 
second, the closest thing we have to a mint record of American 
private sector creativity; and, third, the leading American 
public institution in both preserving information on the 
Internet and sharing collections online.
    LOC embodies key ideals on which this Nation was founded--
the rights of a free people to have unfettered access to the 
world's knowledge, to the record of our citizens' creativity, 
as well as material incentives for innovation. In this 
information age, what LOC is doing and can do for the United 
States of America is more important than ever. Our budget 
request for fiscal year 2012, Mr. Chairman, is designed to 
maximize our contribution to America and minimize the cost.
    Serving the Congress is LOC's top priority. And of course, 
CRS has--for almost a century--embodied the distinctive 
American ideal of a knowledge-based democracy. CRS serves the 
Congress exclusively, providing objective nonpartisan 
information and analysis for the first branch of Government, 
which also makes extensive use of our law library.
    In this time of rapid global change, both America's 
international economic competitiveness and our national 
security depend increasingly on knowledge and information drawn 
from every part of the globe. And that's precisely what you 
have in LOC--it's the mother lode of the Nation's strategic 
information reserve, increasingly essential for the successful 
work of the Congress and other Government agencies. Even as we 
speak, our Cairo office is systematically sending us the 
pictures, pamphlets, and social messaging of the current 
uprisings in the Middle East.
    LOC is making a unique contribution to education throughout 
America, and currently delivering--free of charge on the 
Internet--24.5 million items, mostly primary documents of 
American history and culture. We have also now begun to include 
in our widely used Web services similarly unique documents with 
expert comment from other world cultures, with authoritative 
commentary in seven languages, working with many of our 120 
partner institutions from all over the United States and the 
world. We're also working with more than 185 other U.S. 
partners from 44 States and 37 other national libraries in our 
congressionally mandated program for digital preservation.
    Almost all LOC programs provide one-of-a-kind national 
resources and services, services that no one else in either our 
public or private sectors arguably can reasonably be expected 
to replicate if we were to stop doing them.

             <greek-l>LOC deg.ADDRESSING FISCAL CHALLENGES

    Mr. Chairman, we want to address responsibly, at the same 
time, the massive fiscal challenges posed by the Federal 
deficit. For a number of years now, we've been submitting 
constrained budgets for which the committees have commended us. 
And, if we set aside the normal inflationary pay and price 
level increases that all Government agencies request, our 2012 
budget request would include less than 1 percent for our only 
two program increases in CRS and cybersecurity.
    Even under a best-case budget outlook, funding at the 
fiscal year 2010 level for both fiscal years 2011 and 2012 
would result in an effective budget cut of more than $31 
million, or 4.8 percent against the fiscal year 2010 base. This 
alone would require substantial program and staff sacrifices. 
And some of the reduction scenarios currently being proposed 
could cut to the bone and require us to take steps that not 
even past wars and depressions have forced the LOC to consider 
in its 211-year history.
    If faced with major cuts, we would have to ask ourselves 
where we should cut the core programs. In our de-acidification 
of brittle books and manuscripts that will then become 
unusable? In our cataloging and standards services for the 
Nation, that will increase the burden on already strained local 
and State libraries? In providing fewer books and magazine 
titles free to 800,000 blind and physically handicapped 
Americans, who generally read much more than sighted people?
    If we cut back our public services significantly, Mr. 
Chairman, we would reluctantly also have to consider 
furloughing or cutting back on personnel. Our dedicated, 
experienced, and multitalented staff account for 63 percent of 
LOC's overall budget, and 89 percent of CRS'. LOC is now doing 
far more work than in 1992, but with 1,076 fewer people on our 
staff, and half of those reductions have occurred just in the 
last 5 years.

                          PREPARED STATEMENTS

    In conclusion, I should say we are also critically 
dependent on sustaining the successful collections storage 
program at Fort Meade and ask for your approval of funds for 
construction of Module 5, which is included in the Architect of 
the Capitol's budget.
    America's oldest Federal cultural institution, Mr. 
Chairman, has become part of the infrastructure for innovative 
American leadership in the information age.
    I thank you again for your historic support of the LOC, and 
for your consideration of our fiscal year 2012 request.
    [The statements follows:]

             Prepared Statement of Dr. James H. Billington

    Mr. Chairman, Senator Hoeven, and members of the subcommittee: I am 
pleased to present the Library of Congress' (LOC) fiscal 2012 budget 
request.
    The Congress of the United States has been the greatest patron of a 
library in the history of the world. Mr. Chairman, all of us at LOC are 
deeply grateful for the Congress's support over the last 211 years.
    What the Congress created, sustained, and instructed its library to 
undertake through good times and bad has made this institution into--
  --the world's largest collection of knowledge in almost all languages 
        and formats;
  --the closest thing to a mint record of American private sector 
        creativity and innovation; and
  --the leading American public institution in both capturing transient 
        information on the Internet and sharing our collections online.
    In presenting our budget request for fiscal 2012, Mr. Chairman, I 
propose to answer three big questions that we have asked of ourselves--
and that you might well wish to ask of us at this time of so many 
pressing national concerns: What does LOC do that is important for the 
United States of America?
    LOC embodies key ideals on which this Nation was founded:
  --the right of a free people to have unfettered access to knowledge;
  --the necessity for a productive people to have material incentives 
        for innovation; and
  --the need to preserve the record of our citizens' creativity.
    Serving the Congress is LOC's top priority. LOC's Congressional 
Research Service (CRS) has--for almost a century--embodied the 
distinctive American ideal of a knowledge-based democracy. CRS serves 
the Congress exclusively. And LOC's law library also provides objective 
nonpartisan information and analysis to the first branch of Government.
    Never have the core activities of LOC been more important to 
America than now in the information age. Both our international 
economic competitiveness and our national security depend increasingly 
on knowledge and information drawn from every part of the globe. LOC is 
the mother lode of the Nation's strategic information reserve for the 
work of the Congress and other Government agencies. Even as we speak, 
our Cairo office is systematically sending us the pictures, pamphlets, 
and social messaging of the current uprisings in the Middle East.
    LOC is making a unique and original contribution to the all-
important crisis in K-12 education throughout America with its 
authoritative Internet outreach. We are delivering more than 20 million 
items free of charge, most of which are primary documents of American 
history and culture. We have also now begun to include in our widely 
used Web services similarly unique documents from other world 
cultures--drawing from our own collections and from many of our 135 
partner institutions from all over the United States and the world. We 
are also working with 167 other U.S. partners on our congressionally 
mandated program for digital preservation.
    A second--and crucial--question at this time is: Have we 
responsibly addressed the massive fiscal challenges posed by the 
Federal deficit, about which the Congress is understandably concerned?
    For a number of years now, we have been submitting constrained 
budgets. If we set aside the normal inflationary pay and price level 
increases that all agencies request, LOC in the last 4 years has asked 
for program increases averaging only 2.3 percent of the base budget. 
The committees have commended these modest requests.
    In fiscal 2012, LOC requests funding to meet a critical need to 
expand incident handling and response capacity to keep pace with the 
evolving IT security threat landscape. The enhancements include 
expanding the incident handling and response function to 24 hours a 
day, 7 days a week, 365 days a year. The enhancements also include 
advanced security incident and event monitoring, net flow analysis, and 
other systems and processes commonly used across other Government 
agencies.
    LOC also requests funding and 17 full-time equivalents for CRS, 
first requested in fiscal 2011, to broaden its expertise and strengthen 
analytical capacity in the areas of science and technology, healthcare, 
financial economics and accounting, and social policy related to 
employment, immigration, and the workforce. This funding will enable 
CRS to provide enhanced multidisciplinary analysis on complex and 
emerging policy issues before the Congress. Additional analytical 
capacity will also give CRS the long-term flexibility to adapt to 
rapidly changing issues and debates in these critical areas.
    These two program requests represent less than 1 percent of the 
fiscal 2011 continuing resolution base. The great bulk (77 percent) of 
our overall 3.45 percent requested increase is for the mandatory pay 
and price level increases of $18 million.
    LOC programs are not ``nice to have''. Almost all provide one-of-a-
kind national resources and services that no one else in either our 
public or private sectors can reasonably be expected to replicate.
    Even under a best-case budget outlook, funding at the fiscal 2010 
level for both fiscal 2011 and 2012 would result in an effective budget 
cut of more than $31 million, or 4.8 percent, against the fiscal 2010 
base. This alone would require substantial program and staff 
sacrifices. And some of the reduction scenarios currently being 
proposed could cut to the bone and require us to take steps that not 
even past wars and depressions have forced us to consider in LOC's 211-
year history. This possibility leads to a final question.
    How would we handle major budget cuts?
    We would have to ask ourselves where among the many services that 
we uniquely perform we should reduce funding: In our deacidification of 
brittle books and manuscripts that will then become unusable? In our 
cataloging and standards service that will increase the burden on 
already strained local and State libraries? In providing fewer books 
and magazine titles free to 800,000 blind and physically handicapped 
Americans who generally read much more than sighted people?
    Even if we cut back our public services significantly, we would 
reluctantly also have to consider furloughing or cutting back on 
personnel. Our dedicated, experienced, and multi-talented staff 
accounts for 63 percent of LOC's overall budget, and 89 percent of 
CRS'. LOC is now doing far more work than in 1992, but with 1,076 fewer 
people on the staff. Half of those reductions have occurred just in the 
last 5 years.
    We are also critically dependent on sustaining the successful 
collections storage program at Fort Meade and ask for your approval of 
funds for construction of Module 5--included in the Architect of the 
Capitol budget.
    Mr. Chairman, Senator Hoeven, and members of the subcommittee, 
America's oldest Federal cultural institution has become part of the 
innovative infrastructure of America in the information age. I thank 
you again for your support of LOC and for your consideration of our 
fiscal 2012 request.
                                 ______
                                 
  Prepared Statement of Daniel P. Mulhollan, Director, Congressional 
                            Research Service

    Mr. Chairman, Senator Hoeven, and members of the subcommittee: 
Thank you for the opportunity to present the fiscal year 2012 budget 
request for the Congressional Research Service (CRS). In addition to 
presenting our budget request and describing some of the support we 
have provided the Congress over the past year, I would also like to 
describe how CRS' mission of being a pooled resource shared by the 
entire Congress enables it to provide the information and analysis 
necessary for the Congress to perform its legislative and oversight 
functions in an efficient and economical manner.

          <greek-l>loc deg.CRS: POOLED STAFF FOR THE CONGRESS

    CRS has always viewed itself as an extension of congressional 
staff, a pooled resource that is available to all of the Congress. The 
range of its expertise and the disciplines that make up the 
informational and analytical capacity of CRS were intended to relieve 
Member and committee offices of the need to hire their own specialized 
experts to cover the many issues they confront on a daily basis. This 
was a primary rationale for the enhancement of CRS in the Legislative 
Reorganization Act of 1970.
    In that act, among other institutional changes, the Congress 
increased our permanent staff and the CRS was reconstituted from the 
Legislative Reference Service and established as a cost-effective 
shared resource available to every Member regardless of seniority, 
party or position, and to every committee. The House Committee on Rules 
Report on the 1970 act emphasized the importance of having such a 
nonpartisan resource accessible to all when it wrote that a shared 
staff would:

    ``Insure the equal availability of information to both Houses of 
Congress; insulate the analytical phase of program review and policy 
analysis from political biases and therefore produce a more credible 
and objective product and more easily develop common frames of 
reference and analytical techniques that would make such analyses more 
useful and meaningful to all committees.''

    The Rules Committee went on to stress the efficiency of such a 
shared research staff:

    ``Finally, the pooling principle underlying supplementary staffs 
makes them inherently more economical and efficient than dispersed 
staffs, for they can more easily reallocate resources as changing 
conditions and congressional needs warrant.''

    CRS was referred to as a ``research pool'' by the Senate Committee 
on Government Operations in describing a predecessor version of the 
1970 Legislative Reorganization Act.
    The House Committee's reference to CRS' ability to ``develop common 
frames of reference and analytical techniques that would make such 
analyses more useful and meaningful to all committees'' points to 
important hallmarks of CRS' work, namely its experts' familiarity with 
how issues are positioned in the legislative context, their knowledge 
of how the Congress and the law work and their insights into the 
decisionmaking processes of the executive agencies that implement the 
law. This, combined with institutional memory developed over years of 
working with Members and committees, make for a potent resource 
available nowhere else.
    We, of course, are prepared to do our part to achieve savings and 
contribute to the goal of efficient legislative branch operations. I 
feel that our request for additional staff in certain specialized areas 
is consistent with the vision of a CRS that efficiently serves all of 
the Congress. It is staff that can be shared with all Members and 
committees.
    We also plan to leverage web tools and client and management 
information systems to enable more focused and responsive support. In 
difficult budget times, CRS offers a model that achieves economies and 
savings and at the same time provides the expertise and resources the 
Congress needs to legislate in an informed manner and to effectively 
oversee the operations of Government.

               <greek-l>loc deg.SUPPORT FOR THE CONGRESS

    Highlights of the last session of the 111th Congress and CRS' 
preparations for the 112th Congress illustrate how CRS can bring to 
bear the breadth and depth of its expertise to provide continuing 
legislative assistance to Members and committees.
    Before the postelection session of the 111th Congress ended, CRS 
was planning for the 112th by identifying the issues that were likely 
to be on the legislative agenda, forming multidisciplinary teams around 
these current legislative issues, preparing and updating reports and 
positioning itself to help Members and committees more clearly 
understand the problems facing them and the country and identify and 
analyze options for dealing with them. We cluster this work around a 
current legislative issues framework which is an organizing principle 
for our collaborative work across the CRS and a primary means by which 
we present this work on our Web site.
    More than 160 issues were identified and, shortly after the 112th 
Congress convened, we had populated our Web site with relevant products 
and prepared overview issue statements for each of the issues. That 
array of analysis and information provides all Members access to the 
best thinking of CRS analysts and information professionals on the 
issues that are currently or likely to appear on the legislative 
agenda. The analysis and information are available to all. But just as 
important, if not more so, this body of work enables direct access to 
our experts, whose names, phone numbers and e-mail addresses appear on 
all of our reports. These experts stand ready to consult with Members 
and congressional staff, prepare tailored analyses of specific 
questions, and to regularly update their reports to reflect where 
issues are currently positioned in the legislative process.
    This anticipatory legislative planning work spanned several months 
and resulted in CRS being well placed to provide products and services 
to the incoming 112th Congress. However, as we all know, even the best 
planning cannot anticipate all issues that may suddenly confront the 
Congress. CRS has the analytical flexibility to address quickly 
emerging issues. For example, when the earthquake and tsunami struck 
Japan, CRS had reports on earthquakes, tsunamis, and relief efforts on 
its Web site within 24 hours. When security of nuclear plants quickly 
became an issue, CRS' body of work on nuclear energy and security was 
available and new reports, building on these previous reports, were 
added to provide the Congress with a full perspective on the crisis in 
Japan.
    In another example, the ousting of the President of Tunisia quickly 
fanned unrest in Egypt and other countries in the Middle East. As 
pressure mounted on President Mubarak to leave office, we quickly 
updated our reports on Egypt and other countries such as Bahrain, 
Yemen, and Libya that were experiencing popular uprisings and 
highlighted that body of work on the home page of our Web site. We also 
reorganized our current legislative issues framework for the Middle 
East to focus on the unrest that was engulfing the region. In addition 
to products focused on specific countries, analyses also treated the 
impact of the unrest on oil supplies, the security posture of the 
United States and the legal, military, and economic impacts of a no-fly 
zone over Libya. And, of course, our Middle East experts conducted 
numerous briefings and prepared tailored analyses of questions raised 
by the turmoil.
    The explosion of the Deepwater Horizon oil rig and its sinking in 
the Gulf of Mexico in April 2010 was another event that required CRS to 
mobilize its resources quickly. We prepared analyses of the 
implications of the spill and also posted new research resources on our 
Web site with links to news, relevant legislation, hearings in both 
chambers, and an oil spill events time line. CRS developed timely 
research and analytical support at every stage of the ensuing 
legislative process, including numerous hearings and development of 
legislative proposals. CRS specialists--with economic, scientific, and 
legal expertise--provided expert witnesses at hearings and collaborated 
with lawmakers on many aspects of Federal jurisdiction over Outer 
Continental Shelf resources, fisheries, worker safety, emergency 
response, insurance, and--after the well was capped--the use of moneys 
from the Oil Spill Liability Trust Fund for the Federal spill response 
and implications of the deepwater drilling moratorium.
    This confluence of our regular legislative planning work and the 
mobilization of our expertise in response to breaking events 
demonstrates how CRS can pool its resources and stand ready to serve 
the long- and short-term needs of the Congress. These first few months 
of the 112th Congress have underscored the contributions CRS can make 
to the policy debates in the Congress. CRS places the array of issues 
that the Congress is likely to face in a framework that is accessible 
and that discusses those issues in the legislative context in which 
they will be debated. And the CRS can respond quickly to events that 
can overtake the legislative agenda and demand the attention of the 
Congress and the country with focused analyses and ready availability 
of experts from all disciplines.
    I must also note another important aspect of our support of the 
Congress--our congressional operations work. We maintain a large body 
of reports and information on the procedures and operations of the 
Congress and these will soon be better integrated into our Web site 
offerings to make them more accessible. Our expertise on congressional 
procedure is unparalleled and we make that expertise available not only 
through reports and tailored work by legislative procedure analysts but 
also through an extensive education program of seminars on all aspects 
of the legislative process. We were able to bring this expertise to 
bear to assist the Senate in the confirmation process for Associate 
Justice Kagan and the impeachment proceedings against Federal District 
Judge Porteous, which resulted in his conviction and removal from 
office in December 2010.
    A number of high-profile events in the last session of the 111th 
Congress also demonstrate the breadth and depth of the support CRS 
provides to the Congress. 2010 saw enactment of major financial 
regulatory and healthcare legislation. With respect to the latter, CRS 
supported the Congress throughout the legislative process, including 
detailed analyses of proposals and numerous briefings and programs. CRS 
experts addressed such complex issues as the implications of changes in 
dependency coverage, establishment of State high-risk pools for 
individuals with pre-existing health conditions, the creation of small 
business health insurance tax credits, and also explored legal and 
policy issues associated with mandating that individuals purchase 
health insurance. After passage of the law, CRS prepared analyses of 
the numerous new entities created by the law as well as the steps 
needed to be taken in the rule-making process. Our attorneys have also 
tracked the continuing litigation over the validity of the law and 
analyzed the court decisions as they have been issued.
    With respect to the Dodd-Frank Wall Street Reform and Consumer 
Protection Act, lawmakers relied on CRS testimony, numerous reports and 
memoranda, personal consultations, programs and authoritative 
comparisons of legislative provisions contained in the House and Senate 
versions of the legislation. Our experts also supported congressional 
committees in overseeing the $700 billion Troubled Asset Relief Program 
(TARP) and examined other Federal assistance given to large financial 
institutions by the Federal Reserve.
    CRS analysis also addressed efforts in the last Congress to promote 
job creation and increase employment in the wake of the economic crisis 
and recession. Because of the severity of the recession and the 
subsequent slow pace of economic recovery, the Congress sought analysis 
and information on the relative depth of the recent recession compared 
to past recessions and on programs and policies that have the potential 
of helping unemployed workers secure work. CRS analyzed employment 
trends before and after the end of previous recessions, long-term 
unemployment and recessions, countercyclical job creation programs, the 
employment effects of infrastructure spending, and training programs 
available for unemployed workers.
    CRS provided support regarding numerous foreign policy issues in 
2010, including the wars in Afghanistan and Iraq, United States-
Pakistan relations, the Greek and European debt crises, trade issues 
with China, and Iran and North Korean sanctions. CRS experts also 
provided insight to the Congress as it began to explore the emerging 
areas of cyber security and other cyber operations, including the 
relationship between information operations and cyber warfare.
    Immigration reform re-emerged in 2010 and CRS was asked to assess 
various reform proposals as well as to analyze the actions that States 
were taking with respect to immigrants and border security. Tax experts 
analyzed the impact of various tax proposals including extending prior 
years' tax cuts. Military detainees, campaign finance, and gun control 
continued to be of congressional interest, the debates being influenced 
by recent court decisions. CRS attorneys and policy experts 
collaborated on analyses of these issues.
    The foregoing are examples of the degree of involvement of CRS in 
the legislative and oversight work of the last Congress as well as 
during the initial months of this Congress. The collaboration among 
multidisciplinary experts, the breadth of issue coverage, the ability 
to respond in the face of breaking events and the close proximity of 
CRS to the Congress all combine to enable CRS to serve efficiently as 
shared staff and a pooled resource to be drawn upon by all offices and 
committees of the Congress.

                 <greek-l>loc deg.CUSTOMER SATISFACTION

    I noted in my testimony last year, that the CRS, at the direction 
of the conference on the legislative branch appropriations bill, 
contracted with LMI, a not-for-profit strategic consulting firm, to 
independently evaluate CRS' current staffing models and procedures to 
determine how effectively we are meeting our statutory mandate. LMI 
conducted Member and staff surveys and interviews, reported on best 
practices for research organizations geared to ensuring responsiveness 
to client needs, and assessed communication channels that would ensure 
that CRS remains aligned with the work of the Congress and the needs of 
its clients.
    LMI found a high degree of satisfaction with CRS products and 
services and found us to be a reliable, timely and authoritative source 
of expertise for the entire range of congressional clients. We are 
addressing areas in which LMI recommended improvements based on the 
feedback it obtained, including examining our product line, improving 
our Web site and options to ensure that CRS availability is aligned 
with the operations of congressional staff. It was gratifying to 
receive the confirmation that we are doing a good job of serving the 
Congress. However, there is always room for improvement and it is all 
the more imperative in these challenging budget times that we remain 
the most efficient and cost-effective resource for the Congress that we 
can be.

            <greek-l>loc deg.FISCAL YEAR 2012 BUDGET REQUEST

    The CRS budget request for fiscal year 2012 is $117.1 million, with 
almost 90 percent devoted to pay and benefits for our staff. CRS 
continues to operate at its lowest staff level in more than three 
decades, and the small percentage of nonpay expenditures is limited to 
basic operational needs. The requested program increase will obtain 
additional specialized technical skills and policy expertise to expand 
the capabilities of CRS and meet the growing policy demands placed upon 
the Congress.
    An internal review of our capabilities to analyze the rapidly 
evolving and increasingly complex challenges facing the Congress 
identified gaps in the specialized skills needed for comprehensive 
multidisciplinary analyses and assessments. This budget request 
includes $2.7 million for 17 full-time equivalents (FTEs) needed to 
address these concerns. This will strengthen research capabilities in 
science, engineering and technology and the broader expertise in these 
areas will enable CRS to respond more readily to rapidly changing 
science and technology policy debates. The economic crisis and the 
major financial regulatory legislation enacted in its aftermath require 
additional CRS expertise in financial accounting, consumer protection 
and financial sector regulation in order to effectively support the 
Congress' legislative and oversight work in these areas. Additional 
expertise is also needed to support multidisciplinary research on 
policy options in the wake of the enactment of healthcare reform 
legislation as well as analysis of the potential effects of proposed 
changes in the organization, financing and delivery of healthcare 
services. Finally, CRS is asking for additional positions to address 
the many complex issues pertaining to employment, immigration, the 
workforce and the economic well-being of U.S. residents.

                               CONCLUSION

    This budget request identifies resources that I feel are needed for 
CRS to provide the full scope of information and analysis that is 
relevant to the work of the Congress. CRS developed this spending plan 
to ensure that returns justified the investment while cognizant of the 
difficult budget climate. My colleagues and I are committed to 
continually examine every activity and program for efficiencies and 
reduce or eliminate costs where possible while fulfilling our mission. 
We are proud of our unique role as a pooled staff resource for 
nonpartisan, confidential, authoritative, and objective analysis for 
the Congress.
    I want to thank you for your support and the support the CRS has 
received over the years that has made it into the institution it is 
today. This will be the final time I will submit testimony before the 
subcommittee. After 17 years as Director and 42 years with the 
Congressional Research Service, I am retiring from congressional 
service in April. It has been an honor and privilege to have served in 
a variety of capacities in CRS, an organization that I believe is 
critical to maintaining an informed national legislature.
    Thank you.
                                 ______
                                 
 Prepared Statement of Maria A. Pallante, Acting Register of Copyrights

    Mr. Chairman Nelson, Senator Hoeven, and members of the 
subcommittee: Thank you for the opportunity to present the fiscal 2012 
budget request of the U.S. Copyright Office.
    We deeply respect the commitment of the Congress to address the 
Federal deficit and Government spending, and we appreciate your 
consideration of our budgetary needs. Indeed, our talented and 
hardworking employees have always carried out the work of the Copyright 
Office with a sense of purpose and are fully prepared to share in the 
burden of these austere times. We are not seeking additional full-time 
equivalents (FTEs) or funding for new projects at this time. However, 
we do wish to ensure that our existing staff is compensated 
competitively so that we may maintain a highly skilled and motivated 
workforce at a time when copyright law is increasingly complex and the 
Office's services are increasingly technical and in demand. 
Specifically, our requests are as follows:
  --A 1.7 percent increase ($0.843 million) more than fiscal year 2011 
        to support mandatory pay-related and price-level increases 
        affecting administration of the Office's core business systems 
        and public services; and
  --A 1.7 percent increase ($0.095 million) more than fiscal year 2011 
        in offsetting collection authority of the Copyright Licensing 
        Division to support mandatory pay-related and price-level 
        increases affecting the administration of the Office's 
        licensing functions.

                   <greek-l>loc deg.PROGRAM OVERVIEW

    The U.S. Copyright Office has been part of the Library of Congress 
(LOC) since 1870. The Office administers the copyright law of the 
United States, which traces its roots to the Constitution. Principal 
functions of the Office include administration of the national 
copyright registration and recordation systems and the mandatory 
deposit provisions for published works. Each year, the Office acquires 
hundreds of thousands of books, films, sound recordings, and other 
creative works of authorship to LOC's national collection. In fiscal 
2010, the Office transferred 814,243 copies to LOC at a value of 
approximately $33 million.
    The Office also administers the compulsory and statutory license 
provisions of the Copyright Act, including licenses for satellite and 
cable transmissions. The Licensing Division is responsible for 
collecting and investing royalty fees for later distribution to 
copyright owners, examining related documentation, and recording 
certain licensing documents.
    In terms of the larger U.S. economy, many authors, composers, book 
and software publishers, film and television producers, and creators of 
musical works depend on the registration system to help them enforce 
against copyright infringement. Based on a study released in 2009,\1\ 
these core sectors--whose primary purpose is to produce and distribute 
creative works--account for more than 6 percent of the U.S. domestic 
gross product, or $889 billion (reflecting 2007 data, the most recent 
year for which data are available). The core copyright industries also 
employed 5.6 million workers (4.05 percent of U.S. workers), and that 
number doubles to more than 11.7 million people (8.5 percent of the 
U.S. workforce) when the workers that help and support the distribution 
of these works are added into the equation. The Office facilitates 
transactions in the marketplace by assisting users of content to track 
the ownership of copyrighted content and the transfers and licenses of 
the exclusive rights afforded by law.
---------------------------------------------------------------------------
    \1\ Stephen E. Siwek, Copyright Industries in the U.S. Economy: The 
2003-2007 Report, prepared by Economists, Inc. for the International 
Intellectual Property Alliance (2009).
---------------------------------------------------------------------------
    The Office has a dedicated team of legal and policy experts who 
advise the Congress on domestic and international policy activities 
(for example, on legislation) and who also provide assistance and 
information to the judiciary and executive branch agencies (for 
example, on litigation of interest to the United States or on matters 
of bilateral or plurilateral trade). These duties are prescribed in 
chapter seven of the copyright law (17 U.S.C. Sec. 701).
    The Copyright Office is currently in a period of transition, 
following the retirement of Marybeth Peters on December 31, 2010, who 
directed the staff and functions for 16 years. As the Acting Register, 
I, along with LOC's Chief of Staff, have spent many weeks speaking with 
a broad spectrum of stakeholders in the copyright community, from book 
publishers to the technology sector, discussing with them the issues 
that are or should be priorities of the Office in the coming years.
    I have also been meeting with the managers and staff of the 
Copyright Office, individually or in small groups, to assess the views 
of those who work here and administer our public services, and to help 
set a path for our future business and the workplace environment of our 
employees. This assessment is still under way, but has already proved 
to be quite helpful to the Librarian and to me and should prove 
invaluable to the next Register, once appointed.

                    <greek-l>loc deg.PROGRAM FUNDING

    Funding for the Office derives from two sources--user fees and 
appropriations. More than 60 percent of the Office's budget is 
collected from fees paid for copyright registration, document 
recordation, and related services. The remaining operating budget 
covers the policy, legal, adjudicatory, and support operations. To 
ensure that fees represent current costs and market conditions, the 
Office undertakes a triennial fee study, the most recent of which was 
published in fiscal 2009 with another planned for fiscal 2012. The 
Office's fiscal 2011 budget request was approximately $55.5 million, 
approximately $34 million of which was funded by Office revenues.

           <greek-l>loc deg.REGISTRATION OF COPYRIGHT CLAIMS

    The Copyright Office has made tremendous progress in the past year 
in reducing the backlog of claims that occurred with the transition to 
an electronic registration system. In fiscal 2012, we will continue our 
efforts to improve operational efficiencies in the electronic 
registration system, including our continued efforts to decrease 
processing times for registration and recordation filings. Today, the 
system allows claimants to file registration applications online and, 
in many cases, to upload a digital copy of the work to fulfill the 
deposit requirement.
    Since they were made available in July 2008, electronic filings 
quickly displaced the use of paper applications. To date in fiscal 
2011, electronic filings constitute more than 80 percent of all claims 
received. The Copyright Office typically handles more than 500,000 
copyright claims each year, representing well more than 1 million 
works. In fiscal 2010, the Office received 522,796 claims to copyright, 
and closed 682,148, of which it registered 636,527 claims. The Office 
answered almost 316,000 nonfee information and reference inquiries and 
served a substantial number of visitors to the Public Information 
Office and the Copyright Public Records Reading Room.
    In building the electronic system, the Office experienced a backlog 
of claims that was not unexpected given the major work process changes, 
temporary staff relocations, system testing and servicing, and 
widespread workforce training. The backlog peaked in 2009, but with 
support from LOC, the Office has reduced the backlog by hundreds of 
thousands of claims to around 167,000 as of this writing, while at the 
same time processing new claims at an average rate of 10,000 a week. We 
expect that our work on hand will fall to 150,000 claims within the 
next several weeks--an achievement that speaks to the dedication of our 
employees.
    One issue we will continue to explore going forward is what might 
constitute a reasonable amount of work on hand for purposes of 
assessing operational success. Because the electronic filing system 
allows for hybrid submissions (where the application and fee, submitted 
online, are followed up by a hardcopy deposit mailed separately), and 
because some claims require the Office to further correspond with the 
applicant, the Office will always have categories of work that cannot 
be immediately processed. These claims (presently about 95,000) do not 
contribute to a backlog but are in fact an anticipated and routine part 
of the Office's business operations.
    The Office is also cognizant of the need for quality assurance. 
While we are constantly exploring ways to improve our speed and 
efficiency, we remain mindful of our obligation to ensure the integrity 
of the registration records that we create and maintain. Fast 
processing times, although virtuous, cannot come at the expense of the 
accuracy and completeness of our public records.

        <greek-l>loc deg.COPYRIGHT RECORDS DIGITIZATION PROJECT

    We continue to make progress in our multi-year project to digitize 
the millions of disparate pre-1977 copyright records, many of which 
represent works still protected by copyright law. (Records for post-
1977 registrations are already available online.) This project is of 
utmost historic importance, as there is no complete back up of such 
records for preservation or security purposes. It is also of critical 
importance to our mission as an office of public record, making it 
easier for persons to locate copyright owners, analyze copyright term, 
and facilitate licensing. The records include registration information, 
assignments of copyrights, and licensing documentation going back to 
the beginning of the Copyright Office and may well implicate works 
published before the Civil War.
    In terms of legal relevance, the Office is prioritizing records for 
works published between 1923 and 1977, as in many instances, the 
copyright in such works has not yet expired. We plan to complete up to 
50 percent of the card catalog records from this era by the end of 
fiscal 2012. In so doing, we will continue to test imaging quality, 
clarity, create searchable metadata, and plan for cross-referencing of 
the imaged records.

           <greek-l>loc deg.LICENSING DIVISION RE-ENGINEERING

    Business re-engineering efforts for the Licensing Division began in 
fiscal 2011. Thus far, the Office has completed an operational 
baseline, consulted with external stakeholders, and begun benchmarking 
exercises against entities with similar functions. The goals of this 
re-engineering effort are to:
  --decrease processing times for statements of account by 30 percent 
        or more;
  --implement an online filing process; and
  --improve public access to Office records.
    In fiscal year 2010, the Licensing Division collected more than 
$274 million in royalties from cable and satellite companies subject to 
statutory licenses, accrued more than $4.3 million in interest on 
royalties for the copyright owners, and distributed more than $249 
million to copyright owners. As part of our fiscal 2011 budget request, 
we sought an additional one-time authorization of $500,000 to cover any 
unforeseen re-engineering expenses. As always, any funds not expended 
will be returned to the royalty pools.
    In fiscal year 2012, the Licensing Division will continue to 
collect and distribute royalty fees and examine licensing 
documentation. It also will implement and refine its new processes and 
technology systems. It will test systems for online cable licensing and 
expects to implement an electronic version of its more complex 
statements of account, which currently take up to 14 months to process 
and which are typically of most interest to users. The Licensing 
Division will soon solicit proposals to develop the technical 
infrastructure required by re-engineering.
    As mentioned below, we are preparing, and will deliver to the 
Congress, a report on market alternatives to statutory licensing, due 
in August 2011. The Office stands ready to assist and advise the 
Congress with consideration of that report and to modify its operations 
should the Congress enact any changes to current law.

              <greek-l>loc deg.ELECTRONIC SERIALS PROJECT

    As more and more journals, magazines, and newspapers are ``born 
digital'', the Copyright Office is leading a LOC-wide effort to study, 
identify, obtain, and manage serials that publishers supply to us in 
electronic formats (eSerials). Although the project currently focuses 
on the mandatory deposit provisions under the law (i.e., the provisions 
requiring publishers to deposit copies of certain works with the LOC 
within 3 months of publication), it serves as a test bed for the intake 
of works by LOC through other mechanisms, including the registration 
system. The Copyright Office administers the mandatory deposit 
provisions of the law and is currently working with other LOC service 
units to develop an agencywide accommodation for eSerials. We expect 
the initial phase of that project to be completed in September 2011.
              <greek-l>loc deg.legal and policy activities
    The Office is never without complex work on the domestic and 
international policy fronts.

Online Piracy
    Throughout the past several weeks, the Office has been conducting 
meetings with a wide spectrum of stakeholders in order to explore the 
current state of online infringement of copyright law and sale of 
counterfeit goods via so-called ``rogue websites'' and possible 
mechanisms by which to combat such piracy and widespread 
counterfeiting. The Judiciary Committees of both the House and Senate 
of the 112th Congress are focused on this issue. On March 14, I 
testified on the issue before the House Subcommittee on Intellectual 
Property, Competition, and the Internet (testimony may be accessed at 
http://judiciary.house.gov/hearings/hear_03142011.html). We will be 
working very closely in support of the both the Senate and House as the 
Committees deliberate further and prepare legislative text.

Technical Clarifications
    At the end of fiscal 2010, the Office advised the Judiciary 
Committees of the need for legislation amending certain provisions of 
the Copyright Act to clarify the law, permit the Office to perform 
certain functions more efficiently by relying on electronic resources, 
and make technical corrections. The Copyright Cleanup, Clarifications, 
and Correction Act of 2010, based upon the Office's recommendations, 
was signed into law on December 9, 2010.

Termination of Transfers and Licenses by Authors
    During fiscal 2011, the Office provided the Congress with an 
analysis of the situation with respect to so-called ``gap grants'' 
under the termination provisions of title 17; specifically, the 
analysis concerned grants entered into before January 1, 1978 for works 
that were not created until January 1, 1978 or later and discussed 
certain possible clarifications. The Office led an extensive public 
consultation process that included holding a public comment process on 
its preliminary proposals related to the outcome of the report, as well 
as a related regulatory process for which it expects to issue a final 
rule in fiscal 2012. The law requires that authors record the notices 
they serve on licensees with the Copyright Office (pursuant to certain 
deadlines) as a condition of termination.

Digital Millennium Copyright Act (DMCA)
    In fiscal 2010, the Office concluded its fourth rulemaking on 
exemptions from the prohibition on circumvention of technological 
measures that control access to copyrighted works, as provided in 17 
U.S.C. Sec. 1201. The law requires that every 3 years the Copyright 
Office make recommendations to the Librarian of Congress regarding 
works that should be exempt from the statutory prohibition on the 
circumvention of access control mechanisms, provided the circumvention 
takes place in order to engage in noninfringing uses of copyrighted 
works.
    In the most recent iteration issued in July 2010, the Librarian 
announced six classes of works that are entitled to exemption. Notable 
exemptions include motion pictures on DVD, if the circumvention takes 
place for purposes of using short portions for the purpose of criticism 
or comment; software on mobile phones if circumvention is performed for 
the purpose of making the phone interoperable with other applications; 
and literary works distributed in eBook format for the benefit of the 
blind and visually impaired, provided that existing eBook versions of 
the title prevent access to the ``read-aloud'' function or to screen 
readers.
    Other recent regulatory actions would allow the LOC to demand the 
electronic deposit of published works available only online and allow 
the Copyright Office to accommodate on online submission of 
applications for group registrations involving photographs.

Report on Statutory Licenses
    The Copyright Office worked closely with the staff of the House and 
Senate Judiciary Committees as well as the Congressional Budget Office 
in addressing issues relating to passage of the Satellite Television 
Extension and Localism Act, which reauthorized the statutory license 
for satellite carriers to carry certain over-the-air broadcast signals. 
In that legislation, the Congress assigned the Copyright Office the 
task of preparing a comprehensive report to identify and explore 
marketplace alternatives to the statutory licenses in the law that 
allow for retransmission of over-the-air broadcast signals. To date, we 
have held a number of meetings with stakeholders and published a notice 
of inquiry seeking public comments. We expect to submit our report by 
the August 29, 2011 deadline. This is a significant study because, 
although the Congress has asked us on several occasions to study the 
cable and satellite statutory licenses for television programming, and 
we have on several occasions recommended the eventual phasing out of 
the those studies, this marks the first time the Congress has expressly 
asked us to make recommendations on how to phase out those licenses

Report on Pre-1972 Sound Recordings
    The Office is also in the midst of its study on the copyright 
treatment of pre-1972 sound recordings, which was mandated in the 
Omnibus Appropriations Act of 2009. Specifically, the Office has been 
directed to study the desirability of, and means for, bringing sound 
recordings fixed before February 15, 1972, into the Federal statutory 
copyright regime. Currently, State law governs such pre-1972 sound 
recordings, which in many cases is not well defined. Federal copyright 
law allows States to protect these pre-1972 sound recordings until 
February 15, 2067. Although behind schedule for this report, the Office 
began its preparatory work last year, including publishing a notice of 
inquiry for which we have received more than 50 comments thus far. We 
will follow up in the spring of 2011 with hearings or roundtables, and 
expects to prepare its analysis and recommendations in the summer and 
fall. We are grateful for the subcommittee's agreement to extend the 
deadline for our report from March 11, 2011 to December 31, 2011.

Litigation
    As in previous years, the Office assisted the Justice Department in 
a number of court cases involving copyright issues, including the 
preparation of an amicus brief filed with the Supreme Court in Costco 
Wholesale Corp. v. Omega S.A., a case concerning the first sale 
doctrine and the exclusive importation right that was affirmed by an 
equally divided court; and Golan v. Holder, a defense against a 
constitutional challenge to the ``copyright restoration'' provision of 
the Uruguay Round Agreements Act.
    The Office continued to spend significant time evaluating the legal 
and business implications of the ongoing Google book search litigation 
and proposed settlement agreement, including the broader implications 
of the proposed settlement on the mass digitization of books and the 
treatment of ``orphan'' works--works for which rights holders are 
unknown or cannot be located. The Department of Justice filed two 
statements of interest with the court on which the Copyright Office 
provided significant advice.\2\ The former Register of Copyrights, 
Marybeth Peters, also testified before House Judiciary Committee on the 
matter in 2009 about copyright concerns. On March 22, 2011, Judge Chin 
denied the parties' motion for approval of the proposed settlement, 
consistent with the recommendation of the U.S. Government. The Office 
is pleased with the court's opinion and will continue to monitor the 
progress of the case in anticipation of likely appeals. It will also 
continue to work with congressional committees, the parties and other 
stakeholders on policy issues raised by the case that are better suited 
to the Congress than the courts.
---------------------------------------------------------------------------
    \2\ See Statement of Interest of the United States of America 
Regarding Proposed Class Settlement (September 18, 2009) and the 
Statement of Interest of the United States of America Regarding 
Proposed Amended Settlement Agreement (February 4, 2010), both 
available at http://www.justice.gov/atr/cases/authorsguild.htm.
---------------------------------------------------------------------------
Accessible Works for the Blind and Individuals With Print Disabilities
    Copyright Office attorneys continued to spend considerable time in 
fiscal 2011 examining the ways in which the United States provides 
copyrighted works in accessible formats to the blind, visually impaired 
and print-disabled, as well as similar issues involving cross-border 
access to copyrighted works in the context of national exceptions for 
the blind, visually impaired, and print-disabled and international 
copyright treaty obligations. The Office has worked diligently with 
other U.S. Government agencies in preparing for and attending meetings 
of the World Intellectual Property Organization's (WIPO) Standing 
Committee on Copyright and Related Rights, which has this issue on its 
agenda.
    In fiscal year 2010, in partnership with WIPO, we organized and 
hosted a week-long training for developing countries and countries in 
transition, the focus of which was accessibility and standard for 
protection under copyright laws worldwide. The Office is currently 
working with LOC's National Library Service for the Blind, as well as 
with advocates for the blind and other stakeholders, to explore ways to 
improve standards, resources and responsible cross border movement of 
works in accessible formats, including through participation in a 
voluntary WIPO Stakeholders' Platform pilot project for the cross-
border transfer of accessible works.
    Both LOC and the Office are working with the Department of 
Education and other Federal Government agencies as part of a 
statutorily mandated commission on issues involving access to copyright 
works for the visually impaired in the context of higher education. I 
am the chairperson of the legal subcommittee of the Commission, which 
will deliver a report to the Congress before the end of fiscal 2012.

Anti-Piracy and Other International Developments
    Finally, the Copyright Office continues to play an important role 
in intergovernmental negotiations and international discussions of 
copyright law and policy, including the importance of antipiracy 
efforts and the proper framework for exceptions and limitations. We 
continue our long-standing tradition of participating in important WIPO 
meetings that addressed copyright issues (including the Standing 
Committee on Copyright and Related Rights), working with other 
Government leaders and copyright offices from around the world.
    The Office also continues its significant role in assisting Federal 
Government agencies with many multilateral, regional, and bilateral 
negotiations and served on many U.S. delegations, including 
negotiations regarding the Anti-Counterfeiting Trade Agreement, the 
proposed Trans Pacific Partnership, and the Joint Commission on 
Commerce and Trade with China in addition to negotiations and meetings 
relating to the implementation of intellectual property provisions of 
existing Free Trade Agreements and Trade Promotion Agreements. We 
participated on the interagency committee charged with preparing the 
annual special 301 report issued by the United States Trade 
Representative.
    Our day-to-day international work involved reviewing and commenting 
on the national copyright laws and proposed amendments from numerous 
countries, either as part of the World Trade Organization accession or 
trade policy review proceedings or based on requests by other U.S. or 
foreign entities. One goal of these reviews was to ensure that 
copyright laws around the world meet binding treaty obligations and 
provide effective copyright enforcement mechanisms. Over the past year, 
we reviewed the copyright laws or proposed revisions in at least 23 
countries, and participated in bilateral negotiations and consultations 
that covered these themes and more with at least 18 countries.
    The Office requested funds in fiscal 2011 to organize and host 
another international copyright training for developing countries, the 
intended focus of which is collective licensing and other innovative 
means of making copyrighted works available in the marketplace.

                               CONCLUSION

    Mr. Chairman, I want to thank you for your consideration of our 
budget request today and for the subcommittee's past support of the 
U.S. Copyright Office. Thank you in particular for considering the 
funding we require to sustain a first-rate staff and meet necessary 
expenses, enabling us to perform our core duties under the law.

    Senator Nelson. Thank you.
    Ambassador O'Keefe.

STATEMENT OF AMBASSADOR JOHN O'KEEFE, EXECUTIVE 
            DIRECTOR, OPEN WORLD LEADERSHIP CENTER
    Ambassador O'Keefe. Thank you Senator.
    Mr. Chairman, thank you for the opportunity to testify on 
the OWLC's fiscal year 2012 budget request.
    As a unique congressional center and resource, the OWLC 
strengthens ties with a region of the world that contains not 
only the world's largest gas reserves, but also one of the 
largest stockpiles of nuclear weapons. Our program enlists 
civic-minded people in communities throughout the United States 
who show our delegates how democracy really works. We recognize 
their devotion and commitment.
    I would like to pause at this moment to honor Judge John M. 
Roll of Tucson, who had hosted 38 judges and other legal 
professionals from Russia and Ukraine for us since 2002, and 
Gabe Zimmerman of Representative Giffords' staff, who was so 
welcoming to so many of our participants. We mourn their 
passing.

                <greek-l>OWLC deg.EFFECTIVENESS OF OWLC

    Entering a new decade of programs, the OWLC continues to 
identify leaders of tomorrow from Eurasia, introduce them to 
U.S. democratic values, connect them to counterparts throughout 
America, and provide resources for partnerships. Four new 
members of the Senate met with OWLC delegates prior to entering 
the 112th Congress, including Senator Hoeven when he was 
Governor.
    As an example of the power of those meetings, a Kyrgyz 
parliamentarian, hosted by Montana State senators in 2007, said 
after last year's revolution, ``I can say that I am the father 
of the judiciary bloc in the new constitution. My experience 
from the Open World program helped in revising the 
constitution, using the basic principles and concepts that work 
in the U.S.''

      <greek-l>OWLC deg.INVESTMENT FOR THE CONGRESS AND ASSET FOR 
                              CONSTITUENTS

    Looking forward, the new strategic plan builds on the 
quality of programs and our influential alumni network to reach 
out to a greater number of young leaders. We now see the 
Russian Government starting to build unprecedented reverse 
programs, bringing university student body presidents of 
America to Russia, inspired by and modeled after the OWLC 
program.
    We keep costs low and quality high. Every grant contains 
cost-shared elements, and more than 75 percent of our 
appropriation is spent in the American economy every year. At 
the requested level of $12.6 million, we can fulfill the board-
mandated goals.

                           PREPARED STATEMENT

    The OWLC offers an extraordinary investment in the future 
of U.S. relations with the program countries. Thousands of 
American host volunteers are making the world safer, more 
prosperous, and more open by demonstrating our own democracy in 
action, and by developing community partnerships. Their 
devotion and energy, combined with the renown of the 
legislative branch, makes this program a nationwide asset for 
Members of Congress and their constituents.
    Thank you, Sir.
    [The statement follows:]

             Prepared Statement of Ambassador John O'Keefe

    Mr. Chairman, Senator Hoeven, and members of the subcommittee, I am 
pleased to submit testimony on the Open World Leadership Center's 
(OWLC) budget request for fiscal year 2012. The OWLC, of which I am the 
Executive Director, is a unique resource that links the Congress and 
its constituents to the strategically important regions of Eurasia that 
contain not only the world's largest gas reserves, but also one of the 
largest stockpiles of nuclear weapons. In this capacity, the OWLC 
administers the OWLC program that allows community leaders throughout 
America to discuss issues ranging from nonproliferation to rule of law 
in face-to-face settings with emerging young, professional counterparts 
from Eurasia to develop projects and partnerships. In the past 11 
years, OWLC grants have enabled some 6,500 American families in almost 
2,000 communities around the country to host program participants.
    Since its inception, the OWLC has awarded grants for overseeing our 
U.S. exchanges to 61 organizations headquartered in 25 different States 
and the District of Columbia. These grantee organizations host 
delegations themselves or award subgrants to local host organizations. 
By 2011, well more than 700 local host organizations--including Rotary 
clubs and other service organizations, sister-city associations, 
international visitor councils, universities and community colleges, 
and other nonprofits in all 50 States and the District of Columbia--had 
conducted OWLC exchanges.
    More than 75 percent of OWLC's fiscal year 2010 appropriated funds 
were expended on U.S. goods and services through contracts and grants--
much of it at the local community level. American volunteers in 49 
States and the District of Columbia home hosted OWLC participants in 
calendar year 2010, contributing a large portion of the estimated $1.9 
million given to the program through cost shares.
    Nearly 17,000 emerging leaders from Russia, Ukraine, Azerbaijan, 
Georgia, Kazakhstan, Kyrgyzstan, Moldova, Tajikistan, Turkmenistan, 
Lithuania, and Uzbekistan have participated in OWLC. Earlier this 
month, our inaugural delegation of women-as-leaders from Armenia will 
travel to Des Moines, Iowa. While all the countries where OWLC is 
active are strategically important to the interests of the U.S. 
Government, they are also areas of growing economies where 
opportunities for foreign investment and trade increase yearly.
    With the requested funding level of $12.6 million, the OWLC will be 
able to continue its support of the Congress in inter-parliamentary and 
other legislative activities and bring 1,300 or more participants to 
communities throughout the United States in 2012. Actual allocations of 
participant slots to individual countries will be based on the board of 
trustees recommendations and consultations with the subcommittee and 
the U.S. Embassies in these countries. The requested funding will allow 
us to fulfill the board-mandated strategic plan to expand into 
Uzbekistan and Belarus, to meet our continuing plan to intensify 
legislator to legislator programs, and to reach the rising new 
generation in Russia and elsewhere who remember the Cold War as a 
fading memory, if at all.
    OWLC will facilitate existing projects and partnerships among 
hundreds of American civic organizations, numerous communities, and 
thousands of participating constituents and the regional 
parliamentarians and other leaders from OWLC countries hosted here. We 
ask for an increase of $600,000 to begin our Board of Trustees-approved 
expansion into Belarus, and to resume our Uzbek program suspended in 
2005.
    Major categories of requested funding for a total of $12.6 million 
are:
  --Program expenses ($0.5 million); and
  --Operating expenses ($0.9 million)
  --Contract ($7.2 million--awarded to U.S.-based entities) that 
        include:
    --Coordinating the delegate nomination and vetting process;
    --Obtaining visas and other travel documents;
    --Arranging and paying for air travel; and
    --Coordinating with grantees and placing delegates.
  --Grants ($4 million--awarded to U.S. host organizations) that 
        include:
    --Professional programming for delegates;
    --Meals outside of those provided by home hosts;
    --Community activities;
    --Professional interpretation; and
    --Administrative support.

                <greek-l>owlc deg.OWLC AND THE CONGRESS

    As a U.S. legislative branch entity, the OWLC actively supports the 
foreign relations efforts of the Congress by linking our delegates to 
members and to experienced and enthusiastic constituents throughout the 
United States who are engaged in projects and programs in OWLC 
countries. The OWLC program routinely involves members in its hosting 
activities with more than 50 percent of delegates meeting with Members 
of Congress or their staff representatives last year.
    The OWLC also regularly consults with the Commission on Security 
and Cooperation in Europe; the Congressional Georgia Caucus; the 
Congressional Ukrainian Caucus; the Russia Caucus; the Congressional 
Azerbaijan Caucus; the Congressional Caucus on Central Asia; the 
Friends of Kazakhstan Caucus; other congressional entities; and 
individual Members with specific interests in OWLC countries or 
thematic areas.

    ``In December 2010, Senator Olympia Snowe of Maine gave a 
delegation of legislators from the Chechen Republic a joint resolution 
encouraging the peace process, a return to civil society and 
international cooperation, and signed by 200 representatives in the 
legislature of the State of Maine. The resolution reflects the State of 
Maine's support for stability and engagement in the region. The Senator 
had tried unsuccessfully to deliver the resolution via the Russian 
Embassy in Washington several times since 2008, so was pleased to be 
able to pass it on to the Chechen group.
    Last March, Representative Peter Roskam greeted education officials 
from the Republic of Georgia in the home of their host, George 
Palamattam, on their first day in Chicago. Representative Roskam 
surprised and delighted the delegates and host families present with 
the news that as a student he had visited Georgia. The discussion that 
followed covered a variety of topics that was very informational and 
educational for the Congressman, the host families, and everyone else 
who was present.
    Last month, Senator Bernie Sanders, Representative Robert Aderholt, 
Representative Dana Rohrabacher, Representative Robert J. Wittman, and 
Representative Dennis Kucinich met with two members of the Russian 
Federation lower house of parliament (Duma) on their first visit to the 
United States. They discussed topics related to education, labor, 
employment and parliamentary ties. The Russians also met with Maryland 
State Assembly members, State Department officials, foreign policy 
experts, and students and faculty of Georgetown University and the 
University of Maryland.''

    Members of Congress and their staffs also provide OWLC delegates 
with invaluable firsthand information on the U.S. legislative process, 
constituent relations, and other aspects of the U.S. Government in 
face-to-face meetings that forcefully demonstrate how accessible the 
offices of elected officials can and should be. It is a message not 
lost on OWLC participants, who come from a part of the world where such 
openness is still the exception rather than the rule and where 
constituent services are nonexistent or diminishing.
    OWLC's board-approved strategic plan for 2012-2015 emphasizes 
increasing the OWLC's legislative activities and focus. One of the key 
goals is to serve Members of Congress by becoming a recognized resource 
that connects them to emerging leaders of participating countries. 
Currently, we have scheduled five delegations of Parliamentarians from 
Kazakhstan, Kyrgyzstan (2), Moldova, and Russia and are planning three 
more from Azerbaijan, Georgia, and Ukraine. Furthermore, OWLC is able 
to link Members traveling to OWLC countries with alumni who can offer 
an unfiltered view of the issues of interest to United States. To this 
end, OWLC will seek to increase the number of legislator participants 
from program countries and meetings with U.S. legislators; broaden the 
legislative component of local host programs; and partner more 
effectively with U.S. organizations that will increase OWLC's 
effectiveness in serving members.

        <greek-l>owlc deg.RECENT PROGRAM HIGHLIGHTS AND RESULTS

    In 2010, OWLC continued to focus on hosting in themes of interest 
to the Congress and of transnational impact, including human-
trafficking prevention, government and court transparency, 
nonproliferation, and environmental protection. OWLC also sponsors 
hosting that promote economic and civic partnerships between American 
communities or States and their counterparts abroad.

Kyrgyzstan
    Erkin Alymbekov participated in the OWLC program as a member of the 
first delegation of parliamentarians from Kyrgyzstan in June 2007, when 
he was Vice-Speaker of the Kyrgyz Parliament. He was hosted in Montana 
on a program focusing on accountable governance, and the following year 
he hosted Carol Williams, president of the Montana State Senate, when 
she visited Kyrgyzstan. Following a revolution in Kyrgyzstan and the 
ouster of President Bakiev in April 2010, he was tasked by interim 
President Roza Otunbayeva to be one of the co-authors of the draft of 
the new constitution. Mr. Alymbekov later stated that his OWLC 
experience and a copy of the Montana constitution helped him in 
revising his country's own using the basic principles and concepts that 
work in the United States. Passed by a referendum held in June 2010, 
the new constitution shifted many powers from the executive branch to 
that of the legislature, enabling Kyrgyzstan to become the first 
parliamentary democracy in Central Asia.

Georgia
    Attorney John Hall, of Atlanta, Georgia, first hosted OWLC 
delegates from the Republic of Georgia in 2007. After hosting several 
such delegations, he developed an interest in the region as well as a 
network that led to his becoming the Honorary Consul General of the 
Republic of Georgia in 2009 and the opening of his firm's business in 
Tbilisi last year. In regard to OWLC's role in this, he stated:

    ``As a direct result of this program and the continued 
relationships (we have hosted eight additional OWLC delegations since 
February 2007, we have become leaders of the Atlanta Tbilisi Sister 
City Program, [have] partnered with U.S. Department of Commerce to put 
on two economic forums, helped coordinate the visit of five Members of 
Congress to Tbilisi, [and] arranged an American development company to 
start a project in Georgia. This and many other activities are a direct 
result of Open World's Congressional exchange program. I urge the 
Congress to keep this valuable program together and would welcome the 
opportunity to show Members the many different facets of, and 
opportunities in, the Republic of Georgia.''

Moldova
    Before March 2010, Moldovan mayors and local legislators belonged 
to different regional associations in Moldova. After their visit on the 
OWLC program, and with the support of an organization active in local 
reforms, these alumni decided to form the Congress of Local Authorities 
of Moldova (CALM), uniting all four regional associations. The Congress 
plans to create a strategy for decentralization, provide counsel to 
local governments, lobby on behalf of local governments, support local 
social and economic development, and increase the effectiveness of 
public procurement. Nine OWLC alumni are on the association's governing 
board, including the association's president, Tatiana Badan. There are 
currently 300 members in the Congress of Local Authorities of Moldova 
and 63 of them are on the governing board representing 29 regions.
    U.S. Ambassador to Moldova Asif Chaudhry highlighted this result in 
a letter to OWLC Executive Director John O'Keefe, stating that ``Open 
World directly supports key U.S. policy priorities in Moldova and the 
region'' and that he applauds ``Open World's focus on building 
partnerships between Moldovan and American people and institutions.'' 
(letter of February 17, 2011).

Russia
    OWLC alumnus and former ship navigator Eduard Perepelkin became a 
crusader for Russia's ``street'' children. Perepelkin's 2008 OWLC 
visit, which included an inspiring session at the National Center for 
Missing and Exploited Children, made him even more determined. On his 
return home, he did what is still, in post-Soviet Russia, the 
unthinkable--he strode uninvited into the mayor's office and persuaded 
him to increase funding for youth services. In July 2010, Perepelkin 
was back in Washington, the site of his 2008 OWLC visit, for a meeting 
of the U.S.-Russia Bilateral Presidential Commission's Working Group on 
Civil Society. And now that Perepelkin's efforts have caught the 
attention of national officials, this former ship navigator hopes to 
help his country steer many more children away from the streets.
    One of the hallmarks of the OWLC program is the multiplier effect 
and impact on both the hosting community in America and that of the 
participants. From the get-go and throughout the program participants 
understand that, in many ways, the program only really begins once they 
return to their countries of origin to bring about partnerships and 
joint projects. One such example is a $150,000 grant from the Bristol-
Myers Squibb Foundation to an OWLC partner that will allow nurses in La 
Crosse, Wisconsin, and Balakovo, Russia, to work together on cancer 
prevention and treatment. OWLC alumni will participate in education 
programs with nursing faculty from Gundersen Lutheran Health System and 
will apply their new knowledge and skills at the Balakovo Secondary 
Medical School for nurses. At the end of the 2-year project, it is 
anticipated that OWLC alumni will have trained approximately 500 nurses 
in state-of-the-art cancer care.

Ukraine
    Olena Sichkar, Deputy Head of State Social Services for Family, 
Children and Youth, met with John Picarelli, Social Science Analyst, 
Member of the U.S. Government Special Policy Operating Group on 
Trafficking and Carson Osberg, Case Manager, Counter-Trafficking Unit 
of the International Organization for Migration (IOM). On March 18, 
2010, Mrs. Sichkar's agency and the IOM signed an indefinite-term 
partnership agreement. This partnership is focused on joint project 
work and organizing seminars, conferences, and study programs to 
prevent international human trafficking and to inform the Ukrainian 
population about this serious social issue.
      <greek-l>owlc deg.owlc's 2011 activities and plans for 2012
    For 2011, OWLC continues to host in thematic areas that advance 
U.S. national interests in general, and congressional interests in 
particular, and that generate concrete results while strengthening the 
ties between American communities and their partners abroad.
    In 2011, the OWLC will host additional members of the legislative 
branches of current OWLC countries--especially legislators from Central 
Asia and the caucasus, based on congressional interest. In February 
2011, the OWLC hosted seven groups of Russian legislators and an 
additional delegation of State Duma (House) members. The following 
month, we brought five groups of Ukrainian regional legislators. And in 
the fall, we are bringing a dynamic group of Ukrainian women leaders 
through contacts developed by Representative Marcy Kaptur. By the end 
of 2011, we will have brought more than 100 regional and Federal 
legislators from Georgia, Kazakhstan, Kyrgyzstan, Moldova, Russia, and 
Ukraine.
    OWLC is becoming an increasingly recognized resource for American 
citizens engaged in citizen diplomacy. Earlier this month, former 
Congressman James Symington worked with OWLC alumni to organize an art 
exhibit in Moscow focused on Abraham Lincoln and the Czar Liberator, 
Alexander II. Congressman James Moran hosted an art exhibit in the 
Rayburn House Office Building featuring artworks by Russian orphans in 
collaboration with civil society leaders based in his Congressional 
District who approached OWLC for guidance. Up to 60 United States 
university student body presidents will have visited Russia by December 
2011 in a Russian Government sponsored exchange program that is both 
informed and inspired by the OWLC model. Senate Majority Leader Harry 
Reid, Senator Roger Wicker, Senator Bill Nelson, and Senator Bernie 
Sanders were some of the Members of Congress who nominated student body 
presidents for this exchange.
    OWLC, through private funding, will continue to develop its more 
than 16,500-person alumni network by holding forums and workshops and 
making use of contemporary technology provided by such services as 
Skype and social networking sites in the official languages of OWLC 
countries. This alumni network plays a major role in maintaining 
program momentum and vibrancy by helping to identify new emerging 
leaders who might participate in OWLC. Alumni are also central to 
furthering projects and partnerships that demand regular and effective 
communication. One very important group that exemplifies this trait is 
the 100-strong participants of the OWLC nonproliferation program from 
the last 2 years who will be convening in May. The communications 
technology that OWLC has set up enables these relationships to thrive 
in a cost-effective manner during these times of budgetary constraints.

                               CONCLUSION

    OWLC offers an extraordinary ``bang for the buck'' in terms of 
efficiency, cost-effectiveness, value, and an investment in the future 
U.S. relations with the countries where the program operates. OWLC 
boasts an overhead rate of about 7 percent, every grant contains cost-
shared elements, and more than 75 percent of our appropriation is 
plowed back into the American economy every year.
    In the future, there will be in-depth program changes that will 
increase congressional involvement in OWLC and will increase support to 
the constituent hosts who have established programs and partnerships in 
OWLC countries. With funding at the requested level of $12.6 million, 
Americans in hundreds of Congressional Districts throughout the United 
States will engage up-and-coming Eurasian political and civic leaders--
such as parliamentarians, environmentalists, and anti-human trafficking 
activists--in projects and ongoing partnerships. Americans will, once 
again, open their doors and give generously to help sustain this 
successful congressional program that focuses on a region of profound 
interest to U.S. foreign policy. To that end, the subcommittee's 
interest and support have been essential ingredients in OWLC's success.

   <greek-l>LOC deg.IMPACT OF FISCAL YEAR 2011 CONTINUING RESOLUTION

    Senator Nelson. Thank you.
    The first question that I'd like to ask is regarding the 
impact of funding the ongoing resolution at the fiscal year 
2010 enacted level.
    I think that it's important to point out that every agency 
of Government is going to be faced with the problem of how to 
continue to operate during the next 6 months. If we're able to 
get a continuing resolution for even that period of time in the 
next few days, what will the impact be for cuts along the way?
    In your testimony, Dr. Billington, you alluded to the 
implications. But could you give us a little bit more on the 
specific impact of how mid-term cuts affect the operations of 
LOC?
    Of course, it's dependent of how much the cut is, but what 
would the implication be?
    Dr. Billington. For the remainder of this current year?
    Senator Nelson. Yes, for the current year, and then we'll 
talk about next year, fiscal year 2012.
    Dr. Billington. Well, I'm not sure what the exact number 
would be. We calculated what it would be if it were sustained 
through the following year as well. But, the impact would be 
substantial because, as I pointed out, we are doing much more 
with much less.
    There are really only two areas where we could, or we can 
make significant cuts, in an institution where 70 percent of 
all of our major areas of appropriation are in personnel. All 
of the program areas--I could go over them with you--are unique 
and it would not be likely, and probably almost impossible, for 
anybody else to replicate these programs if we were to stop 
doing them. So, we might have to make some cuts in programs.
    I don't know if it would be in the remaining months of this 
fiscal year, but it wouldn't be very far after that that we'd 
have to consider scaling services back. You can't really cut 
these programs very heavily, without experiencing some damage 
since we've been basically operating with almost no increase 
for the last 4 years, only a 2 percent programmatic increase. 
So, we would have to start examining which of these programs we 
would do away with or significantly reduce. I have examined 
three of the larger appropriations and am aware of how 
difficult this would be.
    Maybe Mr. Dizard, who's been occupied with this in a little 
more detail would like to comment.
    Mr. Dizard. Sure, I can do that. I'd be happy to.
    Mr. Chairman, for this fiscal year, if you get into a 3 
percent range, then we're talking probably hiring freezes, as 
well as reducing our contracts for equipment, custodial 
service, some of our IT planned investments, and security 
equipment. And we would probably be looking at 3 or 4 days of 
furloughs across LOC. And as you get beyond that, if you wanted 
to go into 5 percent cuts, as Dr. Billington mentioned, in 6 
months, with very limited ability to deal with personnel, our 
recourse would be just to increase the amount of furloughs as 
we reach towards October 1--if we're just talking this fiscal 
year.

       <greek-l>LOC deg.PERMANENT DAMAGE OF REDUCING ACQUISITIONS

    Senator Nelson. Dr. Billington, you mentioned that if you 
have subscriptions and you stop them for 1 year, it's not as 
though you lost 12 volumes, or, 12 issues, but it's an even 
bigger impact than that.
    Dr. Billington. Yes. The fundamental core things that LOC 
has to do are to acquire, preserve, and make accessible the 
world's knowledge and America's creativity.
    The price of all of these things tend to go up and up. We 
keep reviewing our policies in all of these areas. But if 
you're going to have the kind of universal collection that we 
have historically acquired, beginning with Jefferson's old 
library, which was in 16 languages--and now we've collected in 
470 languages; if you're going to continue that, you simply 
can't miss a year, because then you have to acquire double the 
amount the following year. And besides, what you miss will 
probably not be attainable, except in the year in which it is 
published.
    We purchase about 1 million items a year, and more than 
twice that amount comes to LOC through gift exchange, copyright 
deposit, cataloging in publication, and other sources. We 
receive about 22,000 items a day, of which we only keep 10,000. 
But, if you stop a year's subscription of a crucial scientific 
or important magazine--and, you know, it's hard to know what's 
going to be the most important--if you stop it, you aren't 
diminishing the value of it by just one hundredth. You're 
diminishing it about in half--particularly in areas that serve 
the fast-moving needs of the Congress and of the Government. 
And so, you can't ever make up a lost period. You have to 
either sustain the acquisition process, or change the nature of 
your mission.
    And preserving that mission is also affected in large part 
by the personnel ceiling. Collecting requires this degree of 
universality. The collections are an enormous asset. We call it 
the strategic information reserve of the United States. And the 
differential between what LOC collects and makes accessible, 
and what other research libraries in America do, is increasing, 
because the strain on public libraries and university-based 
libraries is very great, even on other national libraries.
    So, the uniqueness of LOC's collections and making them 
more accessible, more useful to the Congress and our country 
are of paramount importance in an age when balance of trade and 
the economic productivity depends more and more on knowledge of 
what's going on all over the world.
    You can't let the collections go for a year without 
producing an irreversible slippage and decline into becoming 
more a museum of the book than a dynamic of a creative culture 
that has invented most of our current information technology 
and has the most envied higher research capabilities in the 
world. Physical preservation is another thing. We're a throw-
away society. We don't realize that almost every medium on 
which knowledge and creativity is recorded, is highly 
perishable.

            <greek-l>LOC deg.BROAD SCOPE OF THE LOC MISSION

    So, all of that is the essential mission that we have to 
perform, not for LOC, but for the United States of America. And 
if it can't be sustained, that represents a fundamental mission 
failure, and puts a greater limitation on the way America will 
be able to answer--and the Congress in particular--with firm, 
objective, factually based knowledge and information and 
analysis of what is going on in the world, and even within our 
own country.
    So, I think it's expensive, but it is something that is 
unique in human history. It's a great American accomplishment.
    I think, Mr. Chairman, I'm the only person who, when he 
signs for an acquisition for LOC, I don't sign for LOC. I sign 
for the United States of America. And the idea that legislation 
has to be based on knowledge that goes right back to the nature 
of the Founding Fathers, and putting this whole experiment in 
democracy and the creative society together.

               <greek-l>LOC deg.IMPACT OF PERSONNEL CUTS

    So, it's really kind of a noble mission. And then we get 
into the question of cuts, major cuts, and then you're talking 
personnel. And when we're talking personnel, you're dealing 
with a wide variety of talents--a diversity of backgrounds, 
talents. Very much of what LOC staff does is one-of-a-kind work 
that really isn't being done anywhere else to the same degree.
    So, it's a very difficult thing to avoid. But once you cut 
back into the bone of the mission programs--that's what we're 
talking about, that's where all the appropriated money, 
practically all of it goes--then you're cutting back, on our 
fundamental mission.
    One of my instructions consistently has been--and I have 
great consensus among all our top managers on this--that LOC 
shouldn't do anything that anybody else is doing as well or 
better. But we have to do things that represent the public good 
and address the objective needs of the United States. So, if we 
stop doing something or severely curtail it to make 
significant, major reductions, we will jeopardize, really, our 
fundamental mission. We're now integrating more of the digital 
collections so that we're able to knowledge-navigate and 
provide access to an expanded range of knowledge in the digital 
world, as well as the analog.
    If you get into the area of cutting personnel, we have very 
little flexibility to deal with this. For instance, our average 
term of service for personnel is 16 years. The average age of 
personnel is 49. So, we have a lot of expert knowledge banked 
at LOC. We're starting a mentoring program so that they can 
pass their one-of-a-kind knowledge on to successors.
    A lot of the people who are keeping us at the forefront of 
the digital revolution are young and recent hires. So, the 
point is, if you start cutting into the personnel, which is the 
bulk of our budget, you are going to lose people prematurely, 
on whom we're in many cases the most dependent.

          <greek-l>LOC deg.LIMITED FLEXIBILITY TO ABSORB CUTS

    I think if you put it to our staff, they understand the 
budgetary pressures. But I cannot suggest to the staff that we 
all take a salary cut, for instance, everybody take a little 
percentage to absorb it equitably, because there are legal 
requirements that prevent me from doing that. So, there's very 
little managerial flexibility.
    We would probably be talking, in terms of cuts, about 
furloughs. But even that gets to be a serious and difficult 
thing to manage. So, we don't really have the kind of 
flexibility to absorb substantial reductions and sustain the 
mission in a dynamic, changing world.
    I don't think our mission calls for infinite, continued 
expansion. We've only been asking for a little, about a 2 
percent annual increase over the last 4 years for anything 
other than inflation, in anticipation that there was going to 
be a need for constrained budgets. We have a whole new 
management agenda which is calling for greater synergies, much 
more coming together, regulating IT investment--there's a 
special committee for that, and there's another special 
committee that Mr. Dizard is chairing, to bring the digital 
people together with the analog people, with the traditional 
books and materials.
    This is a pioneering institution that has already 
demonstrated that we can do more with less, that is getting 
very deep into the muscle, and we risk getting down to the 
bone.
    Senator Nelson. Well, clearly, cutting mid-term has 
ramifications that could be draconian.

        <greek-l>LOC deg.MINIMAL INCREASE IN FISCAL 2012 REQUEST

    Now, in looking at fiscal year 2012, which provides for 
minimal growth. Is there a way that some of LOC's priorities 
that are already being deferred, as a result of the need to 
tighten our belts, can continue to be deferred in an effort to 
help us reduce the budgetary request for that fiscal year?
    Dr. Billington. Well, maybe.
    Senator Nelson. I'm sorry, if I am not being clear in what 
I'm trying to find?
    Dr. Billington. Yes.
    Senator Nelson. You must have deferred something to hold 
the budget down to the level that you have.
    Dr. Billington. Right.
    Senator Nelson. Is it possible that there are some other 
things that could be held back, pushed into the future, to 
address a lower request for 2012?
    Mr. Dizard. We went through the process for fiscal year 
2012, and as you recognized, there were many things that were 
deferred that we did not ask for. We did feel we needed to 
highlight the need for additional expertise in CRS and our IT 
security needs.
    I think, as Dr. Billington mentioned, and I mentioned 
before, our options really are going to be to limit hiring, 
next year. That has to be our first option.
    If we start to get into decreasing our acquisitions, 
tightening our collections policies or restricting them, then 
we are changing the fundamental nature of the institution.
    The other area where, that's nonpersonnel, that's of 
significance, is preservation. And, if you delay there, you're 
having an impact way into the future as well.
    So, I think we generally would restrict some of our 
contracting. But the immediate recourse would probably have to 
be shrinking staff, and not hiring, and reducing staff through 
attrition, or even considering early outs or buy-outs, or the 
like. I think that's where we would have to go initially.

          <greek-l>LOC deg.OPPORTUNITIES TO DEFER REQUIREMENTS

    Dr. Billington. We have, in fact, Mr. Chairman, for 
instance, deferred one very significant need. We're 9 years 
behind in the schedule for storage modules at Fort Meade for 
this immense collection that we're custodians of. Items stored 
at Fort Meade have a 100 percent retrieval rate. Retrieval from 
the shelves is robotic, it's extremely efficient. But what we 
agreed to do is to string it out so that the cost would go over 
2 years, rather than the first one. And we can do some things 
like that, but there are not that many, because we're operating 
on four consecutive very stringent budgets, where we've 
consistently been exercising this kind of restraint.
    So, yes, we'll have to take a hard look at all options to 
cut back in ways that don't affect programs. Both CRS and the 
Copyright Office have defined missions and clientele that they 
must serve. And they, like other parts of LOC, have suffered 
considerable personnel losses over recent years.

                      <greek-l>LOC deg.CRS REQUEST

    The one programmatic increase that we've requested for CRS 
is not really an increase. It is to bring them up to where they 
once were and it's to enable them to address a whole new set of 
technical, scientific, and financial questions, accounting, all 
manner of scientific and technical problems that are arising in 
the world, to get CRS able to do what you need.
    It is not really an increase in the sense that it is meant 
to get to where CRS was. It's just to meet that distinct 
requirement of our client, the Congress.

        <greek-l>LOC deg.INFRASTRUCTURE FOR THE INFORMATION AGE

    Anyhow, we certainly want to be as cooperative as we can. 
But the mission is providing essential infrastructure in the 
information age to the company that generates the knowledge and 
information but is not able to preserve it or make it as 
accessible as it should be to as many people as it should be. 
It's such an important mission for the United States, when you 
consider the different audiences that depend on the services 
that we provide--including the networks.
    As you can see, the partnerships that we're establishing--
and we hope to establish more--depend on our leadership, 
because ours is the responsibility to determine what's 
important for the Nation, and then to work with others. And so, 
much of what we do is shared, it is assembling and enabling 
others to add to what we do, rather than try to start up and do 
it all themselves.
    Senator Nelson. Well, if we turn to CRS, your request for 
an additional 17 FTEs, does it take 17 people to replace Dan? 
Is it possible that some of that hiring could extend over a 
longer period of time, or are you experiencing the same thing 
that the Congressional Budget Office (CBO) and Government 
Accountability Office (GAO) are experiencing, and that is more 
requests from the Congress for more reports? And that puts the 
pressure on. We're our own worst enemy in that regard. We want 
more information, but we want to pay less for it. So, I do 
understand the squeeze that it creates. But is it possible to 
extend that hiring over a longer period of time, or with 
attrition?
    What I'm looking for is some way, not with the current 
resolution, but with fiscal year 2012, to reduce some of the 
expenses that are projected and put them into next year's 
budget. As you said, you've been through 4 very tight years 
budget-wise, and so it's not as easy as it may seem, but we are 
going to be under an awful lot of pressure to hold the line in 
the legislative branch, and so I'm looking for help.
    Dr. Billington. Well, I would stress that this was very 
carefully reviewed by the entire executive committee. But I 
think we ought to let----
    Senator Nelson. Sure.
    Dr. Billington [continuing].--Mr. Mulhollan speak to this. 
But let me just stress that this was the only, real 
programmatic increase.
    Senator Nelson. I know.
    Dr. Billington. The cybersecurity request was virtually a 
mandate, to cover the communications and so forth. But this is 
something that was very carefully weighed by the executive 
committee. It's his baby, so let him speak.
    Mr. Mulhollan. Yes. My baby.

               <greek-l>LOC deg.SPECIFICS OF CRS REQUEST

    Actually, this is a stretched out request. Because we asked 
for 34 FTE over 2 years. The subcommittee said it was not able 
to fund additional FTE in fiscal year 2011 due to budgetary 
constraints. We asked for 17 last fiscal year, and 17 for this 
fiscal year. The reason is, back in 2008 we were at 705 FTEs. 
We're now at 675 and we're going down.
    Both our sister agencies, the CBO and GAO, they're facing 
the same problem, because you're facing the same problem. It's 
probably trite to say, but after 40 years of looking at it, I 
honestly believe the problems are inherently more complex. You 
can't raise an issue without international, constitutional, 
environmental, as well as economic impacts, so in this global 
economy you're looking at the end of a period where issues 
heretofore could have been more confined. Dodd-Frank is an 
incredible example of how trying to get our financial house in 
order has impacts in Europe, Canada, and elsewhere, as well as 
Asia. That's why, for instance, in the financial accounting and 
auditing capacity, we found ourselves wanting.
    We do our best to present to you a faculty of expertise. 
For instance, on carbon capture and sequestration, we have a 
geological engineering capacity to take a look at that, 
independent of any advocacy, so you can trust the assessment. 
And our statute calls for anticipating the consequences of 
alternative provisions. So, it is our best judgment in asking 
for these positions--these are competencies we're not going to 
just need now, but for the next decade. And this was a lot of 
work.
    Certainly, if we extend it for 2 years we can extend it for 
4 years. My only cry of the heart, is that these problems don't 
wait. In the last months we've had to call upon, again, 
geologists for earthquake issues--what are the earthquake 
predictions in the United States? We've had to look at the 
question of nuclear safety. We just have a report out on 
nuclear safety and the vulnerabilities across the United States 
on earthquakes.
    We have looked at the history of no-fly zones in Bosnia and 
Iraq--what are the consequences internationally? What are the 
costs? We have an excellent piece out on the Odyssey Dawn. We 
are the only institution I think that has the institutional 
memory of war power resolution and Presidential compliance.
    That capacity that you have invested in at CRS, to be 
perfectly frank, is even more important when you're reducing 
Senate staff and appropriation staff, because since 1970 CRS 
has been a shared pool of expertise. That was the notion. You 
can be more cost effective having an expert available to one 
side of the aisle and the other side of the aisle, and to both 
Chambers. And I think that's proven to be the case. But we 
could draw that out further, yes, Sir.
    Senator Nelson. Thank you.

       <greek-l>LOC deg.BROAD PERSPECTIVE OF MULTIPLE DISCIPLINES

    Dr. Billington. I'd like to add one other thing that I 
think that they've done that's quite extraordinary. Speaking 
from a background as a one-time university professor and 
veteran of a number of faculty discussions, it's very difficult 
in highly compartmentalized, discipline-oriented universities 
to get the perspectives of different disciplines focused on a 
problem. And I think the organization of CRS, which gets teams 
working in response to the problem, and getting different 
perspectives is the only way to go, because we're learning more 
and more, as you see, now events, for instance, in the Middle 
East, where the events have all kinds of aspects that are very 
different from just economics, or just politics, or just 
military. There are tumultuous changes and things going on. And 
you're better able to deal with them if you have people in 
different disciplines working together to answer whatever the 
question is that is on the Congress' mind.
    So, I think that getting these specialized personnel is not 
just so that you get a little more exotic detail. It's a 
question of getting different--something which does not happen 
enough in our society--getting different disciplines and 
different approaches to talk to each other, to answer a 
question that is right on your mind in the Congress.
    Senator Nelson. Thank you.

    <greek-l>OWLC deg.OPEN WORLD STRATEGIC PLAN OBJECTIVES AND COSTS

    Ambassador O'Keefe, I noticed in seeking a $600,000 
increase for fiscal year 2012, it would be to initiate an 
expansion into Armenia, Belarus, and Uzbekistan. Can you give 
us some idea of what, how that $600,000 would be used 
specifically? Will there be any kind of actual exchanges with 
these countries in fiscal year 2012, or will this be simply the 
start-up cost to set up an exchange at some point in the 
future?
    Ambassador O'Keefe. Sir, this is all going into exchanges. 
We already have the backbone and infrastructure, and I've 
discussed this with the charge d'affaires in Uzbekistan, which 
I think is the most important of the three countries, and also 
with Ambassador Yovanovitch in Armenia.
    So, if we were to begin the programs, the costs would be 
about what we have per participant. There are no real start-up 
costs.
    Also, for a place like Armenia and Belarus, we might be 
able to actually have a lower cost, since we would have Embassy 
personnel do more of the work as their cost share. We're 
starting with that model. It gives us more bang for the buck.

  <greek-l>OWLC deg.RAMIFICATIONS OF FUNDING AT FISCAL YEAR 2010 LEVEL

    Senator Nelson. As we all are aware of the fiscal 
constrains, if additional funding isn't provided and if you're 
funded at the fiscal year 2010 enacted level, what would it 
take within your budget to absorb that kind of a budget cut?
    Ambassador O'Keefe. Yes, Sir. We've looked at that, and, 
just as a first principle, we want to preserve the momentum of 
the numbers of people coming. It makes a big difference for 
alumni networks, for qualify of nominations and, frankly, 
quality of programming.
    Also, by preserving those numbers we don't reduce the 
grants to the communities, and these are community colleges, 
service clubs, rotaries, and lots of different community 
organizations. We did 700 communities last year.
    So, our going, in principle, is not to diminish that, and 
if we do so then, as a last resort. So, it means that you give 
up somewhat on quality in terms of oversight. We do like to be 
able to monitor a certain number of programs per year--
especially programs where we get the reports that they're not 
as good as the other ones. And you do that by actually 
observing how it's done. We give up a little bit of quality on 
that.
    The other approach, and the one that we would take, is we'd 
have to look at our staffing, and we'd have to look at travel 
and other things. At the end of the day, if we can't absorb 
rising costs of transportation, hotels and other things, we 
would reduce numbers. That's a last resort.

              <greek-l>OWLC deg.IN-KIND GIVING AND SUPPORT

    Senator Nelson. You've done an outstanding job in 
leveraging nonappropriated funds over the last several years. I 
think it's $1.7 million in donated goods and services from 
hosts and grantees in 2009, and as your testimony indicates 
that this level is estimated to be even higher in 2010, at $1.9 
million.
    Has the sluggish economy hampered your efforts to leverage 
more nonappropriated funds, or are you able to continue to do 
just about what you would expect to do?
    Ambassador O'Keefe. It's odd. I think we must be counter-
cyclical, because we still have this great demand from 
communities to host about twice what we can sustain. And they 
continue to be generous, even in these difficult circumstances. 
So, I am so impressed by the dedication of the communities that 
are welcoming all of the delegates, and their willingness to 
continue to do the home hosting, to pick up the meals, and 
other things.
    Senator Nelson. Do you see the opportunity, then to be able 
to continue to grow at the same level that you've enjoyed in 
the last couple of years?
    Ambassador O'Keefe. I think that there's, frankly, an 
absorptive capacity. And so, I think that number may remain the 
same.
    What we are looking at now is partnering with other 
organizations that would put up the money for airfare, putting 
up the money for, perhaps, part of the programming in the 
United States. Organizations that already bring people to the 
United States. And then, for about one-third of the cost that 
we ordinarily would have, take their delegates and give them a 
4- or 5-day OWLC experience.
    Senator Nelson. If we increased those efforts, would it 
help you make up that $600,000 difference?
    Ambassador O'Keefe. I hope so. But I can't guarantee 
anything, Senator.
    Senator Nelson. I appreciate that.
    Well, I've asked a number of questions. Is there any 
question that I haven't asked that I should have?
    Well, if not, I appreciate very much your candor. 
Obviously, we're in this together. We want to find a way to 
make it work for, as Dr. Billington says, the United States of 
America. It's about more than just us. It's about our country.
    And we understand the importance of LOC as a part of this 
overall institution we call our country.
    Thank you so very, very much for being here. We hear what 
you're saying. We clearly empathize with it. We understand what 
the consequences are if cuts are not made in an appropriate and 
responsive way.
    One thing that I've found not just in this position, but 
also as Governor is that the more I knew about a program, the 
harder it was to cut.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Nelson. So, you have given me a lot of information 
to make it even harder to think about cutting.
    Thank you very much.
    Dr. Billington. Thank you, Mr. Chairman, very, very much. 
We're willing to work with you on these difficult problems. 
Thank you so much.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response subsequent to the 
hearing:]

             Questions Submitted to Dr. James H. Billington
               Questions Submitted by Senator John Hoeven

               <greek-l>loc deg.IMPACT OF REDUCED FUNDING

    Question. The Library of Congress's (LOC) fiscal year 2012 
appropriations request is $666.7 million, an increase of $23.4 million, 
or 3.6 percent, more than the fiscal year 2010 enacted level. 
Unfortunately for all of us, the Congress is still negotiating the end 
game for the fiscal year 2011 budget, and as you are well aware we are 
contemplating how much to reduce your funding from the current level, 
not how much to increase it. Please provide the subcommittee with the 
impact of a 5 percent and a 10 percent reduction to LOC's total 2010 
appropriation.
    Answer. A 5 percent reduction to the fiscal 2010 base appropriation 
level--a fiscal 2011 funding level of $650.1 million--would require 
that LOC freeze hiring, freeze travel and training, substantially 
reduce all contracts, grants, and general purchases, and implement a 
staff furlough of 11 days. Fiscal year 2011 funding level at 10 percent 
below the fiscal 2010 budget--or $613.5 million--would require all of 
those cuts plus an additional 11-day staff furlough (total furlough of 
22 days).

                  <greek-l>loc deg.FORT MEADE MODULE 5

    Dr. Billington, you mentioned that one of the top-priority projects 
for LOC in fiscal year 2012 is $8.88 million for Collection Storage 
Module 5 (phase I of II) at Fort Meade, to expand the storage capacity 
for LOC's collections. I note that LOC's request of $666.7 million, 
which is an increase of $23.4 million, or 3.6 percent, more than the 
fiscal year 2010 enacted level and the fiscal year 2011 current funding 
level, does not include the $67.9 million requested in the Architect of 
the Capitol's (AOC) budget for the ``Library Buildings and Grounds'' 
account. The subcommittee is not in a position this year to be able to 
fully fund all of these increases, and we must balance LOC's requests 
with AOC's requests and each of the other agencies funded in the 
legislative branch bill.
    Question. In order to fund the $8.88 million for Collection Storage 
Module 5 at Fort Meade, would LOC be willing to forgo other increases 
in its fiscal year 2012 budget request (not AOC's requests) to offset 
the cost of the storage module?
    Answer. LOC focused its priorities and limited the fiscal 2012 
budget request to the most critical and timely needs. Aside from 
mandatory pay and price-level adjustments, LOC's 3.6 percent increase 
represented funding requests for a mandatory information technology 
(IT) security initiative and for expanded research expertise that would 
enable the Congressional Research Service to better respond to the 
research and analysis needs of the Congress.
    The $8.88 million request to fund the Collection Storage Module 5 
at Fort Meade was included in AOC's budget. LOC partnered with AOC to 
both prioritize the projects and initiatives that were included in 
AOC's budget and to formulate a phased approach to funding the 
Collection Storage Module 5 project so as make this major capital 
investment as economically viable as possible for the legislative 
branch budget.
    Given the careful deliberations LOC went through to formulate the 
fiscal year 2012 budget request, LOC is not in a position to forego 
other requested increases to fund the $8.88 million for Collection 
Storage Module 5. However, LOC is committed to working with the 
subcommittee to determine the most-efficient approach to fund critical 
needs, just as we worked diligently with your subcommittee staff to 
assess priorities and evaluate trade-offs in this year's (fiscal year 
2011) budget process.
    Question. What exactly will the $8.88 million provide with regard 
to Collection Storage Module 5? Will all of this funding be obligated 
in fiscal year 2012?
    Answer. The benefit of the two-phased construction approach is to 
distribute the total cost of construction over 2 fiscal years, and to 
allow for the construction of a complete and usable facility, following 
each phase. This approach also allows for the funding to be provided in 
consecutive fiscal years, which would provide for the completion of the 
final project phase, without delay or interruption.
    Under the two-phased construction approach, the $8.88 million 
investment of phase I would complete all site infrastructure, building 
structure, overhead fire suppression sprinklers, lighting, and the 
basic building systems of heating and ventilation. This would allow for 
temporary storage of boxed or palletized library materials and 
unprocessed collections up to a height of 12 feet. The estimate for 
phase I does not include the cost of high-bay shelving, pallet racking, 
or climate control for the preservation-quality environment needed for 
permanent collections storage. It is estimated the construction period 
would be 2 years.
    Question. For phase I of II, $8,89 million is requested--do you 
know yet how much funding will be required to complete phase II?
    Answer. Approximately 90 percent of the funding requested for phase 
I would be obligated in fiscal year 2012. The remainder would be 
utilized in fiscal year 2013 to accommodate construction contingency, 
construction administration, and related testing and commissioning 
activity.
    AOC cost estimate for phase II is $9.58 million. This investment 
includes customized high-bay collection storage shelving up to 32 feet 
with integrated fire suppression systems, and a specialized climate 
control system for permanent collections' preservation. AOC estimates 
the total project cost of Collection Storage Module 5 (phase I and II) 
in the amount of $18.46 million.

                  <greek-l>loc deg.IT SECURITY FUNDING

    Question. LOC is requesting $2.75 million and five additional full-
time equivalents within the Office of Strategic Initiatives to expand 
LOC's information security incident handling and response function.
    If the subcommittee is able to provide the requested increase of 
$2.75 million, how is that funding to be allocated?
    Answer. The requested $2.75 million will enhance our security 
incident handling and response function. This enhancement, resulting 
form discussions with the House and Senate regarding assuring 
confidentiality of LOC research provided to Members, will provide 
protections similar to the House and Senate.
    The funding will pay for security staff, contractor support, and 
security tools.

           <greek-l>loc deg.IMPACT OF NOT FUNDING IT SECURITY

    Question. If the subcommittee is unable to provide this increase, 
what is the impact to LOC?
    Answer. Lack of funding for this security enhancement effort will 
likely result in delays in the detection of threats, and delays in the 
response to security incidents, including the investigation and 
remediation of cybersecurity events at LOC. This could cause 
information to be compromised and pose a risk to LOC and agencies with 
which LOC interacts.

                  <greek-l>loc deg.CONTENT MANAGEMENT

    Question. Security of electronic information is an important part 
of every Federal Government agency's daily operations--to try to 
prevent, or mitigate the effects of, the accidental or purposeful 
deletion or corruption of information stored electronically.
    How would LOC know if any of its electronic information had been 
deleted or corrupted?
    Answer. Long-term storage solutions have policy settings that 
include when to delete information from the systems based on events, 
age, etc. At LOC the long-term storage solution preservation policies 
are set to never delete. Currently, data integrity is checked when the 
file is ingested and when the file is migrated to newer solutions. (LOC 
migrates archive data, e.g., our digital collections, every 3-5 years 
as part of ensuring the data is not stored on obsolete technology. 
During this process, the data integrity is checked.)
    LOC is also working on a plan to re-architect the content 
management of our digital collections. This will include separate data 
integrity check policies for the various collections.

                 <greek-l>loc deg.RESTORING INFORMATION

    Question. Does LOC have a plan for restoring information that has 
been deleted or corrupted?
    Answer. LOC protects its data from loss by deletion or corruption 
by making multiple copies of the data in multiple locations. Even if 
information has been accidentally deleted from disk by a user or 
administrator and marked as deleted, the file is not physically deleted 
from the primary or secondary copy. It can be recovered. If data is 
deleted or corrupted on disk it can be retrieved and restored from the 
primary copy or the remote secondary copy. Business and Web data are 
backed up through scheduled processes using industry standard backup 
and recovery software. Partial and full backups are taken and a second 
copy is written to a remote cite. This data can be recovered using the 
backup and recovery software.
    Long-term storage of preservation data is stored on magnetic tape. 
This data is ingested to a large disk cache where it goes through a 
workflow process and then is written to tape and a second copy is 
written to a remote site. The data is stored in a manner that makes 
recall and use of this data fairly simple.

          <greek-l>loc deg.CONSOLIDATION OF DATA CENTER ASSETS

    Question. According to a recently released GAO report entitled 
``Opportunities to Reduce Potential Duplication in Government Programs, 
Save Tax Dollars, and Enhance Revenue (the Duplication Report)'', ``In 
recent years, as Federal agencies modernized their operations, put more 
of their services online, and increased their information security 
profiles, they have demanded more computing power and data storage 
resources. According to OMB, the number of Federal data centers grew 
from 432 in 1998 to more than 2,000 in 2010. These data centers often 
house similar types of equipment and provide similar processing and 
storage capabilities. These factors have led to concerns associated 
with the provision of redundant capabilities, the underutilization of 
resources, and the significant consumption of energy.''
    In February 2010, the administration launched the Federal Data 
Center Consolidation initiative and issued guidance for Federal CIO 
Council agencies that called for agencies to inventory their data 
center assets, develop consolidation plans throughout fiscal year 2010, 
and integrate those plans into agency fiscal year 2012 budget 
submissions.
    Is LOC working to reduce the size of its data center footprint?
    Answer. Unlike most agencies LOC is in the business of collecting 
and preserving data for future generations. The amount of LOC data 
grows each year as more and more collection and preservation data is 
acquired and stored in LOC systems. LOC is continually planning and 
reworking the layout of the Data Center to maintain or shrink the 
footprint.
    Wherever possible, LOC backs data up on tape rather than spinning 
disk, which uses more space and power. LOC also continually migrates 
data on tape to the latest (higher-density tape) technologies 
available. This allows LOC to grow collection and preservation data and 
maintain the same footprint in the data center.
    In an effort to reduce LOC data center footprint to allow for 
future data storage growth, LOC has recently implemented a 
virtualization infrastructure. The key benefit of this infrastructure, 
as it relates to the question, is that centralizing and reducing the 
number of physical servers will reduce the required amount of power, 
air conditioning, and physical space allocations. LOC is also in the 
process of implementing new network switches in the primary data center 
(Madison Building.). Implementing these newer technology switches will 
reduce the overall number of data center switches from 10 to 2. This 
will further reduce the network infrastructure footprint in the data 
center.
    Last, in an effort to optimize the data centers operational 
capabilities, LOC recently performed a study of all four LOC data 
centers. This study examined the current environment with regards to 
space allocation, power consumption and cooling capabilities. This 
information was used to project future space and environmental 
requirements based on current growth rates.
    Question. How does LOC protect and backup its electronic data?
    Answer. LOC protects its data by making multiple copies of the data 
in multiple locations. LOC uses different strategies according to the 
needs of the different categories of information:
      Business and Web Data.--Business and Web data are backed up 
        through scheduled processes using industry standard backup and 
        recovery software. Partial and full backups are taken and a 
        second copy is written to a remote site.
      Long-term Storage of Preservation Data.--Currently, LOC takes in 
        approximately 120 TB of preservation data a month. This will 
        increase to approximately 200 TBs a month by the end of 2011. 
        LOC has chosen to store this data on magnetic tape. Tape is a 
        reliable, mature technology that has an error rate several 
        magnitudes smaller than disk. It also has a very dense 
        footprint and consumes very little power. This data is ingested 
        to a large disk cache where it goes through a workflow process 
        and then is written to tape and a second copy is written to a 
        remote site. The data is stored in a manner that makes recall 
        and use of this data fairly simple.
      Disk Replication and Disaster Recovery.--To support Continuity of 
        Operations Planning and disaster recovery, mission-critical 
        application data is replicated on disk at a remote site. 
        Bringing these applications on line at the remote site is 
        performed according to a priority set by LOC leadership. For 
        instance, one of the higher-priority applications is the 
        Legislative Information Service (LIS). LIS data is replicated 
        remotely and in the event of a disaster, the application and 
        its data can be brought online within a matter of hours. This 
        data is also protected by complete backup as well.
    Question. What is LOC doing to take advantage of newer, more 
reliable, disk-based storage, and back-up technology which can drive 
down costs by reducing the overall data footprint at data centers?
    Answer. LOC has built into its future technology plans a technology 
refresh that migrates data from older technology to newer, denser, and 
power-saving technology. Over the past 5-7 years LOC has moved from 
using disks that can store 100 GB of data per disk drive to storing 
data on disks that can store 2 TB of data per disk drive. This is a 20-
fold increase in density for nearly the same power requirements. LOC 
continues to look at new disk technologies and assess their 
applicability to LOC needs.
    Regarding back-up technology, LOC has adopted tape technology 
wherever possible. Disks are expensive and require more power and 
cooling than magnetic tapes. Magnetic tape technology provides a 
denser, less power-hungry, less error-prone, and less-expensive 
alternative to spinning disks. It has a known migration path and mature 
methods for assuring data integrity. LOC also has an audit program to 
assure quality of the media and hardware.

       <greek-l>loc deg.COST OF PROTECTING ELECTRONIC INFORMATION

    Question. What are the costs associated with protecting LOC's 
electronic information? Please submit a breakdown to the subcommittee.
    Answer. The initial cost associated with protecting LOC's 
electronic information is $13.976 million. In addition, there is an 
annually recurring cost of $5.48 million.

                    <greek-l>loc deg.CLOUD COMPUTING

    Question. The Federal CIO Council recently outlined a 25-point plan 
that puts in place a cloud-computing first strategy for all Federal IT. 
The plan boasts that cloud IT infrastructure creates the following 
benefits:
      Economical.--Cloud computing is a pay-as-you-go approach to IT, 
        in which a low initial investment is required to begin, and 
        additional investment is needed only as system use increases.
      Flexible.--IT departments that anticipate fluctuations in user 
        demand no longer need to scramble for additional hardware and 
        software. With cloud computing, they can add or subtract 
        capacity quickly and easily.
      Fast.--Cloud computing eliminates long procurement and 
        certification processes, while providing a near-limitless 
        selection of services.
    Does LOC currently utilize, or plan to implement, a cloud-based IT 
infrastructure to operate and deliver programs to the public?
    Answer. LOC is currently implementing a virtualized environment to 
provide cloud-based IT infrastructure that, while currently planned for 
internal use only, can be adapted to provide public service. Many of 
LOC's public facing services currently run on an internal cloud-based 
infrastructure using shared CPUs, memory, and storage. LOC runs two 
internal hosting environments, the Application Hosting Environment 
(AHE) and the Financial Hosting Environment (FHE). The FHE hosts 
sensitive systems and data. Examples includes the Momentum Financial 
Management System, Health Services Organization (HSO) Medical 
Information Management System (MIMS--sometimes referred to as Medgate, 
Medgate is the actual software name). The AHE hosts most of LOC's other 
applications.

           <greek-l>loc deg.CONSIDERED PROGRAMS FOR THE CLOUD

    Question. Are there particular computer applications like email or 
other programs that LOC is considering moving to the cloud?
    Answer. LOC is evaluating moving the current New Visitor Experience 
(NVE) and MyLOC.gov from a Hosted Environment to a Cloud Environment. 
The NLS/BPH is evaluating placing their Electronic Books on a cloud 
system to enhance downloading electronic books to West Coast States.
    LOC is currently using the cloud to host the Global Legal 
Information Network (GLIN). Moreover, the OSI Digitization Projects 
System is a cloud application using an Application as a Service cloud 
offering from Appian.
    We will continue to monitor the Federal agency guidance being 
developed by the Office of Management and Budget, National Institutes 
of Standards and Technology, and General Services Administration prior 
to broadly implementing any cloud computing initiatives.

                <greek-l>loc deg.SENSITIVE DATA CONTROLS

    Question. What current controls do you have in place to ensure 
sensitive data is not being released to the public?
    Answer. LOC's IT security policies are based on best practices, 
such as the NIST standards. Moreover, LOC uses best practices for 
technical controls using guides from Defense Information Systems Agency 
and the Center for Internet Security to secure servers, routers, 
switches, workstations, Web servers, and databases. LOC uses 
certification testing to ensure that security controls are in place 
before new systems go into production and continuous monitoring 
techniques to ensure that new vulnerabilities are addressed in a timely 
manner. As part of LOC's IT security process, information is evaluated 
to determine sensitivity and the security controls are based on the 
level of sensitivity. Systems with sensitive information are placed 
into a separate environment with more stringent security controls. 
Additionally, LOC is monitoring for unusual data traffic patterns that 
would indicate sensitive data being removed inappropriately from LOC.

                          SUBCOMMITTEE RECESS

    Senator Nelson. This hearing is now concluded.
    [Whereupon, at 3:21 p.m., Thursday, March 31, the hearing 
was concluded, and the subcommittee recessed, to reconvene 
subject to the call of the Chair.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                         THURSDAY, MAY 12, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 1:30 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senators Nelson and Hoeven.

                              U.S. SENATE

                        Office of the Secretary

STATEMENT OF HON. NANCY ERICKSON, SECRETARY OF THE 
            SENATE
ACCOMPANIED BY:
        CHRIS DOBY, FINANCIAL CLERK
        SHEILA DWYER, ASSISTANT SECRETARY

                OPENING STATEMENT OF SENATOR BEN NELSON

    Senator Nelson. The subcommittee will come to order. Good 
afternoon, everyone, and welcome.
    My colleague Senator Hoeven has an Energy Task Force 
meeting at this point in time. We have a 2 o'clock vote. So, 
what will happen is, I will go until 2 o'clock, then we'll 
recess for however long it takes me to go and vote, and then 
hopefully the Senator will be able to join us after.
    We meet, this afternoon, to take testimony on the fiscal 
year 2012 budget request for the Secretary of the Senate, 
Senate Sergeant at Arms (SAA), and the U.S. Capitol Police 
(USCP). This is our fourth and final hearing for fiscal year 
2012.
    I want to welcome our three witnesses today: Nancy 
Erickson, Secretary of the Senate; Terrance W. Gainer, Senate 
Sergeant at Arms; and Phillip D. Morse, Sr., Chief of the 
Capitol Police.
    I want to start, today, by acknowledging the dedication and 
hard work of all of your staff. The services provided by many 
of your employees are rarely seen, but are highly relied upon 
for the day-to-day operation of the Senate. I know that the 
Senate is a very demanding place to work often requiring long 
hours, under extraordinary pressure. And we sometimes are 
accused of being high maintenance. But, I want you to know that 
we sincerely appreciate everyone's work, and we're grateful to 
all of the men and women who keep the Senate running safely and 
smoothly every day.
    I'd like to reiterate a few points that were made during 
our first three hearings this year. My goal, going into fiscal 
year 2011, was to hold the legislative branch flat; and I'm 
proud to say that, despite the challenges we face, we've 
surpassed that goal by cutting just more than $100 million 
below the fiscal year 2010 enacted level. Furthermore, we have 
accomplished this without requiring the agencies that assist us 
in our day-to-day operations to implement, ``reductions in 
force''. And, as you may have heard, in fiscal year 2012 I plan 
to cut even further below the fiscal year 2011 number so that 
we can lead by example on this subcommittee, when it comes to 
getting our fiscal house in order. Putting forth a reasonable, 
responsible budget for the legislative branch in fiscal year 
2012 is my number one priority.
    Ms. Erickson, we are pleased to have you here this 
afternoon. I look forward to hearing your testimony. For fiscal 
year 2012, your office is requesting a total of $32 million, 
which is the same level of funding recently provided to your 
office in the fiscal year 2011 continuing resolution. I realize 
this level of funding is a reflection of the transfer of a $4.2 
million Senate Information System (SIS), last year, to your 
office from the SAA. I look forward to hearing more about the 
specifics of your budget request and receiving an update on the 
progress of the new Senate payroll system.
    Mr. Gainer, first, I want to commend you for your smart 
thinking, earlier this year, when you hired Nancy Olkewicz.
    We've all benefited from her steadfast dedication and 
loyalty to the United States Senate. And we continue to get 
that now, as she works with the Appropriations Committee, and 
this subcommittee, in particular. I'm certain you've already 
benefited tenfold from the detailed knowledge and understanding 
of this institution that she has brought with her to the new 
job.
    We're still recovering from our loss of her here on this 
subcommittee, but Lila Helms is doing an outstanding job. It 
happens to be her birthday today. The SAA request for 2012 
totals $219 million, an increase of $214,000 more than the 
recently enacted fiscal year 2011 level. I look forward to 
hearing an update on the relocation of your printing, graphics, 
and direct mail shop, and any security-related updates that you 
may have to share with us.
    Finally, Chief Morse, your fiscal year 2012 request totals 
$387.6 million, which is an increase of $47 million, or 14 
percent, more than the recently enacted fiscal year 2011 level. 
I also want to note that, when it came to setting the fiscal 
year 2011 levels, every agency, with the exception of the USCP 
and the Congressional Budget Office (CBO), took a cut in 
funding. You received a $12 million increase more than the 2010 
funding level. Granted, much of this increase was to annualize 
the funding correction, due to a salary miscalculation at the 
department in fiscal year 2010. We will need to look carefully 
at this request, given just how tight budgets are going to be 
in fiscal year 2012. In particular, we'll be reviewing the 
seven or so new initiatives you've identified, to see where we 
might be able to realize some savings. I also look forward to 
receiving an update on the radio modernization project from 
you, as well.
    Now I'd like to begin with the witnesses. I'd appreciate if 
you might be able to keep your opening remarks to about 5 
minutes, and submit the rest of your statements for the record.
    Ms. Erickson, we'll start with you, and then we'll hear 
from Mr. Gainer, and then Chief Morse.

                  SUMMARY STATEMENT OF NANCY ERICKSON

    Ms. Erickson. Chairman Nelson, I appreciate this 
opportunity to provide testimony on behalf of the Office of the 
Secretary and its employees. I'm joined today by Sheila Dwyer, 
the Assistant Secretary, and Chris Doby, our Financial Clerk, 
who provides the steady hand in overseeing the Senate 
Disbursing Office.
    Since 1789, the Secretary of the Senate has been tasked 
with legislative, financial, and administrative 
responsibilities to support the Senate. I was reminded of our 
office's historic role in supporting the Senate during new 
Member orientation, when I had the opportunity to accompany our 
new Senators and their spouses to the National Archives 
legislative vault, where some of the Senate's earliest records 
are stored. We looked, in awe, at the very first Senate 
journal, and noted the Secretary's constitutional 
responsibility in documenting the Senate's very first day of 
business on March 4, 1789. Admiring the first Secretary of the 
Senate's beautiful handwriting, I must say that I'm grateful 
that this constitutional responsibility is carried out by our 
Senate Journal Clerks who can rely on laptops to compile the 
Senate Journal.
    This year, I'm requesting $31,990,000 to support the 
operations of the Office of the Secretary. This includes 
$25,790,000 for salaries, $2 million for operations, and $4.2 
million for the SIS program.
    I'd like to highlight three points. First, the budget 
request includes no increase for salaries or operations. 
Second, the operating budget for the administration of the SIS 
program, operations of which were assumed by this office last 
year, is also unchanged. Finally, I would be remiss if I did 
not point out that our 2012 budget request for operations is 
the same as our 2008 appropriation.
    Getting to this number has required careful assessments of 
not only how we use our financial resources, but also how we 
efficiently and effectively deploy our human resources. I'm 
very proud of our 26 department managers and our accounts 
administrator, who have been careful stewards of our resources, 
and who have committed themselves to rethinking how we work, 
with the goal of continuing superior service to the Senate.
    Compared to the budgets of our legislative branch partners, 
the Office of the Secretary's budget is small. However, we're 
fortunate that we're structured in a way that allows our office 
to operate efficiently. One example of this is our relationship 
with the Senate SAA in the area of information technology (IT). 
We rely on the SAA for our IT support requirements, ranging 
from the technical support for our payroll and financial 
systems to our enormous databases in the Office of Public 
Records, which includes Senate campaign reports, financial 
disclosure filings, travel reports, as well as registrant and 
lobbyist filings under the Lobbying Disclosure Act, as amended. 
We appreciate this relationship and underscore the importance 
of these systems in carrying out our congressional mandates.
    As you know, the SIS program was established by regulation 
by the Rules Committee in 1987 to provide all Senate offices 
access to online research services. During the past year, we 
focused our efforts on cost containment and gathered feedback 
from Senate staff on their research needs and the tools they 
use. On the cost-containment front, as a result of contract 
negotiations led by the Senate Librarian and procurement staff, 
SIS program costs in 2011 were held to 2010 levels. The 
successful negotiations, however, do not guarantee that there 
will not be future price increases and, potentially, hard 
decisions about what SIS services are added.
    Based on feedback from Senate staff, it's clear that online 
research plays a critical role in the daily work of the Senate. 
These resources are focused on real-time news, legislative, 
legal, and policy resources that are valued by staff. The 
online research industry is rapidly changing. And as we move 
forward in managing the SIS program, we will be vigilant in 
pursuing opportunities to maximize the Senate's investment 
while being mindful of costs.
    With respect to our financial responsibilities, the 
Disbursing Office, in tandem with SAA technical support, 
researched and procured a vendor to implement a new payroll 
system that met the Senate's unique requirements. We have a 
rigorous schedule to ensure a smooth implementation, including 
parallel testing with our current system before it's launched 
early next year. The next phase of the payroll project will 
include self-service options for employees.
    [The information follows:]

    As I mentioned in my testimony, the new payroll system will be 
implemented in three phases. Phase I will replace existing 
functionality. Phase II of the project will involve the implementation 
of self-service functions for employees, such as change-of-address 
requests, revising withholding amounts, and, eventually, making changes 
in benefit selections, and will allow for electronic payroll 
information notices to be sent, replacing the paper notices that 
employees now receive. Phase III, which is not yet funded, is the 
rollout of the new personnel system for Senate offices. When all three 
phases are implemented, we envision that offices will be able, pending 
approval of a digital signature format by the Committee on Rules and 
Administration, to submit payroll changes electronically.

    Ms. Erickson. As we've worked on the implementation of this 
enormous and complex payroll project, I'm reminded of a simpler 
time, when Senators and staff were paid with crisp $20 bills at 
the front counter of the Disbursing Office, a Senate practice 
until 1972.
    Our Disbursing Office and Senate Webmaster, in coordination 
with the Government Printing Office, are implementing a 
statutory requirement that the report of the Secretary be 
publicly posted on the Internet. The first posting of this 
report will occur at the end of November 2011 and will be 
available from a link on senate.gov in a PDF format.
    We will continue work on the paperless voucher initiative 
to reduce paper, streamline the voucher process, and for 
continuity-of-operation purposes. In the meantime, I'm pleased 
to report that paper vouchers were processed 10 percent faster 
than the previous year, which is good news for your office 
managers and your State vendors.
    Following past practice, I asked the Government 
Accountability Office (GAO) to audit the accounting books and 
inventory processes in our stationery room and gift shop. And 
I'm pleased to report that we received a positive audit with 
valuable feedback. In fact, the GAO singled out our inventory 
processes and warehouse operations as a model for other similar 
Government entities.

                           PREPARED STATEMENT

    I felt fortunate to be on the Senate floor to hear many of 
the farewell remarks of departing Senators this past December. 
And I was struck by a recurring theme in their recognition of 
the staff who work behind the scenes to support the Senate. Our 
staff, who have legislative, financial, and administrative 
responsibilities, take great pride in their historic role in 
serving the United States Senate, and we appreciate your 
subcommittee's recognition and support of their important work.
    Thank you.
    [The statement follows:]

                  Prepared Statement of Nancy Erickson

    Mr. Chairman, Senator Hoeven, and members of the subcommittee, 
thank you for your invitation to present testimony in support of the 
budget request of the Office of the Secretary of the Senate for fiscal 
year 2012.
    It is a pleasure to have this opportunity to draw attention to the 
accomplishments of the dedicated and outstanding employees of the 
Office of the Secretary. The annual reports which follow provide 
detailed information about the work of each department of the office, 
their recent achievements, and their plans for the upcoming fiscal 
year.
    My statement includes:
  --presenting the fiscal year 2012 budget request;
  --implementing mandated systems--Financial Management Information 
        System (FMIS) and Legislative Information System (LIS);
  --Continuity of Operations Planning (COOP); and
  --maintaining and improving current and historic legislative, 
        financial, and administrative services.

    <greek-l>sos deg.PRESENTING THE FISCAL YEAR 2012 BUDGET REQUEST

    I am requesting a total fiscal year 2012 budget of $31,990,000. The 
request includes $25,790,000 in salary costs and $6.2 million for the 
operating budget of the Office of the Secretary. This request has been 
kept at fiscal year 2011 levels and represents a flat budget. No 
increase has been requested for salaries or operating expenses. In 
addition, the operating budget for the administration of Senate 
Information Services (SIS) program that was assumed by this office last 
year has not been increased.
    My total budget request for fiscal year 2012 is the same as last 
year. The balance of our request is consistent with the amounts 
requested and received in 2011 through the legislative branch 
appropriations process.

                                 OFFICE OF THE SECRETARY APPORTIONMENT SCHEDULE
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                      Amount          Budget
                                                                     available       estimates
                              Items                                 fiscal year     fiscal year     Difference
                                                                  2011 (pending)       2012
----------------------------------------------------------------------------------------------------------------
Departmental operating budget:
    Executive office............................................             550             550  ..............
    Administrative services.....................................           5,590           5,590  ..............
    Legislative services........................................              60              60  ..............
                                                                 -----------------------------------------------
      Total operating budget....................................           6,200           6,200  ..............
----------------------------------------------------------------------------------------------------------------

             <greek-l>sos deg.IMPLEMENTING MANDATED SYSTEMS

    Two systems critical to our operation are mandated by law, and I 
would like to spend a few moments on each to highlight recent progress, 
and to thank the subcommittee for your ongoing support of both.
FMIS
    The FMIS is used by approximately 140 Senate offices. Consistent 
with our strategic plan, the Disbursing Office continues to modernize 
processes and applications to meet the continued demand by Senate 
offices for efficiency, accountability, and ease of use. Our goals are 
to move to an integrated, paperless voucher system, improve the WebFMIS 
system, and make payroll and accounting system improvements.
    During fiscal year 2010 and the beginning of fiscal year 2011, 
specific progress made on the FMIS project included:
  --WebFMIS was upgraded three times this year: in January 2010, August 
        2010, and November 2010. This system is used by administrative 
        managers, committee clerks, staff in the Sergeant at Arms 
        Office (SAA), and the Secretary's office to create vouchers and 
        manage their office funds, by the Disbursing Office to review 
        vouchers and by the Committee on Rules and Administration to 
        sanction vouchers. Additionally, it is used by staff who incur 
        official expenses, primarily staff who travel, to prepare their 
        Expense Summary Reports (ESRs). The releases provided both 
        technical and functional changes.
    --FMIS 2010-1 was implemented in January 2010. This release 
            included a small number of enhancements for WebFMIS users 
            including an automated password reset feature, a warning to 
            the ESRs user when their document violates the 60-day 
            election rule limitations, adding graphs to the WebFMIS 
            summary reports, and implementing a pilot of electronic 
            invoice (EI) functionality, which allows a user to easily 
            create credit card reimbursement vouchers based on invoices 
            received electronically from the Senate's credit card 
            vendor. A pilot of the EI functionality began in January 
            and was offered to all offices in June 2010. By the end of 
            2010, 33 offices were using the EI functionality.
    --FMIS 2010-2 was implemented in August 2010. This release included 
            a small number of enhancements for ESR users, but was 
            focused on implementing new functionality for the SAA 
            accounts payable (A/P) process. Processes were simplified 
            by automated retrieval of data from existing purchase 
            orders. An application, WebPICS provides pop-up windows 
            where users enter the required data which the system uses 
            to retrieve information from the purchase order. The users 
            verifies retrieved data and adds information necessary to 
            complete the process to create receiving reports, invoices, 
            and vouchers for payments against purchase orders.
    --FMIS 2011-1 was implemented in November 2010 and included two new 
            fields (invoice date and invoice receipt date) on the 
            WebFMIS document create page and the document search 
            criteria page for all users; it gives SAA users the ability 
            to search by project code and job code using the document 
            search criteria page and users using the EI functionality, 
            the ability to search by traveler's name. A new version of 
            the ESR, ``Line Item Entry'' was also introduced to a pilot 
            group. This enables users to select from 1 of 3 travel 
            types of the ESR; single trip, multiple trips, or 
            interdepartmental travel, requiring different types of 
            information based on the type selected. It is anticipated 
            that this new version of the ESR will reduce rekeying by 
            staff and reduce the corrections to itineraries made by 
            administrative mangers, chief clerks and Disbursing's A/P 
            staff. A pilot of 10 offices and committees began in 
            November 2010. This version was given to all new Senators 
            of the 112th Congress.
  --The computing infrastructure for FMIS is provided by the SAA. Each 
        year the SAA staff upgrades the infrastructure hardware and 
        software. During 2010 the SAA implemented two major upgrades to 
        the FMIS infrastructure. These included upgrading the database, 
        DB2, to version 9 in a two-step process, and upgrading the 
        mainframe operating system to version 1, release 11.
  --During 2008 Disbursing implemented a prototype imaging system in 
        which paper vouchers and supporting documentation were imaged 
        by Disbursing staff and routed electronically. The hands-on 
        experience of this prototype was especially useful in refining 
        system requirements. In 2009 and completed in 2010, the 
        software for the image database and image viewer was selected, 
        and imaging and electronic signature requirements were 
        finalized. This information was coordinated with a separate SAA 
        smart card ID project to be utilized for electronic signatures. 
        In October 2010, a task order for adding document imaging and 
        electronic signatures to WebFMIS was signed. This task order 
        outlines work to be completed in 2010 through the spring of 
        2013.
  --Finalized the selection of the PeopleSoft payroll system integrator 
        through a competitive bid process, signed the contract and 
        started with the fit gap sessions for the implementation of the 
        new system.
  --Implemented State tax remittances via direct deposit for six 
        additional States and updated our access to the Federal Reserve 
        Bank (FRB) due to a change in FRB-supplied equipment.
    During the remainder of fiscal year 2011 the following FMIS 
activities are anticipated:
  --Implementing WebPICS release for phase III which will focus on SAA 
        purchase order creation and approval;
  --Coordinating with SAA the timeframes for the implementation of the 
        smart card ID project for electronic signatures;
  --Implementing on-line distribution of monthly ledger reports using 
        Reveal via WebFMIS;
  --Implementing Automated Clearing House (ACH) payment for the 16 
        remaining State taxes jurisdictions which require a programming 
        change;
  --Participating in the yearly disaster recovery test; and
  --Implementing FMIS release 2011-2 during the spring 2011. This 
        release is expected to allow the SAA A/P group and the 
        Secretary's account administrator the ability to image and 
        attach supporting documentation to the documents created via 
        WebPICS or WebFMIS.
    During fiscal year 2012 the following FMIS activities are 
anticipated:
  --Continuing the implementation of online financial reports;
  --Implementing FMIS 2011-3, which includes the deployment of an 
        imaging and electronic signatures pilot by Senate office.
  --Implementing FMIS 2012-1 to include additional imaging features 
        from the pilot group requirements to support extended pilot 
        office participation.
  --Implementing FMIS 2012-2 to provide capacity and stability 
        enhancements to support rollout to all offices and committees, 
        as well as enhancements to the pilot functionality based on 
        feedback gained through user group meeting and training 
        sessions;
  --Continuing with the new payroll system implementation, conversion 
        and testing; and
  --Reviewing existing systems and developing a long-term modification 
        and replacement plan for key financial systems.
    A more detailed report on FMIS is included in the departmental 
report of the Disbursing Office.

                  <greek-l>sos deg.LEGISLATIVE OFFICES

    The Legislative Department provides support essential to Senators 
in carrying out their daily chamber activities as well as the 
constitutional responsibilities of the Senate. The Legislative Clerk 
sits at the Secretary's desk in the Senate Chamber and reads aloud 
bills, amendments, the Senate Journal, Presidential messages, and other 
such materials when so directed by the Presiding Officer of the Senate. 
The Legislative Clerk calls the roll of Members to establish the 
presence of a quorum and to record and tally all yea and nay votes. The 
office staff prepares the Senate Calendar of Business, published each 
day that the Senate is in session, and prepares additional publications 
relating to Senate class membership and committee and subcommittee 
assignments. The Legislative Clerk maintains the official copy of all 
measures pending before the Senate and must incorporate into those 
measures any amendments that are agreed to. This office retains custody 
of official messages received from the House of Representatives and 
conference reports awaiting action by the Senate. The office staff is 
responsible for verifying the accuracy of information entered into the 
LIS system by the various offices of the Secretary.
    Additionally, the Legislative Clerk acts as supervisor for the 
Legislative Department, responsible for overall coordination, 
supervision, scheduling, and cross-training. The department consists of 
eight offices:
  --the Bill Clerk;
  --Captioning Services;
  --Daily Digest;
  --Enrolling Clerk;
  --Executive Clerk;
  --Journal Clerk;
  --Legislative Clerk; and
  --the Official Reporters of Debates.

Summary of Activity
    The Senate completed its legislative business and adjourned sine 
die on December 22, 2010. During 2010, the Senate was in session 158 
days and conducted 299 roll call votes and eight live quorum calls. 
There were 388 measures reported from committees and six special 
reports submitted to the Senate. There were 569 total measures passed 
or agreed to. In addition, there were 4,924 amendments submitted to the 
desk.

Cross-training and COOP Planning
    Recognizing the importance of planning for the continuity of Senate 
business, under both normal and possibly extenuating circumstances, 
cross-training continues to be strongly emphasized among the 
Secretary's legislative staff. To ensure additional staff are trained 
to perform the basic floor responsibilities of the Legislative Clerk, 
as well as the various other floor-related responsibilities of the 
Secretary, approximately one-half of the legislative staff are 
currently involved or have recently been involved in cross-training.
    Each office and staff within the Legislative Department 
participated in numerous ongoing COOP discussions and exercises 
throughout the past year. These discussions and exercises are a joint 
effort involving the Office of the Secretary, the U.S. Capitol Police 
(USCP), and the SAA.

Succession Planning
    The average number of years of Senate service among the Secretary's 
Legislative Department supervisors is 19 years. It is critical that the 
Secretary's Legislative Department attract and keep talented employees, 
especially the second tier of employees just behind the current 
supervisors because of the unique nature of the Senate as a legislative 
institution. The arcane practices and voluminous precedents of the 
Senate make institutional experience and knowledge extremely valuable.

                      <greek-l>sos deg.BILL CLERK

    The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Bill Clerk's staff keeps this 
information in its handwritten files and ledgers and also enters it 
into the Senate's automated retrieval system so that it is available to 
all House and Senate offices through the LIS. The Bill Clerk records 
actions of the Senate with regard to bills, resolutions, reports, 
amendments, cosponsors, Public Law numbers, and recorded votes. The 
Bill Clerk is responsible for preparing for print all measures 
introduced, received, submitted, and reported in the Senate. The Bill 
Clerk also assigns numbers to all Senate bills and resolutions. All the 
information received in this office comes directly from the Senate 
Floor in written form within moments of the action involved, so the 
Bill Clerk's office is generally regarded as the most timely and most 
accurate source of legislative information.
Assistance From the Government Printing Office (GPO)
    The Bill Clerk's staff maintains an exceptionally good working 
relationship with the GPO and seeks to provide the best service 
possible to meet the needs of the Senate. The GPO continues to respond 
in a timely manner to the Secretary's request, through the Bill Clerk's 
office, for the printing of bills and reports, including the expedited 
printing of priority matters for the Senate Chamber.
Legislative Activity
    The Bill Clerk's staff processed 1,099 fewer legislative items than 
in the previous Congress for an overall decrease of slightly less than 
9 percent. For comparative purposes, below is a summary of the second 
sessions of the 110th and 111th Congresses, and then between the 
combined sessions of each Congress.

----------------------------------------------------------------------------------------------------------------
                                                                       110th           111th
                                                                   Congress, 2nd   Congress, 2nd    Percentage
                                                                      Session         Session         change
----------------------------------------------------------------------------------------------------------------
Senate bills....................................................           1,217           1,139           -6.41
Senate Joint Resolutions........................................              19              17          -10.53
Senate Concurrent Resolutions...................................              43              30          -30.23
Senate Resolutions..............................................             311             320           +2.89
Amendments submitted............................................           1,812           1,626          -10.26
House bills.....................................................             427             333          -22.01
House Joint Resolutions.........................................               4               6          +50.00
House Concurrent Resolutions....................................              93              51          -45.16
Measures reported...............................................             452             388          -14.16
Written reports.................................................             274             275          +41.61
                                                                 -----------------------------------------------
      Total legislation.........................................           4,652           4,298           -7.61
                                                                 ===============================================
Roll call votes.................................................             215             299          +39.07
House messages \1\..............................................             283             332          +17.31
Cosponsor requests..............................................           7,306           4,947          -32.29
----------------------------------------------------------------------------------------------------------------
\1\ This number reflects how many messages from the House are typed up by the Bill Clerks for inclusion in the
  Congressional Record. It excludes additional activity on these bills.


----------------------------------------------------------------------------------------------------------------
                                                                                                    Percentage
                                                                  110th Congress  111th Congress      change
----------------------------------------------------------------------------------------------------------------
Senate bills....................................................           3,741           4,059            +8.5
Senate Joint Resolutions........................................              46              42            -8.7
Senate Concurrent Resolutions...................................             107              78           -27.1
Senate Resolutions..............................................             729             707           -3.02
Amendments Submitted............................................           5,704           4,924          -13.67
House bills.....................................................             940             715          -23.94
House Joint Resolutions.........................................              13              16          +23.08
House Concurrent Resolutions....................................             186             118          -36.56
Measures reported...............................................             880             388          -55.91
                                                                 -----------------------------------------------
      Total legislation.........................................          12,346          11,047          -10.52
----------------------------------------------------------------------------------------------------------------

                  <greek-l>sos deg.CAPTIONING SERVICES

    The Office of Captioning Services provides realtime captioning of 
Senate Floor proceedings for the deaf and hard-of-hearing and 
unofficial electronic transcripts of Senate Floor proceedings to Senate 
offices on Webster, the Senate Intranet.
General Overview
    Captioning Services strives to provide the highest-quality closed 
captions. For the 17th year in a row, the Office has achieved an 
overall accuracy average above 99 percent. Overall caption quality is 
monitored through daily translation data reports, monitoring of 
captions in real-time, and review of caption files on Webster. In an 
effort to decrease paper consumption and printing costs, accuracy 
reviews and reports will be completed and archived in electronic form 
for the upcoming year.
    The real-time searchable closed caption log, available to Senate 
offices on Webster, continues to be an invaluable tool for all of the 
Senate community. Legislative floor staff, in particular, continue to 
depend upon its availability, reliability and contents to help them in 
the performance of their duties. Additionally, the Senate Recording 
Studio's complementary video component, Video Vault, adds searchable 
video to the audio and text and has proven to be a valuable new tool 
for Senate offices to utilize.
COOP Planning
    COOP and preparation continue to be a top priority to ensure that 
the office and staff are prepared and confident about the ability to 
relocate and successfully function from a remote location in the event 
of an emergency. Continual updates and review of the COOP plan and 
discussion with staff throughout the year prepare individuals to have 
confidence if called upon to execute the plan. The office also 
participates with the Recording Studio in an off-site location exercise 
of the COOP at least once a year.

                     <greek-l>sos deg.DAILY DIGEST

    The Office of the Senate Daily Digest is pleased to transmit its 
annual report on Senate activities during the second session of the 
111th Congress. First, a brief summary of a compilation of Senate 
statistics:
Chamber Activity
    The Senate was in session a total of 158 days, for a total of 1,074 
hours and 40 minutes. There were eight live quorum calls and 299 roll 
call votes. (See attachment for 2009 Year Comparison of Senate 
Legislative Activity).
Committee Activity
    Senate committees held a total of 827 meetings during the second 
session, as contrasted with 1,138 meetings during the first session of 
the 111th Congress.
    All hearings and business meetings (including joint meetings and 
conferences) are scheduled through the Office of the Senate Daily 
Digest and are published in the Congressional Record, on its Web site 
on Senate.gov, and entered in the LIS, the Web-based applications 
system. Meeting outcomes are also published by the Daily Digest in the 
Congressional Record each day and continuously updated on the Web site.
Computer Activities
    The Digest staff continues to work closely with Senate computer 
staff to refine the LIS/document management system (DMS), including 
further refinements to the Senate Committee Scheduling application 
which will improve the data entry process.
    The Digest office continues to electronically transmit the complete 
publication at the end of each day to the GPO.
GPO
    The Daily Digest staff work closely with the GPO on printing issues 
and are pleased to report that occurrences of editing corrections or 
transcript errors are infrequent.

                                                                      20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY \1\
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1991          1992          1993          1994          1995          1996          1997          1998          1999          2000
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate convened.....................................           1/3           1/3           1/5          1/25           1/4           1/3           1/3          1/27           1/6          1/24
Senate adjourned....................................        1/3/92          10/9         11/26         12/01        1/3/96          10/4         11/13         10/21         11/19         12/15
Days in session.....................................           158           129           153           138           211           132           153           143           162           141
Hours in session....................................      1,20044"      1,09109"      1,26941"      1,24333"      1,83910"      1,03645"      1,09307"      1,09505"      1,18357"      1,01751"
Average hours per day...............................           7.6           8.5           8.3           9.0           8.7           7.8           7.1           7.7           7.3           7.2
Total measures passed...............................           626           651           473           465           346           476           386           506           549           696
Roll call votes.....................................           280           270           395           329           613           306           298           314           374           298
Quorum calls........................................             3             5             2             6             3             2             6             4             7             6
Public Laws.........................................           243           347           210           255            88           245           153           241           170           410
Treaties ratified...................................            15            32            20             8            10            28            15            53            13            39
Nominations confirmed...............................        45,369        30,619        38,676        37,446        40,535        33,176        25,576        20,302        22,468        22,512
Average voting attendance...........................         97.16          95.4          97.6         97.02         98.07         98.22         98.68         97.47         98.02         96.99
Sessions convened before 12 noon....................           126           112           128           120           184           113           115           109           118           107
Sessions convened at 12 noon........................             9             6             6             9             2            15            12            31            17            25
Sessions convened after 12 noon.....................            23            10            15            17            12             7             7             2            19            24
Sessions continued after 6 p.m......................           102            91           100           100           158            88            96            93           113            94
Sessions continued after 12 midnight................             4             9             7             3             1  ............  ............  ............  ............             2
Saturday sessions...................................             2             2             2             3             5             1             1             1             3             1
Sunday sessions.....................................  ............  ............  ............  ............             3  ............             1  ............  ............             1
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                  20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY--Continued
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          2001          2002          2003          2004          2005          2006          2007          2008          2009          2010
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate convened.....................................           1/3          1/23           1/7          1/20           1/4           1/3           1/4           1/3           1/6           1/5
Senate adjourned....................................         12/20         11/20          12/9          12/8         12/22          12/9         12/31           1/2         12/24         12/22
Days in session.....................................           173           149           167           133           159           138           189           184           191           158
Hours in session....................................      1,23615"      1,04323"      1,45405"      1,03131"      1,22226"      1,02748"      1,37554"        98831"      1,42039"      1,07440"
Average hours per day...............................           7.1           7.0           8.7           7.7           7.7           7.4           7.2          5.37          7.44           6.8
Total measures passed...............................           425           523           590           663           624           635           621           589           478           569
Roll call votes.....................................           380           253           459           216           366           279           442           215           397           299
Quorum calls........................................             3             2             3             1             3             1             6             3             3             8
Public Laws.........................................           136           241           198           300           169           313           180           280           125           258
Treaties ratified...................................             3            17            11            15             6            14             8            30             1             6
Nominations confirmed...............................        25,091        23,633        21,580        24,420        25,942        29,603        22,892        21,785        23,051        23,327
Average voting attendance...........................         98.29         96.36         96.07         95.54         97.41         97.13         94.99         94.36         96.99         95.88
Sessions convened before 12 noon....................           140           119           133           104           121           110           156           147           148           116
Sessions convened at 12 noon........................            10            12             4             9             1             4             4             4             2             6
Sessions convened after 12 noon.....................            21            23            23            21            36            24            32            33            41            36
Sessions continued after 6 p.m......................           108           103           134           129           120           129           144           110           152           116
Sessions continued after 12 midnight................             3             8             2             3             3             4             4             2             2             1
Saturday sessions...................................             3  ............             1             2             2             2             1             3             5             2
Sunday sessions.....................................  ............  ............             1             1             2  ............             1             1             4             1
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Prepared by the Senate Daily Digest--Office of the Secretary.

                    <greek-l>sos deg.ENROLLING CLERK

    The Enrolling Clerk prepares, proofreads, corrects, and prints all 
legislation passed by the Senate prior to its transmittal to the 
Secretary of the Senate, House of Representatives, the White House, the 
National Archives, and the United States Claims Court.
    During the second session of the 111th Congress the Enrolling 
Clerk's office prepared the enrollment of 78 Senate bills (transmitted 
to the President); 4 Senate enrolled joint resolutions (transmitted to 
the President); 7 Senate concurrent resolutions (transmitted to the 
National Archives); and 40 Senate appointments (transmitted to the 
House of Representatives). In addition, approximately 177 House of 
Representatives bills; 30 House Concurrent Resolutions; 5 House Joint 
Resolutions; and 2 conference reports, were either amended, passed, or 
acted on by the Senate requiring the Enrolling Clerk's office staff to 
work hundreds of amendments in a tightly managed schedule. In all there 
were 61 messages delivered to the Clerk's office and 84 to the House 
Chamber by the Enrolling Clerk's office relative to Senate action and 
passage of legislation. The office also handled the appropriate 
delivery to the House Clerk's office of approximately 248 House 
enrolled bills and 11 House joint resolutions (1 vetoed) after they had 
been signed by the President pro tempore.
    During the second session, the Enrolling Clerk's office was also 
involved in preparing and proofreading documents and taking messages to 
the House of Representatives relative to the impeachment of Judge 
Gabriel Thomas Porteous, Jr. of Louisiana. The Enrolling Clerk also 
assisted the Executive Clerk in putting together the official copy of 
the START Treaty agreement and helped organize Treaty amendments, in 
addition to proofreading the document. The office performance was 
successful, and all deadlines were met.
    A total of 569 pieces of legislation were passed or agreed to 
during the second session of the 111th Congress. Many other Senate 
bills were placed on the calendar, all of which were processed in the 
Enrolling Clerk's office including approximately 99 engrossed Senate 
bills, 4 joint resolutions, 15 concurrent resolutions, and 244 Senate 
resolutions. The office is also responsible for keeping the original 
official copies of bills, resolutions, and appointments from the Senate 
Floor through the end of each Congress. At the end of the second 
session, the Enrolling Clerk's office places all official papers in 
archive boxes where they are sent to the Senate Archivist for storage 
at the National Archives.
    The Senate Enrolling Clerk's is also responsible for transmitting 
to the GPO electronically, for overnight printing, copies of the 
original files of engrossed and enrolled legislation proofread and 
formatted accordingly in our office.
COOP
    In the second quarter 2010 the Enrolling Clerk attended two COOP 
exercises at the GPO to test a number of printers for the COOP fly-away 
kit designated to be available for the enrolling clerks in the event of 
a COOP situation. In addition to testing the printers, the exercise 
encompassed the important details of our operations necessary for the 
engrossment and enrollment of legislation involving the use of printers 
and specific paper stock supplied by the GPO.
Cost Savings
    The Enrolling Clerk has reduced printing requests by one-third over 
the past few years in addition to reducing its distribution of bills 
from the GPO by one-half.

                    <greek-l>sos deg.EXECUTIVE CLERK

    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties) which is published as the Journal of the Executive 
Proceedings of the Senate at the end of each session of Congress. The 
Executive Clerk also prepares daily the Executive Calendar as well as 
all nomination and treaty resolutions for transmittal to the President. 
Additionally, the Executive Clerk's office processes all executive 
communications, Presidential messages, and petitions and memorials.
Nominations
    During the second session of the 111th Congress, there were 1,077 
nomination messages sent to the Senate by the President, transmitting 
21,836 nominations to positions requiring Senate confirmation and 21 
messages withdrawing nominations sent to the Senate during the second 
session of the 111th Congress. Of the total nominations transmitted, 
435 were for civilian positions other than lists in the Foreign 
Service, Coast Guard, National Oceanic and Atmospheric Administration, 
and Public Health Service. In addition, there were 2,240 nominees in 
the ``civilian <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="107c79636450">[email&#160;protected]</a>'' categories named above. Military nominations 
received this session totaled 19,161 (6,600 Air Force; 7,486 Army; 
4,448 Navy; and 627 Marine Corps). The Senate confirmed 23,327 
nominations this session. Pursuant to the provisions of paragraph 6 of 
Senate Rule XXXI, 366 nominations were returned to the President during 
the second session of the 111th Congress.
Treaties
    There were four treaties transmitted to the Senate by the President 
during the second session of the 111th Congress for its advice and 
consent to ratification, which were ordered printed as treaty documents 
for the use of the Senate (Treaty Doc. 111-5 through 111-8).
    The Senate gave its advice and consent to six treaties with various 
amendments, conditions, declarations, understandings, and provisos to 
the resolutions of advice and consent to ratification.
Executive Reports and Roll Call Votes
    There were six executive reports relating to treaties ordered 
printed for the use of the Senate during the second session of the 
111th Congress (Executive Report 111-2 through 111-7). The Senate 
conducted 50 roll call votes in executive session, all on or in 
relation to nominations and treaties.
Executive Communications
    For the second session of the 111th Congress, 4,468 executive 
communications, 62 petitions and memorials, and 29 Presidential 
messages were received and processed.
Environmental Impact
    In an effort to save money and eliminate unnecessary paper, the 
Executive Clerk reduced the copies of nominations printed for the 
committees by 95 percent during the 111th Congress, as all committees 
except one allow the paperwork to be transmitted by email decreasing 
the need for duplicate paper copies.

                     <greek-l>sos deg.JOURNAL CLERK

    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Journal of the Proceedings of the 
Senate, or Senate Journal, as required by article I, section V of the 
Constitution. The content of the Senate Journal is governed by Senate 
Rule IV, and is approved by the Senate on a daily basis. The Senate 
Journal is published each calendar year.
    The Journal staff take 90-minute turns at the Rostrum in the Senate 
Chamber, noting the following by hand for inclusion in the Minute Book:
  --all orders (entered into by the Senate through unanimous consent 
        agreements);
  --legislative messages received from the President of the United 
        States;
  --messages from the House of Representatives;
  --legislative actions as taken by the Senate (including motions made 
        by Senators, points of order raised, and roll call votes 
        taken);
  --amendments submitted and proposed for consideration;
  --bills and joint resolutions introduced; and
  --concurrent and Senate resolutions as submitted.
    These notes of the proceedings are then compiled in electronic form 
for eventual publication of the Senate Journal at the end of each 
calendar year. Compilation is efficiently accomplished through 
utilization of the LIS Senate Journal Authoring System. The Senate 
Journal is published each calendar year, and in 2010, the Journal Clerk 
completed the production of the 1,125 page 2009 volume. It is 
anticipated that work on the 2010 volume, including the Impeachment 
Journal, will conclude by December 2011.
COOP
    In 2010, in support of the Office of the Secretary's commitment to 
COOP, the Office of the Journal Clerk participated in the annual 
Chamber Protective Actions/Briefing Center exercise in May. 
Additionally, monthly tests of BlackBerry emergency notification and 
laptop remote access procedures are conducted. The Journal Clerk 
continued the practice of scanning the daily Minute Book pages into a 
secure directory. The files are also copied onto a flash drive storage 
device weekly, and transported off-site each night. Although the actual 
Minute Books for each session of a Congress are sent to the National 
Archives a year following the end of a Congress, having easily 
accessible files, both on a remote server and on a secure portable 
storage device, will ensure timely reconstitution of the Minute Book 
data in the event of damage to, or destruction of, the physical Minute 
Book.

             <greek-l>sos deg.OFFICIAL REPORTERS OF DEBATES

    The Office of the Official Reporters of Debates is responsible for 
the stenographic reporting, transcribing, and editing of the Senate 
Floor proceedings for publication in the Congressional Record. The 
Chief Reporter acts as the editor-in-chief, and the Coordinator 
functions as the technical production manager of the Senate portion of 
the Record. The office interacts with Senate personnel on additional 
materials to be included in the Record.
    On a continuing basis, all materials to be printed in the next 
day's edition of the Record are transmitted electronically and on paper 
to the GPO. Much of the transcript of Senate Floor proceedings and 
Morning Business is sent to the GPO electronically to allow for 
production of the Record in a cost-conscious and timely manner. In most 
instances, the paper copy of the Record is delivered by the GPO within 
2 to 3 hours of its content being placed on the Internet at 
approximately 7 a.m. every day.
    The Chief Reporter, in conjunction with Senate office and committee 
staff, works to ensure compliance with the ``2-page rule'' to cut down 
on the printing costs of the Record by controlling the amount of 
extraneous printing to be done by the GPO. As a result, these materials 
are often condensed so as not to exceed the rule and/or are cited and 
printed on Web sites with referencing so that they are available to the 
interested public.
    The Official Reporters of Debate completed the upgrade of its 
stenotype machines this year. This past year, the office purchased five 
additional Pro Cat Stylus stenotype machines, complementing the three 
machines that were purchased last fiscal year, resulting in the most 
efficient and up-to-date method of paperless recording of Senate 
debate. All reporters' stenographic notes are now saved to electronic 
files and are held for 5 years or more, saving the cost of storage and 
purchase of bundled stenotype paper that was used in the older 
machines.

                    <greek-l>sos deg.PARLIAMENTARIAN

    The Parliamentarian's Office continues to perform its essential 
institutional responsibilities to act as a neutral arbiter among all 
parties with an interest in the legislative process. These 
responsibilities include advising the chair, Senators and their staff, 
committee staff, House Members and their staffs, and administration 
officials on all matters requiring an interpretation of the Standing 
Rules of the Senate, the precedents of the Senate, and unanimous 
consent agreements, as well as provisions of public law affecting the 
proceedings of the Senate.
    The Parliamentarian or one of his assistants is always present on 
the Senate Floor when the Senate is in session, ready to assist the 
Presiding Officer in his or her official duties, as well as to assist 
any other Senator on procedural matters. The parliamentarians work 
closely with the staff of the Vice President of the United States and 
the Vice President himself whenever he performs his duties as President 
of the Senate.
    The parliamentarians serve as the agents of the Senate in 
coordinating the flow of legislation with the House of Representatives 
and with the President, and ensure that enrolled bills are signed in a 
timely manner by duly authorized officers of the Senate for 
presentation to the President.
    The parliamentarians monitor all proceedings on the floor of the 
Senate, advise the Presiding Officer on the competing rights of the 
Senators on the floor, and advise all Senators as to what is 
appropriate in debate. The parliamentarians keep track of time on the 
floor of the Senate when time is limited or controlled under the 
provisions of time agreements, statutes, or standing orders. The 
parliamentarians keep track of the amendments offered to the 
legislation pending on the Senate Floor, and monitor them for points of 
order. In this respect, the parliamentarians reviewed more than 1,600 
amendments during 2010 to determine if they met various procedural 
requirements, such as germaneness. The parliamentarians also reviewed 
thousands of pages of conference reports to determine what provisions 
could appropriately be included therein.
    The Office of the Parliamentarian is responsible for the referral 
to the appropriate committees of all legislation introduced in the 
Senate, all legislation received from the House, as well as all 
communications received from the executive branch, State and local 
governments, and private citizens. In order to perform this 
responsibility, the parliamentarians do extensive legal and legislative 
research. During 2010, the Parliamentarian and his assistants referred 
2,623 measures and 4,559 communications to the appropriate Senate 
committees. The office worked extensively with Senators and their 
staffs to advise them of the jurisdictional consequences of countless 
drafts of legislation, and evaluated the jurisdictional effect of 
proposed modifications in drafting. In 2010, as in the past, the 
parliamentarians conducted several briefings on Senate procedure to 
various groups of Senate staff and visiting international parliamentary 
staff, on a nonpartisan basis.
    During 2010, as has been the case in the past, the staff of the 
Parliamentarian's Office was frequently called on to analyze and advise 
Senators on a great number of issues arising under the Congressional 
Budget Act of 1974, the Trade Act of 1974, the Congressional Review 
Act, and many other provisions of law that authorize special procedural 
consideration of measures.
    During all of 2010, the parliamentarians were involved in 
interpreting the ethics reform proposals adopted in 2007, especially 
the language dealing with earmark accountability and scope of 
conference.
    Throughout 2010 until the convening of the 112th Congress, the 
parliamentarians reviewed all of the Senators' certificates of election 
for sufficiency and accuracy, returning those that were defective and 
reviewing their replacements.
    Since the election in 2010, all of the parliamentarians have 
participated in the orientation sessions for the newly elected Senators 
and have assisted each of them in their initial hours as Presiding 
Officers. The parliamentarians also participated in an orientation 
session on the Senate Floor for Senate staff.
COOP
    The parliamentarians have each been trained on and successfully 
remotely access the office's computers and hard drives, facilitating 
communications, research, and other work after hours, and enabling them 
to have the office function during possible emergencies. The 
Parliamentarian's Office continues to participate extensively in 
emergency preparedness training for the Senate Chamber and has been 
heavily involved with the SAA Office of Police Operations, Security and 
Emergency Preparedness for years in the planning phases of the Senate's 
evacuation and shelter-in-place procedures.

                 <greek-l>sos deg.FINANCIAL OPERATIONS

Disbursing Office
    The mission of the Senate Disbursing Office is to provide efficient 
and effective central financial and human resource data management, 
information, and advice to the offices of the United States Senate and 
to Members and employees of the Senate. The Senate Disbursing Office 
manages the collection of information from the distributed accounting 
locations within the Senate to formulate and consolidate the agency 
level budget, disburse the payroll, pay the Senate's bills, and provide 
appropriate counseling and advice. The Senate Disbursing Office 
collects information from Members and employees that is necessary to 
maintain and administer the retirement, health insurance, life 
insurance, and other central human resource programs and provides 
responsive, personal attention to Members and employees on an unbiased 
and confidential basis. The Senate Disbursing Office also manages the 
distribution of central financial and human resource information to the 
individual Member offices, committees, administrative and leadership 
offices in the Senate while maintaining the confidentiality of 
information for Members and Senate employees.
    The organization is structured to enhance its ability to provide 
quality work, maintain a high level of customer service, promote good 
internal controls, efficiency and teamwork, and provide for the 
appropriate levels of supervision and management. The long-term 
financial needs of the Senate are best served by an organization 
staffed with highly trained professionals who possess a high degree of 
institutional knowledge, sound judgment, and interpersonal skills that 
reflect the unique nature of the United States Senate.
Executive Office
    The primary responsibilities, among others, of the Executive Office 
are to:
  --oversee the day-to-day operations of the Disbursing Office;
  --respond to any inquiries or questions;
  --maintain fully and properly trained staff;
  --ensure that the office is prepared to respond quickly and 
        efficiently to any disaster or unique situation that may arise;
  --provide excellent customer service;
  --assist the Secretary of the Senate in the implementation of new 
        legislation affecting any of her departments; and
  --handle all information requests from the Committee on 
        Appropriations and the Committee on Rules and Administration
    The Disbursing Office, the Committee on Rules and Administration, 
the House of Representatives and the U.S. Treasury finalized an 
interagency agreement concerning payments for expenses made on behalf 
of the Congressional Oversight Panel established by Public Law 110-343, 
the Emergency Economic Stabilization Act. The Disbursing Office 
continues to offer administrative support to this office.
    The Legislative Branch Appropriations Act, 2010, Public Law 111-68 
included an administrative provision requiring the Report of the 
Secretary of the Senate to be published and publicly posted online, 
starting with the report covering the first full semi-annual period of 
the 112th Congress. Disbursing met several times with the GPO to start 
the design of the Web page, and additional meetings will be held with 
all interested parties in the coming months to finalize the development 
of the report.
Front Office--Administrative and Financial Services
    The Front Office is the main service area for all general Senate 
business and financial activity. The Front Office staff maintains the 
Senate's internal accountability of funds used in the groups daily 
operations. The reconciliation of such funds is executed on a daily 
basis. The Front Office staff also provides training to newly 
authorized payroll contacts along with continuing guidance to all 
contacts in the execution of business operations. It is the receiving 
point for most incoming expense vouchers, payroll actions, and employee 
benefits-related forms, and is the initial verification point to ensure 
that paperwork received in the Disbursing Office conforms to all 
applicable Senate rules, regulations, and statutes. The Front Office is 
the first line of service provided to Senators, officers, and 
employees. All new Senate employees (permanent and temporary) who will 
work in the Capitol Hill Senate offices are administered the required 
Oath of Office and Personnel Affidavit. Staff is also provided verbal 
and written detailed information regarding pay and benefits. Advances 
are issued to Senate staff authorized for official Senate travel 
through the Front Office and cash and check advances are entered and 
reconciled in Web FMIS. After the processing of certified expenses is 
complete, cash travel advances are repaid.
    Numerous inquiries are handled daily, ranging from pay, benefits, 
taxes and voucher processing, to reporting, laws, and Senate 
regulations; and must always be answered accurately and fully to 
provide the highest degree of customer service. Cash and checks 
received from Senate entities as part of their daily business are 
handled through the Front Office and become part of the Senate's 
accountability of federally appropriated funds and are then processed 
through the Senate's general ledger system. The Front Office maintains 
the Official Office Information Authorization Forms that authorize 
individuals to conduct various types of business with the Disbursing 
Office.
General Activities
    Processed approximately 530 cash advances during the year and 
initialized 920 check/direct deposit advances.
    Received and processed more than 21,600 checks.
    Administered Oath of Office and Personnel Affidavits to more than 
1,700 new Senate staff and advised them of their benefits eligibility.
    Maintained brochures for 12 Federal health insurance carriers and 
distributed approximately 3,500 brochures to existing staff during the 
annual Federal Benefits Open Season and to new Senate employees during 
their Federal Employees Health Benefits (FEHB) selection process.
    Provided 22 training sessions to new administrative managers.
    Administratively guided the three offices of the appointed Senators 
that resulted from the death or resignation of sitting Senators, and 
the 16 new Senate offices through the Senator-elect phase.
    The Front Office continues its daily reconciliation of operations 
and strengthening of internal office controls. Training and guidance to 
new administrative managers and business contacts continued and was 
enhanced by the revamping of training materials that were provided to 
newly authorized personnel. The Front Office initiated a scanning 
procedure that ensured secure flow of payroll-related documents through 
the processing phase. Front Office staff continued assisting employees 
in maximizing their Thrift Savings Plan (TSP) contributions and making 
sure they are aware of the TSP Catch-Up provisions. The contribution 
level for the new TSP employee automatic enrollment was emphasized. The 
Front Office continued to provide the Senate community with prompt, 
courteous, and informative advice regarding Disbursing Office 
operations.
Payroll Section
    The Payroll Section maintains the Human Resources Management System 
(HRMS) and is responsible for processing, verifying, and warehousing 
all payroll information submitted to the Disbursing Office by Senators, 
committees, and other appointing officials for their staff, including 
appointments of employees, salary changes, title changes, transfers, 
and terminations. It is also responsible for input of all enrollments 
and elections submitted by Members and employees that affect their pay 
(e.g., retirement and benefits elections, tax withholding, TSP 
participation, allotments from pay, address changes, direct deposit 
elections, levies and garnishments, etc.) and for the issuance of 
accurate salary payments to Members and employees. The Payroll Section 
is responsible for the administration of the Senate Student Loan 
Repayment Program (SLP) and for the audit and reconciliation of the 
Flexible Spending Accounts (FSAs) and Federal Employees Dental and 
Vision Insurance Program (FED VIP) bill files received each pay period. 
The payroll section jointly maintains the ACH FedLine facilities with 
the A/P section for the normal transmittal of payroll deposits to the 
FRB. Payroll expenditure, projection, and allowance reports are 
distributed electronically to all Senate offices semimonthly. The 
payroll section issues the proper withholding and agency contribution 
reports to the Accounting Department and transmits the proper TSP 
information to the National Finance Center. In addition, the payroll 
section maintains earnings records, which are distributed to the Social 
Security Administration and employees' taxable earnings records, which 
are used for W-2 statements. This section is also responsible for the 
payroll expenditure data portion of the Report of the Secretary of the 
Senate and calculates, reconciles, and bills the Senate Employees Child 
Care Center for their staff employee contributions and forwards payment 
of those contributions to the Accounting Section. The Payroll Section 
provides guidance and counseling to staff and administrative managers 
on issues of pay, salaries, allowances, and projections.
General Activities
    In January 2010, the payroll section conducted all year-end 
processing and reconciliation of pay records and produced W-2 forms for 
employees and Federal and State tax agencies. They also facilitated the 
imaging of those documents to the Document Imaging System. The payroll 
section maintained the normal schedule of processing TSP election 
forms.
    In January 2010, an employee cost-of-living adjustments (COLA) of 
2.42 percent was authorized and administered. Statutory rates and 
program caps were updated in HRMS. Required documentation was issued, 
received, reconciled, input, and adjusted as designated by appointing 
officials.
    The Disbursing Office, in tandem with SAA Technical Support, 
researched and procured a vendor to implement a new payroll system. The 
proposals of the bidders were diligently assessed and modifications 
requested. Several demonstrations and technical forums were attended 
and rated. Specific attention was paid to how the vendors would 
accommodate the Senate's unique requirements, laws and regulations 
governing the services and programs administered by the payroll system. 
After extensive coordination, feedback and assessment, an implementer 
selection was made. Staff attended week-long training to enhance their 
ability to participate in system requirements, development, and 
implementation. The Payroll Section also drafted and edited a complete 
revision and update of the Payroll Procedures Manual in anticipation of 
its need as a tool to facilitate the development and implementation of 
the new payroll system.
    As 2010 came to an end, the Disbursing Office and SAA had begun the 
process of system development and implementation with the new vendor. 
Fit gap sessions to analyze requirements started in February with an 
expected completion of Phase I of the project during fiscal year 2012.
    As a result of the passage of the Reservist Differential Pay 
legislation, the office worked with the SAA computer support staff to 
determine requirements, develop, test and implement programming 
changes, develop processes and procedures, and implement those within 
the guidelines set forth by the Office of Personnel Management (OPM) 
and Defense Financial and Accounting Services. Offices and affected 
employees were notified of the impact of the legislation.
    The automatic enrollment provisions of the TSP Enhancement Act of 
2009 took effect in August 2010. The office worked in tandem with the 
SAA computer support staff and the TSP to determine system 
requirements, develop, test, and implement changes and follow through 
with postimplementation testing and reporting. New procedures were 
developed and implemented and Senate-wide communications were written 
and distributed.
    Other minor changes were made to the HRMS as the need arose as a 
result of regulated and policy changes. Changes to the retirement 
creditability of Federal Employee Retirement System (FERS) sick leave 
required legislative and procedural interpretation and required 
interagency cooperation and coordination. The Disbursing Office 
developed procedures and distributed communications throughout the 
Senate.
    The office procured a new retirement calculator tool that will 
provide additional functionality to retirement counselors and enhance 
their ability to provide a greater number of retirement estimates. 
Procedures, training and usage development will occur in 2011.
    In 2010, the payroll section implemented a number of system 
modifications as a result of legislative, regulatory, and procedural 
changes. The Department of the Treasury implemented a new Web-based 
process for purchasing savings bonds by payroll deduction, which 
required changes to existing procedures and required notification to 
the affected Senate Members and employees. Passage of Reservist 
Differential Pay was handled with coordinated development of 
requirements, testing, system implementation, and procedural 
development to facilitate the proper payments and tracking. Unusual 
changes to specific State tax law required system modifications so that 
residents of that State could remain in compliance with regards to 
their State tax withholding. This required system development, testing, 
implementation, and notification to the affected Members and staff.
    As a result of the 2010 expiring terms of several appointed 
Senators, the payroll section provided assistance and guidance to the 
offices of incoming and outgoing Members. They also assisted Senator 
Robert C. Byrd's staff upon his death. In addition, the staff 
researched the specifics of applicable Senate resolutions to determine 
their impact, if any, on outgoing and potentially outgoing staff in 
order to ensure that current procedures allowed for the proper 
administration of the resolutions and provided guidance to staff on 
those resolutions.
    The Payroll Section administers the SLP, which includes initiation, 
tracking and transmission of the payments, determination of 
eligibility, and coordination and reconciliation with office 
administrators and program participants. Because of regulatory changes 
within the Department of Education, extensive vendor processing changes 
were necessitated. As a result many payments to vendors were not being 
routed correctly once received at the designated address. This led to a 
higher than usual need for payment tracking, reconciliation, and check 
reissue. The SLP Administrator continues to improve processes for 
administration of the program and documenting procedures. In addition, 
the SLP Administrator developed an extensive list of ``frequently asked 
questions'' which were distributed to administrative managers and 
staff, and which have been published to Webster, the Senate's Intranet.
Employee Benefits Section (EBS)
    The primary responsibilities of the EBS are administration of 
health insurance, life insurance, TSP, and all retirement programs for 
Members and employees of the Senate. This includes counseling, 
processing of paperwork, research, dissemination of information, and 
interpretation of retirement and benefits laws and regulations. The EBS 
staff is also expected to have a working knowledge of the FSA Program, 
the Federal Long Term Care (LTC) Insurance Program and Federal 
Employees Dental and Vision Insurance Program (FEDVIP). In addition, 
the sectional work includes research and verification of all prior 
Federal service and prior Senate service for new and returning 
appointees.
    The EBS provides this information for payroll input. It also 
verifies the accuracy of the information provided and reconciles, as 
necessary, when official personnel folders and transcripts of service 
from other Federal agencies are received. Senate transcripts of 
service, including all official retirement and benefits documentation, 
are provided to other Federal agencies when Senate Members and staff 
are hired elsewhere in the Government. The EBS is responsible for the 
administration and tracking of employees placed in leave without pay to 
perform military service, including counseling with regard to continued 
benefits, TSP Make-up contributions and Reservist Differential 
payments. The EBS participates fully in the Centralized Enrollment 
Clearinghouse System (CLER) Program sponsored by OPM to reconcile all 
FEHB enrollments with carriers through the National Finance Center. EBS 
is responsible for its own forms inventory ordering and maintenance, as 
well as all benefits, TSP, and retirement brochures, for the Disbursing 
Office. The EBS processes employment verifications for loans, bar 
exams, the Federal Bureau of Investigation, OPM, and the Department of 
Defense (DOD), among others. Unemployment claim forms are completed, 
and employees are counseled on their eligibility. Department of Labor 
billings for unemployment compensation paid to Senate employees are 
reviewed in the EBS and submitted by voucher to the Accounting Section 
for payment, as are the employee fees associated with FSAs. 
Designations of Beneficiary for Federal Employees' Group Life Insurance 
(FEGLI), retirement, and unpaid compensation are filed and checked by 
the EBS.
General Activities
    The year began with an extended 2009 benefits open season through 
January 31, 2010, as mandated by the OPM.
    With the death of Senator Robert C. Byrd, EBS counseled the 
Senator's survivors regarding all benefits payable and assisted with 
claims processing. EBS also provided benefits transition counseling to 
all staff employed by Senator Robert C. Byrd, as well as, the 
processing of the resultant retirement cases. EBS provided incoming 
benefits counseling to Senators who were appointed in 2010. In 
addition, the EBS provided outgoing counseling and retirement case 
processing to Senators who left office in 2010 and to their staff.
    The year brought about many benefits changes. OPM issued guidance 
resulting from Public Law 111-84, which allows for unused sick leave to 
be credited towards FERS retirement and the ability to redeposit FERS 
refunds. The Affordable Care Act of 2010 created important benefits 
changes that were emphasized in the 2010 Federal Benefits Open Season. 
FEHB and FSA incurred major changes in dependent eligibility rules. 
Flexible spending account, health savings accounts, and health 
reimbursement accounts were subject to over the counter over-the-
counter drug eligibility and grace period changes. Premium assistance 
for temporary continuation of health insurance coverage under the 
American Recovery and Reinvestment Act of 2009 was extended through May 
31, 2010.
    OPM issued final regulations to expand the definition of 
``qualified relatives'' under the long-term care insurance. TSP changes 
in 2010 included the establishment of Spouse Beneficiary Accounts, the 
L Fund 2050, and the August 1, 2010 implementation of the TSP Automatic 
Enrollment provisions. In addition, the enrollment/change period for 
the FEGLI Program was increased to 60 days.
    Many employees changed health plans during the annual benefits open 
season. These changes were processed and reported to carriers very 
quickly. The Disbursing Office again offered Senate employees access to 
the online ``Checkbook Guide to Health Plans'' to research and compare 
FEHB plans. The Disbursing Office also hosted an open season benefits 
fair, which was informational and well attended. The Benefits Fair 
included representatives from local and national FEHB plans, as well as 
representatives from LTC, FSA, and FEDVIP.
    EBS conducted an agency-wide FERS seminar and attended interagency 
Benefits Officers and TSP meetings. This was especially important this 
year due to the many ongoing changes to many of the benefits programs.
    EBS coordinated with the Office of Education and Training to 
provide outgoing offices two sessions with the DC Department of 
Employment Services and two sessions with the OPM to assist with 
navigation of the Federal jobs Web site, USAJobs.
Disbursing Office Financial Management
    Headed by the Deputy for Financial Management, the mission of 
Disbursing Office Financial Management is to coordinate all central 
financial policies, procedures, and activities; to process and pay 
expense vouchers within reasonable timeframes; and to provide 
professional customer service, training and confidential financial 
guidance to all Senate accounting locations. In addition, the Financial 
Management group is responsible for the compilation of the annual 
operating budget of the United States Senate for presentation to the 
Committee on Appropriations, and for the formulation, presentation and 
execution of the budget for the Senate. On a semiannual basis, this 
group is also responsible for the compilation, validation and 
completion of the Report of the Secretary of the Senate. Disbursing 
Office financial management is segmented into three functional 
departments:
  --Accounting;
  --Accounts Payable; and
  --Budget.
    The Accounts Payable department is further subdivided into three 
sections:
  --Vendor Administration;
  --Disbursements; and
  --Audit.
    The deputy coordinates the activities of the three functional 
departments, establishes central financial policies and procedures, and 
carries out the directives of the Financial Clerk and the Secretary of 
the Senate.
Accounting Department
    During 2010, the Accounting Department approved 52,000 expense 
reimbursement vouchers and vendor uploads including 1,585 deposits for 
items ranging from receipts received by the Senate operations, such as 
the Senate's revolving funds, to cancelled subscription refunds from 
Member offices. General ledger maintenance also prompted the entry of 
thousands of adjustment entries that include the entry of all 
appropriation and allowance funding limitation transactions, all 
accounting cycle-closing entries, and all nonvoucher reimbursement 
transactions such as payroll adjustments, COLA budget uploads, stop 
payment requests, travel advances and repayments, and limited 
payability reimbursements. The department continues to scan all 
documentation for journal vouchers, deposits, accounting memos, and 
letters of certification to facilitate both storage concerns and COOP 
backup. The section also completed the 2009 year-end process to close 
and reset revenue, expense, and budgetary general ledger accounts to 
zero.
    The Disbursing Office also started working with a Member's office 
and the Senate Stationery Room to establish and design an online flag 
ordering system using the Department of the Treasury's Pay.gov system 
capabilities. The form has been completed and is undergoing review by 
the Treasury. The Member's office will serve as a pilot office with 
other offices joining as the process is refined. Testing is planned for 
February 2011 with a possibility of other offices joining in March 
2011.
    The Department of the Treasury's monthly financial reporting 
requirements includes a ``Statement of Accountability'' that details 
all increases and decreases to the accountability of the Secretary of 
the Senate, such as checks issued during the month and deposits 
received, as well as a detailed listing of cash on hand. Also, reported 
to the Department of the Treasury on a monthly basis is the ``Statement 
of Transactions According to Appropriations, Fund and Receipt 
Accounts,'' a summary of activity of all monies disbursed by the 
Secretary of the Senate through the Financial Clerk of the Senate. All 
activity by appropriation account is reconciled with the Department of 
the Treasury on a monthly and annual basis. The annual reconciliation 
of the Treasury Combined Statement is also used in the reporting to the 
Office of Management and Budget (OMB) as part of the submission of the 
annual operating budget of the Senate. During 2010, the Accounting 
Department tested and implemented a FAMIS system report to calculate 
the Treasury Combined Statement which is used for the OMB budget 
submissions.
    The Accounting Department continues to transmit Federal tax 
payments for Federal, Social Security, and Medicare taxes withheld from 
payroll expenditures, as well as the Senate's matching contribution for 
Social Security and Medicare to the FRB through the IRS Electronic 
Federal Tax Payment System (EFTPS). EFTPS is also be used to transmit 
the quarterly 941 reports to the IRS. Payments for employee 
withholdings for State income taxes were reported and paid on a 
quarterly basis to each State with applicable State income taxes 
withheld. System modifications installed in 2008 allow electronic ACH 
payment of quarterly State taxes has resulted in a 64 percent 
participation rate by taxing jurisdictions, up from 50 percent last 
year. Twenty-seven of 42 tax jurisdictions are receiving their 
quarterly State tax payments via ACH. Six States were added to the ACH 
payments for the third quarter payments. System modifications are 
necessary to transmit the remaining 15 tax jurisdictions via ACH 
because of the unique State requirements for their transmissions. 
Monthly reconciliations were performed with the National Finance Center 
regarding the employee withholdings and agency matching contributions 
for the TSP.
    There are also internal reporting requirements, such as the monthly 
ledger statements. These ledger statements detail all of the financial 
activity for the appropriate accounting period with regard to official 
expenditures in detail and summary form. It is the responsibility of 
the Accounting Department to review and verify the accuracy of the 
statements before Senate-wide distribution. During 2010 the Accounting 
Department worked with the SAA computer staff to test the electronic 
distribution of these monthly reports. It is hoped that this will be 
implemented in 2011.
    The Accounting Department, in conjunction with the Deputy for 
Financial Management and the Assistant Financial Clerk, continues to 
work closely with the SAA Finance Department in creating Senate-wide 
financial statements in accordance with OMB Bulletin 01-09, ``Form and 
Content of Agency Financial Statements'' and any updates required by 
OMB Circular A-136, ``Form and Content of the Performance and 
Accountability Reports''. Work continues toward the implementation of 
the fixed asset system, and financial management software has been 
upgraded and the license renewed.
    Accounting also has a budget division whose primary responsibility 
is compiling the annual operating budget of the United States Senate 
for presentation to the Committee on Appropriations. The Budget 
division is responsible for the preparation, issuance, and distribution 
of the budget justification worksheets. The budget justification 
worksheets for fiscal year 2012 were mailed to the Senate accounting 
locations and processed in November 2010. The budget baseline estimates 
for fiscal year 2012 were reported to OMB by mid-January 2011. The 
budget analyst is also responsible for the preparation of 1099's and 
the prompt submission of forms to the IRS before the end of the 
January.
A/P: Vendor Administration
    The Vendor Administration Section maintains the accuracy and 
integrity of the Senate's central vendor (payee) file for the prompt 
completion of new vendor file requests and service requests related to 
the Disbursing Office's Web-based payment tracking system. This section 
also assists the information technology (IT) department by performing 
periodic testing and by monitoring the performance of the vendor 
system. Currently, more than 17,300 vendor records are stored in the 
vendor file, in addition to approximately 10,000 employee records. 
Daily requests for new vendor addresses or updates to existing vendor 
information are processed within 24 hours of receipt. Besides updating 
mailing addresses, the section facilitates the use of ACH by switching 
the mode of vendor payment from paper check to electronic deposit. 
Whenever a new remittance address is added to the vendor file, a 
standard letter is mailed to the vendor requesting tax and banking 
information, as well as contact and email information. If a vendor 
responds indicating they would like to receive ACH payments in the 
future, the method of payment is changed.
    All Web FMIS users are using the Staffer Functionality exclusively, 
and new offices are automatically established with it. Senate employees 
can electronically create, save, and file expense reimbursement forms, 
track their progress, and get detailed information on payments using 
this system. The most common service requests are for system user 
identification and passwords and for the reactivation of accounts. 
Employees may also request an alternative expense payment method. 
Employees can choose to have their payroll set up for direct deposit or 
paper check, but can have their expenses reimbursed by a method that 
differs from their salary payment method.
    The Vendor section works closely with the A/P Disbursements group 
to resolve returned ACH payments. ACH payments are returned 
periodically for a variety of reasons, including incorrect account 
numbers, incorrect routing numbers, and, in rare instances, a 
nonparticipating financial institution.
    The Vendor section electronically scans and stores all supporting 
documentation of existing vendor records and new vendor file requests. 
When this section receives replies asking for ACH participation, the 
vendors are asked if they wish to be notified by email when payments 
are sent. Currently, more than 95 percent of ACH participants also 
receive email notification of payment.
    During 2010, the Vendor section processed more than 2,200 vendor 
file additions, completed more than 3,200 service requests, mailed 
approximately 1,100 vendor information letters, and converted more than 
450 vendors from check payment to electronic payment.
A/P: Disbursements Department
    The Disbursements Department is the entry and exit point for 
voucher payments. The department physically and electronically receives 
all vouchers submitted for payment. It also pays all of these vouchers, 
as well as the items submitted by upload and the various certifications 
and adjustments that are submitted periodically. The department 
received approximately 107,000 vouchers. All of these items were paid 
by the department via Treasury check or ACH. Multiple payments to the 
same payee are often combined. As a result, 18,500 checks were issued, 
while 71,100 ACH payments were required. The ACH volume increased 13 
percent while the check volume decreased 18 percent for the year. This 
is a desired result as the department continues its efforts to 
substantially reduce reliance on paper checks.
    The checkwriter system was upgraded and is now incorporated into 
Web FMIS. The new functionality allows greater ease of access to 
payment schedules for COOP purposes, but still maintains the security 
necessary to prevent unauthorized use of the system. Payment schedules 
may be retrieved, but payments cannot be made without proper 
authorization. Tests have been conducted to ensure functionality in 
case of emergency situations.
    After vouchers are paid, they are sorted and filed by document 
number. Vouchers are grouped in 6-month ``clusters'' to accommodate 
their retrieval for the semi-annual Report of the Secretary of the 
Senate. Files are maintained in-house for the current period and two 
prior periods, as space is limited. Older documents are stored in the 
Senate Support Facility (SSF). The inventoried items are sorted and 
recorded in a database for easy document retrieval. Several document 
retrieval missions were successfully conducted, and the department 
continues to work closely with warehouse personnel.
    A major function of the department is to prepare adjustment 
documents. Adjustments are varied, and include re-issuance of items 
held as accounts receivable collections, re-issuance of payments for 
which nonreceipt is claimed, and various supplemental adjustments 
received from the Payroll Department. Such adjustments are usually 
disbursed by check, but an increasing number are now handled 
electronically through the ACH. The department maintains a spreadsheet 
that tracks cases of nonreceipt of salary checks, including stop 
payment requests and re-issuance.
    The department also prepares the stop payments forms as required by 
the Department of the Treasury. Stop payments are requested by 
employees who have not received salary or expense reimbursements, and 
vendors claiming nonreceipt of expense checks. The Treasury Check 
Information System (TCIS) allows the department to electronically 
submit stop-payment requests and provides online access to digital 
images of negotiated checks for viewing and printing. Once a check is 
viewed, it is printed and may be scanned. Scanned images are then 
forwarded to the appropriate accounting locations via email. During 
2010, approximately 500 digital images of negotiated checks were 
provided, and an additional 125 requests were received for stop 
payments. The stop payment volume is a significant reduction (75 
percent) and is attributable to increased ACH payment and the TCIS 
check copy retrieval. The TCIS saves the Disbursing Office time, a 
$7.50 processing fee for each request, is Web-based, and is accessible 
from multiple workstations in Disbursing.
A/P: Audit Department
    The A/P Audit Section is responsible for auditing vouchers and 
answering questions regarding voucher preparation and the 
permissibility of expenses and advances. This section provides advice 
and recommendations on the discretionary use of funds to the various 
accounting locations; identifies duplicate payments submitted by 
offices; monitors payments related to contracts; trains new 
administrative managers and chief clerks about Senate financial 
practices and the Senate's FMIS; and assists in the production of the 
Report of the Secretary of the Senate.
    The section is organized at three different levels. The first level 
is the supervisor. In addition to performing managerial tasks, the 
supervisor also audits and sanctions vouchers as needed, and 
coordinates testing related to system implementation and upgrades. 
Eleven auditors process all incoming vouchers and uploads, and 3 of 
them have the authority to sanction, on behalf of the Committee on 
Rules and Administration, vouchers not exceeding $100. They also 
sanction all travel and petty cash advances as well as non-Contingent 
Fund items such as legal counsel, legislative counsel, and the Office 
of Congressional Accessibility Services, as well as the for the 
Congressional Oversight Panel.
    A major function of the section is monitoring the fund advances for 
travel and petty cash. Travel advances must be repaid within 30 days of 
trip completion and petty cash advances must be repaid whenever new 
funding authority is established. The system accommodates the issuance, 
tracking, and repayment of advances. It also facilitates the entry and 
editing of election dates and vouchers for Senators-elect. In addition 
to other functionality, an advance type of petty cash was created and 
is in use. Regular petty cash audits are performed by the section, and 
all petty cash accounts were successfully audited in 2010.
    The A/P Audit Section processed more than 107,000 expense items in 
2010. Audit sanctioned approximately 56,000 vouchers under authority 
delegated by the Committee on Rules and Administration. This translates 
to roughly 9,600 vouchers processed per auditor, and 11,000 vouchers 
posted per certifier. The voucher processing consisted of providing 
interpretation of Senate rules, regulations and statutes and applying 
the same to expense claims, monitoring of contracts, and direct 
involvement with the Senate's central vendor file. On average, vouchers 
greater than $100 that do not have any issues or questions are 
received, audited, sanctioned electronically by the Senate Committee on 
Rules and Administration using Web FMIS, and are expected to be paid 
within 8 to 10 business days. These vouchers comprised more than 40 
percent of all vouchers, and, as in the previous year, Disbursing 
passed two postpayment audits performed by the Committee on Rules and 
Administration. In 2010, the average for Committee on Rules and 
Administration-sanctioned items was 5.45 days, and the average for 
Disbursing sanctioned items was 3.55 days, roughly 10 percent faster 
than the previous year.
    Uploaded items are of two varieties:
  --certified expenses; and
  --vendor payments.
    Certified expenses have been around since the 1980s, and include 
items such as stationery, telecommunications, postage, and equipment. 
Currently, the certifications include mass mail, franked mail, excess 
copy charges, Photography Studio, and Recording Studio charges. 
Expenses incurred by the various Senate offices are certified by SAA to 
the Disbursing Office on a monthly basis. The expenses are detailed on 
a spreadsheet which is also electronically uploaded. The physical 
voucher is audited and appropriate revisions are made. 
Telecommunications charges excepted, concentrated effort is put forth 
to ensure certified items appear as paid in the same month they are 
incurred. Telecommunications charges usually run 1 month behind as the 
SAA must wait for the bills from external vendors.
    Vendor uploads are used to pay vendors for the Senate Stationery 
Room, Senate Gift Shop and State office rentals, and refund security 
deposits for the Senate Page School. The methodology is roughly the 
same as that for certifications, but the payments rendered are for the 
individual vendors. Although these items are generally processed and 
paid quickly, the State office rents are generally paid a few days 
prior to the month of the rental, which is consistent with the general 
policy of paying rent in advance.
    The A/P Audit Group provided training sessions in the use of new 
systems: the process for generation of expense claims and the 
permissibility of expenses. They also participated in seminars 
sponsored by the Secretary of the Senate, the SAA, and the Library of 
Congress (LOC). The section trained 10 new administrative managers and 
chief clerks and conducted four informational sessions for Senate staff 
through seminars sponsored by the Congressional Research Service (CRS). 
The A/P group also routinely assists the IT department and other groups 
as necessary in the testing and implementation of new hardware, 
software, and system applications. The implementation of Web FMIS 2010-
1 and 2010-2 allowed the SAA to use a Web-based system more 
extensively. Additionally, new functionality was made available for 
auditors to view the ESRs that accompany staff vouchers. A new menu 
structure was also created for inquiries. Electronic invoicing for the 
Senate-wide credit card provider, JP Morgan Chase, was also 
implemented.
Disbursing Office Information Technology
            FMIS
    The Disbursing Office Information Technology (IT) department 
provides both functional and technical assistance for all Senate 
financial management activities. Activities revolve around support of 
Web FMIS which is used by staff in 140 Senate accounting locations 
(i.e., 100 Senate personal offices, 20 committees, 20 leadership and 
support offices, the Office of the Secretary of the Senate, the SAA, 
the Senate Committee on Rules and Administration Audit section, and the 
Disbursing Office).
    Responsibilities of the department include:
  --supporting current systems;
  --testing infrastructure changes;
  --maintaining contact with system users to ensure their needs are 
        met;
  --managing and testing new system development;
  --preparing for the 112th Congress;
  --planning;
  --managing the FMIS project, including contract management;
  --administering the Disbursing Office's Local Area Network (LAN); and
  --coordinating the Disbursing Office's disaster recovery activities.
    The Disbursing Office is the ``Abusiness <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d4bba3bab1a694">[email&#160;protected]</a>'' of FMIS and is 
responsible for making the functional decisions about FMIS. The SAA 
Technology Services staff is responsible for providing the technical 
infrastructure, including hardware (e.g., mainframe and servers), 
operating system software, database software, and telecommunications; 
technical assistance for these components, including migration 
management and database administration; and regular batch processing. 
The office utilizes the support of a contractor, along with the SAA who 
are responsible for operational support and application development. 
The three organizations work cooperatively.
    Highlights of the year include:
  --supporting more than 4,000 FMIS users, of which 83 percent are 
        staff preparing ESRs;
  --implementing three releases of FMIS, including two pilots and 
        moving the SAA onto Web-based interfaces:
    --a pilot of electronic invoicing, by which a user can easily 
            create a voucher based on credit card data that the Senate 
            receives electronically;
    --a new version of the ESR that builds the traveler's itinerary 
            based on the location of reported expenses. This reduces 
            rekeying of information by staffers and the number of 
            errors corrected by voucher preparers and the DO A/P staff; 
            and
    --WebPICS for SAA requisitioners, approvers, receivers, and voucher 
            preparers; and
  --testing infrastructure changes that included upgrades to the 
        mainframe operating system (Z/OS), the database (DB2), and the 
        mainframe user security module; and
  --increasing the number of States to whom Disbursing sends State 
        taxes via direct deposit from 21 to 27; and
  --preparing for the 112th Congress.
            Supporting Current Systems
    IT supports Web FMIS users in all 140 accounting locations, the 
departments in the Disbursing Office (e.g., A/P, Accounting, 
Disbursements, Vendor Administration, and Front Office sections), and 
the Senate Committee on Rules and Administration Audit staff. The 
activities associated with this responsibility include:
      User Support.--Providing functional and technical support to all 
        Senate FMIS users; staffing the FMIS ``Ahelp <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="187c7d6b7358">[email&#160;protected]</a>''; answering 
        hundreds of questions; and meeting with chiefs of staff, 
        administrative managers, chief clerks, and directors of various 
        Senate offices as requested;
      Technical Problem Resolution.--Ensuring that technical problems 
        are resolved;
      Monitor System Performance.--Checking system availability and 
        statistics to identify system problems and coordinate 
        performance tuning activities such as those for database access 
        optimization;
      Security.--Maintaining user rights for all ADPICS, FAMIS, and Web 
        FMIS users;
      System Administration.--Designing, testing, and making entries to 
        tables that are at the core of the system;
      Support of Accounting Activities.--Performing functional testing 
        and production validation of the cyclic accounting system 
        activities. This includes rollover, the process by which tables 
        for the new fiscal year are created, and archive/purge, the 
        process by which data for the just lapsed fiscal year are 
        archived for reporting purposes and removed from the current-
        year tables;
      Support of the Senate Committee on Rules and Administration 
        Postpayment Voucher Audit Process.--Providing the data from 
        which the Committee on Rules and Administration Audit staff 
        selects a statistically valid sample of vouchers for $100 or 
        less. In this way, the Committee on Rules and Administration 
        Audit staff review vouchers sanctioned under authority 
        delegated to the Financial Clerk; and
      Training.--Providing functional training to all Senate FMIS 
        users.
Testing Infrastructure Changes
    The SAA provides the infrastructure on which FMIS operates, 
including the mainframe, the database, security hardware and software, 
and the telecommunications network. Activities for changes to the 
infrastructure include testing of all functionality prior to 
implementation and validating critical functionality 
postimplementation. During 2010, the SAA implemented two major upgrades 
to the FMIS infrastructure. These included upgrading the database, DB2, 
to version 9 in a two-step process, and upgrading the mainframe 
operating system to version 1, release 11, and at the same time, 
changing the mainframe security system to a Resource Access Control 
Facility.
Maintaining Contact With System Users To Ensure Their Needs are Met
    Communicating with our large user base is critical to provide the 
excellent service. IT meets on a regularly scheduled basis with 
representatives from Accounting, A/P, and the SAA. In addition, IT 
meets with user groups as it gathers requirements for new 
functionality. Meetings are advertised, and users self-select to 
participate. This year, IT met with the administrative managers, chief 
clerks, and their staff who prepare the ESRs to discuss changes to the 
data entry for the ESRs. Additionally IT met with SAA users who prepare 
vouchers to discuss voucher and inquiry functionality developed in the 
second phase of ``WebPICS'', a Web-based front end to ADPICS with 
additional functionality developed to address SAA user needs.
Managing and Testing New System Development
    During 2010, IT supervised development, performed extensive 
integration system testing, and implemented changes to FMIS subsystems. 
The implementation and production verification activities were 
completed over a weekend in order to minimize system downtime to users. 
Since 2006, multiple sub-system upgrades have been consolidated into 
two or three releases each year. This reduced the amount of regression 
testing required. In order to accurately reflect the variety of changes 
in each release, the releases are now numbered by fiscal year. During 
2010, Disbursing implemented the following three major releases:
  --FMIS r2010-1, implemented in January 2010;
  --FMIS r2010-2, implemented in August 2010; and
  --FMIS r2011-1, implemented in November 2010.
    In addition, IT worked on functionality that will be included in 
future releases, of which one, the FMIS Imaging Product Analysis is 
especially important.
            FMIS 2010-1
    FMIS 2010-1 was implemented in January 2010. This release included 
a small number of enhancements for WebFMIS users including an automated 
password reset feature, a warning to the ESR user when their document 
violates the 60-day election rule, adding graphs to the Web FMIS 
summary reports, and implementing a pilot of electronic invoice 
functionality, which allows a user to easily create credit card 
vouchers based on invoices received electronically from the Senate's 
credit card vendor. A pilot of the electronic invoice (EI) 
functionality began in January and was offered to all offices in June 
2010. By the end of 2010, 33 offices were using the EI functionality.
    The main focus of this release was implementing WebPICS, which 
enables SAA users to access ADPICS functionality through a Web-based 
front end, and provides additional functionality, such as a robust 
search function. The SAA follows a structured procurement process that 
includes creating requisitions, creating purchase orders from 
requisitions, receiving goods, entering invoices, and creating vouchers 
from purchase orders. For many years, the SAA has used ADPICS, a 
mainframe system, to perform these activities. This was especially 
difficult for occasional users. Using a variety of technologies, the 
WebPICS project replaces use of ADPICS with access to user-friendly Web 
pages. This release, the first of three planned releases, focused on 
the needs of requisitioners and requisition approvers, who are 
occasional users, and included:
  --a robust requisition search function, through which a user can find 
        a requisition, its related purchase order, any change orders, 
        and the document's history, by entering minimal information, 
        such as the create date, the commodity code used, by whom it 
        was created or the department for whom it was created;
  --links to purchase orders via a viewer that formats mainframe data 
        into Web pages;
  --a streamlined requisition create function that displays data from 
        multiple ADPICS screens on three tabs:
    --basic information on the header tab;
    --what is being requested and who will pay for it (i.e., commodity 
            information, commodity specifications, and the accounting 
            information) on the items tab; and
    --additional information for the vendor on the terms tab;
  --a streamlined requisition change order function that shows, on the 
        same page, the old information and the new information;
  --look-up tables for selecting, rather than typing, information such 
        as commodity codes and accounting codes when searching for and 
        creating requisitions; and
  --use of the existing Web FMIS inbox to identify, check out, view, 
        and approve or reject requisitions.
    A pilot of SAA requisitioners and requisition approvers began using 
WebPICS in early January 2010, and all requisitioners and approvers 
were trained and began using this functionality by the end of April, 3 
months ahead of schedule.
            FMIS 2010-2
    FMIS 2010-2 was implemented in August 2010. This release included a 
small number of enhancements for ESR users, but was focused on 
implementing new functionality for the SAA A/P process (e.g., receipt 
of goods, invoice processing and approval, voucher creation, and 
approval). Processes were simplified by automated retrieval of data 
from existing purchase orders. WebPICS provides pop-up windows where 
users enter the required data which the system uses to retrieve 
information from the purchase order. The user simply verifies retrieved 
data and adds information necessary to complete the process to create 
receiving reports, invoices and vouchers for payments against purchase 
orders.
    Four additional new search windows provide ability to easily find 
original and related documents, including related images stored by SAA 
Finance in OnBase:
  --receiving report search;
  --invoice voucher search;
  --expenditure search, which provides the ability to search for 
        expenses processed within WebFMIS, WebPICS, and via upload, the 
        combination of which was not previously available in one query; 
        and
  --purchase orders search by vendor.
    The third WebPICS release, which will focus on purchase order 
creation and approval is scheduled for implementation in the spring of 
2011.
            FMIS 2011-1
    FMIS 2011-1 was implemented in November 2010 and included:
  --Adding two fields, invoice date and invoice receipt date, to the 
        WebFMIS document create page and to the document search 
        criteria page for all users;
  --Ability for SAA users to search by project code and job code using 
        the document search criteria page;
  --Ability for users using the electronic invoice functionality to 
        search by traveler's name using the document search criteria 
        page; and
  --Introduction to a pilot group a new version of the ESR, ``Line Item 
        Entry''.
    This version enables users to select 1 of 3 travel ESR types:
  --single trip;
  --multiple trips; or
  --interdepartmental travel, which requires different information 
        depending on the type.
    Users then create an ESR in a more simplified format, entering 
expenses by date, location, and expense type on a line-by-line basis. 
The locations are selected from a list of cities provided by the U.S. 
Postal Service. This format enables the itinerary to be built 
automatically from the locations entered for each expense and is 
produced in the format that complies with the standards for the Report 
of the Secretary. This version of the ESR is expected to reduce 
rekeying by staff and reduce the corrections to itineraries made by 
office managers, chief clerks, and the Disbursing Office's A/P staff. A 
pilot of 10 offices and committees began in November 2010. 
Additionally, this version has been given to all new Senators of the 
112th Congress.
FMIS Imaging
    During 2008, Disbursing implemented a prototype imaging system in 
which paper vouchers and supporting documentation were imaged by 
Disbursing staff and routed electronically. The hands-on experience of 
this prototype was especially useful in refining system requirements. 
Under the FMIS Imaging Product Analysis project, begun in 2009 and 
completed in 2010, software for the image database and image viewer was 
selected, and imaging and electronic signature requirements were 
finalized. This information was coordinated with a separate SAA smart 
card ID project; the smart cards will be used for electronic 
signatures.
    In October 2010, a task order for the adding document imaging and 
electronic signatures to WebFMIS was signed. This task order outlines 
work to be completed between now and the spring 2013 in three phases 
(six releases), including:
      Phase 1.--Imaging only pilot (spring 2011);
      Phase 2.--Office imaging and signatures pilot (summer 2011), 
        extended pilot (winter 2012), and full roll-out (summer 2012); 
        and
      Phase 3.--Staffer imaging and signatures pilot (winter 2012) and 
        rollout (spring 2013).
Preparing for the 112th Congress
    Using statistical information from fiscal year 2009 and fiscal year 
2010, IT prepared for each new Senator in the 112th Congress (including 
those whose terms began at the end of the 111th Congress) budget 
information based on the spending patterns for the 111th Congress. 
Additionally, IT participated in the planning sessions for the new 
office manager training at which Disbursing presented an outline for 
training and a sample quick reference guide regarding Senate financing. 
The WebFMIS training schedule for the first quarter of 2011 was 
revamped to include Web FMIS classes every 2 weeks instead of once a 
month.
Planning
    The Disbursing IT department performs two main planning activities:
      Schedule Coordination.--Planning and coordinating a rolling 18-
        month schedule; and
      Strategic Planning.--Setting the priorities for further system 
        enhancements.
            Schedule Coordination
    In 2010, this department continued to hold two types of meetings 
between Disbursing and the SAA to coordinate schedules and activities. 
These were:
      Project-specific Meetings.--A useful set of project-specific 
        working meetings, each of which has a weekly set meeting time 
        and meets for the duration of the project (e.g., archive/purge 
        meetings and WebFMIS budget function meetings); and
      Technical Meetings.--A weekly meeting to discuss the active 
        projects, including scheduling activities and resolving issues.
            Strategic Planning
    During 2010 Disbursing drafted a 5-year schedule based on earlier 
meetings to ``envision the future''. This is still under discussion and 
review and will be affected by the schedule for implementing a new 
payroll system, which will require substantial changes to current 
systems, including the interface from payroll into the General Ledger 
(FAMIS) of payroll expenditures and projections, the interface from the 
payroll system into the master vendor file (in FAMIS), and the payroll 
reports provided to the offices via WebFMIS.
Managing the FMIS Project
    The responsibility for managing the FMIS project was transferred to 
the Disbursing IT department during the summer of 2003, and includes 
developing the task orders with contractors, overseeing their work, and 
reviewing invoices. In 2010, the following two new task orders were 
executed:
      Service Year 2011 Extended Operational Support.--Covers 
        activities from September 2010 to August 2011; and
      FMIS Imaging Pilot.--Covers tasks for adding document imaging and 
        electronic signatures to WebFMIS. This task order outlines work 
        to be completed between now and the spring of 2013 (six 
        releases in three phases), and provides functionality for the 
        Secretary and the SAA, office managers/chief clerks, the 
        Disbursing Office A/P and Accounting staff, and Senate staff 
        who prepare ESRs (e.g., staff who travel).
    In addition, work continued under two task orders executed in prior 
years:
  --Service year 2010 Extended Operational Support (covered activities 
        from September 2009 to August 2010); and
      FMIS Imaging Product Analysis.--Analyzed what software will be 
        used for paperless voucher processing, including managing 
        images, viewing images, annotating images and reading smart 
        cards, which will have a component of the electronic signature.
Administering the Disbursing Office's LAN
    The Disbursing Office continued to administer its own LAN, which is 
separate from the network used by the rest of the Secretary's Office. 
It is used by more than 50 staff. Upkeep of the LAN infrastructure, 
including performing routine daily tasks and replacing equipment 
regularly, is critical to providing services. In addition, there are a 
number of specialized administrative applications that are housed on 
the Disbursing Office LAN. During 2010, LAN administration activities 
included:
  --maintaining and upgrading the Disbursing Office's LAN;
  --installing specialized software; and
  --maintaining projects for the payroll and benefits section.
            Maintaining and Upgrading the Disbursing Office LAN
    Disbursing maintained the existing workstations with appropriate 
upgrades including:
  --installing OnWeb, a Web-based 3270 emulation software;
  --imaging critical PCs for easy recovery from hard disk crash or 
        other PC failure;
  --replacing SNAP servers with Buffalo Terra stations; and
  --installing a video teleconferencing (VTC) unit in the Disbursing 
        Office conference room.
            Installing Specialized Software
    Disbursing is responsible for sending direct deposit payments to 
the Federal Reserve Bank (FRB). During 2010, IT updated Disbursing's 
access to the FRB, due to a change in FRB-supplied equipment and 
ensured that access was functioning from the Alternate Computing 
Facility (ACF).
            Maintaining Projects for Payroll and EBSs
    During 2010, Disbursing supported three specialized applications 
for the Payroll and EBSs:
  --IT continued to support the imaging system developed by SAA staff. 
        This system electronically captures and indexes payroll 
        documents submitted at the front counter, and is critical for 
        the Payroll and EBSs. At the end of 2009, a new version of this 
        software was installed and only minor updates were needed in 
        2010.
  --In addition, the systems administrator moved the CLER application, 
        a health insurance benefits validation service, to a new 
        standalone personal computer and worked with the SAA Network 
        Operations staff to establish point-to-point security for 
        access to the Department of Agriculture.
  --The Government Retirement Benefits (GRB) software, which enables 
        benefits counselors to easily estimate retirement benefits 
        based on different scenarios, is now available to Disbursing 
        staff.
Coordinating the Disbursing Office's Disaster Recovery Activities
    Disbursing anticipates testing in 2011 to include fail-over of its 
systems to the ACF, activity at the ACF, and a new activity: fail-back 
of the changed production data.
                <greek-l>sos deg.administrative offices
Chief Counsel for Employment
    The Office of the Senate Chief Counsel for Employment (SCCE) is a 
nonpartisan office established at the direction of the Joint Leadership 
in 1993 after enactment of the Government Employee Rights Act, which 
allowed Senate employees to file claims of employment discrimination 
against Senate offices. With the enactment of the Congressional 
Accountability Act of 1995 (CAA), as amended, Senate offices became 
subject to the requirements, responsibilities and obligations of 12 
employment laws. The CAA also established the Office of Compliance 
(OC). Among other things, the OC accepts and processes legislative 
employees' complaints that their employer has violated the CAA.
    The SCCE is charged with the legal defense of Senate offices in all 
employment law cases at both the administrative and court levels. The 
SCCE attorneys also provide legal advice to Senate offices about their 
obligations under employment laws. Accordingly, each of the 140 offices 
of the Senate is an individual client of the SCCE, and each office 
maintains an attorney-client relationship with the SCCE.
    The areas of responsibilities of the SCCE can be divided into the 
following categories:
  --Litigation (defending Senate offices in courts and at 
        administrative hearings);
  --Mediations to resolve lawsuits;
  --Court-ordered alternative dispute resolutions;
  --Occupational Safety and Health Act (OSHA) compliance;
  --Union drives, negotiations, and unfair labor practice charges;
  --Americans with Disabilities Act (ADA) compliance;
  --Layoffs and office closings in compliance with the law;
  --Management training regarding legal responsibilities; and
  --Preventive legal advice.
Litigation, Mediations, Alternative Dispute Resolutions
    SCCE defends each of the Senate employing offices in all court 
actions, hearings, proceedings, investigations, and negotiations 
relating to labor and employment laws. SCCE handles cases filed in the 
District of Columbia and cases filed in any of the 50 States.
Compliance With OSHA and ADA
    The CAA mandates that, at least once each Congress, the OC shall 
inspect each Senate office to determine whether each office is in 
compliance with the OSHA and the public accommodation portion of the 
ADA. The CAA authorizes the OC to issue a public citation to any office 
that is not in compliance.
    SCCE provides legal assistance and advice to each Senate office to 
ensure that it is complying with the OSHA and the ADA. SCCE also 
represents each Senate office during the OC inspections and advises and 
represents each Senate office when a complaint of an OSHA or ADA 
violation is filed against the office or when a citation is issued.
    In 2010, SCCE pre-inspected 1,225 Senate rooms to ensure that 
Senate offices are complying with the OSHA and the ADA. Inspections 
included all Member offices, leadership and committee offices, offices 
of the SAA, offices of the Secretary of the Senate in the Capitol and 
the Capitol Visitor Center (CVC), as well as the Hart, Dirksen, and 
Russell Senate Office Buildings and offsite buildings used by the 
Senate.
    During 2010, the enthusiasm and participation of Senate offices in 
SCCE's pre-inspection safety program resulted in perfect safety records 
for 64 Member offices and 13 committees. At the conclusion of the 
inspections, no Senate office had any significant safety problem, and 
no citations were issued during the 111th Congress.
Training Regarding Legal Responsibilities and Employee Rights
    An important part of the legal services the SCCE offers is 
educating Senate managers of their obligations and employees' rights 
under the employment laws that govern Senate offices. SCCE regularly 
conducts legal training for Senators, Senators-elect, and their staff, 
Senate employees, and Senate interns.
    In 2010, the lawyers of SCCE gave 69 legal seminars to Senate 
offices, including, among others:
  --The Congressional Accountability Act of 1995: Management's Rights 
        and Obligations;
  --Senators-elect Orientation: Managing Your Offices in Compliance 
        with Employment Laws;
  --Staff of Senators-elect: How to Set Up and Manage a Senate Office 
        in Compliance with the Law;
  --Hiring the Right Employee: Advertising, Interviewing and Conducting 
        Background Checks without Violating the Law;
  --How to Conduct I-9 and E-Verify Checks on New Hires;
  --Common Employment Law Mistakes Managers Make;
  --Evaluating, Disciplining, and Terminating Employees without 
        Violating the Law;
  --Sexual Harassment in the Workplace: What is Prohibited and What Are 
        Employees' Rights and Obligations;
  --A Manager's Guide to Preventing and Addressing Harassment in the 
        Workplace;
  --Diversity in the Workplace: The Americans with Disabilities Act: 
        What Managers Must Know about Complying with the Law;
  --Military Service Academies Interviewing in Compliance with the Law;
  --The Requirements of the Family and Medical Leave Act; and
  --The Requirements of the Equal Pay Act.
    In addition to the above 69 seminars, SCCE conducted a series of 
monthly seminars covering all major employment laws that govern Senate 
offices. The purpose of the seminars was to educate Senate management 
staff about their responsibility to ensure that their respective 
offices comply with the CAA. The series was open to all chiefs of 
staff, staff directors, administrative directors, chief clerks, and 
office managers. Individuals who completed the series received a 
certificate of completion from the Secretary of the Senate.
    SCCE, working with the Senate Radio and TV Studio, now streams its 
seminars to all Senate State offices so that the managers in State 
offices can participate electronically in all SCCE live seminars. In 
addition, SCCE electronically stores SCCE seminars to allow Senate 
managers who were unable to attend a seminar to review it 
electronically from their desk monitors at a later date. Finally, to 
ensure that all Senate managers, whether in Washington, DC or a State 
office, can easily learn about and register for SCCE's seminars, SCCE 
added an online seminar registration process to its Web site.
Legal Advice
    SCCE meets daily with Members, chiefs of staff, administrative 
directors, office managers, staff directors, chief clerks, and counsel 
at their request to provide legal advice. For example, on a daily 
basis, SCCE advises Senate offices on matters such as interviewing, 
hiring, counseling, disciplining, and terminating employees in 
compliance with the law; handling and investigating sexual harassment 
complaints; accommodating the disabled; determining wage law 
requirements; meeting the requirements of the Family and Medical Leave 
Act; management's rights and obligations under union laws and the OSHA; 
and management's obligation to give leave to employees for military 
service. In 2010, the SCCE had more than 1,695 client legal advice 
meetings.
    Also, SCCE provides legal assistance to Senate offices to ensure 
that their office policies, job descriptions, interviewing guidelines, 
and performance evaluation forms comply with the law and are updated as 
employment laws change. In 2010, SCCE prepared 229 policy manuals for 
Member offices and committees.
Union Drives, Negotiations, and Unfair Labor Practice Charges
    In 2010, the SCCE provided guidance to managers and supervisors 
regarding their legal and contractual obligations under union 
contracts.
Environmental, Cost, and Space Savings
    It has now been 10 years since SCCE became the first Senate office 
to convert to a ``paperless'' office. By doing this, SCCE has benefited 
the environment, cut costs, cleared office space, reduced storage 
needs, and become more efficient. Having accomplished that project, 
SCCE turned its attention to eliminating hard copy legal books in its 
office. To this end, in 2009 SCCE eliminated 50 percent of its hard 
copy legal library. In 2010, SCCE further reduced its book inventory by 
20 percent. SCCE achieved this through a combination of scanning and 
converting to electronic books. In addition to the above-mentioned 
benefits, this project saves the office more than $6,000 annually, has 
freed approximately 288 square feet of office space, and has saved time 
by eliminating the need for staff members to update legal books on a 
weekly basis with new paper inserts.
             <greek-l>sos deg.conservation and preservation
    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory and other authority. Initiatives include:
  --deacidification of paper and prints;
  --phased conservation for books and documents;
  --collection surveys, exhibits, and matting; and
  --framing for the Senate Leadership.
Senate Library
    As mandated in the 1990 Senate Library Collection Condition Survey, 
the office continued to conduct an annual treatment of books identified 
by the survey as needing conservation or repair. In 2010 conservation 
treatments were completed for 173 volumes of a 7,000 volume collection 
of House hearings. Specifically, treatment involved recasing each 
volume as required, using alkaline end sheets, replacing acidic tab 
sheets with alkaline paper, cleaning the cloth cases, and replacing 
black spine title labels of each volume as necessary. The Office of 
Conservation and Preservation will continue preservation of the 
remaining 3,410 volumes.
Preservation
    The Office of Conservation and Preservation completed 106 volumes 
of House and Senate hearings and Congressional Records for the Senate 
Library. These books were rebound with new end sheets and new covers 
using the old spines when possible.
Committees
    Conservation and Preservation assisted the Committee on the Budget, 
Select Committee on Ethics, and the Joint Economic Committee with their 
books being sent to the GPO for binding.
Exhibition
    Conservation and Preservation assisted the Senate Historical and 
Curator's offices in the installation of a new exhibition to mark the 
150th anniversary of the Civil War. The exhibition replaced the 
Inauguration exhibit in the Senate wing's first floor connecting 
corridor.

                        <greek-l>sos deg.CURATOR

    The Office of Senate Curator, on behalf of the Senate Commission on 
Art, develops and implements the museum and preservation programs for 
the United States Senate. The Curator collects, preserves, and 
interprets the Senate's fine and decorative arts, historic objects, and 
specific architectural features; and the Curator exercises supervisory 
responsibility for the historic chambers in the Capitol under the 
jurisdiction of the Commission. Through exhibitions, publications, and 
other programs, the Curator educates the public about the Senate and 
its collections.
Collections, Commissions, Acquisitions, and Management
    This year 294 objects were accessioned into the Senate Collection. 
Many of these historic objects were deposited with the Curator's Office 
to ensure their safekeeping. These included a ticket from the 1945 
Presidential Address to Congress; 13 artifacts from the 1939 
congressional welcome of King George VI and Queen Elizabeth; 10 items 
from the 1941 visit of Prime Minister Winston Churchill; 17 artifacts 
from the 1943 visit of Madame Chiang Kai-Shek; various tickets, 
programs, badges, passes, and other objects from 10 different Inaugural 
ceremonies held between 1925 and 1989; 25 objects from funerals held in 
the Senate Chamber; items from the 1953 memorial service for Senator 
Robert A. Taft held in the Rotunda; and tickets from the Senate 
nomination hearing for Elena Kagan as Associate Justice of the Supreme 
Court of the United States.
    A painting of Senator Bill Frist by artist Michael Shane Neal was 
completed as part of the Senate Leadership Portrait Collection. It will 
be unveiled in March 2011.
    The most significant addition to the collection was the acquisition 
of four small paintings by 19th century artist Constantino Brumidi, 
created in preparation for frescoes in the Senate Reception Room (S-
213) and the Senate Committee on Military Affairs and Militia (S-128). 
The Senate had long been aware of these historic oil sketches, which 
formed the largest known private collection of Brumidi's Capitol works.
    Thirty-nine new foreign gifts were reported in 2010 to the Select 
Committee on Ethics and deposited with the Senate Curator's office on 
behalf of the Secretary of the Senate. The office currently is 
responsible for 211 foreign gifts, which are catalogued and maintained 
in accordance with the Foreign Gifts and Decorations Act. Appropriate 
disposition of 80 foreign gifts was completed following established 
procedures.
    The Office of Senate Curator continued to document and care for the 
historic Russell Senate Office Building furnishings. In addition, the 
search continued for Russell Senate Office Building furniture located 
in private collections, museums, and libraries, and another 1909 
partner desk was returned to the Senate from the University of Nevada 
at Reno. In addition, the office drafted guidelines for the care of 
these century-old furnishings to prevent the physical degradation of 
the furniture, and, when appropriate, allow the pieces to be restored 
to their original 1909 appearance.
    The Curator's Office continued to work with the CVC project staff, 
AOC representatives, and their consultants to resolve problems with the 
heating, ventilating, and air conditioning (HVAC) equipment in the 
Curator's two CVC collection storage spaces. In June 2009, consultants 
determined that the HVAC equipment installed in the new storage rooms 
was unable to meet environmental requirements and needed to be 
replaced. New equipment was ordered and installed in the larger of the 
two rooms. Fine tuning of this system is nearing completion. 
Replacement of the HVAC equipment in the smaller room began in January 
2011. These HVAC systems are essential to the Curator's mission to 
preserve the Senate's significant collections.
    Maintenance of the Senate's historic clocks continued under a 
program established in 2009 to provide regularly scheduled care. Since 
the Curator's staff assumed responsibility last year for winding the 
Senate's historic clocks, the opportunity to closely observe their 
function has helped alleviate recurring problems with timekeeping.
    The care of collections on display has benefitted from the addition 
of an automated maintenance record system that is now part of the 
Senate collection database. Regular cleaning and care of the art and 
historic furnishings is now tracked and recorded. Staff is alerted when 
an object is due for care based on this new automated maintenance 
program, thus saving considerable time when scheduling and planning 
work.
    The office enhanced its emergency preparedness for the collection 
by identifying local disaster recovery companies to assist in a 
disaster, and finalizing an emergency disaster guide. The guide 
provides contact information on local art handlers, shippers, and 
conservators, as well as information on how to address the care of 
specific materials in the event of fire, water, infestation, or a 
chemical emergency. Additionally, all new loan agreements were 
digitized in a portable document format for easy retrieval off-site, 
and a map noting the current location of loaned objects was created to 
allow quick identification of loans that may be affected in an 
emergency situation.
    The office continued its program of photographing all objects for 
the collection database. More than 50 objects were photographed, and a 
total of 859 images out of 4,598 were resized for consistency. Staff 
also worked with the Senate Photographic Studio on several special 
projects, including documenting new signatures in the Senate Chamber 
desk drawers, recording conservation and installation of artwork, and 
photographing historic spaces. Such documentation is important for 
recordkeeping, disaster preparedness, use on Senate.gov, and for 
publications promoting the Senate's collections.
    In keeping with scheduled procedures, all Senate collection objects 
on display were inventoried, noting any changes in location. In 
addition, as directed by S. Res. 178 (108th Congress, 1st session), the 
office submitted inventories of the art and historic furnishings in the 
Senate to the Senate Committee on Rules and Administration. The 
inventories, which are submitted every 6 months, are compiled by the 
Curator's Office with assistance from the SAA and AOC's Superintendent 
of Senate Office Buildings.
    Both recordkeeping and protection of the Senate's historic mirror 
collection received considerable attention. The object files and 
database entries for all 94 mirrors were reviewed and updated based on 
established registration standards. Taking advantage of renovation 
work, the office installed protective plinths on two mirrors. By 
raising the mirrors from the mantels and creating a larger footprint, 
the plinths shield the mirror frames from spills, damage from objects 
displayed on the mantels, and routine dusting. In addition, 
implementation of a plan to provide routine, on-site professional care 
for the Senate's gilded frames, including mirror and picture frames, 
began in 2010. A list of treatable damage was developed and several 
frames repaired. Seventeen mirrors were also cleaned.
    The office coordinated the approval by the Senate Committee on 
Rules and Administration and the Commission on Art of mirror movement 
guidelines. The guidelines safeguard these important decorative objects 
from unnecessary damage due to excessive handling, and preserve each 
mirror's significance by retaining its historic association with a 
room.
    Staff worked with the SAA Cabinet Shop to develop a list of the 
multiple components of the writing boxes that are part of the Senate 
Chamber desks. A computerized drawing of one of the boxes was completed 
to aid in the work. Many of these writing boxes have sustained damage 
over the years, and a comprehensive survey is needed to prioritize 
repairs. Once the survey is completed, the Cabinet Shop will begin 
refurbishing the boxes.
    The official Senate chinaware was used at 16 receptions for 
distinguished guests, both foreign and domestic, including a luncheon 
for the King of Jordan, a tea for the President of Russia, and a tea 
for the President of Haiti. The Secretary's china was inventoried and 
used at three receptions sponsored by the chairman of the Senate 
Foreign Relations Committee.
Conservation and Restoration
    In addition to the regular maintenance required for the Senate's 
historic clocks, extensive conservation occurred on two clocks: the 
``Ohio'' clock and the architectural shelf clock in the Old Senate 
Chamber. Both clocks have significant histories, and are exceptional 
examples of 19th century American clock making.
    The ``Ohio'' clock was purchased from Thomas Voigt of Philadelphia 
in 1816, to be used in the Senate Chamber after renovations were 
completed following the burning of the Capitol by the British. After 
194 years of continuous use, accumulated grime, layers of varnish, and 
repairs had taken their toll on the case and the eagle. Conservators 
conducted microscopic studies of the finish layers that had built up 
over time. Their findings provided new and exciting information about 
the clock, and were the basis for re-gilding the historic eagle. The 
clock's movement also required extensive repairs, especially to the 
hands and the timekeeping mechanism. As a result of this conservation, 
the ``Ohio'' clock now accurately reflects its 19th century appearance, 
and, it is hoped, will continue to run for another 200 years.
    The architectural shelf clock was purchased from the Bailey and 
Kitchen Company of Philadelphia in 1846 to serve as the timepiece for 
the Old Senate Chamber following removal of the ``Ohio'' clock. The 
Bailey clock needed thorough cleaning and repair, as well as 
replacement of material that has worn away over time due to continuous 
use. During the conservation of the two clocks, the Curator's office 
obtained new information about their physical histories that could only 
be discovered during the course of treatment.
    A condition assessment was completed in order to develop a 
comprehensive scope of work for the restoration of the Senate Chamber 
desk inkwells and sanders. These artifacts date to about 1930, and are 
starting to show their age. The evaluation helped identify damaged 
glass in need of replacement, broken or missing hinges, and corrosion 
to the metal and loss of patina. The next phase is to finalize a scope 
of work and select a conservator. Conservation is projected to begin in 
2012 when other work in the chamber is scheduled.
    Three portraits recently acquired for the Senate Leadership 
Portrait Collection received preservation treatment. The portraits of 
Senators Robert C. Byrd, Tom Daschle, and Trent Lott were given a final 
protective coating of varnish, which is done only after the paint is 
completely dry.
    The office began the restoration of the eight Flemish oak benches 
purchased in 1899 for the Senate Reception Room. Over time, their 
carved back panels had been removed, their seats and backs upholstered, 
and they were poorly refinished multiple times. The conservation 
process included research into the original carved panels and finish, 
and the difficult repair of the extensive upholstery damage. Once 
returned to the Senate, the benches will reflect their original 
appearance, and be ready to provide another century of service.
Historic Preservation
    The Senate's historic preservation program seeks to formulate a 
solid preservation policy reflective of the Senate's interests and the 
need to preserve the Capitol's historic fabric and historical artistic 
intent. Through various initiatives, the preservation program has 
positioned itself as a valuable resource for the Senate, ensuring that 
all projects are carefully considered and weighed in light of sound 
preservation practices.
    The Curator's Office continued to work closely with the AOC and the 
SAA to review, comment, plan, and document Senate-side construction 
projects (many of which are long-term initiatives) that involve or 
affect historic resources. Such construction and conservation efforts 
included:
  --energy lighting upgrades;
  --first responder antennae installation;
  --mural restoration;
  --smoke purge system installation;
  --wall and ceiling restoration;
  --scagliola conservation;
  --third floor plaster repair; and
  --the Brumidi Corridors restoration.
    Through this work, the Curator's Office was able to ensure that the 
highest preservation standards possible were applied to all Capitol 
projects. The Curator's office continued its participation in a working 
group (whose other members were the SAA, AOC, and Rules Committee) to 
engage in several building projects to conserve and protect public 
spaces and historic assets. In areas with conserved scagliola, the 
office worked with the SAA to develop and install various surface 
protection measures. Similarly, the Curator's Office worked with the 
SAA to devise a solution to the furniture in the Brumidi Corridors 
north door entrance. The challenging Senate Reception Room restoration 
and rehabilitation project, developed by the Senate Curator and the AOC 
Curator, has successfully moved forward. A pilot conservation project 
was initiated by the AOC for part of the decorative wall design. The 
Reception Room has a very complex pattern of surface treatments that 
involve delicate toned glazes and precise application methods. The 
office arranged to have existing room condition drawings completed, 
surveyed the floor tiles, and placed informational signs in the room 
detailing the conservation. Once the pilot is completed in late 2011, 
the restoration of the remaining wall surfaces should proceed more 
quickly.
    Regarding the Brumidi Corridors restoration, the office assisted 
the AOC in garnering support for a comprehensive, time-bound plan for 
finishing the corridors. With the support of the Committee on Rules and 
Administration and Senate Commission on Art, it is hoped that this 5-
year plan can move forward in 2011. It will be a major achievement when 
these treasured corridors can be returned to their original artistry.
Historic Chambers
    The Curator's staff continued to maintain the Old Senate and Old 
Supreme Court Chambers, and coordinated periodic use of both rooms for 
special occasions. The office staff worked with the USCP on the 
procedures developed to record the after-hours access to the historic 
chambers by current Members of Congress. Eighty-five requests were 
received from current Members for after-hours access to the Old Senate 
and Old Supreme Court Chambers.
    Of special significance in the Old Senate Chamber was the re-
enactment swearing-in ceremonies for five Senators, and the closed 
Senate session on the New START Treaty.
Loans to and From the Collection
    A total of 61 historic objects and paintings are currently on loan 
to the Curator's Office on behalf of Senate leadership and offices in 
the Senate wing of the Capitol. The staff returned five loans, 
coordinated six new loans, and renewed loan agreements for 34 other 
objects. More than 37 loans are projected to be renewed next year.
Publications and Exhibitions
    The Senate Commission on Art's enabling legislation (2 U.S.C. 2104) 
requires that ``at least every ten years'' a Senate document be 
published which lists all works of art, historical objects, and 
exhibits currently within the Senate wing of the Capitol and the Senate 
Office Buildings. The document was published this year with the 
assistance of GPO. Encompassing more than 4,000 works of art and 
artifacts, the inventory records the growth of the Senate collection 
over the last 10 years; demonstrates the office's concerted effort to 
acquire objects that enhance the collection; and provides a publicly 
accessible list of the entire collection.
    At the request of the Republican Leader's Office, the Curator 
worked with the Senate Historical Office to produce a booklet to 
supplement the existing Leader's suite brochure. The supplemental 
publication includes color images and descriptions on the art in the 
suite and highlights Kentucky connections to the suite's history.
    In recognition of the Congressional Gold Medal to be awarded to 
Constantino Brumidi, the office developed a publication on the 
Capitol's artist. Staff worked with GPO on the layout and design for 
the book, and the first two chapters have been completed. This 
illustrated publication will highlight new scholarship from historians, 
curators, and conservators about Brumidi's artistic endeavors in the 
Senate wing of the Capitol.
    In conjunction with the Senate Library and Senate Historical 
Office, staff installed two exhibits outside the newly remodeled 
Dirksen G-50 hearing room as requested by the Rules Committee. The 
exhibits were placed in the showcases built into the walls of the 
room's vestibule. One case highlights Senator Everett M. Dirksen, for 
whom the building was named; the other case features the building--its 
origins, construction, and architectural details.
    A new exhibition was installed to mark the 150th anniversary of the 
Civil War, replacing the Inauguration exhibit in the Senate wing's 
first floor connecting corridor. This project was a joint effort 
between the Senate Historical Office, Curator's Office, with assistance 
from the Office of Conservation and Preservation, GPO, and the AOC 
Paintings and Decorating Division. Traditionally, the story of the 
Civil War is told from the perspective of the President or his military 
commanders, but this exhibit illustrates the crucial role played by the 
Senate and its Members during this national crisis.
    Curator's staff finalized an online Web exhibit on Senate.gov 
dispelling myths and rumors often heard about Senate art. Seven 
different ``myths'' are included in the initial posting, featuring the 
most prominent and oft-repeated apocryphal stories. The office also 
increased its presence on the Web this year with a new section 
highlighting the Senate's decorative art collection. Seventy-two 
artifact pages were posted, from gilded mirrors and historic clocks, to 
Senate Restaurant china, snuff boxes, and other important Senate 
heirlooms. In addition, an online exhibition featuring artifacts 
related to funerals held in the Senate Chamber was posted; and a new 
Web section titled, ``Curator's Picks,'' highlighting the Curator's 
favorite works in the Senate Collection, will be completed shortly. 
Staff also proceeded with the design and outline for an historic spaces 
section for Senate.gov. When completed, the site will guide visitors 
through such treasures as the Old Senate and Old Supreme Court 
Chambers, the President's Room, and other significant historic spaces.
    At the request of the Committee on Rules and Administration, and 
pursuant to S. Res. 53, the office installed a bronze plaque honoring 
the work of African-American slaves in building the U.S. Capitol. The 
plaque is located in the third floor east front connecting corridor of 
the Senate wing, where a portion of the Capitol's original 1800 
exterior wall can be seen.
Collaborations, Educational Programs, and Events
    The Curator's staff assisted the National Archives again this year 
with two exhibits for display in the vault at the Center for 
Legislative Archives. Objects related to the Senate Chamber's 150th 
anniversary continued on display, and were replaced with an exhibition 
of objects related to Constantino Brumidi.
    The Curator and staff assisted with numerous CVC-related projects 
throughout the year. The Curator, Associate Curator, and administrator 
provided support for the Congressional Historical Interpretation 
Program (CHIP), including developing a new e-learning program and 
guidebook; participated in the morning ``briefings'' to the Capitol 
Guide Service to better inform them on Senate art and history; 
conducted exhibition lectures for the public; reviewed exhibition text 
and images; and at the request of the CVC oversight for the Senate, the 
Senate Committee on Rules and Administration, continued to work closely 
with the House Curator and AOC Curator to review products and 
publications for the CVC gift shop.
    The Senate Curator assisted the AOC Curator and House Curator on 
various art-related research and projects, most notably the Rosa Parks 
commission, display of the House Bierstadt paintings, and conservation-
related matters. The Senate Curator and staff also gave lectures on the 
Senate's art and historical collections to various historical groups 
and art museums. The staffs further assisted with the Secretary's 
Senate staff lecture and tour series and were regular contributors to 
Unum, the Secretary's newsletter.
Office Administration and Automation
    The collections management database was reviewed, assessed, and 
improved to include the reconfiguration of the artist information, 
updates to loan and inscription records, and the creation of an object 
maintenance table. This work will allow more efficient search 
capabilities, a stable database, and an easier way of transferring 
information into reports.
    In the area of file management, the Curator's staff completed a 
major restructuring of the office's electronic files, applying a new 
organizational matrix and file naming protocols. Combined with this 
effort, the office developed and implemented project close-out 
procedures. This standardization and consistent records collation has 
greatly improved the usability of the office resources, streamlined 
office recordkeeping, and enhanced research capabilities.
COOP Planning
    In the area of COOP preparedness, the office conducted its annual 
table top exercise and trained staff to use remote desktop access 
through a series of work-from-home exercises. The exercises proved 
effective in identifying problems and troubleshooting issues before a 
true emergency occurs.
Objectives for 2011
    Conservation and preservation of the Senate's collections continue 
to be a priority, and several major projects are planned for 2011. Two 
of the Senate's most iconic works in the Old Senate Chamber will be 
restored:
  --the Eagle and Shield sculpture; and
  --the portrait of George Washington by Rembrandt Peale.
    In preparation, a detailed review of past treatments and analyses 
by various conservators was undertaken in 2010. A scope of work will be 
developed and a panel of experts will assist in the review process. The 
conservation schedule will be coordinated with repairs planned in the 
Old Senate so that the works of art are out of harm's way when 
renovations begin. Additionally, conservation of the Senate Reception 
Room benches will be completed.
    Based on the findings from a condition assessment of the Senate's 
collection of historic clocks completed in 2008, the Curator's Office 
will continue to schedule necessary conservation for the clocks to 
avoid deterioration of their parts and their function as accurate 
timepieces. The tall case clock in the Vice President's Ceremonial 
Office is next scheduled for treatment; both the case and movement will 
require conservation.
    Staff will begin the survey of the Senate Chamber desk writing 
boxes, with the assistance of the SAA Cabinet Shop, and develop a plan 
for their repair and ongoing maintenance. The interior and exterior of 
the writing boxes will be assessed for condition, and the various 
components will be inspected and documented. Repair work will begin in 
2012, depending on the Senate's schedule.
    With regards to the care of the Senate's historic mirrors, staff 
will inventory the historic Russell House Office Building mirrors and 
initiate a maintenance program for the nine historic oversized mirrors 
located in committee hearing rooms. In order to increase the skill and 
knowledge of the Curator's Office, several staff will participate in 
hands-on training related to basic gilded frame repair. This will 
reduce the need for professional conservators, improve the response 
time to urgent repairs, and save the Senate money over time.
    In the area of collections management, the office will continue 
reviewing photographs in the collections database to ascertain that 
each object has a documentation photograph and that it meets required 
size parameters.
    The office will further efforts to locate and recover historic 
artifacts associated with the Senate, specifically tickets and programs 
to Senate Chamber funerals and historic furnishings associated with the 
Senate and Supreme Court (when it met in the Capitol).
    The Curator's staff will confer with the AOC regarding preservation 
issues related to Senate restoration and remodeling projects, 
disseminate project information to the Senate, develop preservation 
projects at the request of the Senate, conduct condition inspections, 
and arrange necessary maintenance. The bulk of the office's project 
management will involve advancing the restoration and rehabilitation of 
the Brumidi Corridors, the Senate Reception Room, and the Strom 
Thurmond Room.
    With the assistance of GPO and the AOC Senate Superintendent, the 
Curator's Office will create a new educational exhibit and brochure for 
the sculpture Mountains and Clouds, located in the Hart Senate Office 
Building atrium. The exhibit will feature information on the artist, 
sculpture, conservation, and the maquette, or scale model. An exhibit 
will also be mounted for the four new Brumidi paintings. The sketches 
will be displayed in a public area, so that staff and visitors can 
appreciate these important works of art.
    Other education efforts will focus on Senate.gov. Staff will 
continue to add objects to the decorative art section, as well as 
update the Senate Chamber desk site to reflect the new seating 
arrangement for the 112th Congress. A Web supplement will be added to 
the United States Senate Catalogue of Fine Art, highlighting the art 
collected by the Senate since the catalogue was published in 2002. 
Additionally, the office will develop a schematic and assemble 
resources for posting the historic spaces site. The first room targeted 
will be the Old Senate Chamber. The historic spaces site will feature 
the historical, artistic, and decorative elements of each space, as 
well as restoration details where applicable.
    The collections management database will be reviewed by the office 
to determine if it can continue to serve the Senate's growing needs. 
The collections database will also be backed up, cloned, and compressed 
on a regular basis to prevent further corruption or potential loss of 
data.
    The office maintains a digital documentation database of all 
legislation, precedents, and procedures related to the Senate 
Commission on Art and Senate Curator's Office. These electronic records 
will be upgraded and implemented with indexes and full annotations, 
allowing easier search capabilities and access during a COOP emergency.
    Also in the area of COOP preparedness, the office will conduct its 
annual table top exercise, will refine and improve the navigability of 
its online COOP plan, and will continue with its series of work-from-
home exercises to best prepare the office for an emergency situation. 
Finally, the office will plan for any crisis that may affect the 
Senate's collections by finalizing the disaster recovery guide to 
include the new collection storage areas in the CVC.

                <greek-l>sos deg.EDUCATION AND TRAINING

    The Joint Office of Education and Training provides employee 
training and development opportunities for all Senate staff in 
Washington, DC and the States. There are two branches within the 
office: Education and Training and Health Promotion. The Education and 
Training branch is responsible for providing management and leadership 
development, training on human resources issues and staff benefits, 
writing, editing, legislative research and time management, as well as 
offering technical training support for approved software packages and 
equipment and new staff and intern information in either Washington, DC 
or the State offices. This branch provides training as instructor-led 
classes; one-on-one coaching sessions; specialized vendor provided 
training; video teleconferencing; webinars; Internet-based training, 
documentation, job-aids, and quickcards. The Health Promotion branch 
provides seminars, classes, and screenings on health and wellness 
issues. This branch also coordinates an annual health fair for all 
Senate employees and plans blood drives every year.
Capitol Hill Training Events
    The Office of Education and Training offered 1,278 classes and 
events on Capitol Hill in 2010, drawing more than 10,000 participants. 
The registration desk handled more than 25,000 email and phone requests 
for training and documentation.
    The above total includes 438 customized training sessions for 1,937 
staff members. These sessions ranged from in-depth training of Senate 
office system administrators, conflict resolution, and organizational 
development. The office provides individual consultation on Web site 
development and office systems training, as well as classes in resume 
and interviewing skills building for staff whose Members have died, 
announced their retirements, or been defeated.
    The Senate's Intern Program is also a focus of the office. The 
office provides training for intern coordinators as well as five 
orientation and training sessions for approximately 500 interns.
    The annual Senate Services Expo for Senate office staff had 35 
presenters from the offices of the Secretary of the Senate, SAA, AOC, 
USCP, and LOC providing an overview of their services to 250 staff. 
This is part of the orientation for new staff and the aides to the 
Senators-elect in addition to the seven orientation sessions held 
shortly after the November elections.
State Training Events
    The Office of Education and Training provided 85 learning 
opportunities to State offices for which 2,813 State staff registered.
    The office continues to offer the State Training Fair Program and 
video teleconferencing and webinars as a means to train State staff. In 
2010, two sessions of the State Training Fairs were attended by 63 
State staff. In addition, 62 State administrative managers and 
directors attended the State Directors Forum; 43 State staff 
participated in a a Constituent Services Forum. Education and Training 
also provided advanced all-staff meeting facilitation to more than 20 
offices that were attended by more than 650 staff. Additionally, the 
office offered 33 Video Teleconferencing classes, for which 1,707 State 
staff registered and 28 webinars that were attended by 288.
    To date, 692 State and Hill staff have registered and accessed a 
total of 1,534 different lessons and publications using Internet-based 
training covering technical, professional, and language skills. This 
allows staff in both the Hill and State to take training at their 
convenience. Education and Training also provides 54 Senate-specific 
self-paced lessons that have been accessed more than 3,200 times.
Health Promotion
    In the Health Promotion area, 3,070 staff participated in 56 
activities throughout the year. These activities included:
  --lung function and kidney screenings;
  --eight blood drives;
  --the Health and Fitness Day;
  --seminars on health-related topics; and
  --the Annual Senate Health Fair.
    Health Promotion also coordinates Weight Watchers, yoga, and 
Pilates sessions using its revolving fund. More than 260 staff 
participated in at least one of these programs.

                       <greek-l>sos deg.GIFT SHOP

    Since its establishment in 1992 (2 U.S.C. 121d), the Senate Gift 
Shop has continued to provide outstanding service and products that 
maintain the integrity of the Senate while increasing the public's 
awareness of its mission and history. The gift shop serves Senators, 
their spouses, staffs, constituents, and the many visitors to the U.S. 
Capitol complex. The products available include a wide range of fine 
gift items, collectibles, and souvenirs created exclusively for the 
U.S. Senate.
Facilities
    In addition to three physical locations, the gift shop has an 
online presence on Webster, the Senate's Intranet. The Web site 
currently offers an increasing selection of products that can be 
purchased by phone, email, or by printing and faxing the order form 
provided on the Web site. Along with offering over-the-counter and 
walk-in sales, as well as limited Intranet services, the gift shop 
administrative office provides mail order service via phone or fax, and 
special order and catalogue sales via in person visit, email, phone, or 
fax.
    The gift shop maintains two warehouse facilities. The bulk of the 
gift shop's stock is held in the Senate Storage Facility (SSF), an 
offsite warehouse. While the SAA is in charge of the overall management 
of the SSF, the director of the gift shop has responsibility for the 
operation and oversight of the interior spaces assigned for gift shop 
use. Storing inventory in this centralized, climate-controlled facility 
provides protection for the gift shop's valuable inventory in terms of 
physical security as well as improved shelf life for perishable and 
nonperishable items alike.
    The second gift shop warehouse is maintained within the Capitol 
complex. This facility serves as the point of distribution of 
merchandise to the gift shop store and the Capitol gift shop counter, 
both of which have limited storage space. This warehouse accommodates 
the gift shop's receiving, shipping, and engraving departments, as well 
as supplying the inventory sold through the administrative and special 
order office.
Sales Activities
    Sales recorded for fiscal year 2010 were $1,566,884.32. Cost of 
goods sold during this same period was $1,275,359.81, accounting for a 
gross profit on sales of $291,524.51.
    In addition to tracking gross profit from sales, the Senate Gift 
Shop maintains a revolving fund and a record of inventory purchased for 
resale. As of October 1, 2009, the balance in the revolving fund was 
$2,969,766.74. The inventory purchased for resale was valued at 
$2,964,598.93.
Additional Activity
            Government Accountability Office (GAO) Audit
    At the request of the Secretary of the Senate, in September 2010, 
GAO conducted an inventory observation and audit of the gift shop 
financial operations. The established departmental procedures and 
policies implemented on a daily, monthly, and annual basis proved to be 
instrumental in the gift shop's achieving a positive review during the 
verbal feedback portion of the GAO exit interview. The recommendations 
provided by the GAO at the conclusion of their observation had either 
already been implemented or will be adapted as recommended as part of 
our future operational procedures.
            Environmental Fair
    The gift shop participated in both 2010 U.S. Senate Environmental 
and Energy Fairs sponsored by the AOC. Environmentally friendly 
products that were displayed included wooden flag and desk boxes, 
wooden pens, custom-designed wrapping paper produced from recycled 
paper, aluminum water bottles, biodegradable travel mugs, and a travel 
mug produced from 100 percent U.S. natural corn products.

            Selected Accomplishments in Fiscal Year 2010
                Official Congressional Holiday Ornaments

    The design and style of this year's Congressional Holiday Ornament 
reflected a new direction for the gift shop ornament program. No longer 
part of a 4-year series with a unifying theme, this year the ornament 
was created of cutwork metal assembled to create a three-dimensional 
scene. Colorful enameling on all sides completed the effect. The 2010 
holiday ornament is a winter scene of the east front of the Capitol on 
a snowy evening with a horse-drawn carriage that suggests a time in our 
history near the end of the 18th century.
    Sales of the 2010 holiday ornament exceeded 29,000 ornaments, of 
which more than 5,700 were personalized with engravings designed, 
proofed, and etched by Senate Gift Shop staff. This highly successful 
effort was made possible by the combined efforts of our administrative, 
engraving, and store staffs.
                Bookmarks
    New products introduced in 2010 included bookmarks depicting images 
of flowers and ground covers that are often planted by the AOC on the 
Capitol grounds. In all, there are 11 varieties of plants depicted on 
the canvas palettes. The images on these 2  8 canvas bookmarks 
serve as a unique reminder of the ever-changing appearance of the 
Capitol flower beds, and the anticipated timely changes that regularly 
occur because of the area's seasonal weather conditions.
                Webster Intranet Site
    The Web site continues to expand with the addition of new 
merchandise with assistance from the Senate Photography Studio. Product 
descriptions are written in house.
    The gift shop contributes an article highlighting products and 
services to each issue of the Secretary's UNUM newsletter. In turn, the 
Web site links to the electronic version of UNUM, a practice that has 
increased traffic to the Web site and may be responsible for an 
increase in the use of gift shop services by State offices.
Projects Recently Produced and New Initiatives for 2010
            CVC
    The Senate Gift Shop continued to supply them with a wide variety 
of inventory product, offering service when needed, and advice on 
purchase order, invoice, and operational processes.
            Congressional Plate Series
    The latest 8-year, four-plate series of the 112th, 113th, 114th, 
and 115th Congress has been produced. The 112th plate is currently 
being offered for sale. The plates for each of the future Congresses 
will be made available during that respective congressional session. 
This series has once again been designed and produced by Tiffany & Co. 
The designs depict art and architecture from four of the most 
historically significant rooms in the Capitol: the Senate 
Appropriations Room, Old Senate Chamber, Old Supreme Court Chamber, and 
President's Room.
                   <greek-l>sos deg.historical office
    Serving as the Senate's institutional memory, the Historical Office 
collects and provides information on important events, precedents, 
dates, statistics, and historical comparisons of current and past 
Senate activities for use by Members and staff, the media, scholars, 
and the general public. The Office staff advises Senators, officers, 
and committees on cost-effective disposition of their noncurrent office 
files and assists researchers in identifying Senate-related source 
materials. The historians keep extensive biographical, bibliographical, 
photographic, and archival information on the more than 1,900 former 
and current Senators. The staff edits for publication historically 
significant transcripts and minutes of selected Senate committees and 
party organizations, and conducts oral history interviews with key 
Senate staff. The photo historian maintains a collection of 
approximately 40,000 still pictures that includes photographs and 
illustrations of Senate committees and nearly all former Senators. The 
Office staff develops and maintains all historical material on the 
Senate Web site, Senate.gov.
Editorial Projects
            Sesquicentennial of the Civil War
    The Historical Office has engaged in a number of projects to 
commemorate the 150th anniversary of the Senate's role in the Civil 
War. Historians have teamed with the Senate Curator to produce an 
exhibit in the Capitol on ``The Senate's Civil War'', and have assisted 
the staff of the CVC in selecting items for display related to the 
Civil War and Reconstruction. The historians have also prepared a 
booklet for distribution to remind Americans of the legislative and 
investigatory component of a story that is more often presented from a 
military or Presidential perspective. These projects will be 
complemented by online features on the Senate's Civil War experience.
Revised Kennedy Caucus Room Brochure
    The Senate's naming of the Russell House Office Building Caucus 
Room in memory of John F., Robert F., and Edward Kennedy prompted the 
revision and redesign of the brochure for the room. The brochure is 
often used by Senators who host meetings in the Caucus Room. In 
addition to explaining the architectural and legislative history of the 
room, the brochure includes information on the Senators Kennedy and 
their individual connections to the Caucus Room along with updated 
photographs.
Documentary Histories of the U.S. Senate
    The Historical Office continued work on its online documentary 
history series, which presents case studies and primary-source 
documentation for all contested Senate elections, censure and expulsion 
cases, impeachment trials, and major investigations. Intended for use 
within the Senate and by the general public, these documentary 
histories are particularly valuable for teachers who seek to include 
primary-source documents in their lesson plans. This project also 
allows the Historical Office to update case studies of past events, and 
to add new case studies as needed, eliminating the need for new print 
editions of past publications, reducing costs and paper use. Three 
parts (contested elections, censures, and expulsions) of this five-
stage project have been completed, and substantial progress was made in 
the remaining two categories. Two cases were added this year in the 
impeachment category, as well as a revised and updated summary page on 
major investigations and case studies on the Pecora banking and 
Watergate investigations. A third case study of the Civil War-era Joint 
Committee on the Conduct of the War is nearing completion as well.
States in the Senate
    In this collaborative project, staff historians have created 
timelines and compiled selected illustrative images for each of the 50 
States. The States in the Senate will highlight persons and events in 
the State's history that relate to the U.S. Senate to be featured on 
Senate.gov, which informs Senators, staff, and constituents alike. A 
Web design for the project has been created in partnership with the GPO 
and Web Technology that provides an interactive timeline for each State 
with links to relevant documentary and visual material, along with a 
table of Senators from each class with service dates. Staff have begun 
entering the timeline data and lists of Senators, and have begun 
identifying images for each timeline.
Administrative History of the Senate
    The associate historian continued to prepare a historical account 
of the Senate's administrative evolution since 1789. This study traces 
the development of the offices of the Secretary of the Senate and SAA, 
considers 19th and 20th century reforms that resulted in reorganization 
and professionalization of Senate staff, and looks at how the Senate's 
administrative structure has grown and diversified.
Rules of the United States Senate, Since 1789
    In 1980, Senate parliamentarian emeritus Dr. Floyd M. Riddick, at 
the direction of the Senate Committee on Rules and Administration, 
prepared a publication containing the eight codes of rules that the 
Senate adopted between 1789 and 1979. In the 1990s, the Senate 
Historical Office staff, in consultation with Dr. Riddick, developed a 
project to incorporate an important feature not contained in the 1980 
publication. Beyond simply listing the eight codes of rules, the 
Office's goal is to show how--and why--the Senate's current rules have 
evolved from earlier versions. The Senate's historian emeritus has 
continued work on this project, which will contain eight narrative 
chapters outlining key debates and reasons for significant changes. 
Appendices will include the original text of all standing rules and, 
for the first time in one publication, all changes adopted between each 
codification.
Biographical Directory of the U.S. Congress, 1774-Present
    The Historical Office continues to expand and update the 
Biographical Directory of the U.S. Congress as needed, including adding 
new Member biographical entries and bibliographical citations that 
incorporate recent scholarship. The Senate historians continue to work 
closely with the historical staff of the House of Representatives to 
maintain accuracy and consistency in this joint Senate-House database, 
and to promote this valuable resource among historians, teachers, 
students, and the public. Senate and House historians and technical 
staff for the House of Representatives have collaborated to plan an 
update of the online site in appearance and functionality, and have 
approved a new template and overall appearance for the Directory. The 
Senate archivist and her deputies have worked to expand and revise the 
``Research Collections'' aspect of the database.
Party Conference Minutes, 1965-1977
    In 1998 and 1999 the Historical Office staff edited, indexed, and 
published the Minutes of the Senate Democratic and Republican 
Conferences covering the years prior to 1964. The Historical Office is 
currently preparing a similar volume for the Democratic Conference 
including its minutes from 1965 to 1977. After January 1973, verbatim 
transcripts were prepared for each Conference meeting, considerably 
enlarging the documentation. This project has involved scanning and 
editing 2,869 pages of transcripts for 102 meetings of the Conference 
and inclusion of an index and explanatory annotations. With the 
approval of the Conference, the minutes will be published, and a 
similar editorial project will be proposed for the Republican 
Conference minutes for this time period. The office has scanned an 
additional 3,115 pages of transcripts for the 73 conferences between 
1977 and 1982, for future publication.
Dirksen Senate Office Building Exhibits
    The remodeling of the Dirksen Senate Office Building auditorium 
into a hearing room created two large exhibit cases at its entrance. 
Working with the staff of the Senate Curator and the Senate Library, 
the Historical Office prepared exhibits that have now been installed on 
the life and career of Senator Everett M. Dirksen, Senate Republican 
leader from 1959 to 1969, and on the design and functioning of the 
office building named in his memory.
Oral History Program
    The Historical Office staff conducts a series of oral history 
interviews to record personal recollections of various Senate careers. 
Interviews were conducted with former Senator Roland W. Burris; Richard 
Ahrenberg, who served on the staffs of Senators Paul Tsongas, George 
Mitchell, and Carl Levin; Richard Baker, the Senate's Historian 
Emeritus; Eliza Letchworth, former Republican Secretary; Charles 
Ludlam, a former staff member for Senators James Abourezk and Joseph I. 
Lieberman; and James Zigler, former Senate SAA. The office also 
conducted an interview with Martin Charboneau and Mikhaila Fogel, the 
pages who volunteered to stay behind and serve during the last weeks of 
debate on the healthcare bill in December 2009. The office has also 
continued to seek and conduct interviews with current and former Senate 
spouses, and expanded on its collection of interviews highlighting the 
role of women on Capitol Hill. The complete transcripts of 30 
interviews conducted since the 1970s have been posted on Senate.gov. 
That site features a different oral history interview series each 
month, including digital audio-clips along with the interview 
transcripts. The Historical Office has worked with the National 
Archives to digitize past oral history interviews, which had been 
archived on magnetic tape, for preservation purposes. Digitization also 
allows for inclusion of short audio segments on Senate.gov. For Unum, 
the Secretary of the Senate's newsletter, the staff has created a 
regular series entitled ``Senate Voices'', which includes excerpts from 
the oral histories with a contextual introduction.
Member Services
            Educational Outreach
    The historian and associate historian delivered a series of 
``Senate Historical Minutes'' at the weekly Democratic and Republican 
Conference luncheons. These ``minutes'' highlighted significant events 
and personalities associated with the Senate's institutional 
development. Many of them are now included on Senate.gov as 
``Historical Minute Essays.'' The assistant historian advised the 
congressionally mandated 50th Anniversary of the Vietnam War 
Commemoration group of notable Senate accomplishments during the 
Vietnam War era to be included in national commemorative event 
planning.
            Members' Records Management and Disposition Assistance
    The Senate archivist held meetings with staff of Members who had 
announced their retirement to discuss schedules for closing and to 
ascertain specific archiving needs. These meetings emphasized planning 
for the preservation of permanently valuable records, particularly 
electronic records and selecting a home State repository with necessary 
preservation resources. Information and insights derived from these 
meetings has been incorporated into an ``archives toolkit'', providing 
guidance for offices opening in the 112th Congress. Of the 16 Senators 
who left office, 15 designated an archival repository. The archivist 
provided extensive assistance to the staff of the late Senator Robert 
C. Byrd to ensure the preservation of 1,500 cubic feet of records 
documenting his entire Senate career. These records have been 
transferred to the Robert C. Byrd Center for Legislative Studies at 
Shepherd University. The archivist revised the Handbook for Closing a 
Senator's Office and created an office closing timeline. The archiving 
``Quick Cards'' available on the Secretary's Webster site were updated 
and augmented by a fourth card on social media communications 
archiving. The number of Senators who participated in Facebook, You 
Tube, Twitter, and other Web 2.0 sites in the 111th Congress was 
significant, and the Historical Office took the initiative to provide 
guidance for archiving aspects of these online records.
    A series of brown-bag lunch discussions took place for archivists 
in Senate committees and Senators' personal staffs, focusing on records 
management, storage and electronic records. A ``Coffee with the 
Archivist'' of the United States also highlighted electronic records 
preservation. Informal meetings of Capitol Hill Archivists and Records 
Managers (CHARM) focused on description standards, electronic records, 
bibliographic reports, and briefings at the Center for Legislative 
Archives. A new initiative resulting from the CHARM meetings was the 
series of staff exit interviews conducted by Senator Byron L. Dorgan's 
archivist. These were edited by the Historical Office and then shared 
with the rest of the Senate's archival community. A committee staff 
interview form has been developed and is being adopted by committee 
archivists and systems administrators, particularly because of the 
context it provides to staff electronic files.
    The Archivists' Listserv continues to be an effective means of 
updating archival staff about records management and historical topics. 
The Senate archivist worked with all of the repositories receiving 
senatorial collections to ensure the adequacy of documentation and the 
transfer of records with adequate finding aids, helping to lower costs 
for the receiving repositories. The archivist presented an in-depth 
records management seminar for Senate offices at the Modern Archives 
Institute, which is now available for Senate staff on demand. The 
archivist presented a paper on the significance and role of the 
Advisory Committee on the Records of Congress at the Mid-Atlantic 
Regional Archives Conference.
            Committee Records Management and Disposition Assistance
    The Senate archivist provided each Senate committee with staff 
briefings, guidance on preservation of information in electronic 
systems, and instructions for the transfer of permanently valuable 
records to the National Archives' Center for Legislative Archives. A 
survey of the committees' electronic archiving revealed that almost all 
committees have voluminous electronic record backlogs requiring review. 
The backlogs fall into three categories:
  --files of committee staff that have departed the committee;
  --files of share drives; and
  --accumulated email.
    There is a growing gap between the documentary quality of the 
records being archived from committees that have archivists as opposed 
to those without archivists. The archivist and deputy archivist have 
been compiling specific reports documenting this discrepancy. They 
distribute information on best practices for managing electronic 
records and have encouraged committees to hire professional archivists 
especially to focus on electronic archiving. There are now eight 
committee archivists on six committees (two committees have separate 
Democratic and Republican archivists.)
    The archivist has been working with the Center for Legislative 
Archives information technology specialists to improve Senate 
infrastructure to facilitate the regular archiving of electronic 
records. This will establish a system to allow the Senate to transfer 
records in electronic form, eliminating the need for printing such 
documentation. The infrastructure upgrade will also permit the Center 
for Legislative Archives Holdings Management System to document the 
loan of records back to the Senate more thoroughly through the use of 
bar codes.
    The archivist and deputy archivist are appointed members of the 
Next Generation Finding Aid Task Force established by the Advisory 
Committee on the Records of Congress to develop criteria to improve the 
finding aids for the Senate's archival records. They provided 
information and helped edit the first draft of the Report presented to 
the Advisory Committee. They anticipate that the Task Force will 
recommend adoption of the archivists toolkit as a system to manage 
record transfers, and are prepared to mediate, oversee, and support 
transfer documentation in this new application.
    Over the past year, the Senate archivist oversaw the transfer to 
the Archives of 568 accessions of Senate records totaling 1,638.5 cubic 
feet of textual records and 627.28 gigabytes of electronic records. The 
archivist and deputy archivists responded to 203 requests for loans of 
archived records back to committees, totaling 1,028 boxes.
    To further assist committee clerks, the archivists developed a new 
archives transfer form that facilitates searches in older archived 
records and brings Senate descriptive practices in line with archival 
best practices. Enhanced description has resulted in greatly increased 
accessibility of the records. Three basic archiving quick cards for 
committees were posted to the Secretary's site and are periodically 
updated. The cards supplement the Guidelines for Committee Staff 
pamphlet and accompany a records-preservation PowerPoint briefing also 
posted on the site. While this material has helped communicate the 
importance of recordkeeping to committee staff, it does not replace the 
effectiveness of a trained archivist on each committee staff.
    A project is underway to scan committee record transfer sheets to 
the National Archives, dating from 1982 through 2004, into the OnBase 
document management system supported by the SAA. To date, records of 12 
committees have been processed and updates are underway. The Center for 
Legislative Archives has received this information on CD-ROM both as a 
security measure and to enhance access to the records as they become 
open for research
Advisory Committee on the Records of Congress
    This 11-member permanent committee, established in 1990 by Public 
Law 101-509, meets semiannually to advise the Senate, the House of 
Representatives, and the Archivist of the United States on the 
management and preservation of the records of the Congress. Its 
membership representing the Senate includes the Secretary of the 
Senate, who chaired the panel during the 110th Congress; the Senate 
historian; and appointees of the secretary and the majority and 
minority leaders. The Historical Office furnishes support services for 
the advisory committee's regular meetings. Following the Senate 
historian's participation in a meeting of the Public Interest 
Declassification Board in July that focused on declassification of the 
older records of the Congress, the Historical Office sent a request to 
the Center to proceed with a systematic review of classified Senate 
records more than 25 years old. As a result, the National 
Declassification Center will begin a preliminary review and analysis of 
declassification issues of the approximately 650 feet (1,625,000 pages) 
of classified records that are more than 25 years old. Records of 
highest anticipated research use will be given priority. The Historical 
Office also was given the opportunity to comment on the National 
Archives Reorganization Plan as it will affect Senate records, 
encouraging the Archives to provide congressional records with 
administrative support appropriate to the size of its holdings.
Educational Outreach
    The Historical Office's correspondence with the general public has 
increasingly taken place through Senate.gov. The historians maintain 
and frequently update the Web site with timely reference and historical 
information, and each month select related material to be featured on 
the site. During the past year, the Office responded to more than 1,500 
inquiries from the public, the news media, students, family 
genealogists, congressional staffers, and academics, through the public 
email address listed on Senate.gov. The diverse nature of their 
questions reflected varying levels of interest in Senate operations, 
institutional history, and former Members.
    Working with the Web team, the historians have added to Senate.gov 
such items as featured biographies, documentary histories, photo 
exhibits, reference material, and additional oral history transcripts.
    In preparation for the upcoming Civil War sesquicentennial, the 
historians and staff have and continue to collaborate with the Web team 
to create new online features exploring the role the U.S. Senate during 
this national crisis, including an annotated time line of Senate-
related events, profiles of key Senators, landmark legislation of the 
era, discussions of the constitutional crisis of secession, and a 
documentary history of the Joint Committee on the Conduct of the War. 
As the national commemoration of the war continues from 2011 to 2015, 
these and additional features will be presented in a timely manner.
    Staff presented seminars on the general history of the Senate, 
Senate committees, female Senators, Senate Floor leadership, relations 
between the press and the Senate, the U.S. Constitution, and the 
history of Senate impeachment trials. The historians also participated 
in Senate staff seminars and Members' office retreats, and conducted 
dozens of briefings for specially scheduled groups. As part of the 
orientation program for newly elected Senators, the historian delivered 
an address on the historical evolution of the Senate, and joined the 
associate historian in performing tours of the Senate Chamber and other 
historic spaces of the Capitol. The historian also spoke at the 
Senate's Constitution Day Program on the resources for researching 
Senate history. The associate and assistant historian met with various 
groups of teachers and students from around the Nation to aid in 
coordinating classroom activities to promote a better understanding of 
the Congress and its legislative duties, as well as working with 
research fellows and visiting scholars.
Photographic Collections
    The Senate photo historian continued to ensure history-focused 
photographic coverage of the contemporary Senate by photographing 
Senate committees, collecting formal photo portraits of new Senators, 
and capturing significant Senate events in cooperation with the Senate 
Photographic Studio. She continued to provide timely photographic 
reference service by phone and email, while cataloging, digitizing, 
relocating, and expanding the Office's 40,000-item image collection. 
She assisted several Senate offices in creating collages of all the 
Senators who previously served in that seat.
    The photo historian assisted with the development of the Civil War 
exhibit in the Capitol, by providing images from the Historical Office 
collection and obtaining images from other repositories. She also 
provided images for the two new exhibit cases in Dirksen Senate Office 
Building outside of the auditorium. She collaborated with the 
historical editor to design and publish the Kennedy Caucus Room 
brochure.
    The photo historian worked closely with the Senate Photographic 
Studio during the transition to a new image browser, serving as a test 
office for the new system. She facilitated the transfer of historical 
maps found in the Russell Senate Office Building attic to the LOC 
Geography and Maps Division.
    As the founder of CHARM, an informal group of Senate archivists, 
the photo historian planned numerous tours and professional development 
events for committee and Member archivists.
COOP Planning
    As the Historical Office's COOP Action Officer and Emergency 
Coordinator, the photo historian continued to update the Office's COOP 
plan in the Living Disaster Recovery Planning System. She made regular 
back-ups of the office's vital electronic records to store off-site in 
a secure environment. She trained new staff members and interns in the 
Office's emergency evacuation procedures.
CVC
    The historians supplied information and guidance to the staff of 
the CVC related to the educational component of the exhibition gallery. 
They have participated in the training program for staff-led tours, and 
provided text, images, and general editorial review for a new Web-based 
training program for staff and tour guides. They made regular 
presentations on the history of the Senate in training seminars for 
Senate staff and interns, and gave morning ``briefings'' to the Capitol 
Guide Service. They provided ``exhibit talks'' in the CVC, contributed 
to the training of visitor assistants who guide visitors through the 
exhibition gallery, worked with exhibit staff to plan rotations of 
documents and images, and advised the CVC staff on its educational 
outreach programs.

                    <greek-l>sos deg.HUMAN RESOURCES

    The Office of Human Resources was established in June 1995 by the 
Secretary as a result of the CAA. The office focuses on developing and 
implementing human resources policies, procedures, and programs for the 
Office of the Secretary of the Senate that fulfill the legal 
requirements of the workplace and complement the organization's 
strategic goals and values.
    These responsibilities include recruiting and staffing; providing 
guidance and advice to managers and staff; training; performance 
management; job analysis; compensation planning, design, and 
administration; leave administration; records management; maintaining 
the employee handbooks and manuals; internal grievance procedures; 
employee relations and services; and organizational planning and 
development.
    The Human Resources staff administers the following programs for 
the Secretary's employees: the Public Transportation Subsidy program, 
Student Loan Repayment Program, Family and Medical Leave Act (FMLA) 
program, parking allocations, and the summer intern program that offers 
college and other postgraduate students the opportunity to gain 
valuable skills and experience in a variety of Senate support offices. 
Human Resources staff has completed migration of eligible commuters to 
the Smart Benefits Program, which is operated by the Washington 
Metropolitan Area Transit Authority.
Recruitment and Retention of Staff
    Human Resources staff have the ongoing task of advertising new 
vacancies or positions, screening applicants, interviewing candidates, 
and assisting with all phases of the hiring process. Human Resources 
staff coordinate with the SAA Human Resources Department to post all 
SAA and Secretary vacancies on the Senate Intranet, Webster, so that 
the larger Senate community may access the posting from their own 
offices. In an effort to reach a larger and more diverse applicant 
pool, the department uses multiple posting forums to reach potential 
applicants for employment. As a result, the Human Resources Department 
processed more than 3,000 applications for vacancies in the Secretary's 
Office, including review of applications, coordinating scheduling of 
candidates for interview, sending out notices to both successful and 
unsuccessful candidates, and finalizing new hire paperwork. All new 
hires also receive orientation from the Human Resources staff when they 
come on board.
Training
    In conjunction with the Senate Chief Counsel for Employment, staff 
continue to develop and deliver training for department heads and 
staff. Training topics include sexual harassment, interviewing skills, 
FMLA administration, and an overview of the CAA. Human Resources staff 
also works with different department employees on topics specific to 
their group in outreach efforts to enhance teamwork in the workplace.
Interns and Fellows
    Human Resources staff manage the Secretary's internship program. 
From posting vacancies, conducting needs analyses, communicating, 
screening, placing and following up with all interns, the staff keeps a 
close connection with these program participants in an effort to make 
the internship most beneficial to them and the organization.
DOD's Operation Warfighter (OWF) Program
    In December 2010, Human Resources on behalf of the Secretary 
received approval to host Wounded Warriors from the OWF program. The 
unpaid internship program is open to all wounded and ill servicemembers 
assigned to a Military Treatment Facility, an Army Warrior Transition 
Unit, the USMC Wounded Warrior Regiment, the Air Force Wounded Warrior 
Program, or the Navy Safe Harbor Program. The program positively 
impacts the recuperation process, and provides meaningful activity 
outside of the hospital environment that positively impacts wellness.
Combined Federal Campaign (CFC)
    The office has again taken an active role in the CFC for the Senate 
community at-large. The office staff serve as co-directors of the 
program. The staff participates in kick-off meetings, identifies key 
workers in each office, and disseminates and collects necessary 
information and paperwork.

                  <greek-l>sos deg.INFORMATION SYSTEMS

    The staff of the department of Information Systems provides 
technical hardware and software support for the office of the Secretary 
of the Senate (SecSen). Information Systems staff also interface 
closely with the application and network development groups within the 
SAA, GPO, and outside vendors on technical issues and joint projects. 
The department provides computer-related support for all local area 
network (LAN) servers within the Office of the Secretary of the Senate. 
Information Systems staff provide direct application support for all 
software installed workstations, initiate and guide new technologies, 
and implement next-generation hardware and software solutions.
Mission Evaluation
    The primary mission of the Information Systems department is to 
continue to provide the highest level of customer satisfaction and 
computer support for the office of Secretary of the Senate. Emphasis is 
placed on creating and transferring legislative records to outside 
departments and agencies, fulfilling Disbursing Office financial 
responsibilities to the Member offices, and complying with office 
mandated and statutory obligations.

            Fiscal Year 2010 Technology Initiative Summary
    The department technology initiatives concentrated in four specific 
areas:
  --Improvements in work flow process efficiency;
  --Deployment of improved hardware and software technologies;
  --Business continuity planning and disaster recovery improvements; 
        and
  --Network perimeter and end point security awareness.
            Operate More Efficiently
    Replaced all computer workstation hardware in the Capitol; Hart, 
Dirksen, and Russell Senate Office Buildings; and Webster Hall 
locations. Developed, tested, and installed application software for 
the Senate Library, Curator, Historian, Human Resources, 
Interparliamentary Services, Public Records, Captioning, LIS Project 
Office, and Page School staff locations.
    Completed second phase of network printer hardware replacement 
program by replacing all network printers in 21 departments and offsite 
locations with improved high-speed models that reduce energy use up to 
50 percent with instant-on technology.
    Replaced all BlackBerry device hardware for Secretary of the Senate 
staff (73 units) and applied soft token virtual private network access 
to the Senate network for all device users.
    Purchased and installed the Disbursing Office GRB server hardware.
    Purchased and installed server and application to remotely deploy 
software updates to all Disbursing workstation hardware.
            Deployment of Improved Hardware and Software Upgrades
    Legislative Offices.--Completed 18 major LIS software upgrades and 
installed the updated LIS application software in all legislative clerk 
offices, ACFs, and offsite home laptop locations. Virtualized the LIS 
applications for the Senate Library staff which streamlined the 
availability of application for LIS users.
    Added network array storage portable servers at the ACF. This 
solution provides a nightly scheduled backup of Secretary of the Senate 
workstation software to the Secretary of the Senate Emergency 
Operations Centers (EOC).
    Virtualized the workflow process in the Office of Public Records 
(OPR) providing high availability to their computer desktops for OPR 
staff when they are not at their normal desktop office locations. 
Retired a dedicated AT&T fiber link between the OPR and the Federal 
Elections Commission (FEC). Worked with the SAA Network Engineering 
staff to implement a replacement VLAN connection to the FEC which is 
more secure and can be expanded to alternate locations if needed.
    Upgraded legislative staff with improved laptop hardware for a more 
streamlined and secure connection to the Senate network.
    Created a virtualized and encrypted software solution for the 
Senate Enrolling Clerk in order to process legislation when located 
offsite. Virtualization of mission critical workstation applications 
lowers the support time and cost required to keep offsite laptops 
updated with current software revisions. It also provides a more 
efficient process to migrate existing applications to numerous systems, 
making it available to a wider range of key personnel who require the 
application access.
    Upgraded and migrated BlackBerry device users to the BlackBerry 
Exchange Server Version 5.0 Server solution. Information System support 
staff now has a process to monitor the BlackBerry device operation and 
provide a higher level of remote BlackBerry support.
    Added additional staff with secure access to the Senate network 
through the Senate Web portal with Passface account access. Presently 
119 of 169 personnel assigned to the Secretary of the Senate's hybrid 
enterprise (70 percent) have some form of secure remote access to 
Senate network resources.
    Developed a standardized software template and replaced all 
Disbursing Office laptops.
    Worked with the Senate library staff and the SAA Technology 
Development staff to integrate an incident reporting software 
application for Library staff use. This issue tracker application 
resides on a Secretary of the Senate server and documents the support 
issues for the SIS program.
Business Continuity Planning and Disaster Recovery Improvements
    Secure remote access to essential applications and information is 
integral to pandemic preparedness and business continuity initiatives. 
By scaling existing technologies, and integrating new hardware 
solutions, the overall level of H1N1 planning preparedness was 
dramatically elevated in the each office. This level of proactive 
planning significantly impacted the remote access capability and 
provided staff the needed access to the Senate network resources during 
the February 2010 blizzard.
    In the event GPO ``fails-over'' their operation at North Capitol 
Street, NW., changes to the legislative file transfer process to 
support transactions between the Secretary's office and GPO have been 
implemented. A secondary back-up (encrypted) file transfer method has 
also been implemented among GPO, the Senate Office of Legislative 
Counsel, and the office of the Secretary.
    Completed the Parliamentarian office indexing software project and 
migrated the previous process to a new hardware platform. The results 
allow a virtualized environment to index precedent information without 
purchasing a specific laptop or personal computer.
    Installed additional laptop hardware for the office of Captioning 
Services in the Capitol. This ensures that if Captioning staff is 
displaced from their location they can continue to provide content to 
the Senate Recording Studio (SRS). Successfully tested final SRS 
channel link in October 2010.
    Redesigned and enhanced the operation of Member accountability 
application used during COOP exercises by implementing a virtualized 
desktop process to run the application. Integrating this application 
with a remote desktop feature to ensure the application is always 
available for staff during a COOP event. Extended this virtual solution 
for the Secretary of the Majority and the Secretary of the Minority 
offices.
    Virtualized the OPR hardware server, office workstations, and 
scanning operation. In fiscal year 2010, completed the second phase to 
encompass both the server and client application process.
    Implemented and integrated personal computer teleconferencing 
application into the existing video teleconferencing (VTC) network. 
This provides offsite VTC to internal Senate users without the need for 
a VPN connection. Upgraded hardware products in the Office of the 
Secretary and Disbursing Office conference room locations.
Network Perimeter and End Point Security Awareness
    In partnership the SAA Security Operations Center, installed the 
next generation Senate antivirus and firewall protection.
    Information Systems staff continue to monitor email spam filtering 
applications. Present rate of undesirable email messages average 9,000 
messages per day.
    Implemented a monthly automatic backup of critical workstation 
software applications. This process eliminates countless hours of 
attempting to clean infected systems. Additionally, these monthly 
backups can be stored at an offsite facility and serve as a tool in 
restoring workstation applications in the event of an emergency.
    Information Systems staff continue to monitor network security 
ensuring best practice information is available to all staff. Developed 
global security server policies to automatically lock computer 
terminals after 1 hour of application inactivity.
    Staff continues to manage the Alerts notification database for all 
Secretary staff. Database information is verified nightly to ensure 
email, voice, and BlackBerry PIN information is valid and will function 
during an emergency.
    After implementation of the software deployment server, Information 
Systems staff continue to maintain the inventory of all applications 
for 280 workstation installations. Information Systems now has the 
ability to review in real time which systems require application 
updates and can deploy security patches without interruption to the 
business owner.
Ongoing and Future Projects From 2010
    As server and laptop hardware nears the end of the maintenance 
life-cycle, replace older hardware servers with virtual server 
solutions. All Active Directory server hardware was updated in fiscal 
year 2010, and wherever possible virtual solutions were implemented in 
order to provide a higher level of network resource availability, 
reduce data center hardware costs, and reduce electricity usage.
    Evaluate low-cost computing terminal emulation hardware for offsite 
and designated COOP locations.
              <greek-l>sos deg.interparliamentary services
    The Office of Interparliamentary Services (IPS) is responsible for 
administrative, financial, and protocol functions for all 
interparliamentary conferences in which the Senate participates by 
statute, for interparliamentary conferences in which the Senate 
participates on an ad hoc basis, and for special delegations authorized 
by the Majority and/or Minority Leaders. The office also provides 
appropriate assistance as requested by other Senate delegations.
    The statutory interparliamentary conferences are:
  --NATO Parliamentary Assembly;
  --Mexico-United States Interparliamentary Group;
  --Canada-United States Interparliamentary Group;
  --British-American Interparliamentary Group;
  --United States-Russia Interparliamentary Group;
  --United States-China Interparliamentary Group; and
  --United States-Japan Interparliamentary Group;
    In 2010, IPS staff were responsible for organizing the following 
interparliamentary conferences:
  --the U.S.-China Interparliamentary Group in China;
  --the U.S.-Russia Interparliamentary Group in the United States;
  --the Canada-U.S. Interparliamentary Group in the United States; and
  --the Mexico-U.S. Interparliamentary Group in Mexico.
    As in previous years, all foreign travel authorized by the Majority 
and Minority Leaders is arranged by the IPS staff. In addition to 
delegation trips, IPS provided assistance to individual Senators and 
staff traveling overseas. Senators and staff authorized by committees 
for foreign travel continue to call upon this office for assistance 
with passports, visas, travel arrangements, and reporting requirements.
    IPS receives and prepares for printing the quarterly consolidated 
financial reports for foreign travel from all committees in the Senate. 
In addition to preparing the quarterly reports for the Majority Leader 
and the Minority Leader, IPS staff also assist staff members of 
Senators and committees in filling out the required reports.
    IPS maintains regular contact with DOD, the Department of State and 
foreign Embassy officials. The office staff organizes visits for 
official foreign visitors and assists them in setting up meetings with 
leadership offices. The staff continues to work closely with other 
offices of the Secretary of the Senate and the SAA in arranging 
programs for foreign visitors. In addition, IPS is consulted by 
individual Senate offices on a broad range of protocol questions. 
Occasional questions come from State officials or the general public 
regarding congressional protocol.
    On behalf of the Senate Majority and Minority Leaders, IPS staff 
arrange official receptions for heads of state, heads of government, 
heads of parliaments, and parliamentary delegations. Required records 
of expenditures on behalf of foreign dignitaries under authority of 
Public Law 100-71 are maintained by IPS.
    Planning is underway for the Mexico-U.S. Interparliamentary Group, 
the U.S.-China Interparliamentary Group, and the British-American 
Parliamentary Group which will be held in the United States in 2011.
COOP Planning
    IPS regularly reviews its COOP plan with ongoing discussions, 
updating materials kept offsite, evaluating evacuation procedures, and 
working from remote sites.

                      <greek-l>sos deg.LIS PROJECT

    The LIS is a mandated system (section 8 of the 1997 Legislative 
Branch Appropriations Act, 2 U.S.C. 123e) that provides desktop access 
to the content and status of legislative information and supporting 
documents. The 1997 Legislative Branch Appropriations Act (2 U.S.C. 
181) also established a program for providing the widest possible 
exchange of information among legislative branch agencies. The long-
range goal of the LIS Project is to provide a ``comprehensive Senate 
Legislative Information System'' to capture, store, manage, and 
distribute Senate documents. Several components of the LIS have been 
implemented, and the project is currently focused on a Senate-wide 
implementation and transition to a standard system for the authoring 
and exchange of legislative documents that will greatly enhance the 
availability and re-use of legislative documents within the Senate and 
with other legislative branch agencies. The LIS Project Office manages 
the project.
Background: LIS Augmentation Project (LISAP)
    An April 1997 joint Senate and House report recommended 
establishment of a data standards program, and in December 2000, the 
Senate Committee on Rules and Administration and the Committee on House 
Administration jointly accepted the Extensible Markup Language (XML) as 
the primary data standard to be used for the exchange of legislative 
documents and information. Following the implementation of the LIS in 
January 2000, the LIS Project Office shifted its focus to the data 
standards program and established LISAP. The overarching goal of the 
LISAP is to provide a Senate-wide implementation and transition to XML 
for the authoring and exchange of legislative documents.
    The current focus for the LISAP is the continued development and 
implementation of the XML authoring system for legislative documents 
produced by the Office of the Senate Legislative Counsel (SLC), the 
Office of the Enrolling Clerk, the Committee on Appropriations, and the 
GPO. The XML authoring application is called LEXA, an acronym for 
Legislative Editing in XML Application. LEXA replaces the DOS-based 
XyWrite software used by drafters to embed locator codes into 
legislative documents for printing. The XML tags inserted by LEXA 
provide more information about the document and can be used for 
printing, searching, and displaying a document. LEXA features many 
automated functions that provide a more efficient and consistent 
document authoring process. The LIS Project Office has worked very 
closely with the SLC, the Enrolling Clerk, and the editorial and 
printing staff of the Committee on Appropriations to create an 
application that meets the needs for legislative drafting.
LISAP: 2010
    The LIS Project Office continued to provide support to the SLC, the 
Senate Committee on Appropriations, and the Senate Enrolling Clerk in 
their use of LEXA for drafting, engrossing, and enrolling. GPO also 
uses LEXA to complete measures for printing. Several new features and 
fixes were added in LEXA releases to make the drafting process faster, 
more efficient, and more consistent. The LIS staff trained new drafters 
and interns in the use of LEXA.
    Changes to LEXA included upgrading all users to Xmetal 5.5. Xmetal 
is the underlying software for LEXA, and the 5.5 version is Vista-
compatible. In the latter half of 2010, the LIS Project Office began a 
project to update the underlying software, Xmetal, to version 6.0 which 
is Windows 7-compatible. The upgrade projects required extensive 
testing of LEXA on multiple operating systems including XP, Vista, and 
Windows 7. LEXA improvements included updates to the conversion from 
locator to XML and additional features for the office drafting 
appropriations bills to accommodate the different styles and formats of 
those bills. A new feature was added to create title amendments as 
separate documents, and new functionality was created to combine a list 
of titles or divisions into one document and to split a single document 
into multiple titles or divisions.
COOP Planning
    Several procedures have been implemented to provide for COOP. All 
source code and data files are backed up nightly to a drive in the 
office, and each LIS Project Office staff member carries an encrypted 
flash drive containing the office COOP plan, documentation, and the 
most recent version of LEXA. All the software and documentation 
required to create the development environment and a LEXA end user 
environment are available in duplicate copies of the LIS Project Office 
fly-away kit. The COOP plan and the fly-away kits are updated 
frequently, and one fly-away kit is kept in an off-site location. 
Regular testing of the ability to work remotely is conducted via Senate 
laptops and personal computers to ensure that application development 
and user support can continue if access to the office is not possible.
LISAP: 2011
    The LIS Project Office will continue to work with and support all 
the offices now using LEXA to produce legislative documents. 
Enhancements to LEXA make the process more efficient and consistent so 
that most of the legislative measures produced by those offices will be 
created as XML documents. All LEXA users will be upgraded to Xmetal 
6.0: some users on XP, some on Windows 7, and a few on Vista.
    The LIS Project Office will continue to work with the House, GPO, 
and the LOC on projects and issues that impact the legislative process 
and data standards for exchange. These groups are currently 
participating in two projects with the GPO, one to define requirements 
for replacing the Microcomp composition software and another to handle 
graphics in some legislative documents. The office will work with the 
SLC and their House counterpart office to implement new functionality 
for maintaining and printing the compilations of existing law in XML.

                        <greek-l>sos deg.LIBRARY

    The Senate Library provides legislative, legal, business, and 
general information services to the United States Senate. The LOC's 
collection encompasses legislative documents that date from the 
Continental Congress in 1774; current and historic executive and 
judicial branch materials; an extensive book collection on American 
politics, history, and biography; a popular collection of audiobooks; 
and a wide array of online resources. The LOC also authors content for 
three Web sites:
  --LIS.gov;
  --Senate.gov; and
  --Webster, the Senate's Intranet.
    The transition of the SIS program from the Senate SAA to the Senate 
Library continued with the transfer of contracts for news-related 
services in October 2010. Two town hall style meetings and six focus 
group sessions provided opportunities for Senate staff to provide 
direct feedback on the Senate's online research tools. The Library 
hosted an online survey in December to reach State staff and those 
unable to attend the focus group sessions. Results from the survey will 
be used to review program offerings and to target outreach and training 
efforts related to those resources.
    The LOC's creation of new Web-based content, judicious selection 
and investment in online resources, expanded outreach and training 
opportunities, and use of technology to support alternative means for 
information delivery continues to meet the Senate's increasing demand 
for information.
Notable Achievements
    Successful outreach efforts contributed to an increase in Library 
usage in the following areas over the past year: total patron accounts 
are up 44 percent, new patron accounts are up 26 percent, and online 
book requests are up 36 percent. Loans of audiobooks increased 22 
percent and new books by 15 percent.
    A new Webster page, Nomination Hearings for Supreme Court Justices, 
provides links to full-text hearings since Louis Brandeis in 1916.
    The Library catalog now provides Senate staff with desktop access 
to more than 34,000 electronic versions of items in its collection, an 
increase of 15 percent more than 2009.
    A new table, Senate Freshmen since Direct Election (1914), was 
added to Senate.gov.
    Two well-received exhibits, one on the ``Senatorial Life of Everett 
Dirksen'' and the other on the ``Dirksen Senate Office Building'', were 
installed at the request of the Senate Committee on Rules and 
Administration in the cases flanking the entrance to the Dirksen 
auditorium (SDG-50). The exhibits were collaborative efforts with the 
Senate Curator's Office and the Senate Historical Office.
    Successful collaboration between the Library, the Office of Web 
Technology, and the Assistant SAA/CIO Office resulted in the creation 
of a completely new taxonomy for the Senate Services Directory (Red 
Book) on Webster. Online access to the Red Book will occur in early 
January 2011.
Senate Library Inquiries, Online Book Requests, and Patron Accounts
    The increase in requests for online materials, the availability of 
new and enhanced database offerings, and the expanded availability of 
resources on the Web have dramatically increased the demand for Library 
resources. Inquiries in 2010 increased 12 percent more than 2009, 
reflecting new Web-based service promotional initiatives. These numbers 
show that Senate staff and others are using Senate.gov and Webster 
content authored by the library. Reference librarians continue to 
assist Senate staff with challenging research in areas including legal 
and public records, legislative histories, news and journal articles, 
and to find answers to questions they ``can't figure out how to 
tackle.'' \2\
---------------------------------------------------------------------------
    \1\ Comment by a survey respondent in the 2011 SIS Online Survey 
Report, p. 34.

                                                                SENATE LIBRARY INQUIRIES
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                          Web page visits                                   Change from
                          Year                              Traditional  ------------------------------------------------      Total        prior year
                                                                              Webster           LIS         Senate.gov                     (percentage)
--------------------------------------------------------------------------------------------------------------------------------------------------------
2010....................................................          26,696          88,886          19,000       2,926,712       3,061,294             +12
2009....................................................          27,318          70,461          21,092       2,612,897       2,731,768              +8
2008....................................................          27,283          51,048          29,468       2,429,380       2,537,179             +67
2007....................................................          26,309          65,793          32,121       1,392,947       1,517,170             -10
2006....................................................          31,032          80,375          20,156       1,561,138       1,692,701             +88
2005....................................................          33,080          57,608          26,775         782,588         900,051         ( \1\ )
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Baseline.

    The Library received 666 online book requests in 2010, an increase 
of 36 percent more than the previous year. The increase can be 
attributed to the online book request form on the Library catalog, as 
well as to the online bibliographies that highlight the Library's 
collections of audiobooks, travel books, and new books. Audiobook loans 
increased by 22 percent, travel books by 25 percent, and new books by 
15 percent more than 2009 levels.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Library's concerted effort in 2010 to reach new patrons 
resulted in a 44 percent increase in borrowing accounts more than 2009. 
Seventy-four percent of the Library's patrons are Senate office and 
committee staff members while the remaining 26 percent of users are 
support office staff.
    Almost half of this patron base consists of new users of the 
library. A total of 999 new patrons were registered in 2010, an 
increase of 26 percent more than the number registered in 2009.
    Other activities for 2010 included setting up 274 new computer 
accounts for our patron workstations, and providing the following 
document printing and delivery services:

                 INFORMATION SERVICE SUPPORT ACTIVITIES
------------------------------------------------------------------------
                        Category                               Total
------------------------------------------------------------------------
Circulation:
    Document deliveries.................................           4,499
    Item loans..........................................           3,251
Pages printed:
    Microform pages printed.............................             857
    Photocopies.........................................          71,983
                                                         ---------------
      Document delivery total...........................          80,590
------------------------------------------------------------------------

Senate Library Content Creation
            Senate.gov Web Site Content
    A new table, Senate Freshmen Since Direct Election (1914), was 
added to Senate.gov. This table counts Senate freshmen at the beginning 
of each Congress and includes appointments that occurred just before or 
after the opening of the Congress.
            Senate Webster Content
    A new page, Nomination Hearings for Supreme Court Justices, was 
launched in June in advance of scheduled confirmation hearings for 
Supreme Court nominee Elena Kagan. The page provides links to full-text 
hearings since Louis Brandeis in 1916. This page is tied to another 
Library-authored page, How to Find Supreme Court Nomination 
Information. The full-text hearings were also made available through 
the Library catalog, and Library staff created two new finding aids for 
JSTOR, a nonprofit service of more than 1,000 academic journals and 
other scholarly content, and appellate court briefs.
            SIS Program Content
    The Library's Digital and Instructional Resources Librarian led two 
working groups to create two new Webster pages that highlight SIS 
resources. The first group worked on a FrontPage (the SIS home page) 
redesign that includes tabbed navigation and links to more Senate-wide 
databases. The other group researched the online availability of 
newspapers in each State, which make up the State NewsWatch page. Both 
pages were created in response to feedback from Senate focus groups and 
launched at the beginning of the 112th Congress.
            Senate Library Web Site Content
    A library team revised and updated the About the Library, Using the 
library, and Borrowing Books pages on the library's Web site. These 
pages now provide staff a clearer understanding of the library 
services, policies, and collections.
            Other Digital Content
    Library staff initiated a retrospective digitization of the Senate 
Executive Calendars in response to staff requests for older editions of 
the calendar. This collaborative project between the library and the 
Senate Executive Clerk will build a complete digital collection from 
the library's bound editions and form the basis for a future online 
digital archive.
Senate Knowledge Base
    The Senate knowledge base is an institutional repository of data to 
support the Webster site taxonomy project and Webster search 
enhancement. To date, 1,154 document records and 2,016 term records in 
the Senate knowledge base are supporting the Webster taxonomy and 
search projects. The 45 percent increase in the number of terms and 19 
percent increase in the number of documents created this year is a 
result of a restructuring of the database to support the online Senate 
Services Directory (Red Book) and reporting for ``keymatches''.
            Webster Online Services Directory (Red Book) Redesign
    The online Services Directory is a joint effort between the SAA's 
Assistant Sergeant at Arms/Chief Information Office and the Library. 
The Red Book was a printed directory (last published in November 2010) 
created by the Senate telephone operators as a finding aid for commonly 
requested numbers and services. The online Senate Services Directory is 
driven by a completely new taxonomy that is managed through the Senate 
knowledge base.
            Webster Search Enhancement
    Librarians improve Webster search results by analyzing popular 
search terms and matching them with topically relevant pages or search 
engine ``keymatches'' (which are managed through the Senate knowledge 
base). This improves the chances a searcher will find what he or she is 
looking for on Webster. During 2010, 245 ``keymatches'' were 
established and 240 edits were made to update Web page links.
Instruction and Outreach Programs
    Reference librarians conduct a wide variety of classes and tours 
for Senate staff including, Insider's Guide to Webster, LIS Savvy, 
Research Tools on Your Desktop, Services of the Senate Library, and Got 
Questions? In 2010, 91 classes and tours were offered, with a total of 
379 Senate staff participating. Classes and tours are held frequently 
to allow librarians to interact with smaller groups and create a more 
customized learning experience for the attendees.
    LOC, Office of Web Technology, and the Joint Office of Education 
and Training collaborated on redesigning the LOC class registration 
page. The redesign offers a more streamlined registration process, has 
reduced posting errors, and has increased the opportunities for the 
reference team to market classes to Senate staff.
    LOC gave numerous tours to Senate groups and outside library 
professionals, including each semester's Senate Page School class, 
librarians from the Supreme Court Library and the National Defense 
University, library school students, and 18 separate groups of summer 
interns from Senate offices. The LOC hosted a university library school 
student on a semester-long practicum. The LOC also participated in the 
Senate Services Fair, reaching out to 91 attendees.
    In an effort reach Senate staff more directly, an email signatures 
pilot program was launched to highlight library services, resources, 
training opportunities, and the SIS online survey. The email signatures 
link to a featured resource and change monthly to coordinate with the 
Library's overall promotional program. Other promotional efforts 
include several Webster announcements and flyers with monthly LOC and 
SIS vendor training course offerings.
    Two new reading lists were created to highlight books in the LOC's 
collection: The Civil War in Books and Great Reads for New Senate 
Staff. Both bibliographies are available on Webster and are highlighted 
with display cases and Web promotional announcements. The Civil War in 
Books is the LOC's contribution to the commemoration of the 
sesquicentennial of the start of the Civil War, and the Great Reads 
list is designed to reach new Senate staff who want to broaden their 
knowledge of Senate history and their understanding of legislative 
process and procedure.
Collection Development
            Audiobooks
    The Library acquired 35 new audio book titles in 2010, bringing the 
total number to 125 titles. Designed to assist users with diverse 
needs, including those who may be visually challenged, the program 
remains popular with patrons whose 797 loans were equivalent to 
circulating each item in the collection six times over. An online 
bibliography on Webster contains links to the catalog and the online 
book request form.
            New Digital Resources
    The LOC worked with LexisNexis and Westlaw to remove the login 
prompt and provide direct Senate-wide access to title-level database 
search pages through its Serials Solutions A-Z electronic journals list 
on Webster. A tangible result of these efforts to improve utility saw 
overall searches increase 19 percent to 5,524 and a 60 percent increase 
in the use of all online resources indexed over the same period last 
year. Content was updated to include 43 new databases that result from 
changes in vendor offerings.
    In 2010, the library began offering Senate-wide access to these e-
books, all published by Congressional Quarterly:
  --Guide to Congress;
  --Guide to the Presidency;
  --Guide to U.S. Elections;
  --Landmark Legislation, 1774-2002; and
  --Major Acts of Congress.
    The Library began offering Senate-wide access to a legislative 
histories database on the LexisNexis congressional platform. The 
legislative histories database provides information on all hearings and 
reports associated with a law and provides direct links to the full 
text of these congressional documents.
    Library reference services were enhanced through the acquisition of 
Federal News Service transcripts and JSTOR archival journal content. 
These resources expand the range of questions that reference librarians 
can answer.
Government Documents
    As a participant in GPO's Federal Depository Library Program, the 
Library receives selected categories of legislative, executive, and 
judicial branch publications. The library received 10,078 government 
publications in 2010. In response to the trend of issuing government 
documents in electronic format, 5,505 links were added to the library 
catalog, bringing the total number to 34,443, an increase of 15 percent 
more than last year. The links provide Senate staff desktop access to 
the full text of each document.

                           ACQUISITIONS, 2010
------------------------------------------------------------------------
                        Category                               Total
------------------------------------------------------------------------
Congressional documents.................................           7,790
Executive and judicial branch publications..............           2,288
Books (including audiobooks and e-books)................             761
Electronic links........................................           5,505
                                                         ---------------
      Total acquisitions................................          16,344
------------------------------------------------------------------------

Legislative Validation
    The Library's Legislative Validation Clerk verifies and edits the 
accuracy and consistency of data and legislative information published 
by Secretary of the Senate staff in the LIS, the DMS, the Congressional 
Record, Senate.gov, and Webster. The clerk's work also requires the 
verification of selected Congressional Record Index entries (print and 
electronic) and includes comparing electronic entries made by 
legislative staff or data entry clerks from various agencies with the 
printed Congressional Record Index and notifying the offices of 
discrepancies.
    Between January and December 2010, the Legislative Validation Clerk 
submitted 248 corrections out of hundreds of thousands of verified 
legislative actions that took place during the year.

             LEGISLATIVE VALIDATION CLERK CORRECTIONS, 2010
------------------------------------------------------------------------
                         Office                              Submitted
------------------------------------------------------------------------
Bill, Enrolling, Executive, Journal, and Legislative                  88
 Clerks.................................................
Reporters of Debates, Morning Business Editor, and Daily             109
 Digest.................................................
GPO and LOC--LIS........................................              51
                                                         ---------------
      Total, corrections................................             248
------------------------------------------------------------------------

Cataloging
    The Library's cataloging staff produces and maintains a catalog of 
more than 213,000 bibliographic items. During 2010, they added 3,736 
new titles to the catalog and performed 23,839 record maintenance and 
enhancement activities. New materials are in large part made up of 
congressional materials that are cataloged and made available to staff 
and patrons the same day. The 45 percent decrease in new titles 
cataloged from the previous year can be attributed to a decrease in the 
number of retrospective materials cataloged and an increased attention 
to catalog maintenance and enhancement activities, such as correcting 
subjects and names that have become obsolete and retrospectively adding 
full-text content and book jacket images to existing records.
    Catalogers' time and skills at categorizing and describing content 
are increasingly in demand for taxonomy-related projects designed to 
enhance Webster, including creating the records that drive 
functionality in the new online Red Book Senate Services Directory and 
analyzing logs of unsuccessful searches to create ``keymatches'' that 
target Webster search results.
    Cataloging staff participated in a nationwide project, coordinated 
by the LOC, to create a set of test records for evaluating new 
cataloging rules, called Resource Description and Access (RDA), that 
are slated for possible implementation in 2011. After receiving in-
house training, catalogers contributed 39 RDA test records.
    Catalogers created 553 bibliographic records for Senate hearings 
not yet printed from information in the Congressional Record Daily 
Digest and the combined hearings schedule on Webster. This includes 
field hearings that are not listed in the Daily Digest. These records 
provide preliminary access for Senate staff and remain in the catalog 
until the printed hearing is received and cataloged.
    The catalog is updated nightly to ensure that Senate staff will 
retrieve accurate and current information on Library holdings. The 
addition of 538 book jacket images in 2010, an increase of 79 percent, 
enhanced the catalog's visual appeal.
Library Automation
    The Library worked with the Information Systems Office to develop 
and deploy a new updated workstation template for the Library. For the 
first time, the new workstations made use of virtual access to 
frequently updated applications, eliminating conflicts between 
applications, reducing required workstation maintenance, and minimizing 
staff disruption.
    A server-level upgrade of the integrated library system software 
used to maintain our online catalog was completed, and a new Web-based 
interface for generating reports from the system was implemented. The 
new system takes advantage of enhancements in the catalog database and 
offers new reporting formats.
    A new virtual server was implemented to house the Senate knowledge 
base. The database software was installed in December in preparation 
for the migration of the database. The virtual server provides 
enterprise-level data backup and replaces obsolete hardware. The 
Information Systems Office provides maintenance support for the virtual 
server and remote management tools for use by Library staff.
    The Library and the Information Systems Office worked with SAA 
staff to configure and test an off-the-shelf application to log, track, 
and route incoming SIS support requests. New processes and procedures 
were also established to monitor email and telephone requests and 
establish data entry and statistical requirements.
Preservation, Binding, and Collection Maintenance
    Technical Services staff continued to participate in book repair 
training sessions led by the Director of the Office of Conservation and 
Preservation. Trainees repaired 330 volumes, an increase of 74 percent 
from 2009, making significant progress in the preservation of the 
library's bound book collection.
    The library continues to preserve and protect rare and fragile 
print materials in its collections using commercial binding services 
procured through GPO. In 2010, a total of 456 volumes were sent out for 
binding, and 378 volumes were completed, with excellent results.
Budget
    Budget negotiations with database vendors resulted in flat or 
reduced pricing for online research services and subscriptions. Budget 
savings from price reductions in 2010 online research services and 
subscriptions totaled $38,077 over the next 3 years. After 13 years of 
budget monitoring, savings total $149,013. This continual review of 
purchases eliminates materials not meeting the Senate's current 
information needs. This oversight is also critical in offsetting cost 
increases for core materials and for acquiring new materials.
Special Projects
            Unum, Newsletter of the Office of the Secretary of the 
                    Senate
    Unum, the Secretary's quarterly newsletter, has been produced by 
Senate Library staff since October 1997 and is distributed throughout 
the Senate and to former staff and Senators. It serves as an historical 
record of accomplishments, events, and personnel news in the Office of 
the Secretary of the Senate. Highlights from the 2010 Unum issues 
include articles written by department interns on the history of the 
August recess, the State of the Union dinner hosted by the Secretary of 
the Senate; a feature on the slave labor plaque installed in the 
Capitol; a piece on the Curator's ``Rumors'' Web site; two articles 
about archiving Senate records by Senate Archivist Karen Paul; a 
feature about the 150th anniversary of the Civil War from a 
congressional viewpoint; and the continuation of the ``Senate Voices'' 
series prepared by the Historical Office that contains excerpts of oral 
histories of former staffers.
National Library Week
    David O. Stewart, author of Impeached. The Trial of President 
Andrew Johnson and the Fight for Lincoln's Legacy, was the featured 
speaker at the Library's 12th annual book talk in honor of National 
Library Week.
Display Cases
    Two well-received displays, one on the ``Senatorial Life of Everett 
Dirksen'' and the other on the ``Dirksen Senate Office Building'', were 
installed at the request of the Senate Rules Committee in the cases 
flanking the entrance to the Dirksen auditorium (SDG-50) in 
collaboration with the Senate Curator's Office and the Senate 
Historical Office. Hallway display cases outside the LOC continue to 
educate staff and visitors alike while highlighting the LOC's 
collections. Display cases featured this year include:
  --Civil War Capitol;
  --Civil War in Books;
  --Kids Books on Political Pets;
  --Great Reads for New Staff; and
  --History Lives at Your Library, a display highlighting African-
        American contributions to government, aviation, and medicine.
    The Great Reads for New Staff reading list has proved especially 
popular with staff and circulation of the books on the list 
skyrocketed. The Civil War in Books and the Civil War Capitol display 
are part of the LOC's commemoration of the 150th anniversary of the 
start of the Civil War.
Cooperative Projects
    Hearing URL data from the Library catalog is exported weekly to 
provide LIS and THOMAS with full-text links to Senate hearings. The 
library contributed 1,051 new Senate hearing links to the LIS database 
during 2010, a 50 percent increase more than 2009.
    The Library's Cataloging Supervisor completed work with Joint 
Committee on Taxation staff on a project to supply bibliographic 
records for a set of committee documents submitted for scanning at the 
Federal Scanning Center at LOC. The Committee provided the LOC with 
printed versions of any documents in the set not already in our 
collection. In 2010, a total of 412 new titles were added to the LOC's 
catalog as a result of this project.
Major Library Goals for 2011
    Complete procurement of Senate-wide online research services for 
fiscal year 2012.
    Create a team to evaluate Library course offerings and explore 
opportunities to contribute to the Office of Education and Training's 
task-based curriculum tracks. Provide a unified presentation of Library 
and SIS vendor-sponsored training on FrontPage.
    Complete transition of the Red Book Services Directory from pilot 
project to production service. Continue to develop new entries for the 
alphabetical organization display.
    Create an outreach committee to coordinate content, methods, and 
dissemination of targeted service and promotional offerings to reach 
new Senate offices and State staff.
    Task a working group with review and enhancement of SIS custom user 
interface for LexisNexis.
    Continue to work with SIS program vendors to make additional news-
related content available through Senate NewsWatch and the InfoViewer 
product.
    Provide cataloging staff training in preparation for the possible 
implementation of new cataloging rules, called Resource Description and 
Access (RDA), by LOC and other libraries worldwide.

                                                   SENATE LIBRARY ACQUISITIONS FOR CALENDAR YEAR 2010
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                               Books         Government documents          Congressional publications
                                                      ----------------------------------------------------------------------------------------
                                                                                                                                     Reports/    Total
                                                        Ordered    Received    Paper      Fiche     Hearings    Prints     Bylaws      Docs
--------------------------------------------------------------------------------------------------------------------------------------------------------
January..............................................         22         61        120         21        307         10        113        157        789
February.............................................          7         30        109         64        219          9         77        123        631
March................................................         33         67        145        126        455         22        165        361      1,341
                                                      --------------------------------------------------------------------------------------------------
      1st Quarter....................................         62        158        374        211        981         41        355        641      2,761
                                                      ==================================================================================================
April................................................         25         73        152         70        334         16         94        120        859
May..................................................         26         62         35         90        255         17        155        277        891
June.................................................         20        105        171        129        263          8        105        167        948
                                                      --------------------------------------------------------------------------------------------------
      2nd Quarter....................................         71        240        358        289        852         41        354        564      2,698
                                                      ==================================================================================================
July.................................................         23         73         97         32        343         12        113        249        919
August...............................................         16         42        237          7        304         10         70        403      1,073
September............................................         82         52        174         60        184          4         76        205        755
                                                      --------------------------------------------------------------------------------------------------
      3rd Quarter....................................        121        167        508         99        831         26        259        857      2,747
                                                      ==================================================================================================
October..............................................         22        102         85         42        334          3         54        372        992
November.............................................         15         63         39         15        357         11         96        100        681
December.............................................          8         31        225         43        364         13         92        192        960
                                                      --------------------------------------------------------------------------------------------------
      4th Quarter....................................         45        196        349        100      1,055         27        242        664      2,633
                                                      ==================================================================================================
2010 Total...........................................        299        761      1,589        699      3,719        135      1,210      2,726     10,839
                                                      ==================================================================================================
2009 Total...........................................        314        831      1,653        464      3,660        204      1,162      2,540     10,514
                                                      ==================================================================================================
Percentage change....................................      -4.78      -8.42      -3.87     +50.65      +1.61     -33.82      +4.13      +7.32      +3.09
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                               SENATE LIBRARY CATALOGING STATISTICS FOR CALENDAR YEAR 2010
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                  Bibliographic records cataloged
                                               S.    -----------------------------------------------------------------------------------------
                                            Hearing           Books               Government documents           Congressional publications      Total
                                            numbers  -----------------------------------------------------------------------------------------  records
                                            added to                                                                                  Docs./   cataloged
                                              LIS       Paper    Audio/ E-    Paper      Fiche    Electronic   Hearings    Prints     Pubs./
                                                                   Books                                                             Reports
--------------------------------------------------------------------------------------------------------------------------------------------------------
January..................................         36         26          4          3  .........          17        222         26         67        365
February.................................         25         13  .........  .........  .........          16        131         17         57        234
March....................................         28         17          1          3  .........           9        243          7        131        411
                                          --------------------------------------------------------------------------------------------------------------
      1st Quarter........................         89         56          5          6  .........          42        596         50        255      1,010
                                          ==============================================================================================================
April....................................         34         29          7          8  .........           8         75  .........         62        189
May......................................         17         24  .........         10  .........          10        127          8        206        385
June.....................................         73         22          1          4  .........           7        116          6        104        260
                                          --------------------------------------------------------------------------------------------------------------
      2nd Quarter........................        124         75          8         22  .........          25        318         14        372        834
                                          ==============================================================================================================
July.....................................          9         20          3  .........  .........          13        200          4         97        337
August...................................         17         18          2          2  .........           8        166          1         90        287
September................................          8         29          8          3  .........           8         73          4         43        168
                                          --------------------------------------------------------------------------------------------------------------
      3rd Quarter........................         34         67         13          5  .........          29        439          9        230        792
                                          ==============================================================================================================
October..................................         27         42         14          8          2           2         76         27        163        334
November.................................         21         73          5         10          5          18        104         70         57        342
December.................................         17         25          1          7  .........           6        263         64         58        424
                                          --------------------------------------------------------------------------------------------------------------
      4th Quarter........................         65        140         20         25          7          26        443        161        278      1,100
                                          ==============================================================================================================
2010 Total...............................        312        338         46         58          7         122      1,796        234      1,135      3,736
                                          ==============================================================================================================
2009 Total...............................        331        677        155        107        317         153      3,876      1,185        321      6,791
                                          ==============================================================================================================
Percentage change........................      -5.74     -50.07     -70.32     -45.79     -97.79      -20.26     -53.66     -80.25    +253.58     -44.99
--------------------------------------------------------------------------------------------------------------------------------------------------------


                             SENATE LIBRARY DOCUMENT DELIVERY FOR CALENDAR YEAR 2009
----------------------------------------------------------------------------------------------------------------
                                                                                     Micrographics  Photocopiers
                                                   Volumes    Materials  Facsimiles   center pages      pages
                                                   loaned     delivered                 printed        printed
----------------------------------------------------------------------------------------------------------------
January........................................         376         322          17            50         4,361
February.......................................         202         286          16            83         4,154
March..........................................         360         390          11            99         4,417
                                                ----------------------------------------------------------------
      1st quarter..............................         938         998          44           232        12,932
                                                ================================================================
April..........................................         282         420          12           100         9,032
May............................................         252         318          14            49         5,495
June...........................................         248         326          11            91         9,294
                                                ----------------------------------------------------------------
      2nd quarter..............................         782       1,064          37           240        23,821
                                                ================================================================
July...........................................         285         382          16            60        11,443
August.........................................         220         374          13           109         3,867
September......................................         255         377          27            20         4,753
                                                ----------------------------------------------------------------
      3rd quarter..............................         760       1,133          56           189        20,063
                                                ================================================================
October........................................         212         362          34             8         4,942
November.......................................         306         395          41           108         4,860
December.......................................         253         397          11            80         5,365
                                                ----------------------------------------------------------------
      4th quarter..............................         771       1,154          86           196        15,167
                                                ================================================================
2010 Total.....................................       3,251       4,349         223           857        71,983
                                                ================================================================
2009 Total.....................................       3,118       4,159         212         1,378        71,756
                                                ================================================================
Percentage change..............................       +4.27       +4.57       +5.19        -37.81         -4.77
----------------------------------------------------------------------------------------------------------------

                      <greek-l>sos deg.PAGE SCHOOL

    The United States Senate Page School exists to provide a smooth 
transition from and to the students' home schools, providing those 
students with as sound a program, both academically and experientially, 
as possible during their stay in the Nation's capital, within the 
limits of the constraints imposed by the work situation.
Summary of Accomplishments
    Accreditation by the Middle States Commission on Secondary Schools 
continues through April 2013.
    Two page classes successfully completed their semester curriculum. 
Closing ceremonies were conducted on June 4, 2010 and January 28, 2011, 
the last day of school for each semester.
    Orientation and course scheduling for the spring 2010 and fall 2010 
pages were successfully completed. Needs of incoming students 
determined the semester schedules.
    English usage pre- and post-tests were administered to students 
each semester and the results were reviewed by faculty to determine 
what usage instruction or remediation was needed.
    A foreign language seminar on basic grammar terminology was offered 
fall 2010.
    Study skills sessions were provided to identified students in need 
of training.
    Faculty and staff provided extended educational experiences to 
pages, including 20 field trips, two guest speakers, opportunities to 
play musical instruments and vocalize, and foreign language study with 
the aid of tutors. Eight field trips to educational sites and two guest 
speakers were provided for summer pages as an extension of the page 
experience.
    National tests were administered for qualification in scholarship 
programs. Fourteen pages took 28 Advanced Placement exams in 11 
subjects.
    The community service project embraced by pages and staff in 2002 
continues. Items for gift packages were collected, assembled, and 
shipped to military personnel serving in various locations. Pages 
included letters of support to the troops.
    The evacuation plan and COOP plan have been reviewed and updated. 
Pages and staff continue to practice evacuating to primary and 
secondary sites.
    Staff and pages participated in escape hood training, and staff 
renewed certification in CPR/AED procedures.
    All students and staff participated in a Constitution Day event.
    Computer Services upgraded the Page School's library computers to 
include Microsoft 2007.
Summary of Plans
    Our goals include:
  --Individualized small group instruction and tutoring by teachers on 
        an as-needed basis will continue to be offered, as well as 
        optional academic support for students preparing to take AP 
        tests;
  --Foreign language tutors will provide assistance to students, and a 
        foreign language seminar on basic grammar terminology will 
        continue to be offered each semester;
  --The focus of field trips will be sites of historic, political, and 
        scientific importance which complement the curriculum;
  --English usage pre- and post-tests will continue to be administered 
        to students each semester to assist faculty in determining 
        needs of students for usage instruction; and
  --Staff development options include attendance at seminars conducted 
        by Education and Training and subject matter and/or educational 
        issue conferences conducted by national organizations.

            <greek-l>sos deg.PRINTING AND DOCUMENT SERVICES

    The Office of Printing and Document Services (OPDS) serves as 
liaison to GPO for the Senate's official printing, ensuring that all 
Senate printing is in compliance with title 44, U.S. Code as it relates 
to Senate documents, hearings, committee prints, and other official 
publications. The office assists the Senate by coordinating, 
scheduling, delivering and preparing Senate legislation, hearings, 
documents, committee prints and miscellaneous publications for 
printing, and provides printed copies of all legislation and public 
laws to the Senate and the public. In addition, the office assigns 
publication numbers to all hearings, committee prints, documents and 
other publications; orders all blank paper, envelopes, and letterhead 
for the Senate; and prepares page counts of all Senate hearings in 
order to compensate commercial reporting companies for the preparation 
of hearings.
Printing Services
    During fiscal year 2010, the OPDS prepared 3,698 requisitions 
authorizing GPO to print and bind the Senate's work, exclusive of 
legislation and the Congressional Record. Since the requisitioning done 
by the OPDS is central to the Senate's printing, the office is uniquely 
suited to perform invoice and bid reviewing responsibilities for Senate 
printing. As a result of this office's cost accounting duties, OPDS is 
able to review and assure accurate GPO invoicing as well as play an 
active role in helping to provide the best possible bidding scenario 
for Senate publications.
    In addition to processing requisitions, the Printing Services 
Section coordinates proof handling, job scheduling and tracking for 
stationery products, Senate hearings, Senate publications and other 
miscellaneous printed products, as well as monitoring blank paper and 
stationery quotas for each Senate office and committee. OPDS also 
coordinates a number of publications for other Senate offices, such as 
the Curator, Historian, Disbursing, Legislative Clerk, Senate Library, 
as well as the U.S. Botanic Garden, USCP, AOC, and the CVC. These tasks 
include providing guidance for design, paper selection, print 
specifications, monitoring print quality, and distribution. Last year's 
major printing projects included:
  --semi-annual report of the Secretary of the Senate;
  --tributes to retiring Senators;
  --art and historic objects in the Senate;
  --The Kennedy Caucus Room brochure;
  --2010 Senate Telephone Directory;
  --Senate gallery passes and visitor badges; and
  --CVC tour tickets and informational brochures.
Hearing Billing Verification
    Senate committees often use outside reporting companies to 
transcribe their hearings, both in-house and in the field. OPDS 
processes billing verifications for these transcription services 
ensuring that costs billed to the Senate are accurate. OPDS utilizes a 
program developed in conjunction with the SAA Computer Division that 
provides greater billing accuracy and information gathering capacity; 
and adheres to the Senate Committee on Rules and Administration's 
transcription services billing guidelines for commercial reporting 
companies. During 2010, OPDS provided commercial reporting companies 
and corresponding Senate committees a total of 820 billing 
verifications of Senate hearings and business meetings; more than 
59,000 transcribed pages were processed at a total billing cost of 
$554,214.
    During 2010, the office processed all file transfers and billing 
verifications between committees and reporting companies electronically 
ensuring efficiency and accuracy.
Secretary of the Senate Service Center
    The Service Center within OPDS is staffed by experienced GPO 
detailees who provide Senate committees and the Secretary of the 
Senate's office with complete publishing services for hearings, 
committee prints, and the preparation of the Congressional Record. 
These services include keyboarding, proofreading, scanning, and 
composition. This allows committees to decrease, or eliminate, 
additional overtime costs associated with the preparation of hearings. 
Additionally, the Service Center provides work for GPO detailees 
assigned to legislative offices during Senate recesses.
Document Services
    The Document Services Section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Secretary's office, Senate committees, and GPO. This section 
ensures that the most current version of all material is available, and 
that sufficient quantities are available to meet projected demands. The 
Congressional Record, a printed record of Senate and House Floor 
proceedings, Extension of Remarks, Daily Digest and miscellaneous 
pages, is one of the many printed documents provided by the office on a 
daily basis. In addition to the Congressional Record, the office 
processed and distributed more than 10,000 distinct legislative items 
during the 2nd Session of the 111th Congress, including Senate and 
House bills, resolutions, committee and conference reports, executive 
documents, and public laws.
    The demand for online access to legislative information continues 
to be strong. Before Senate legislation can be posted online, it must 
be received in the Senate through OPDS. Improved database reports allow 
the office to report receipt of all legislative bills and resolutions 
received in the Senate which can then be made available online and 
accessed by other Web sites, such as LIS and Thomas, used by 
congressional staff and the public.
Customer Service
    The primary responsibility of OPDS is to provide services to the 
Senate, but documents are also made available to the general public and 
other government agencies. During 2010, more than 12,000 requests for 
legislative material were received at the walk-in counter, through the 
mail, by fax, and electronically. Online ordering of legislative 
documents and the Legislative Hot List Link, where Members and staff 
can confirm arrival of printed copies of the most sought after 
legislative documents, continued to be popular. The site is updated 
several times daily each time new documents arrive from GPO to the 
Document Room. In addition, the office handled thousands of phone calls 
pertaining to the Senate's official printing, document requests, and 
legislative questions. Recorded messages, fax, and email operate around 
the clock and are processed as they are received, as are mail requests. 
The office stresses prompt, courteous customer service while providing 
accurate answers to Senate and public requests.
On-demand Publication
    The office supplements depleted legislation where needed by 
producing additional copies in the DocuTech Service Center, staffed by 
experienced GPO detailees who provide Member offices and Senate 
committees with on-demand printing and binding of bills and reports. 
On-demand publication allows the department to cut the quantities of 
documents printed directly from GPO and reduces waste. The DocuTech is 
networked with GPO, allowing print files to be sent back and forth 
electronically. This allows OPDS to print necessary legislation for the 
Senate Floor, and other offices, in the event of a GPO COOP situation.
Accomplishments and Future Goals
    Over the past year, the OPDS has faced challenges by providing new 
services for customers and improving existing ones. Of particular note 
is the office's commitment to help ``green'' the Senate. During 2010, 
more than 5.5 million sheets of 100 percent recycled paper were ordered 
by Senate offices, representing a 22 percent increase more than the 
previous year. During the last 3 years orders for fully recycled stocks 
have increased 750 percent. The office works diligently to track 
document requirements, monitoring print quantities, and reducing waste 
and associated costs. More than 400 new and revised print jobs were 
routed electronically for customer approval improving turnaround time 
and efficiency.
    The office continues working with the GPO on behalf of its 
customers, to improve efficiency and to meet the evolving needs of the 
Senate. Focus on COOP and emergency preparedness will continue.

                    <greek-l>sos deg.PUBLIC RECORDS

    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate that involve the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act of 1995, as amended; the Senate Code of 
Official Conduct: Rule 34, Public Financial Disclosure; Rule 35, Senate 
Gift Rule filings; Rule 40, Registration of Mass Mailing; Rule 41, 
Political Fund Designees; and Rule 41(6), Supervisor's Reports on 
Individuals Performing Senate Services; and Foreign Travel Reports.
    The office provides for the inspection, review, and publication of 
these documents. From October 2009 through September 2010, the Public 
Records office staff assisted more than 2,000 individuals seeking 
information from reports filed with the office. This figure does not 
include assistance provided by telephone or email, nor help given to 
lobbyists attempting to comply with the provisions of the Lobbying 
Disclosure Act of 1995, as amended (collectively, the ``LDA''). In 
addition, the office works closely with the Federal Election 
Commission, the Senate Select Committee on Ethics, and the Clerk of the 
U.S. House of Representatives concerning the filing requirements of the 
aforementioned Acts and Senate rules.
Fiscal Year 2010 Accomplishments
    The office continued to implement S. 1, the Honest Leadership and 
Open Government Act (HLOGA), which amended the LDA and the Senate Code 
of Conduct. The office posted two guidance updates and concentrated on 
LDA compliance issues, referring 2,473 cases of potential noncompliance 
to the U.S. Attorney for the District of Columbia. The Senate Office of 
Public Records continued to test COOP plans and pandemic response 
plans.
Plans for Fiscal Year 2011
    The Public Records office will assess technology infrastructure 
needs, as well as continue to semiannually review and update the LDA 
Guidance as needed. The office will continue to develop and implement 
educational information and tools that will help all report filers 
comply fully with the law and assist customers in accessing the 
information they seek.
Automation Activities
    During fiscal year 2010, the Senate Office of Public Records worked 
with the SAA to enhance database performance for all issue areas and 
improve public query programs.
Federal Election Campaign Act, As Amended
    The act requires Senate candidates to file quarterly and pre- and 
postelection reports. Filings totaled 5,147 documents containing 
358,500 pages.
Lobbying Disclosure Act of 1995 (LDA), As Amended
    The LDA requires semi-annual financial and lobbying activity 
reports. As of September 30, 2010, there were 4,635 registrants 
representing 18,776 clients. The total number of individual lobbyists 
disclosed on 2010 registrations and reports was 12,754. The total 
number of lobbying registrations and reports processed was 131,410.
Public Financial Disclosure
    The filing date for Public Financial Disclosure Reports was May 17, 
2010. The reports were made available to the public and press by June 
16, 2010 as required by statute. Public Records staff provided copies 
to the Select Committee on Ethics and the appropriate State officials. 
A total of 3,191 reports and amendments were filed containing 21,651 
pages. There were 463 requests to review or receive copies of the 
documents.
Senate Rule 35 (Gift Rule)
    The Senate Office of Public Records received 316 Gift Rule/Travel 
reports during fiscal year 2010.
Registration of Mass Mailing
    Senators are required to file mass mailing reports on a quarterly 
basis. The number of pages submitted during fiscal year 2010 was 495.

                    <greek-l>sos deg.STATIONERY ROOM

    The United States Senate Stationery Room is the provider of office 
and administrative supplies, personalized stationery, and special order 
items for official Government business. The Stationery Room serves all 
Members, support offices, and other authorized organizations.
    The Stationery Room fulfills its mission by:
  --Utilizing open market, competitive bid, statutorily required, and/
        or GSA schedules for supply procurement;
  --Maintaining sufficient in-stock quantities of select merchandise in 
        order to best meet the immediate needs of the Senate community;
  --Developing and maintaining productive business relationships with a 
        wide variety of vendors to ensure sufficient breadth and 
        availability of merchandise;
  --Maintaining expense accounts for all authorized customers and 
        preparing monthly activity statements;
  --Managing all accounts receivable and accounts payable 
        reimbursement; and
  --Ensuring the integrity of all funds and other government assets 
        under our control.

------------------------------------------------------------------------
                                                  Statistics
                                     -----------------------------------
                                      Fiscal year 2009  Fiscal year 2008
------------------------------------------------------------------------
Gross sales.........................     $3,343,167.00     $3,594,733.94
                                     ===================================
Sales transactions..................            44,626            47,459
Purchase orders issued..............             6,354             6,586
Vouchers processed..................             7,022             7,073
Office deliveries...................             5,986             5,661
Number of items delivered...........           136,021           134,191
Number of items sold................           390,528           439,042
Total cartons received offsite......            22,583  ................
------------------------------------------------------------------------

GAO Audit
    At the request of the Secretary of the Senate, in September 2010, 
GAO conducted an inventory observation and audit of the Stationery Room 
financial operations. The Stationery Room received a positive review 
during the verbal feedback portion of the GAO exit interview. The 
recommendations provided by GAO at the conclusion of their observation 
had either already been implemented or will be adapted as recommended 
as part of our future operational procedures.
Fiscal Year 2011--Looking Ahead
    Subject to funding availability, the Stationery Room anticipates an 
upgrade to its point-of-sales operations, by upgrading/replacing 
obsolete signature capture devices at the counter. This update would 
permit transaction receipts to be emailed to the office at the time of 
sale, eliminating the generation and loss of paper receipts, and a more 
environmentally friendly process.
    The Stationery Room hopes to launch a pilot project that will allow 
constituents to make online flag purchases from Senate offices 
utilizing credit cards to orders. In addition, the Stationery Room 
anticipates launching online ordering of stationery supplies by Member 
and committee offices in 2011.

                    <greek-l>sos deg.WEB TECHNOLOGY

    The Department of Web Technology is responsible for the Web sites 
that fall under the purview of the Secretary of the Senate:
  --the Senate Web site (Senate.gov)--available to the world;
  --the Secretary's internal Web site (Webster.senate.gov/secretary)--
        available to the Senate Staff;
  --central portions of the Senate Intranet (Webster.senate.gov)--
        available to the Senate Staff; and
  --the Senate Legislative Branch Web site (Legbranch.senate.gov)--
        available to the Senate, House of Representatives, LOC, AOC, 
        GAO, GPO, Congressional Budget Office (CBO), and USCP.
The Senate Web Site--Senate.gov

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Senate Web site content is maintained by more than 30 
contributors from seven departments of the Secretary's office and three 
departments of the SAA. Content team leaders regularly share ideas and 
coordinate the posting of new content. All content is controlled 
through the Secretary's Web Content Management System (CMS) managed by 
the Department of Web Technology.
Major Additions to the Web site in 2010
    Rumors! Tall Tales About Senate Art http://www.senate.gov/
artandhistory/art/myths/myth_homepage.htm
    The online exhibit dispels common rumors regarding Senate art. This 
project was a multi-year effort, and the final online version is the 
product of close collaboration with the Curator's Office.
Artifact Browse List Collections
    http://www.senate.gov/artandhistory/art/common/collection_list/
Interior.jsp.
    http://www.senate.gov/artandhistory/art/common/collection_list/
Sittername_List.jsp.
    http://www.senate.gov/artandhistory/art/common/collection_list/
Beyond_Cap_Hill.jsp
    Created new and interesting ways for the Curator's Office to group 
artifacts and for these artifacts to be displayed, researched, and 
enjoyed by a large and diverse audience. The flexibility of these lists 
made it possible to reorganize the artifacts on Senate.gov into a much 
more useful manner.
Decorative Art Added
    http://www.senate.gov/pagelayout/art/a_three_sections_with_teasers/
DecorativeArts.htm.
    The previously mentioned artifact browse lists were instrumental to 
getting new genres of artifacts online. The addition of furniture, 
mirrors, timepieces, and ephemera makes even more of the Senate Art 
collection available for all to enjoy in a fun and informative display.
Daily Senate Floor Report
    http://www.senate.gov/legislative/LIS/floor_activity/
floor_activity.htm.
    The online report highlights morning, legislative, and executive 
business that occurred in the previous day. This one report combines 
information previously only available in several different documents 
and provides hyperlinks to relevant information, such as bill summary 
and status pages, treaties, nominations, and roll call votes. Previous 
days' data will be made available in the coming year.
Public Records Feedback Form
    http://www.senate.gov/legislative/Public_Disclosure/
feedback_form.htm.
    The newly added Web form provides an additional avenue of 
communication with the Office of Public Records.
Investigation Committees
    http://www.senate.gov/artandhistory/history/common/briefing/
Investigations.htm.
    Produced new page templates and modified existing ones to allow the 
Historical Office to showcase and share their rich historical accounts 
of Senate and Joint Committees involved in investigations. These 
highlight Members involved and trace the origins through the outcome of 
these Committees. This is surely an area that will continue to expand 
over the years as we are able to add more information about past 
investigation Committees and as future ones arise.
Committee FAQ
    http://www.senate.gov/general/common/generic/committee_faq.htm.
    In response to many emails sent to the public Webmaster account, 
data gathered from Web traffic tools, and analysis of searches entered, 
this new page was created to answer question about committees and clear 
up common misconceptions.
Legislative Process Information Enhanced
    http://www.senate.gov/pagelayout/legislative/
d_three_sections_with_teasers/process.htm.
    Revamping this section greatly added to the amount of information 
available on the legislative process. A related enactment of law 
section was also created and linked as a companion: http://
www.senate.gov/legislative/common/briefing/Enactment_law.htm.
Senate Chronology Page
    http://www.senate.gov/pagelayout/history/one_item_and_teasers/
chronology.htm#chrono logy=y1787_1800.
    Implemented a new and interesting way to display historical 
information in conjunction with the Historical Office. The new display 
puts all information on a single page which allows the user far more 
interaction.
Seven Featured Biographies
    http://www.senate.gov/pagelayout/history/one_item_and_teasers/
featured_biographies.htm.
Four Oral Histories
    http://www.senate.gov/pagelayout/history/
g_three_sections_with_teasers/oralhistory.htm.
Visitors Section Expanded
    http://www.senate.gov/pagelayout/visiting/
a_three_sections_with_teasers/visitors_home.htm.
    Unique subsections were added in the visitors section for 
employment and procurement opportunities. The employment page allows 
for the browsing of positions available with the Secretary of the 
Senate, SAA, Member, and committee offices. The information for these 
positions come from unique systems and are combined into a single 
useful resource location.
    Homepage feature articles were published on the following topics:
  --Yea or Nay voting in the Senate;
  --Celebrate National Library Week: Browse Senate Art Publications;
  --Biographical Directory: Who's Who in Congress;
  --The Role of Committees in the Legislative Process;
  --Senate Art Exhibits: Learning about the Senate;
  --Focus on the Constitution: The Connecticut Compromise; and
  --Explore the Senate's Decorative Art Collection.
Secretary's Intranet--Webster.senate.gov/secretary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Secretary of the Senate Intranet (http://webster.senate.gov/
secretary) continued to expand information and services offered. An 
archive for UNUM, the newsletter of the office of the Secretary of the 
Senate, was established and linked to from the front page. Web-based 
order forms were maintained, expanded, and enhanced for the requesting 
of specific legislative documents, class registration, blank paper, 
room reservations, and stationery product suggestions.
    A catalog-based ordering system was developed for the Stationery 
Office, which will allow staff to order online. The new system is 
managed with the content directly from the Stationery Office's existing 
Microsoft Retail Management System (RMS). The ordering system was 
designed and implemented with the intent of being especially helpful to 
State offices. This project was a multiple-year effort involving 
several different departments and the diligent work of four interns who 
were instrumental in associating pictures with products.
    FrontPage, the Web portal for the SIS, was moved to the Secretary's 
internal domain and has a completely new look. Web technology worked 
very closely with the Senate Library to help establish and provide 
surveys, announcements, and information regarding the transition in 
addition designing, developing, and launching the new site, 
frontpage.senate.gov, in a short period of time. The design utilizes 
more advanced technologies to make the site interesting and useful. All 
feedback suggests the new design is very helpful and well received by 
users.
Webster Central Web site--Webster.senate.gov

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In conjunction with the SAA, Chaplain, and Senate Rules Committee, 
Web Technology continued administering, managing, and enhancing the 
central section of Webster. Web Technology partnered with the SAA and 
the Senate Library to enact major changes to the services tab, the 
search functions, and the links available on the lower left of the home 
page.
    The services tab is now a categorical listing of services available 
to the Senate that provides relevant Web pages, phone numbers, and 
addresses in a very easy to use interface. The data is produced using a 
taxonomy system and integrated through the CMS. The same source data is 
used to populate the newly expanded Webster search. This very advanced 
technique allows the same source file used for the services to produce 
the most relevant search results in the new directory in real time and 
without additional work.
    Web Technology continue to further streamline the management of 
content on the central site by repurposing additional files that are 
already updated through existing systems on Senate.gov. The expansion 
of repurposed data continues to reduce duplicative efforts, increase 
consistency, relevancy, and timeliness of data displayed on Webster. 
Standardizing on XML across both sites and having them integrated into 
the Secretary's CMS was essential to making this possible.
Senate Legislative Branch Web site (Legbranch.senate.gov)
    The Legbranch server is accessible by the Senate, House of 
Representatives, LOC, AOC, GAO, GPO, CBO, and USCP. Web technology 
maintains a basic Web site for a Capitol Hill email messaging working 
group managed by the SAA. In the future the server will be used to 
share more information with other Capitol Hill entities.
Accomplishments of the Office of Web Technology in 2010
    Completed the CMS upgrade on time and under budget. New hardware 
hosts the most currently released versions of the software (as of 
January 2010) that comprises the CMS. This upgrade has proven to be the 
most stable environment yet. Additionally, Web Technology built a 
complete development repository that mimics the production environment. 
This allows us a much greater ability to customize the system and try 
out various solutions without compromising the uptime or efficiency of 
the production version.
    Added the Daily Senate Floor Report to Senate.gov. This represents 
a milestone, as this project has been worked on for approximately the 
past 5 years. The online report highlights morning, legislative, and 
executive business that occurred the previous day. This one report 
combines information previously only available in various printed 
documents. Having much of the data hyperlinked to relevant information, 
such as bill summary and status pages, treaties, nominations, and roll 
call votes, makes this a tremendously useful resource.
    Audited the Senate.gov Web pages regularly, updating, enhancing, 
and correcting pages; verifying content; and reviewing individual page 
designs throughout Senate.gov for accessibility and usability. 
Additionally, attended training on the latest advances in coding 
techniques to ensure accessibility and applied them to our sites.
    Constantly monitored data feeds from the LIS/DMS system ensuring 
content on Senate.gov was current and all processes were functioning 
properly. This is of vital importance regarding information such as 
committee hearing schedules, vote data, and Member contact information.
    Worked with new Senate offices to establish and maintain temporary 
Web pages including a picture, biography, and contact information until 
they were able to get permanent Web sites established.
    Responded to approximately 1,000 emails from the general public 
regarding Senate.gov sites. Worked with various content providers, Web 
support groups, the SAA, Member, and committee offices to make 
suggestions and resolve issues.
    Continually reviewed and adjusted search operations and canned 
matches for both Senate.gov and Webster based on user tendencies and 
requests. A major addition was the creation and maintenance of a new 
Google onebox for the services (Red Book) recently released.
    Prepared for the release of an online version of the Secretary of 
the Senate's Report. Collaborated with the Disbursing Office, the 
Committee on Rules and Administration, and GPO to formulate a strategy 
to provide the report in a useful and secure manner.
    Produced several new versions of the Senate Chief Counsel for 
Employment Web site. Worked closely with the office to achieve their 
desired look through several iterations of design, development, and 
review.
    Designed and developed a seminar registration application for the 
Senate Chief Counsel for Employment. The system allows customized links 
to be sent which auto-populates a registration form along with a 
complete class list.
    Conducted user testing with Senate staff and interns to increase 
understanding of current Web site interactions, desires, and best 
practices.
    Participated in Capitol Hill working group determining ideal manner 
of providing public legislative data in a secure, downloadable, and 
searchable format. Other entities involved in this project are the 
House of Representative, GPO, and the LOC.
    Helped organize Capitol Hill-wide Webmaster meetings, where best 
practices were shared across entities. Regularly gave presentations and 
facilitated conversations during meetings.
    Continually trained and practiced working from remote locations to 
be prepared should the need arise. All staff members are fully capable 
of accomplishing their job functions from any location with Internet 
access. This was accomplished largely through configuring virtual 
machines that mimic our workstations on office laptops, which we all 
may access. Regardless of which staff member uses which laptop, the 
experience will be ubiquitous and consistent with being in the office.
    Aided the Senate Library in aspects of SIS transition. The new 
FrontPage interface exposes many more resources in an easy to use 
manner. In leveraging advances in Web 2.0 technologies, Web Technology 
is able to take greater advantage of available space and provide robust 
information concisely. Through designing and developing the system in 
XML and leveraging the CMS it is easy for nontechnical users to update 
and maintain.
    Worked extensively with the Senate Library in the continued 
development, implementation, and maintenance of taxonomies utilizing a 
knowledge base system. Participated in the planning, design, 
development, and administration for including the ``Red Book'' data in 
the knowledge base and then on Webster.
    Created virtualized development server for the Secretary's 
Intranet. Also, maintained virtualized production server for the 
Secretary's Intranet and dedicated search server.
    Worked with the Historical Office and GPO in the design of a new 
stand-alone site for the Historical Office's States project that will 
be available to the public as well as Senate staff. All required data 
templates for the new site have been established in the content 
management system.
    Continued to enhance subject-based collection lists for the Senate 
Curator. Initially the lists organized art objects by sitters. It has 
been expanded to other subject areas, all drawn from the Curator's 
maintained object database, along with more advanced control options 
for Curator staff.
    Developed a new vote menu display that utilizes legislative handles 
and has new display features as requested from the Legislative Clerks. 
Working closely with the LIS/DMS group to implement requested data 
changes that will coincide with the new display.
    Successfully transitioned more than 700 hyperlinks to GPO's FDSys 
as they phase out GPOAccess.
    Built an entire new back-up server for the CMS at the ACF with the 
SAA, ensuring our COOP plan can be implemented. The ACF server is an 
exact replica of the production system and is continually tested to 
serve as a real time replacement should the production server become 
inoperable. Shortly after the upgrade was completed, Senate.gov 
experienced a hardware failure that necessitated the use of the ACF 
environment while the Senate was in session and votes were occurring. 
Due to extensive planning, Web Technology was able to stand up the 
alternative system in approximately 1 hour, a major accomplishment.
Senate.gov Usage Statistics
    In 2010 an average of more than 275,000 visits occurred per day on 
Senate.gov. Again this year, approximately 26 percent of visitors 
entered through the main Senate homepage. The majority came to the site 
through the main Senators' contact page; growth in visits is likely due 
to the addition of XML data to the contact page and associated 
automated requests.

----------------------------------------------------------------------------------------------------------------
                                                                                                    Visits from
                        Title of Web page                          Visits/month       Average      United States
                                                                                     duration      (percentage)
----------------------------------------------------------------------------------------------------------------
Senate.gov site.................................................       8,521,779      16 minutes              90
Senate homepage.................................................       1,856,960      15 seconds         ( \1\ )
----------------------------------------------------------------------------------------------------------------
\1\ Not available.

    Reviewing statistics on Web page usage helps the content providers 
better understand what information the public is seeking and how best 
to improve the presentation of that data. Visitors are consistently 
drawn to the following content items, listed in order of popularity.

                                           MOST VISITED PAGES IN 2010
----------------------------------------------------------------------------------------------------------------
                                                                                                      Average
                            Top pages                              Visits/month    Visits/month      duration
                                                                                                     (seconds)
----------------------------------------------------------------------------------------------------------------
Senators contact info list......................................         276,248         624,056              42
Committees......................................................          67,194          92,871              37
Legislation and records.........................................          56,264          75,156              80
Active legislation..............................................          49.139          63,931             167
Votes home......................................................          48,793          68,966              68
111th, 2nd Session vote menu....................................          44,242          74,223             146
Employment positions............................................          40,471          48,703             416
Calendars.......................................................          33,594          73,100             182
----------------------------------------------------------------------------------------------------------------

    By a huge margin, the most popular page on the main Senate Web site 
is the list of Senators with links to their Web sites, comment forms, 
main office addresses, and telephone numbers. Visitors also continue to 
be interested in legislative matters in 2010 with Roll Call Vote 
Tallies, the Active Legislation table, Committee assignments, and 
schedules being particularly popular. The visits per month did decrease 
across some of the most visited pages on the site. A big increase is 
noted for the visitors to the employment pages now offered on 
Senate.gov indicating this is a much used and valuable resource.

    Senator Nelson. Thank you.
    Senator Hoeven has now joined us.
    Do you have any opening remarks that you might want to make 
before we ask the SAA to make his presentation?
    Senator Hoeven. Only briefly, Mr. Chairman. Thank you.
    My only opening comment, at this point, is to thank all of 
you for being here, and even more so for the incredible job 
that you do. I've just been here a short while, but I can't 
help but be impressed by what you do and how well you provide 
for not only the Members themselves, but also for all the other 
things that you do that go into a really complex and difficult 
job. This, of course, is the people's capitol in the greatest 
Nation in the world. And so, your responsibility is tremendous.
    And you're really on a world stage. I can think of all the 
times that I saw, on television, Terry Gainer leading the 
President in during the State of the Union Address. And, of 
course, all of the things that go into securing these premises, 
Chief, and still making it friendly to the public.

                           PREPARED STATEMENT

    And so, Nancy, to you, and to all of you, for the job that 
you do, again, in providing for the Senators, the Members of 
Congress, and, at the same time, keeping this incredible 
complex that is so historically significant and so magnificent 
in every way for the responsibility you have and the way that 
you conduct your duties every day, I just want to commend you 
for that; and, of course, look forward to working with you on 
this very important aspect of doing that important job; and, of 
course, that's the budget.
    So, thank you so much.
    [The statement follows:]

               Prepared Statement of Senator John Hoeven

    Thank you, Chairman Nelson, for calling this hearing to consider 
the fiscal year 2012 legislative branch budget requests for the 
Secretary of the Senate, the Sergeant at Arms (SAA), and the United 
States Capitol Police (USCP). I would like to join you in welcoming our 
witnesses: Secretary of the Senate, Nancy Erickson; Senate SAA, Terry 
Gainer; and the Chief of the USCP, Phillip Morse; and their deputies 
and assistants who will be assisting with testimony. I thank you all 
for being here with us today for this important discussion on how the 
agencies you represent are planning to move forward in the coming 
fiscal year.
    The Secretary of the Senate's office is requesting $31.99 million, 
a slight increase of 0.2 percent to restore the across-the-board 
rescission that was taken of all non-defense, discretionary 
appropriations in the final fiscal year 2011 continuing resolution. 
This funding request maintains the transfer of the Senate Information 
Services program from the SAA to the Secretary's office, so I am 
pleased to have both of you here today to speak about this particular 
program, its funding needs and the success of its transfer.
    The SAA total request is $219.2 million, an increase of $214,000, 
or 0.1 percent, which includes $77.6 million for salaries and $141.6 
million for expenses. The subcommittee worked very closely with the SAA 
and the Secretary's office last year to ensure that appropriate funding 
was in place for the Telecom Modernization and Payroll System Upgrade 
projects, so I am very interested in hearing about how those projects 
are progressing.
    Finally, the USCP request totals $387.6 million, an increase of 
$47.5 million, or 14 percent, which includes an increase of $22.2 
million, or 8 percent, for salaries and $25.3 million, or 40 percent, 
for expenses. I am interested to hear about improvements that have been 
made in the budget formulation process, after the budget 
miscalculations from fiscal year 2010, and whether or not any 
improvements have been made in the overtime issue that the USCP 
continues to face. And of course, I look forward to an update on the 
Radio Modernization Program.
    As you are all painfully aware, the completion of the fiscal year 
2011 appropriations process included great debate on both sides of the 
aisle and both sides of the Capitol on how best to reduce overall 
spending across the Federal Government. While we made reductions to 
many funding levels in the legislative branch, for the most part each 
of the appropriations accounts within your agencies was either held 
relatively harmless or received an increase when compared to fiscal 
year 2010. I would suggest that you should not anticipate receiving 
such favored treatment in the fiscal year 2012 budget--we must 
seriously begin the process of scaling back funding in all 
appropriations accounts, even if it means giving up some of the 
services we are accustomed to receiving here in the Capitol complex.
    I look forward to working with you on the funding issues for your 
agencies as we move through the fiscal year 2012 process.
    Thank you, Mr. Chairman.

    Senator Nelson. Thank you, Senator Hoeven.

                    Sergeant at Arms and Doorkeeper

STATEMENT OF HON. TERRANCE W. GAINER, SENATE SERGEANT 
            AT ARMS
    Mr. Gainer. Thank you, Mr. Chairman and Ranking Member 
Hoeven. I appreciate the opportunity to join my colleagues 
before you this afternoon to discuss our budget submission for 
the upcoming fiscal year.
    I ask that my written testimony be submitted and made part 
of the record.
    Senator Nelson. And it will be.
    Mr. Gainer. Mr. Chairman, we have spoken, over the past few 
years, about the importance of tightening our belts amidst the 
fiscal turmoil we find ourselves in, and we have heard you with 
unmistakable clarity. Senator Hoeven and I and my two 
colleagues recently met with him and had a very similar 
conversation.
    Accordingly, the budget request I have submitted for fiscal 
year 2012 is, as you indicated, just a bit more than $219 
million. That is an increase of less than $250,000 more than 
the fiscal year 2011 enacted level, and 9 percent, or $20 
million, below the amount I requested in fiscal year 2011. This 
year, we have chosen to defer requests for upgrades to our IT 
systems and for increased capacity for our data storage 
networks, requests we would have made in a better budget 
environment.
    To the extent we have some urgent needs that cannot be 
deferred further without affecting operations of the Senate, we 
will submit a request to the subcommittee to use our remaining 
prior year unobligated funds to cover them.
    I am proud of the efforts my staff has made to reduce costs 
across the agency, and we will continue to look for ways to 
achieve additional savings with uncompromising service to the 
community.
    The SAA is a member of the legislative branch procurement 
group--this is an example of some savings--which enables 
legislative branch agencies to recognize savings and economies 
of scale by working together on common contracts and 
acquisition activity. Through these combined efforts, 
legislative branch agencies have saved $6.6 million during 2009 
and 2010.
    Mr. Chairman, our budget has remained virtually flat for 3 
consecutive years. We have identified and eliminated all of the 
so called low-hanging fruit in our budget. I fear that further 
reductions will adversely impact our service to you and the 
Senate community. In order to be good stewards of the 
taxpayers' money, it is my responsibility to make sure that we 
are providing the infrastructure, security, and support needed 
for this institution to run smoothly. These services take place 
not only here in Washington, but in the 454 State offices.
    My 40-plus-page written testimony covers accomplishments 
and challenges during the past year. Let me give you just a few 
highlights.
    In the last 2 years, our phone system was overwhelmed by 
the massive volume of calls generated by the healthcare debate. 
Senators were upset, rightly so, and so were your constituents. 
There were gaps in the phone service between Members and their 
constituents, and our voicemail system was unable to withstand 
the pressure. It was our job to ensure that this does not 
happen again.
    To that end, offices were introduced, last year, to the 
Watson Messaging and Watson Online directory updates. These 
functions provide one of the key things officers were asking 
for: the ability to tailor their internal processes to better 
meet their constituents' needs. The new phone system, which 
will begin to roll out later this year, will be even more 
robust than the current one, and will eliminate the volume-
related issues we have seen in the past.
    Our IT successes this year included the continuation of our 
server virtualization efforts. We will reduce energy, 
maintenance, and support costs by running more than 500 servers 
in the virtual environment.
    Our Help Desk team achieved a customer satisfaction rating 
of more than 96 percent--an excellent level. We successfully 
processed 257 million email messages in the past year, while 
protecting our customers from spam and malicious messages.
    And we continue to update the tools the Senators and staff 
can use to stay connected with each other and their 
constituents: adding smartphones and other mobile wireless 
devices to our catalog, and upgrading the already robust video 
conferencing capabilities.
    This subcommittee granted us approval last year to relocate 
our printing, graphics, and direct-mail function from Postal 
Square on Capitol Hill to the new offsite facility located in 
Landover, Maryland. Thank you very much. We are very grateful 
for your leadership on this endeavor, and proud to report that 
the project is on schedule, actually a little bit ahead of 
schedule, and under budget, and will generate a substantial 
savings in cost as we move forward. Our return-on-investment 
calculations appear to be right on target. We'll save more than 
$10 million in the 20 years, for about a 3.6 percent return on 
investment.
    During 2010, our post office processed the second-highest 
volume of mail in the last decade. I'm pleased to announce, in 
February of this year the Senate Post Office began accepting 
credit and debit cards, an added convenience for our customers. 
There's been very good feedback on that.
    The number of floor proceedings has increased, the number 
of committee hearings has substantially increased, the number 
of radio feeds that we've sent out has increased. All this has 
been brought about by the allocations that you, Chairman, and 
your budget committee have given us.
    In May 2010, we opened a Hart Senate Office Building 
appointment desk to assist staff in escorting guests to the 
Capitol. Our five Senate appointment desks collectively 
welcomed nearly 165,000 guests during 2010. Our customer and 
employee satisfaction levels have never been higher. The 
numbers are very good, both within the SAA and Senate-wide. 
But, providing quality service to the Senate wouldn't be 
possible without our close working relationship with the 
Secretary of the Senate, the USCP, the Architect of the Capitol 
(AOC), and the Senate Committee on Rules and Administration.
    Recently, just as another example, in working with the 
Senate Rules Committee and the USCP, we implemented a new 
Senate floor closure policy that establishes a clear and 
concise hours of operations of the doors. This initiative will 
save 8,970 hours of overtime and $553,000 annually. Chief Morse 
and the Rules Committee worked very hard on that.
    We have a great team, led by Martina Bradford, my deputy; 
Bret Swanson in Operations; Chris Dey, our Chief Financial 
Officer; Pat Murphy, Human Resources Director; Kim Winn, the 
Chief Information Officer; Christy Prietsch, who serves the 
entire Senate community and has been very busy in the Employee 
Assistance Program; Cam Stickley, Education and Training 
Director; Becky Daugherty, our protocol officer; Rich 
Majauskas, in Continuity and Emergency Preparedness; Mike 
Stenger, in Intelligence and Protective Services; and Rick 
Edwards, in Capitol Operations.
    The only area in which I have not been successful is to 
change Nancy Olkewicz from an oppressor to one who's oppressed. 
But, we are working on that. And I will be happy to answer any 
questions.

                           PREPARED STATEMENT

    But, I would just like to say something to my partner, 
Chief. Many of the drivers of the USCP budget increase lie in 
the constant challenges imposed by the USCP Board, ongoing 
threats, and the Chief's proactive desire to enhance safety. 
So, while that seems like, ``Why do we keep raising that?'' I 
sometimes wish the board could come and testify about all the 
angst we go through to try to make this place safe.
    Thank you, Sir.
    [The statement follows:]

                Prepared Statement of Terrance W. Gainer

                              INTRODUCTION

    Mr. Chairman and members of the subcommittee, thank you for 
inviting me to testify before you today. I am pleased to report on the 
progress the Office of the Senate Sergeant at Arms (SAA) has made over 
the past year and our plans to enhance our contributions to the Senate 
in the coming year.
    For fiscal year 2012, the SAA respectfully requests a total budget 
of $219,176,000. This is an increase of $214,000 more than the fiscal 
year 2011 enacted level, and $20,000,000 (or 9 percent) below the 
amount requested in fiscal year 2011. This modest budget request will 
allow us to maintain, for now, the level of service we provide to the 
Senate community. Mr. Chairman, you have spoken over the past few years 
about the importance of tightening our belts amid fiscal turmoil and we 
have heard you with unmistakable clarity. This year, we have chosen to 
postpone making requests for upgrades to our information technology 
(IT) systems and for increased capacity to our data storage networks, 
requests we would have made in a better budget environment. Instead, as 
the committee previously requested, we are submitting a request to use 
prior year unobligated balances for the technology items we removed 
from the fiscal year 2012 budget.
    I am proud of the efforts my staff has made to reduce costs across 
the organization and will continue to look for ways to achieve 
additional savings without compromising service to the Senate 
community. Mr. Chairman, we have remained flat for 3 years now. We have 
exhausted our efforts to eliminate the so-called ``low-hanging fruit''. 
I fear that additional cuts to this budget will significantly impact 
our service to the Senate community. The appendix accompanying this 
testimony elaborates on the specific components of our fiscal year 2012 
budget request.
    In developing this budget and our operating plans, we are guided by 
priorities framed in our Strategic Plan, including ensuring the United 
States Senate is as secure and prepared for an emergency as possible, 
and providing the Senate with outstanding service and support, 
including the enhanced use of technology.
    Our preparedness efforts during the past year placed a premium on 
our interaction with Senate offices. During 2010, each office was 
personally visited or contacted by a member of our emergency 
preparedness team multiple times in response to support requests or to 
update emergency plans. Each contact was designed to enhance and 
upgrade our program and ensure that Senate staff has the essential 
tools necessary to respond during an emergency. We leveraged these 
interactions to ensure we addressed preparedness planning, emergency 
notification protocols, emergency equipment, and accountability of 
staff throughout an emergency event.
    Our IT successes this year included the continuation of our server 
virtualization efforts, where we reduce energy, maintenance, and 
support costs by running more than 500 servers in a virtual 
environment. Our Help Desk team achieved a customer satisfaction rating 
of more than 96 percent at the satisfactory or excellent level. We 
deployed new voice messaging and directory update capabilities as part 
of our ongoing telecommunications modernization project. We 
successfully processed 257 million email messages during calendar year 
2010, while protecting our customers from spam and malicious messages. 
And we continued to update and expand the tools that Senators and staff 
can use to stay connected with each other and their constituents--
supporting iPhones and iPads, adding mobile wireless devices to our 
technology catalog, and upgrading our already robust video conferencing 
capabilities.
    In other services, our cabinet shop designed, built, and installed 
177 pieces of furniture, a 43 percent increase from the previous year. 
The demand for framing services increased by 6 percent more than the 
previous year with a total of 2,764 orders completed. During fiscal 
year 2010, our Printing, Graphics, and Direct Mail (PGDM) department 
continued to improve operations and respond to the demand for producing 
documents from digital files. By utilizing the latest technology in 
digital printing, the publishing section produced 7.8 million pages, an 
increase of 81 percent more than fiscal year 2009. Another area of high 
demand during fiscal year 2010 was the production of charts. By 
upgrading software to process files quicker, PGDM produced 9,273 large-
format charts, an increase of 15 percent more than fiscal year 2009.
    And Mr. Chairman, in fiscal year 2010, this subcommittee approved 
the use of prior year unobligated funding to relocate the Postal Square 
printing and mailing operations to a new facility in Landover, 
Maryland. This relocation has a projected net positive cash flow of 
$2.8 million and 3.6 percent return on investment over 20 years. Design 
plans have been approved for the build-out of the facility, and the SAA 
has contracts in place to support moving equipment and installing data 
communications and a security system. Construction started in January 
2011 and PGDM will begin moving equipment in July 2011 and take 
occupancy in September 2011. We greatly appreciate your support in this 
effort.
    My organization continues to be a good steward of taxpayers' 
dollars as we continue to elevate our performance. Our productivity 
increased to unprecedented levels, exemplified by the Senate Post 
Office processing the second-highest volume of mail in the last decade, 
surpassed only by 2009. I was pleased to announce in February of this 
year that, as an added convenience for our customers, the Senate Post 
Office now accepts credit and debit cards. Feedback from our customers 
has been extremely positive.
    The year 2010 represented another busy period for the Recording 
Studio. Last year, we provided 1,078 hours of gavel-to-gavel coverage 
of Senate Floor proceedings. We provided broadcast coverage of 723 
Senate committee hearings and 1,074 radio productions. Additionally, 
our team of seasoned professionals produced 1,066 shows for Senators 
from our television studios. In addition, this past year our Recording 
Studio broke new ground when we provided the land-based production and 
engineering support for an appropriations hearing which included a live 
videoconference with astronauts aboard the International Space Station.
    To enhance our services to the Senate community, in May, 2010, we 
opened a Hart Senate Appointment Desk to assist staff in escorting 
guests to the Capitol. Our five Senate Appointment Desks collectively 
processed 163,811 guests during 2010. The total number of badges issued 
was the second highest in a given year since the appointment desks were 
created more than 26 years ago. The past 4 years have been 
extraordinary in that the Senate has been in session an average of 181 
days from 2007 through 2010. This represents a 21 percent increase to 
the 150 average number of days the Senate was in session from 1996 
through 2006. Our customer satisfaction and employee morale levels have 
never been higher. All of this is to say that the SAA team is working 
toward the vision of our Strategic Plan: Exceptional Public Service . . 
. Exceeding the Expected.
    Assisting with all of the efforts of the SAA is an outstanding 
senior management team including Martina Bradford, who serves as my 
Deputy; Republican Liaison Mason Wiggins; Assistant Sergeant at Arms 
for Capitol Operations Rick Edwards; General Counsel Joseph Haughey; 
Legislative Liaison Nancy Olkewicz; Assistant Sergeant at Arms for 
Continuity and Emergency Preparedness Operations Rich Majauskas; 
Assistant Sergeant at Arms for Intelligence and Protective Services 
Mike Stenger; Assistant Sergeant at Arms and Chief Information Officer 
Kimball Winn; Chief Financial Officer Chris Dey; and Assistant Sergeant 
at Arms for Operations Bret Swanson. The many goals and accomplishments 
set forth in this testimony would not have been possible without this 
team's leadership and commitment.
    We are grateful for our relationship with the U.S. Capitol Police 
(USCP). I am honored this year to serve as Chairman of the United 
States Capitol Police Board and, in this regard, I value the input of 
the other members, House Sergeant at Arms Bill Livingood, Architect of 
the Capitol (AOC) Stephen Ayers, and Chief Phillip D. Morse, Sr., who 
is an ex officio member of the Board. Working with the Senate Committee 
on Rules and Administration and the USCP, we recently implemented a new 
Senate door closure policy that establishes clear and concise hours of 
operation for the doors in the Senate office buildings and the Senate 
side of the Capitol. This initiative will save 8,970 hours of overtime 
duty and $553,000 annually.
    The SAA also works with other organizations that support the 
Senate. I would like to take this opportunity to mention how important 
their contributions have been in helping us achieve our objectives. In 
particular, we work regularly with the Secretary of the Senate, the 
AOC, and the Office of the Attending Physician. When appropriate, we 
coordinate our efforts with the United States House of Representatives 
and the agencies of the executive and judicial branches. I am impressed 
by the people with whom we work and blessed with the quality of the 
relationships we have built together.
    I am very proud of all the men and women of the SAA team who help 
keep the Senate running. While serving as SAA, I have seen their great 
work and devotion to this institution. The employees of the SAA are 
among the most committed and creative in Government.
    As always, my staff and I are grateful for the support and guidance 
of your subcommittee, the full committee and the Senate Committee on 
Rules and Administration.
   <greek-l>saa deg.continuity and emergency preparedness operations
Emergency Planning
    Our emergency plans and procedures are designed to ensure the 
safety of Senators, staff, and visitors within our facilities and equip 
them with the necessary tools to respond to any situation. Each year we 
strive to improve these procedures using industry best practices and 
lessons learned. We made significant strides to ensure staff 
preparedness through enhancing Emergency Action Plans (EAP), mobility-
impaired evacuation procedures, internal relocation actions, and the 
annual Chamber Protective Actions exercise.
    The central document that reflects our preparedness efforts is the 
EAP and I am pleased to inform you that 100 percent of Senate offices 
now possess a customized version based on their unique circumstances 
and needs. In this past year, 65 percent of all Senate office EAPs were 
reviewed and validated using guidelines set forth by the Occupational 
Safety and Health Administration and the Congressional Accountability 
Act (CAA). Significant areas of improvement included the addition of 
office-specific shelter-in-place locations, internal relocation 
actions, and AIRCON threat procedures. We collaborated with the Senate 
Chief Counsel for Employment to develop EAPs for all Senators' 
hideaways. This included confirming evacuation routes for Senators and 
deploying additional emergency equipment. We met with new office 
managers and established an EAP for each office assigned to a swing 
space. We subsequently made appropriate adjustments as offices were 
moved to permanent suites. This effort involved collaborating with each 
office's Office Emergency Coordinator (OEC), installing and 
transferring emergency equipment, and training office staff.
    Accommodating staff with accessibility needs is outlined in each 
office's EAP and is an integral portion of our training efforts. A 
major enhancement to our program this year is the increased capability 
to simultaneously evacuate mobility-impaired individuals from both the 
primary and alternate emergency staging areas within the Senate office 
buildings instead of just one location.
    Last year I reported on the implementation of the internal 
relocation program. This year I am pleased to announce the completion 
of our program rollout. We collaborated with the AOC to install signage 
throughout the Senate office buildings indicating internal relocation 
sites. In response to numerous office comments, comfort stations have 
been deployed to all sites including the Dirksen Senate Office Building 
stairwells. Notification messages were developed and displayed in 
collaboration with the House of Representatives and USCP. We have also 
conducted six individual office exercises to validate our plans and 
messages and will execute more in calendar year 2011.
    The protection and preparedness of Senators, staff, and visitors 
within the Senate Chamber is one of our main focus areas. Each year we 
test and validate the Chamber Protective Actions plan by conducting a 
full-scale exercise within the Chamber. The 2010 exercise proved to be 
the most comprehensive and complex exercise to date. The exercise 
linked together Chamber Protective Actions procedures with the 
deployment of escape hoods and comfort stations along with the 
subsequent execution of the USCP Senate Leadership AIRCON Rally Point 
Plan and Briefing Center Plan.
Emergency Communications and Accountability
    We continued to improve notification and communication programs 
this year to ensure devices and systems are ready to support the Senate 
during local or large-scale emergencies. The Accountability and 
Emergency Roster System (ALERTS) is the primary alert and notification 
system that provides a single interface for delivering emergency email, 
PIN, and voice messages to the Senate population. We conduct monthly 
tests for staff and biannual tests for Senators in conjunction with the 
USCP, Secretary of the Senate, party secretaries, and other 
stakeholders. These tests are designed to ensure our emergency 
messaging system is reaching all intended recipients. This year we 
introduced the ALERTS Dashboard to provide our office and the USCP with 
real-time accountability data through a user-friendly graphic 
interface. This capability was tested during the summer recess 
evacuation drills in the assembly areas and at the USCP Incident 
Command Post. We also continue to support USCP assembly area operations 
through the deployment of tablets and laptops with faster connections, 
greater reliability, and ergonomic features. We consistently reinforce 
the importance of accountability with Senate staff by conducting Remote 
Check-in drills and training using BlackBerry devices. We trained 406 
OECs and achieved a 60 percent successful reporting rate this year, 
demonstrating increased participation over the last 2 years.
    The SAA provides ``watch standers'' in the USCP Command Center 
after normal business hours when the Senate is in session or during 
emergency incidents and special events. Watch standers are trained to 
use the Senate Dialogic and Chyron systems to assist USCP as necessary 
and provide senior SAA leadership with amplifying information regarding 
ongoing events. Due to reliance on these two systems, the Dialogic 
Communicator System was upgraded to provide better completion 
percentages of voice messaging to desk and mobile phones. Additional 
capabilities were added to the Chyron Cable TV Alert System to handle 
digital and high-definition channels. The system is now fully capable 
of sending alert messages via digital channels once they are activated 
by the AOC.
    We procured and installed WebEOC Mapper Professional, a Geospatial 
Information System that provides Senate emergency managers with the 
ability to create a dynamic, geographically based common operating 
picture. Multilayered mapping has proven to be a highly effective 
emergency management technique for government and law enforcement 
agencies throughout the country. We also continue to administer 
WebFusion to promote collaboration between the Senate, House of 
Representatives, GAO, and AOC emergency managers through seamless 
information sharing across networks. Additionally, WebFusion has 
allowed legislative branch users to connect to local and State 
emergency managers throughout the National Capital Region. Information 
sharing between legislative and executive branch emergency managers is 
further being improved through the installation of a Homeland Secure 
Data Network (HSDN) terminal. Our mission requires access to classified 
email, messaging, data analysis, and collaboration tools along with law 
enforcement, emergency management, and National Capital Region intranet 
resources. The use of HSDN will assist in intelligence gathering, 
situational awareness, decisionmaking, and event reporting.
Training and Equipment
    Training and outreach programs are designed to provide interactive 
classroom and personalized instruction to the Senate community. These 
valuable programs give staff a variety of preparedness and life-safety 
awareness information to enhance personnel and office protection. This 
year, 274 training sessions were conducted in which more than 5,600 
staff were trained on a variety of preparedness topics. We initiated an 
OEC certificate program in 2008 for staff that completed requisite 
emergency preparedness courses and were pleased to issue 25 
certificates this year. This certificate recognizes an OEC's 
willingness and commitment to enhance their professional knowledge in 
emergency preparedness and to be ready to support any emergency action 
that may occur on Capitol Hill.
    The culmination of our emergency preparedness training and outreach 
programs is the Senate's National Preparedness Day event held each 
September as part of National Preparedness Month. This event invites 
members of the emergency management community throughout the National 
Capital Region to set up static equipment displays, provide program 
capability awareness training, and demonstrate new products. I had the 
pleasure of introducing USCP Chief Phillip D. Morse, Sr. and National 
Weather Service Director Dr. John Hayes as guest speakers to address 
our theme of ``One Minute--One Life: Are You Prepared?'' to more than 
100 staff members at this year's event.
    Our continued management and support of emergency protective and 
communication equipment caches in each Senate office has been a key 
preparedness posture. These caches allow offices to receive 
notifications from the USCP to shelter-in-place, deploy to their 
designated internal relocation site, or use specified equipment to 
evacuate the building. Each cache includes escape hoods, emergency 
supply kits, and wireless emergency annunciators. Our office ensures 
functionality through an annual inventory of assigned equipment and 
replacement of expired items. All swing spaces and permanent suites for 
freshmen Senators were supplied with equipment prior to occupancy at 
the beginning of the 112th Congress. More than 270 offices and more 
than 27,000 pieces of equipment were inventoried over the past year 
alone. Additions to the equipment program include emergency news radios 
for office supply kits, deployment of Victim Rescue Units to primary 
and alternate staging elevator caches, installation of portable comfort 
stations and lockers at internal relocation sites, and implementation 
and activation of an AIRCON warning and notification system for the 
fourth floor of the Capitol.
    We released an updated version of the Roadmap to Readiness in 2011 
and included an Emergency Response Guide, a condensed, portable version 
of critical emergency information. The Roadmap to Readiness is a 
comprehensive guide designed to equip offices with the necessary tools 
to create emergency plans for Washington, DC and State offices. It also 
suggests how to educate and train staff to respond appropriately in 
emergencies. Additionally, new Web-based training classes have been 
developed to provide staff with the means to educate themselves from 
the convenience of their desktops.
    We are improving audio and visual capabilities in rooms primarily 
used for training Senate staff, but are used as EOCs during special 
events or emergencies. The ability to display information on multiple 
screens is essential for EOC operations and will also greatly improve 
the capabilities needed to provide technical training to Senate staff. 
SAA is simultaneously working to improve similar capabilities at the 
Alternate Computing Facility (ACF) in Manassas in case the primary 
location is unavailable, and a briefing room in the CVC that may be 
used as a situation room or operations center during a shelter-in-
place. Upgrading capabilities at these locations will ensure senior 
staff is equipped to manage special events and emergency incidents 
through better information management and improved situational 
awareness.
Exercises
    A comprehensive exercise program is structured to ensure Senate 
plans are practiced and validated regularly. The SAA and Secretary of 
the Senate conduct several joint exercises annually with the USCP, AOC, 
Office of Attending Physician, party secretaries, and other key 
congressional stakeholders. A total of 15 exercises, tabletops, and 
guided discussions were completed in 2010, covering all aspects of 
emergency response including offsite alternate chamber, emergency 
operations center, chamber protective actions, briefing center, 
transportation, contingency telecommuting, accountability measures, 
internal relocation, mass casualty, and alternate office space. We 
successfully exercised a Chamber evacuation leading to Briefing Center 
activation to further test our abilities to quickly set up contingency 
facilities resulting in the most comprehensive Chamber exercise to 
date. A ``no-notice'' exercise was conducted to test the ability to 
activate an after-hours contingency site without warning. The general 
exercise format included functional capabilities demonstrations and 
tabletop scenarios designed to test the Senate's ability to function 
during an event that requires relocating to alternate facilities or 
contingency sites. After-action reports were generated to document 
lessons learned for future plan improvement. More than 15 exercises are 
scheduled for 2012 in addition to numerous training events and smaller-
scale tests and drills designed to maintain and strengthen existing 
capabilities while addressing emerging needs and solutions.
Continuity and Recovery
    This year Continuity and Emergency Preparedness Operations (CEPO) 
focused on developing contingency transportation and classified site 
plans as well as validating existing plans and procedures. We continued 
collaborating with Senate offices and committees to develop internal 
continuity of operations plans (COOP) and train staff accordingly. We 
acquired new transportation assets and developed accompanying 
activation and operations plans by leveraging our external support 
organization. We worked with our counterparts in the House to develop 
the Personnel Accountability System to enhance accountability during 
contingency transportation. The program is now in the final stages of 
development.
    As part of its plans to refine accommodations at unclassified 
continuity sites, CEPO updated the wiring in the Thurgood Marshall 
Building Briefing Center. A full-scale exercise at the Postal Square 
Briefing Center was conducted to validate movement of Senators to a 
safe and secure environment in the aftermath of an incident. We also 
improved plans to utilize the Government Accountability Office (GAO) 
building as an alternate office in the event the Senate is no longer 
able to occupy its regular work space. COOP materials and vital records 
were placed at these contingency facilities and on classified networks 
for convenient access. Finally, we collaborated with the Committee on 
Rules and Administration to develop new Fly Away Kits for committee 
hearings during continuity events. These materials are stored at 
classified locations and can be rapidly deployed after an incident.
         <greek-l>saa deg.intelligence and protective services
State Office Security and Preparedness
    State office programs make security and preparedness training 
available to Senators and staff in more than 450 State offices 
throughout the United States. Almost two-thirds of these offices are 
located in commercial buildings with no internal security. The rest are 
located in Federal buildings that generally have some level of building 
security, but are routinely targeted for disruptive activity. Numerous 
high-profile and contentious issues arose in 2010 and several violent 
incidents in and around State offices led to increased awareness and 
participation in this voluntary, but critical program. Participating 
offices are provided with secure reception areas in order to screen 
visitors for signs of hostility, aggression, or impairment. Offices are 
also outfitted with access controls, duress buttons, burglar alarm 
systems, and closed-circuit camera systems. The program covers 
installation, maintenance, and alarm monitoring services and also 
includes an annual inspection and equipment testing.
    During 2010, more than 300 State offices received direct assistance 
in completing or updating their Comprehensive Emergency Plan (CEP). The 
CEP combines security, emergency preparedness, and continuity of 
government processes into one document that meets the requirements of 
the CAA. Continuous outreach regarding the importance of establishing 
plans was conducted through the development of a streamlined template 
to assist small offices with no continuity of operations requirement, 
and an online method to enter preliminary plan information. State 
office hazard overviews were completed or updated for 218 offices to 
identify natural or man-made hazards to be considered during plan 
development. Additionally, 13 new State offices received program 
briefings and emergency equipment and supplies similar to DC offices. 
Pandemic information was promptly disseminated to all State offices and 
approval from the Committee on Rules and Administration allowed staff 
to procure supplies for combating the H1N1 virus. A monthly OEC 
bulletin is now regularly distributed to all State offices and a 
certificate path has been established for State OECs. The focus of the 
program this year will turn to Web site updates and providing 
additional preparedness classes online.
    We provided security enhancements in 57 State offices during 2010. 
These enhancements included building secure reception areas to screen 
visitors, and installing burglar alarms, duress buttons, and closed-
circuit cameras with digital video recorders. To date, the program has 
provided security enhancements in 80 percent of offices located in 
commercial spaces and 62 percent of offices located in Federal 
buildings, bringing the total amount of current offices with security 
enhancements to 75 percent. Additionally, more than 300 State office 
alarm systems were tested and inspected this year. This year, the focus 
will turn to utilizing a new all-hazard risk assessment to survey State 
offices and offer security enhancements to nonparticipating offices. 
Collaboration with representatives from the USCP, General Services 
Administration (GSA), Federal Protective Service, and the U.S. Marshals 
Service will continue.
USCP Operations
    The Senate Campus Access program that coordinates Member office and 
committee requests for vehicle access through the campus security 
perimeter processed 586 special requests for vehicle clearances, 
deliveries, and bus access during fiscal year 2010, an increase of more 
than 130 percent from fiscal year 2009. Additionally, we developed an 
electronic request form via Webster for USCP coverage at subcommittee 
hearings.
    We collaborated with the USCP and external law enforcement agencies 
to monitor and secure special events such as the State of the Union 
Address, Democratic Senatorial Retreat, various joint sessions of the 
Congress, Summer Concert Series, Supreme Court nomination hearing for 
Associate Justice Elena Kagan, and memorial services for Senators 
Robert C. Byrd and Edward Kennedy.
    The Duty Desk in the USCP Command Center continues to ensure SAA 
representation and provide communication between the USCP and the 
Senate community during special events, critical incidents, and routine 
operations. The Duty Desk is manned by SAA personnel during business 
hours and while the Senate is in session. SAA staff receives routine 
training and updated operating procedures to fulfill the 
responsibility.
    Our recently hired Assistant Sergeant at Arms for Intelligence and 
Protective Services Mike Stenger maintains excellent working 
relationships with a multitude of components within the intelligence 
and law enforcement communities. Such trusted partnerships allow for 
the timely and accurate sharing of all-source intelligence and law 
enforcement-sensitive threat information when breaking situations 
occur. Furthermore, it provides the opportunity to collect all-source 
intelligence from appropriate partners and assess, integrate, and brief 
essential information to senior SAA staff that can then make sound, 
timely decisions for the safety and security of the U.S. Senate.
    Finally, recent events in Arizona led our office to greatly expand 
monitoring law enforcement investigations involving threats to Senators 
and provide updates to the SAA and affected Senators, from case opening 
through adjudication. We receive Senate office requests for local law 
enforcement assistance at public events and coordinate evaluation and 
assessment through the USCP. We are collaborating with the USCP 
Uniformed Services Bureau to develop a consistent and seamless 
community outreach program regarding safety and security for Senate 
offices.

                          <greek-l>saa deg.IT

Enhancing Service, Security, and Stewardship
    We continue to provide a wide range of effective IT solutions to 
facilitate the Senate's ability to perform its legislative, constituent 
service, and administrative duties; to safeguard the information and 
systems the Senate relies upon; and to be ready to respond to 
emergencies and disruptions. As in our other areas, we also emphasize 
stewardship--the careful use of all of our resources, including the 
funding we are provided, our personnel and the external resources that 
we consume--in all aspects of our IT operation.
    As we do each year, we have updated, and are performing under, our 
2-year Information Technology Strategic Plan. The current version, 
under which we will be operating in fiscal year 2012, continues to 
emphasize our five strategic IT goals and their supporting objectives 
that drive our programmatic and budgetary decisions:
      Secure.--A secure Senate information infrastructure;
      Customer Service Focused.--A customer service culture top-to-
        bottom;
      Effective.--IT solutions driven by business requirements;
      Accessible, Flexible, and Reliable.--Access to mission-critical 
        information anywhere, anytime, under any circumstances;
      Modern.--A state-of-the-art information infrastructure built on 
        modern, proven technologies.
    Our fourth IT strategic goal--accessible, flexible, and reliable--
may be the most impactful of the five goals. This goal undergirds 
everything we do from a technology standpoint. We must ensure that 
almost every system and every service we deploy can withstand 
disruptions to our operating environment, can be reconfigured if 
necessary to cope with disruptions, and can be used regardless of 
whether the person trying to use it is located within one of our spaces 
or elsewhere. We continuously re-evaluate existing services and systems 
to identify areas for improvement and make those improvements as soon 
as we can, in an effort to ensure the Senate can continue to do its 
work under any circumstances.
    From a budgetary standpoint, more than one-half of the Chief 
Information Officer organization's fiscal year 2012 request will cover 
the installation and support of the equipment acquired by Senate 
personal offices through the economic allocation, and for other 
programs that benefit offices directly. One-third will be devoted to 
providing services at the enterprise level, such as information 
security, the Senate data network, electronic mail infrastructure, and 
telephone systems. The remainder is almost equally divided between 
supporting the office of the Secretary of the Senate with payroll, 
financial management, legislative information, and disclosure systems; 
and our own administrative and management systems.

            <greek-l>saa deg.ENHANCING SERVICE TO THE SENATE

Customer Service, Satisfaction, and Communications
   Our Information Technology Strategic Plan stresses customer service 
as a top priority, and we actively solicit feedback from all levels and 
for all types of services. For instance, we solicit customer feedback 
for every help desk ticket opened. In major contracts that affect our 
customers, we include strict service levels that are tied to the 
contractors' compensation--if they do well, they get paid more; if they 
do poorly, they get paid less. For instance, during the past year, the 
percentage of on-time arrivals for the IT installation team never 
dropped below 99 percent. The percentage of help desk calls that were 
resolved during the initial call averaged 56 percent, and 96 percent of 
customer surveys rated the IT help desk and installation services as 
either ``very satisfactory'' or ``excellent''. We expect this excellent 
level of performance to continue through fiscal year 2012.
    In fiscal year 2012 we will continue to communicate effectively 
with our customers through a well-developed outreach program that 
includes IT newsletters, periodic project status reviews, IT working 
groups, weekly technology and business process review meetings with 
customers, and joint project and policy meetings with the Committee on 
Rules and Administration, the Senate Systems Administrators 
Association, and the administrative managers steering group.
Robust, Reliable, and Modern Communications
    We provide modern, robust, and reliable data network and network-
based services that the Senate relies upon to communicate 
electronically within and among offices on Capitol Hill and in the 50 
States, to and from other legislative branch agencies, and through the 
Internet to the public, other agencies and organizations.
    We continue to keep our mobile communications offerings up to date 
with the latest technology. Last year, we added the Apple iPhone, the 
RIM 9800 Torch BlackBerry, the RIM 9330 Curve BlackBerry, and the RIM 
9650 Bold BlackBerry to the technology catalog. Currently, we are 
testing Android devices for support. We will continue to offer the 
Senate community the latest smartphone technology in fiscal year 2012.
    Following a migration to a new contract vehicle for our wide area 
network services in fiscal year 2010, we are better poised to realize 
the cost savings for this service compared to our previous contract 
with AT&T. Our cost for this service has gone from $5.2 million in 
fiscal year 2009 to $4.3 million in fiscal year 2010, and is on target 
to cost $3.8 million in fiscal year 2011. Given the election cycle and 
the additional moves, adds, and changes associated with incoming and 
outgoing Senators, the fiscal year 2011 costs could increase, but 
should remain less than fiscal year 2010 levels. We have also increased 
our service levels to approximately 50 State office locations and 
installed network optimization equipment in more than 90 locations 
overall. The cost of wide area network services will increase slightly 
in fiscal year 2012, to $4 million to allow us to continue our 
investments in enhancing network services to more State office 
locations.
    We are working with the other legislative branch agencies to 
improve interagency communication technology by implementing and 
securing an upgraded Capnet network that connects all the legislative 
branch agencies, with the goal of making this network the preferred 
path for all interagency communication.
    In addition to our robust messaging infrastructure that processed 
approximately 257 million Internet email messages during the past 
calendar year, we also support effective communication through the use 
of videoconferencing. During the last and current fiscal years, we have 
enhanced our videoconferencing infrastructure to allow participation in 
a high-definition video conference from virtually anywhere in the world 
using an inexpensive Web camera on a desktop or portable computer via 
the Internet. We are adding new capabilities, including a Web interface 
to allow an outside participant without a standards-based 
videoconferencing system to participate via a Web client, as well as 
the ability to escalate a point-to-point call to a multipoint call 
regardless of bandwidth or whether the system has multipoint capability 
installed.
    We also delivered a solution to the problem of transferring large 
files which allows media-based and other large files to be moved within 
the Senate and between the Senate and others in a secure and reliable 
fashion. We continue to expand the ways and tools for staff to be 
connected. This year we delivered iPhone and iPad email and tools 
integration and support. CIO staff worked extensively with a third-
party software provider to develop a secure, reliable, and manageable 
iPhone corporate email client which met our requirements.
    We continue to make progress toward modernizing the Senate's entire 
telecommunications infrastructure to provide improved reliability and 
redundancy in support of daily and emergency operations, and to take 
advantage of technological advances to provide a more flexible and 
robust infrastructure. Toward that end, we will be replacing systems 
such as the cloakroom alerts, operational support and directory and 
billing systems over the coming year, while we continue to move forward 
with the replacement of the main telephone switch.
Web-Based and Customer-Focused Business Applications
    As in past years, we continue to add functionality to TranSAAct, 
which is our platform for moving business online. Based on the business 
requirements of offices and the Committee on Rules and Administration, 
we continue to develop TranSAAct to eliminate paper-based manual 
processes and move them to the Web. Because it is built on an 
extensible modern database framework, TranSAAct allows indefinite 
expansion as new requirements are identified and fulfilled. This year 
we completed enhancements to TranSAAct including online parking 
services (e.g., request a parking assignment, reassign vehicles, add 
vehicles, etc.) and a forms depot featuring 117 forms and links to 
forms often used by administrative managers and chief clerks. We are 
completing work on adding the ability to make telecommunications 
service requests online.
    We look forward over the coming months and years to moving 
additional business processes to the Web, delivering increasing 
functionality to administrative staff, and reducing the time, paper, 
and errors associated with the current manual processes.
    We delivered an enterprise class SharePoint data collaboration site 
to provide a common access point for sharing information between 
offices that do not have direct access to one another. For example, 
subcommittee staff and staff in their Senate offices are using the site 
to view, comment on, and edit committee documents.
    We enhanced other Web-based applications such as a program that 
more than 60 offices use on their Web sites for accepting service 
academy nomination requests, intern requests, and other types of 
applications and requests. Constituents have submitted more than 
500,000 individual requests through this system. We also updated the 
committee hearing scheduling application to make it more robust and 
useful.
Showcasing and Promoting Modern IT in the Senate
    We will continue to highlight new technologies in the Information 
Technology Demonstration Center through demo days, which have been 
well-attended in the past. After products are tested and validated in 
our technology assessment laboratory, they are then available for staff 
to try in the Demo Center. The demo days feature live demonstrations of 
new and emerging technologies.
    In order to perform technology assessments, feasibility analysis, 
and proof of concept studies, to ensure we are considering technologies 
that will directly support the Senate's mission, we continue to improve 
the capabilities in our technology assessment laboratory. Technologies 
and solutions are vetted and tested here prior to being announced for 
pilot, prototype, or mass deployment to the Senate. To ensure we focus 
on the most relevant technologies and solutions, the Technology 
Advisory Group, consisting of CIO staff and our customers, performs 
high-level requirements analysis and prioritizes new technologies and 
solutions for consideration for deployment in the Senate. Among the 
technologies that we look forward to supporting over the next few 
months is support for additional smartphones based on the Android 
operating system as well as Smart Cards. Smart Cards will enable a 
range of applications based upon Public Key Infrastructure (PKI) 
certificates included on the Smart Cards, including access to GSA-
controlled buildings, encryption and decryption of email and BlackBerry 
messages, digital signatures for email and vouchers, and log-on 
authentication.
    We will continue or intensify these efforts in fiscal year 2012 to 
ensure that the Senate is always well equipped to perform its 
functions. To keep our customers informed of our efforts, we publish 
the results of our studies on the emerging technology page of the CIO's 
area on Webster.
           <greek-l>saa deg.enhancing security for the senate
Enhancing Security With Accessible, Flexible, and Reliable Systems
    As I mentioned earlier, we build security, accessibility, 
flexibility, and reliability into every system and service. In addition 
to those efforts, there are two projects that I would specifically like 
to mention.
    This past year our, CIO organization enhanced copier security by 
moving beyond the traditional safeguards of buying equipment that 
writes data to random, noncontiguous hard disk drive locations, to 
completely erasing or removing copier hard disk drives prior to 
disposal. We also reconfigured our copier baseline configurations to 
include hard disk drive overwrite systems that conform to National 
Security Agency security specifications without requiring user 
intervention. We continued our BlackBerry scanning program designed to 
detect security intrusions on wireless devices used during 
international travel. In fiscal year 2010 we scanned more than 300 
BlackBerrys, some multiple times. Fortunately, we found no major 
discrepancies. In fiscal year 2011 and fiscal year 2012 we will 
continue to seek ways to improve and enhance our scanning program.
    We have also installed the second and third components of the 
secure voice conferencing system to provide Secret-level conferencing 
to accommodate 40 additional participants once we obtain additional 
phone lines as part of our telephone system upgrade. In fiscal year 
2012, we plan to upgrade the system with a Web-based interface, making 
it more user-friendly.
Enhancing System and Information Resiliency
    We continue to test our technology in scenarios in which our 
primary infrastructure and primary work locations have become 
inaccessible. This includes the simulated loss of our primary data and 
network facilities, as well as simulated loss of staff work spaces. All 
mission-essential Senate enterprise information systems continue to be 
replicated at our ACF, using our upgraded optical network and storage 
area network technology. We conduct a variety of exercises to ensure we 
are prepared to cope with events ranging from a burst water pipe, to a 
pandemic, to an evacuation of Capitol Hill. These exercises demonstrate 
our ability to support mission-essential systems under adverse 
conditions, and the ability to support substantial numbers of people 
working from home. We continue to exercise the ability to support our 
Senate customers in the event of an emergency situation which may limit 
our ability to arrive at work. This includes weekly and monthly COOP/
pandemic exercises designed to ensure technical support is available 
from the ACF and other remote locations. Our diligence to this 
initiative proved worthwhile during the snow events of last year. With 
the knowledge that the business of the Senate continued and that State 
office locations were not affected by the weather in Washington, DC, 
our staff continued to support the Senate community remotely throughout 
these events. This included answering the phones from home-based 
locations, highlighting the capabilities that our migration to IP 
telephony may bring to the rest of the Senate.
    We also will continue to invest in and modernize storage systems 
that automatically replicate information from our primary site to our 
alternate site. These storage systems support our mission-critical 
systems as well as individual offices.
Securing our Information Infrastructure
    As described in previous testimony, active and aggressive 
adversaries continue to target Senate information and technology 
assets. These adversaries use increasingly sophisticated tools, 
techniques, and procedures; rapidly shift their attack methods in 
response to new countermeasures; and continually refine their targeting 
of Senate information. Our key strategy to meet this threat has been to 
improve our coordination with other Federal agencies to share and adopt 
current best practices. We have greatly improved and expanded our 
relationships with other agencies, due in large part to the outreach 
efforts of IT Security staff over the past year. As a result, we are 
now better able to quickly adjust our countermeasures as adversaries 
shift their tactics. Our efforts and interactions with our Federal 
partners are comparable to DOD's evolving doctrine of ``active computer 
network defense'', a framework for defending military networks. We are 
working to incorporate five key elements of this doctrine into our IT 
Security operating model:
  --training and equipping SAA staff and contractors with specialized 
        cyber security skills;
  --employing and continuously monitoring a strong core of layered 
        defenses;
  --communicating current threat information to offices and providing 
        knowledge and expert advice to help them secure their 
        information;
  --sharing current best practices with our Federal agency partners; 
        and
  --investing in rapid development, testing, and implementation of 
        additional cyber defense capabilities.
    We describe each of these elements and provide implementation 
examples as follows: As an example of the first element, specialized 
skills development, our IT security branch undergoes continual, 
rigorous training on newly discovered threats and vulnerabilities.
    They attend industry and government conferences, complete online 
and classroom courses, host industry experts, conduct in-house classes 
and seminars, and share knowledge among their peers on the latest 
advances in cyberspace threats and defensive measures. This training 
helps us quickly put into operation and benefit from new defensive 
technologies. For example, we recently acquired new analysis tools that 
enable more precise identification of potential attacks and faster 
incident response times. These newly acquired skills were quickly 
deployed and put to practical use in our daily operations, producing 
demonstrable results and saving taxpayer dollars.
    The second element, layered defenses, requires us to develop 
multiple capabilities to prevent and detect intrusions at every point 
in our network and we have worked this past year to introduce and 
encourage widespread adoption of new defensive capabilities. As an 
example, our voluntary vulnerability assessment service has grown to 
include 43 Member offices and five committees, with more offices 
enrolling. The new Systems Management Service (SMS), an automated means 
for offices to automatically apply critical security patches to non-
Microsoft software, has also grown rapidly since we introduced it in 
December 2010. Fifty-two offices are now using the service, which 
provides a significant (up to 68 percent) reduction in software 
vulnerability risk as measured by vulnerability assessment results. SMS 
serves as an excellent complement to our vulnerability assessment 
program and to Windows Server Update Services (WSUS), which 
automatically patches Microsoft software. The vulnerability assessment 
program, SMS, and WSUS combine well to serve as a ``success enabler'' 
for offices by giving them the tools they need to continuously assess 
and improve their IT security posture.
    In addition to our vulnerability assessment and patch management 
services, we continue to monitor and improve our other centrally 
managed security services. One major initiative is our ongoing effort 
to enhance email security by establishing mutual trust mechanisms with 
other Federal agencies based on email source validation and encryption 
technologies. These trust mechanisms assure us and our participating 
Federal partners that messages exchanged are encrypted while traversing 
the Internet and are actually coming from an authorized mail server at 
each respective agency. As a result, Senate staff can have confidence 
that the messages they exchange with one of our trusted partners have 
not been read or manipulated by a third party while in transit and have 
come from a legitimate contact instead of a malicious actor using a 
forged sender address. We expect to continue expanding the number of 
agencies involved in this effort.
    The third element is reflected in our initiative to provide 
improved and varied training and awareness programs for offices. Over 
the past year, we have developed and conducted individual threat 
briefings for system administrators, office leadership, and other staff 
to educate them on the evolving threat environment and recommended 
freely available services that we provide to help them reduce their 
risk. We have also incorporated current effective practices into our 
general awareness materials that we provide through Webster and in-
office presentations. We share our awareness material with other 
agencies and adopt useful material they share with us. Furthermore, we 
have incorporated an IT security briefing into the new system 
administrator training process to inform them of our services and to 
help them enroll and make the best use of our offerings soon after they 
are hired. Finally, we help system administrators identify critical 
systems that our adversaries would consider high-value targets and 
facilitate enhanced protection for these systems to assure continuity 
of operations.
    The fourth element involves sharing new threat information, trends, 
and effective practices with other Federal agencies. We do not share 
specific information concerning offices or staffs involved, but 
coordinate with these agencies to help establish a common information 
base and defensive posture. The relationships that we have built, and 
continue to build, are mutually beneficial and have paid great 
dividends in terms of improved security services for our offices. We 
can now provide offices more timely and detailed threat and 
vulnerability information, more reliable countermeasures, and more 
efficient identification and mitigation of many of our higher-priority 
incidents.
    The fifth and final element is rapid development, testing, and 
implementation of additional cyber defense capabilities. We recently 
tested and implemented a new log analysis tool that has reduced the 
time required to identify and notify offices of attacks from a matter 
of hours to just a matter of minutes. We are also looking forward to 
implementing a new monitoring tool in the next few months that will 
improve our ability to rate the severity of security incidents, reduce 
false positives, and provide offices with better guidance for 
recovering from incidents. Finally, we are currently researching 
potential solutions that will augment our anti-virus systems by 
blocking malicious or compromised Web sites, which are a primary cause 
of many of our security incidents.
    Adopting the elements of the Department of Defense's Active 
Computer Network Defense doctrine helps us work toward our strategic 
goal to provide a secure Senate information infrastructure. We will 
continue to adopt useful elements of the doctrine to further our 
efforts. We are continually changing and improving our tactics and 
operational processes to meet the rapidly changing cyber threat 
environment while supporting the Senate's mission.

                 <greek-l>saa deg.ENHANCING STEWARDSHIP

Enhancing Stewardship Through Fiscal and Environmental Responsibility
    Stewardship of our resources is intertwined in everything we do, as 
well as being a driving force for some of our activities. We are always 
looking for ways to improve our processes or technologies so that we 
save time, money, electricity, paper, or other resources. Our CIO 
organization is a good steward of the fiscal resources of the Senate, 
consistently and continuously improving on the services offered to our 
customers while seeking only modest increases in funding. Many 
initiatives save an office hundreds or thousands of dollars in costs 
that would otherwise be borne out of their official accounts. As most 
of these initiatives save money due to a reduction in the purchase of 
some commodity, they also fit in with our efforts toward environmental 
stewardship. Some examples of our efforts to enhance fiscal and 
environmental stewardship are:
  --Continuation of our virtualization efforts, where we now reduce 
        energy, maintenance, and support costs by running more than 379 
        of our servers in a virtual environment. We will continue an 
        aggressive campaign to virtualize servers until every server 
        that can be virtualized is virtual.
  --Offices, especially those of the new Senators, have taken great 
        advantage of our virtual machine infrastructure that allows us 
        to centrally host their file and application servers on shared 
        hardware at our primary and alternate facilities, which greatly 
        increases server hardware efficiency, and, through system 
        duplication and data replication, offers enterprise class data 
        redundancy and recovery in the event of a critical local 
        failure or crisis. The virtual solution also relieves offices 
        of considerable noise, excess heat, and increases usable 
        working areas for staff. It removes the single point of failure 
        from existing office servers and meets continuity of operations 
        and data replication requirements for approximately half the 
        cost of existing solutions. To date we are hosting 86 Member 
        and committee office file servers on our virtual 
        infrastructure. Virtual servers running in the data center 
        consume only 15 percent of the energy of a comparable number of 
        physical servers. This means a reduction in power consumption 
        and air conditioning requirements, saving Senate funds, while 
        enhancing our ability to provide reliable and redundant 
        services. Fewer servers used by the Senate also means fewer 
        servers that need to be manufactured and therefore have to be 
        disposed of at their end of life, which is greening on a 
        national scale.
  --Work is well under way to offer offices the ability to host their 
        constituent support systems and SharePoint collaboration 
        systems in a virtual environment, which will provide offices 
        the opportunity to operate without any physical servers in 
        their offices.
  --We continue to use our catalog to highlight the energy-efficient 
        aspects of our supported IT and general office equipment, and 
        we conducted ``green demo days'' where vendors could answer 
        questions about their products' environmental friendliness.
  --We continue our efforts to dispose of surplus electronic equipment 
        through such programs as Computers for Schools. Last year we 
        fulfilled 36 Member office requests and packed and shipped 900 
        surplus computers to eligible public schools. We send other 
        surplus equipment to the GSA for redistribution or resale.
  --We also ensure that the devices we recommend to the Senate meet the 
        applicable ENERGYSTAR guidelines, and where feasible, the 
        guidelines for the responsible manufacture of IT equipment.

                      <greek-l>saa deg.OPERATIONS

PGDM
    The PGDM branch provides high-level, direct customer support to the 
Senate community through photocopying, graphic design, printing, 
mailing, archiving, logistics, and security.
    During fiscal year 2010, PGDM continued to improve operations and 
respond to demand for producing documents from digital files. By 
utilizing the latest technology in digital printing, the Publishing 
Section produced 7.8 million pages, an increase of 81 percent more than 
fiscal year 2009. PGDM continued to meet the demand for Constituent 
Services System (CSS) imaging by scanning, digitizing, and 
electronically transferring 1.1 million pages of constituent mail 
responses during fiscal year 2010. Another area of high demand during 
fiscal year 2010 was production of charts. By upgrading software to 
process files quicker, PGDM produced 9,273 large format charts, an 
increase of 15 percent more than fiscal year 2009.
    PGDM is customer-focused and achieved high levels of customer 
satisfaction. Reliable, user-friendly copiers in convenient satellite 
copy centers produced more than 7.6 million copies in fiscal year 2010. 
Utilizing traditional offset and digital printing, PGDM met customer 
requests for color printing, producing more than 21.8 million color 
pages. Combined printing volumes in all sections of PGDM during fiscal 
year 2010 totaled 52.4 million, a 6 percent increase more than fiscal 
year 2009. PGDM continued to improve services to meet the demand for 
archiving Senate office documents during fiscal year 2010.
    Through software and hardware upgrades, PGDM produced 511 rolls of 
microfilm, a 156 percent increase more than fiscal year 2009, and 
scanned and digitized more than 3.2 million pages, a 10 percent 
increase more than fiscal year 2009.
    As a good steward of its own resources and that of others, PGDM 
saved the Senate more than $1.8 million in postage costs by pre-sorting 
9.5 million pieces of outgoing Senate franked mail. New software 
systems have been integrated in a number of processes to validate, 
correct, or remove bad addresses prior to mailing. In fiscal year 2009, 
a system was put in place to validate addresses on constituent letters. 
The number of offices utilizing this process has grown from 14 in 
fiscal year 2009 to 97 in fiscal year 2010. PGDM has also upgraded 
software in the mail-sorting process. By implementing the new United 
States Postal Service (USPS) mandated intelligent barcode and moving 
updated software ahead of schedule, PGDM has ensured that Senate 
offices continue to receive maximum postage discounts. PGDM is 
continuing to work with a vendor to modify and test a Web-based 
application to provide address correction, validation, and delivery 
tracking for shipping of constituent flag requests.
    PGDM's commitment to teamwork and excellent customer service 
extends to our legislative branch partners as well. Our collaborative 
work with the AOC fulfilled 82,828 flag requests during fiscal year 
2010, and in tandem with GPO, delivered more than 2 million documents 
(Pocket Constitutions, Our Flag, Our American Government, etc.) to 
requestors. PGDM has also been working with the AOC to relocate the 
PGDM Logistics operations from SR-B31F to the Hart loading dock area. 
Construction of the Hart location is planned to be completed this 
spring which will allow for structural renovation on the lower level of 
the southwest corner of the Russell building. In early fiscal year 
2010, PGDM provided a tour of our CSS imaging operation to the White 
House Office of Presidential Correspondence staff, which was 
considering implementation of a similar operation.
    Through effective communication and teamwork, PGDM's Senate Support 
Facility upheld the SAA mission for operational security in fiscal year 
2010 by receiving 1,045,153 items from the USCP off-site inspection 
facility and transferring them to the Senate Support Facility. This 
process eliminated 561 truck deliveries to the Capitol complex while 
reducing traffic and allowing the USCP to focus on other aspects of 
safety.
    In fiscal year 2010, the subcommittee approved the use of prior 
year unobligated funding to relocate the Postal Square printing and 
mailing operations to a modern, efficient, secure, and safe facility. 
This relocation will ensure PGDM operations continue without 
interruptions in service from facility failures which have plagued the 
Postal Square building over the years. In collaboration with the AOC, a 
facility located in the same complex as the Senate Support Facility and 
the Senate Post Office Inspection Facility was selected and put under 
contract. The relocation project has a projected net positive cash flow 
of $2.8 million and 3.6 percent return on investment over 20 years. 
Design plans have been approved for the build-out of the facility, and 
the SAA has contracts in place to support moving equipment and 
installing data communications and security systems. Construction 
started in January 2011, and PGDM will begin moving equipment in July 
2011 and take occupancy in September 2011.

                  <greek-l>saa deg.CENTRAL OPERATIONS

Smart Card Programs--ID Office
    The implementation of Homeland Security Presidential Directive 
(HSPD) 12--Policy for a Common Identification Standard for Federal 
Employees and Contractors will significantly impact Senators and their 
staff whose State offices are located in Federal buildings across the 
country. While legislative branch adoption of HSPD-12 is optional, 
compliance will allow Senators and staff unhindered access to work 
freely within these facilities. Staff from the ID Office and Technology 
Development Services is currently collaborating with executive branch 
counterparts to implement compatible access cards to paid staff within 
the 112th Congress.
    Although a substantial cost is associated with system architecture, 
there are continued efforts to explore advantages of Smart Card 
deployment. Sophisticated Smart Card credentials can provide multiple 
functions beyond current ``flash pass'' identification badges. While 
maintaining proximity technology used in the USCP's current physical 
access control system, digital certificates on Smart Cards may in the 
future be used for encryption of personally identifiable information 
exchanged with executive branch agencies in the processing of 
constituent casework. Other future benefits within the Senate community 
for digital certificates include digital signatures on financial 
documents and secure, single network sign-on.

                  <greek-l>saa deg.PARKING OPERATIONS

    The Parking Operations team continues to update policies and 
procedures to better serve the Senate community. For the first time, 
all Senate parking spaces were defined producing an accurate count of 
3,100 spaces (600 spaces greater than previous estimates). Beginning 
with the 112th Congress, Parking Operations streamlined policy and 
procedures to allow for greater customer understanding:
  --the number of permit types was reduced by 17 percent;
  --color was used on the parking map to better communicate parking 
        area definitions; and
  --new signage was installed to clearly label parking areas.
    Parking Specialists continued to enjoy amplified visibility to 
customers as new kiosks were installed on Lots 12 and 16. Increased 
Segway use and wearing of reflective vests and gloves have also 
increased recognition of the specialists by customers and visitors. 
Employee retention has been superb; there has been only one vacancy in 
the last 18 months and that was due to a promotion.

          <greek-l>saa deg.TRANSPORTATION AND FLEET OPERATIONS

    Transportation and Fleet Operations safely and securely procures, 
manages, maintains, and disposes of SAA vehicles; provides 
transportation information to offices; and manages the Senate Parking 
Shuttle Service. The SAA fleet includes trucks, vans, buses, and SUVs 
used to support the Senate community. Senate leadership vehicles are 
leased and administered by Fleet Operations under the Executive Lease 
Plan on a biannual basis. Transportation and Fleet Operations is 
responsible for completing work orders, equipment installations, tag/
registration renewals, and vehicle inspections for all fleet vehicles, 
performing more than 448 of these services in fiscal year 2010. Fleet 
staff scheduled more than 350 transportation requests and transported 
more than 20,000 passengers through the SAA Parking Shuttle Service in 
fiscal year 2010.
    Transportation and Fleet Operations offers several driver training 
programs including an online software training course developed by the 
National Safety Council (NSC), an in-house Professional Truck Driver 
Safety Certification Course also developed by NSC using a fleet staff 
certified instructor, and Segway Certification Training using fleet 
certified instructors.
    Transportation and Fleet Operations is a leader in ``Go Green'' 
initiatives with 25 flex E-85 fuel vehicles, 5 hybrids, 2 electric 
vehicles, and 2 Diesel Exhaust Fluid-certified trucks. Fleet Operations 
will continue to explore the use of alternative fuel vehicles as 
replacements for older vehicles as they are rotated out of the fleet.

                  <greek-l>saa deg.PHOTOGRAPHY STUDIO

    The photography studio provides photography and imaging services 
for Senate offices, capturing more than 75,000 photo images and 
producing more than 95,000 photo prints in fiscal year 2010. The 
studio's popular image archiving service was used to scan, organize, 
and transfer more than 80,000 photo images for archiving purposes in 
fiscal year 2010. The photo browser application provides Senate offices 
a secure location to store and organize photos and the ability to 
download and upload photos or place orders for photo prints from their 
desktop through a Web interface.

                   <greek-l>saa deg.SENATE HAIR CARE

    Senate hair care serves customers by offering the latest trends in 
hair styling to Senators and thousands of customers, including staff 
and the general public. In fiscal year 2010, revenue increased by 
approximately $40,000 (9 percent), the highest in 10 years. Continuing 
to build on the diverse customer base and supplying additional retail 
products and services, Senate Hair Care will remain a profitable and 
indispensable service offered by the SAA.

                  <greek-l>saa deg.SENATE POST OFFICE

    Mail remains a primary medium for constituents to communicate with 
Senators and their staff. During 2010, the total volume of mail 
addressed to the Senate Washington, DC offices was significant. Our 
Senate Post Office received, tested, and delivered 17,710,648 safe 
items to Senate offices, including 10,935,830 pieces of USPS mail; more 
than 6,234,000 pieces of internal mail routed within the Senate or to 
or from other Government agencies; 75,000 packages; and 465,777 courier 
items. The total number of mail and packages received and processed in 
2010 represented the second largest yearly total this decade, surpassed 
only by 2009. Mail received by the Senate has increased substantially 
over the past 2 years, bucking the nationwide trend that shows overall 
USPS mail volumes declining.
Processing Mail Safely
    Protecting the Senate and its staff is my highest priority. We have 
worked collaboratively with this subcommittee, the Committee on Rules 
and Administration, our science advisors, the USCP, USPS, the White 
House Office of Science and Technology Policy, and the Department of 
Homeland Security in developing safe and secure mail protocols and in 
creating two of the best mail processing facilities of their type in 
the world.
    All mail and packages addressed to the Senate's Washington, DC 
offices are tested and delivered by Senate Post Office employees. 
During 2010, our highly trained off-site mail staff intercepted 221 
suspicious pieces of mail that were addressed to Senators with the 
intent to terrorize and disrupt Senate business. The USCP immediately 
responded to these threatening items at our off-site mail processing 
facility thereby preventing their delivery to any Senate office.
    We also worked with this subcommittee and the Committee on Rules 
and Administration to build and operate one of the best facilities 
within the Government to process time-sensitive documents that are 
delivered to the Senate. Our Congressional Acceptance Site ensures that 
all same-day documents are x rayed, opened, tested, and safe for 
delivery to Senate offices. The 465,777 items that we processed during 
2010 represented the most documents processed at this facility since it 
opened in August 2006, which was a 68 percent increase more than 2009's 
courier items. We were able to absorb this additional volume through 
cross-training our existing staff and by instituting process 
improvements rather than increasing our workforce.
    The Senate's method for processing mail has become the model for 
others. We have been asked to demonstrate our procedures and showcase 
our facilities for some of our Nation's allies and for other Government 
agencies, including the Departments of Defense and Homeland Security. 
The organizations that know the most about mail safety cite our highly 
trained staff and the Senate mail facilities as among the most 
efficient and secure in existence.
State Office Mail
    Additionally, my office has worked collaboratively with our science 
advisors to introduce the first device designed to provide Senate staff 
who work in State offices with a level of protection when handling 
mail. Our science advisors believe that the Postal Sentry, if used 
properly, provides the best level of protection to State offices and 
their staff should they receive mail containing a potentially harmful 
substance. I have requested that all Senate State staff utilize the 
Postal Sentry mail processing system whenever mail is opened in their 
offices. All newly elected Senators' State offices have been equipped 
with the Postal Sentry and many other Senators have opted for the 
device as well. Currently, 238 State offices have the Postal Sentry, up 
from 66 State offices at the end of 2009. The Senate took the lead in 
providing State offices with a level of protection when handling mail. 
Recently, the House of Representatives ordered several Postal Sentrys 
for use in their district offices.
Improving Services Offered
    My office strives to provide exemplary service to the Senate 
community. Our Senate Post Office, in conjunction with the USPS, 
operates contract retail locations in the Dirksen and Russell Senate 
Office Buildings. To the frustration of many, patrons in past years 
have been unable to purchase postage stamps, Express and Priority mail 
postage, mail supplies, insurance, and money orders with the 
convenience of a credit or debit card, only with cash. After lengthy 
negotiations with the USPS, I was pleased to announce in February of 
this year that as an added convenience for our customers, the Senate 
Post Office accepts credit and debit cards. Feedback from our customers 
has been extremely positive with the new and additional service.
A Cost-effective Operation
    Even with the expansion of our capabilities, outreach efforts and 
the significant increases in mail volume, my office continues to be 
good stewards of taxpayer dollars. Technology and process improvements 
made since 2008 have enabled the Senate Post Office to reduce the 
number of its employees by 6 percent. Their achievement is even more 
impressive when you consider that the number of mail items received, 
tested, and safely delivered has increased by more than 25 percent 
annually during that same time period. We have compared our costs to 
other agencies and are pleased to report that we have one of the most 
efficient and cost-effective operations of its type. Some agencies with 
similar processes and mail volume spend millions more than the Senate 
in processing mail. A comparative analysis of similar organizations 
that contract out mail processing has determined that the Senate 
processes its mail for up to 62 percent less cost than others.

                  <greek-l>saa deg.CAPITOL FACILITIES

    SAA Capitol Facilities serves the Senate community by providing a 
clean and professional work environment through its Environmental 
Services branch. This branch cleans Capitol spaces, moves Capitol 
furniture, provides special event setups in the Capitol--including the 
10 event spaces in the CVC Senate expansion space--and completes other 
service requests. To meet cyclical customer demands during peak event 
setups and furniture moves, Capitol Facilities was able to improve 
labor cost efficiency by supplementing the full-time work force with 
contracted labor in place of additional FTEs. This resulted in a 
second-year cost savings of $150,000. Capitol Facilities completed 
3,127 special event setups in the CVC Senate expansion space and 
Capitol, a 24 percent increase from the previous year. Service requests 
from Capitol offices for moving furniture and supplies totaled 6,622, 
an increase of 11 percent more than the previous year.
    The Furnishings branch provides framing services to all Senators 
and committees. Demand for framing services increased by 6 percent more 
than the previous year with a total of 2,764 orders completed. The 
branch also provides custom cabinets and other high-quality furniture, 
carpeting, and draperies to Capitol offices. The Cabinet Shop designed, 
built, and installed 177 pieces of furniture, a 43 percent increase 
from the previous year. The Furnishings branch worked with the 
Committee on Appropriations on design and installation of custom 
carpet, construction of turrets for a new sound system, and 
installation of custom-built benches around the perimeter of the 
committee room (S-127). New furniture, draperies, and upholstery were 
provided for the Committee on Foreign Relations room and office (S-116/
117), the Vice President's office (S-212), and the Republican 
Secretary's office (S-335). Additionally, 20 new Senate Chamber chairs 
were built for incoming Senators.

                          <greek-l>saa DEG.CVC

    My office has been involved with the CVC since its inception. We 
have worked collaboratively with others, including representatives of 
this subcommittee, to ensure that many of the operational aspects of 
the facility achieve desired results. Our participation and the 
challenges presented have been vast and varied, including, but not 
limited to, security, hours of operation, transitioning the Capitol 
Guide Service, emergency preparedness, IT, furnishings for the Senate 
side of the CVC, Senate meeting rooms setup and maintenance, bus 
routes, Capitol tour routes, coat checks, official appointments, 
accommodating visitors to the Senate Gallery, broadcast media 
infrastructure, ATM service, telephone service, and other 
communications infrastructure. I am pleased to report that all of the 
SAA departments involved with the CVC completed all of our tasks on 
time and within budget.
    More than 5 million visitors have experienced the CVC since its 
opening a little more than 2 years ago. Feedback from our guests has 
been extremely positive. The long lines of visitors waiting in the 
elements that were prevalent prior to the CVC's opening have been 
eliminated, as are the congested hallways in the Capitol. Visitor 
services professionals from across the country and around the world 
view the CVC, and its operation, as models of excellence in the visitor 
services arena.
    Each of our departments affected by the CVC adjusted its processes, 
thereby mitigating additional employees and costs when this magnificent 
addition to the Capitol opened. The impacts to their operations were 
significant, yet, by maximizing resources, we were able to achieve 
desired results.

               <greek-l>saa deg.SENATE APPOINTMENT DESKS

Expanding and Improving our Services
    An objective of the CVC was to improve security and the flow of 
visitors to the Capitol. To facilitate this goal, we expanded the 
Senate Appointment Desks 100 percent by adding two desks in the CVC, 
one located near the main entrance and the other located outside of the 
Senate Meeting Rooms on the lower level. These two desks required four 
additional FTEs to staff the desks. Improved technology and process 
improvements achieved by the Senate Post Office enabled the transfer of 
four employees from the Senate Post Office to the Senate Appointment 
Desks in the CVC. This is another example where my office exercised 
fiscal responsibility by finding resources within our organization 
rather than increasing costs by adding to the complement of employees 
assigned to the SAA organization.
    To enhance our services to the Senate community, we were tasked 
with opening a Hart Senate Appointment Desk in May 2010. Again SAA 
staff accomplished this task with minimal expense and without adding 
employees. We restructured the duties of our existing appointment desk 
team and those of our Doorkeeper team, thereby freeing up the labor 
needed to support an appointment desk located in the Hart Senate Office 
Building. We worked collaboratively with the Committee on Rules and 
Administration, USCP, and the AOC in designing a secure and welcoming 
process for staff who escort Senate guests to the Capitol from the Hart 
Senate Office Building.
    Our five Senate Appointment Desks collectively processed 163,811 
guests during 2010. The total number of badges issued was the second 
highest in a given year since the appointment desks were created more 
than 26 years ago.
    A goal for opening the CVC was to improve security by reducing the 
number of guests who enter through the Capitol's north door. Last year 
47,956 guests entered the Capitol through the CVC with its state-of-
the-art security features and accommodations. Without the CVC, these 
guests would have entered through the north door of the Capitol, 
waiting in line and bearing the elements. The Capitol Appointment Desk 
reduced its number of guests processed through the north door to 37,577 
during 2010. The 2010 total number of visitors processed through the 
North Door represented a 40 percent reduction in the number of guests 
processed as compared to the year before the CVC opened. This reduction 
of guests in the Capitol improved safety, reduced wait time for 
entrance through the north door of the Capitol, improved visitor flow, 
and reduced congestion within the Capitol proper.
    Also in 2010, more than 72,000 guests entered the Capitol via the 
Russell Appointment Desk, including 60,550 who were destined for the 
CVC. This represented the most badges issued by the Russell Appointment 
Desk in its history.

                      <greek-l>saa deg.DOORKEEPERS

Facilitating the Needs of the Senate
    Our Doorkeepers play an important role in supporting the Senate. 
This group of dedicated professionals remains on call to assist the 
Senate when needed. A primary role of our Doorkeepers is to support the 
Senate Chamber by providing access to those with Senate Floor 
privileges and enforcing the rules of the Senate. Additionally, our 
Doorkeeper team facilitates the needs of Senators, Senate Floor staff, 
and pages.
    The past 4 years have been extraordinary in that the Senate has 
been in session an average of 181 days from 2007 through 2010. This 
represents a 21 percent increase to the 150 average numbers of days the 
Senate was in session from 1996 through 2006.
    Our Doorkeepers provided exceptional support for special events 
during 2010, including the swearing-in of Senators elected during 2010 
and the re-enactment that followed in the Old Senate Chamber; Senator 
Byrd's laying in repose in the Senate Chamber; the confirmation of 
Supreme Court Justice Kagan; and the impeachment trials of Samuel B. 
Kent and G. Thomas Porteous.
    Our Doorkeepers facilitate the movement and seating of Senators 
during joint sessions of the Congress conducted in the House of 
Representatives. During 2010 there were two joint sessions:
  --the President's State of the Union Address; and
  --the Joint meeting of the Congress with the President of Mexico.
    Congressional tributes and Congressional Gold Medal ceremonies also 
require the services of Doorkeepers. In the past year, Doorkeepers 
facilitated Senators and guests for the 50th Anniversary of the 
Inaugural Address of President John F. Kennedy; Days of Remembrance; 
moment of silence in the Senate Galleries and on the House of 
Representatives steps in honor of the victims of the tragedy in Tucson, 
Arizona; Celebration of the Life of Congressman John Murtha; 
recognition of contributions of enslaved African Americans to the 
construction of the United States Capitol; September 11 Congressional 
Remembrance Ceremony; Peace Officers Memorial Day; and Women Service 
Pilots Congressional Gold Medal ceremony.
Improving the Senate Gallery Visitor Experience
    We improved the visitor experience for those who want to witness 
Senate proceedings from the Gallery. We now process these guests 
through the CVC, rather than through the Capitol's north door. This 
process enhancement improved security, as well as the visitor 
experience, by eliminating the long lines and congestion that had been 
commonplace throughout the Capitol prior to the opening of the CVC. Our 
Senate Doorkeepers manage a staging room in the CVC that facilitates 
the collection of prohibited items and the movement of people in a 
secure and efficient manner. The staging room and the surrounding areas 
offer our guests numerous comforts and educational opportunities.
    Last year, 224,925 visitors viewed the Senate Chamber from the 
Senate Gallery. 2010 represented the first full year since 2000 that 
the Senate Gallery was open for visitors during scheduled Senate 
recesses. We reopened the Senate Gallery during scheduled recesses 
beginning with the August 2009 recess and, since then, more than 90,000 
visitors have viewed the Senate Chamber from the Senate Gallery. 
Reopening the Gallery has provided an opportunity for thousands, who 
under the previous rule would not have enjoyed the opportunity to see 
the ``world's greatest deliberative body.'' Our Gallery remains open 
during scheduled recesses for 2011.
    The feedback that we have received from Senate Gallery visitors has 
been extremely positive. Senate Gallery visitors have complimented our 
processes, including the elimination of long lines, waiting in the 
elements, the speed of gaining access to the Gallery and the 
educational opportunities afforded by the CVC.
Leveraging Existing Resources
    The year 2010 proved to be one of the busiest and demanding in the 
history of the Senate Doorkeepers. Our Doorkeepers' work is yet another 
example where our process improvements and solid management principles 
have enabled us to do more with existing resources. Our Doorkeepers 
were able to make significant improvements with minimal expense and 
without additional employees.
    Despite the increases in workload--the 21 percent increase in the 
average number of days the Senate has been in session for the past 4 
years, the 70 percent increase in the footprint covered by Doorkeeper 
staff due to the opening of the CVC, and the increased number of 
special events and ceremonies requiring Doorkeeper support--we were 
able to improve our performance by utilizing existing resources, 
redefining our work processes, and refining our Doorkeepers' job 
descriptions.

                <greek-l>saa deg.SENATE RECORDING STUDIO

Expanded Broadcast Capability
    Our Senate Recording Studio was one of the first departments to 
move into the CVC. Our facility has received accolades from guests 
since its opening, including Senate leadership, Senators, and Senate 
staff. The convenience of the studio's location and proximity to the 
Senate Floor and Senate subway system provides convenience to Senators 
and staff.
    The studio is responsible for providing gavel-to-gavel coverage of 
Senate floor proceedings, broadcasting Senate committee hearings, and 
providing radio and television production studios and equipment for 
Senators' use. In 2010 represented another busy year for the recording 
studio. Last year, we provided 1,078 hours of gavel-to-gavel coverage 
of Senate Floor proceedings. We provided broadcast coverage of 723 
Senate committee hearings and 1,074 radio productions. Additionally, 
our team of seasoned professionals produced 1,066 shows for Senators 
from our television studios.
    The number of studio productions increased by 5 percent due largely 
to our Recording Studio producing the Democratic Media Center and 
Republican Conference shows while their respective studios were being 
renovated.
Groundbreaking Firsts
    This past year our recording studio broke new ground when we 
provided the land-based production and engineering support for an 
Appropriations Commerce, Justice, Science, and Related Agencies 
Subcommittee hearing which included a live videoconference with 
astronauts aboard the International Space Station.
    Another first for our recording studio was the Internet simulcast 
of a Senate Washington, DC event to all Senate staff who wanted to 
participate, including State office personnel. In the aftermath of the 
Tucson shooting tragedy, my office conducted a security briefing to 
provide an interactive forum for all participants and attendees. This 
capability facilitated our ability to answer questions and provide 
updated information to Member offices throughout the United States.
Committee Hearing Room Upgrade Project
    Demand for additional committee broadcasts has been ever 
increasing. In 2003, we began working with this subcommittee and the 
Committee on Rules and Administration to upgrade and install multimedia 
equipment in Senate committee rooms. The project includes digital 
signal processing audio systems and broadcast-quality robotic camera 
systems. The Committee Hearing Room Upgrade Project continued during 
2010.
    To date, we have completed 30 rooms. Room enhancements include 
improved speech intelligibility and software-based systems that we can 
configure based on individual committee needs. The system is networked, 
which gives committee staff the ability to easily and automatically 
route audio from one hearing room to another when there are overflow 
crowds. Additionally, the system's backup will take over quickly if the 
primary electronics fail.
Reducing Costs by Leveraging Technology
    As part of the upgrades, we installed technologies in our new 
Recording Studio space in the CVC to enhance our ability to provide 
broadcast coverage of more hearings simultaneously without adding 
staff. For example, the Committee Hearing Room Upgrade Project allows 
us to cover a hearing with only one employee. Before the upgrades, 
three employees were required to adequately cover a single hearing. 
These technology enhancements, coupled with the expansion of the number 
of control rooms for committee broadcasts to 12, have enabled us to 
increase our simultaneous broadcast coverage of committee hearings from 
5 to as many as 12 without increasing our staff.
    Our Senate Recording Studio is another shining example of where we 
have enhanced our services and increased our productivity by utilizing 
process improvements and technology, rather than increasing our staff.

                    <greek-l>saa deg.MEDIA GALLERIES

    The four Senate Media Galleries comprise the Senate Daily Press 
Gallery:
  --the Senate Periodical Press Gallery;
  --the Press Photographers' Gallery; and
  --the Senate Radio and Television Gallery.
    The unique structure of the four Media Galleries requires them to 
work closely with their respective Standing and Executive 
Correspondent's Committees, the Senate SAA, the USCP, and the Senate 
Committee on Rules and Administration in order to facilitate media 
arrangements and credentials for the more than 7,000 credentialed media 
who cover Senators, Senate committees, and related media events.
    In recent years the media industry has seen historic shifts in 
formats and structures of media outlets which appear to have caused a 
general decline in revenue and circulation for traditional media. 
However, the Media Galleries have seen a burgeoning population of new 
and emerging media. The staff of the Media Galleries has diligently 
worked to accommodate this new population through the current 
credentialing process.
    The growth of 24-hour news channels and Web sites has increased the 
demand for constant news. As a result, the Congress is being covered in 
more detail than ever before. In response to the changing needs of the 
reporters covering Capitol Hill, all four Media Galleries worked with 
the office of the SAA Chief Information Officer to upgrade their 
technical infrastructure including incorporating wi-fi in all four 
Media Galleries.
Senate Daily Press Gallery
    During 2009, a complete remodeling and rewiring of the Daily Press 
Gallery was completed. This was the first such renovation since the 
early 1980s. Restoring the suite of rooms that has been occupied by the 
press since before the Civil War was a mammoth undertaking that 
involved a number of SAA and AOC offices. Furniture was replaced, wires 
were completely redone, and the walls, ornate ceilings, Minton-tiled 
floors, and historic mirrors were completely restored down to the 
smallest detail. The renovation improved the gallery's appearance and 
working conditions for reporters.
    The past 2 years have been extraordinarily busy for the Daily Press 
Gallery. There are more reporters covering the Senate on a daily basis 
than ever. Organizations are covering the Senate in more detail than 
ever, with a constant demand for new information. As a result, our 
gallery is one of the busiest places in the Capitol complex. This year, 
the gallery was constantly filled with reporters covering issues.
    Our Daily Press Gallery staff keeps busy providing the swelling 
ranks of reporters with background information; monitoring Senate floor 
activities and schedule changes; preparing for big events and 
ceremonies; researching and assessing the flood of new credential 
applicants in conjunction with the Standing Committee of 
Correspondents; monitoring and assisting with access on the Capitol's 
second floor and other places where news is breaking; facilitating 
coverage of major hearings, answering press inquiries on legislation, 
floor action, parliamentary procedure; and generally assisting the 
press in covering the Congress, and assisting Senators and staff in 
making information available to the public.
    In addition to those basic duties, we implemented a new paperless 
credentialing system, updated continuity of operations and emergency 
preparedness plans, and put the finishing touches on a very successful 
Gallery renovation.
Senate Periodical Press Gallery
    While high-profile hearings garner the most attention by staff and 
media, the Senate periodical staff always strives to work with all 
Senate committees on their media arrangements for typical hearings and 
events. Senate Periodical Press Gallery staff worked with new committee 
and Senators' press secretaries in order to familiarize them with the 
Periodical Gallery's functions at committee hearings. Constant 
collaboration occurs allowing various Senate committees to set up media 
arrangements for a number of widely viewed hearings, including 
confirmation hearings for all Presidential nominations, Senate budget 
consideration, and Senate Appropriations Committee events.
Press Photographers' Gallery
    The primary role of the Press Photographers Gallery is to 
credential photographers and to assist at news events at the Senate. 
Our staff also has the unique responsibility of assisting at-large news 
events and hearings in the House of Representatives.
    The demand for news images has increased as Web publications expand 
and gain popularity. Also, deadlines for pictures have shifted from 
daily to immediate as organizations and publications strive to have the 
latest pictures available for online publications. These radical 
changes in how events are captured have increased the number of 
photographers covering Capitol Hill on a daily basis. The Press 
Photographers' Gallery has responded to these challenges by enhancing 
the technology infrastructure for gallery members.
Senate Radio and Television Gallery
    In an effort to address new requirements for electronic media 
coverage of Senate events, improvements were made in upgrading the 
technical infrastructure of Senate committee hearing rooms and other 
news event locations throughout the Senate campus. For example, in a 
collaborative effort with the Senate Committee on Rules and 
Administration, gallery staff oversaw the installation of fiber optic 
cable in 14 Senate committee rooms. Several meeting rooms in the 
Capitol and the Senate wing of the CVC were also outfitted with fiber 
optic cable.
    In 2009, the backdrop in the Senate Radio-TV Gallery studio was 
renovated to accommodate high-definition news broadcasts. The improved 
backdrop enhances Senators' appearance by incorporating several 
enriching elements such as columns and LED lighting.
    We improved this Gallery's work areas during the past year as well. 
The Radio-Television Gallery staff worked collaboratively with the 
Senate Committee on Rules and Administration, AOC, and media 
representatives to upgrade media connectivity in the Russell Rotunda 
media area. This team also led the efforts to completely renovate the 
Radio-Television Gallery mezzanine workspace which included modern 
workstations and updated infrastructure.
        <greek-l>saa deg.senate office of education and training
    The Senate Office of Education and Training provides training and 
development opportunities for Senate staff in Washington, DC and the 
States. There are two branches within the office:
  --the Education and Training branch; and
  --the Health Promotion branch.
    The Education and Training branch provides training opportunities 
for all Senate staff in areas including management and leadership 
development, human resources issues and staff benefits, legislative and 
staff information, new staff and intern information, and training 
support for approved software packages and equipment used in 
Washington, DC and State offices. This branch also coordinates and 
provides major training events for State and DC staff.
    Training and education is provided through instructor-led classes; 
one-on-one coaching sessions; specialized vendor provided training; 
Internet and computer-based training; webinars; video teleconferencing; 
informal training and support services; documentation, job aides and 
quickcards.
    The Health Promotion branch provides seminars, classes and 
screenings on health and wellness issues. This branch also coordinates 
an annual Health Fair for all Senate employees and plans blood drives 
every year.
Capitol Hill Training
    The Office of Education and Training offered 1,278 classes and 
events in 2010, drawing more than 10,000 participants. This office's 
registration desk handled more than 25,000 email and phone requests for 
training and documentation.
    The above total includes 438 customized training sessions for 1,937 
staff members. These sessions ranged from in-depth training of Senate 
office system administrators to conflict resolution and organizational 
development. We provide individual consultation on Web site development 
and office systems training. We provided resume and interviewing skills 
building after the deaths and retirements of numerous Senators.
    The Senate's Intern Program is also a focus of the office. We 
provide training for intern coordinators as well as five orientation 
and training sessions for approximately 500 interns.
    Annually, we provide a Senate Services Expo for Senate office 
staff. This year we had 35 presenters from the offices of the Secretary 
of the Senate, SAA, AOC, USCP, and the Library of Congress providing an 
overview of their services to 250 staff. This is part of the 
orientation for new staff and the aides to the Senators-elect. This 
past November we held seven orientation sessions which were attended by 
30 aides.
State Office Training
    The Office of Education and Training provided 85 learning 
opportunities to State offices for which 2,813 State staff registered. 
Our office continues to offer the State Training Fair Program and video 
teleconferencing and webinars as a means to train State staff. In 2010, 
two sessions of the State Training Fairs were attended by 63 State 
staff. We also conducted the State Directors Forum, which was attended 
by 62 State administrative managers and directors and a Constituent 
Services Forum attended by 43 State staff. We also provided advanced 
all staff meeting facilitation to more than 20 offices that were 
attended by more than 650 staff. Additionally, the office offered 33 
video teleconferencing classes, for which 1,707 State staff registered 
and we offered 28 webinars that were attended by 288.
    We provide sources of Internet-based training covering technical, 
professional and language skills. This allows staff in both DC and 
State offices to take training at their convenience. To date, 692 DC 
and State staff have registered and accessed 1,534 different lessons 
and publications using this training option. Education and Training 
also provides 54 Senate-specific self-paced lessons that have been 
accessed more than 3,200 times.
Health Promotion
    In the Health Promotion area, 3,070 staff participated in 56 health 
promotion activities throughout the year. These activities included 
lung function and kidney screenings, eight blood drives, the Health and 
Fitness Day and seminars on health-related topics and the Annual Senate 
Health Fair. We also coordinate Weight Watchers, Yoga, and Pilates 
sessions using the revolving fund for health promotion. There were 11 
sessions that had 266 attendees.
           <greek-l>saa deg.employee assistance program (eap)
    Our EAP offered a variety of services to staff, Pages, interns, and 
family members. In 2010, 3.8 percent of Senate employees and/or their 
family members met with/spoke to an EAP counselor, 187 employees took a 
mental health on-line screening, 2,614 employees attended an EAP 
training activity, and 1,416 employees accessed resources for 
personalized information and referrals for childcare and parenting, 
adult care and aging, education, legal, and financial concerns.
    The EAP expanded outreach programs through updating materials on a 
wide variety of mental health topics; providing an interactive and 
informative Web page that includes confidential mental health 
screenings, an increased number of self-paced training modules and 
access to mental health, management and trauma response resources; and 
offering a variety of time- and community-sensitive training programs, 
including video teleconferencing training programs for State offices. 
The EAP continued to hone, expand, and utilize the skills of the 29 
members of the Senate Peer Support Team through a series of 
presentations, trainings, and informational lectures.

       <greek-l>saa deg.APPENDIX--FISCAL YEAR 2012 BUDGET REQUEST

                  FINANCIAL PLAN FOR FISCAL YEAR 2012

          Office of the Sergeant at Arms--United States Senate

                                                EXECUTIVE SUMMARY
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year 2012 vs. fiscal
                                                                                             year 2011
                                                    Fiscal year     Fiscal year  -------------------------------
                                                    2011 budget    2012 request                      Increase/
                                                                                      Amount         decrease
                                                                                                   (percentage)
----------------------------------------------------------------------------------------------------------------
General operations and maintenance:
    Salaries....................................         $76,846         $77,588            $742            +1.0
    Expenses....................................          86,067          84,429         (1,638)            -1.9
                                                 ---------------------------------------------------------------
      Total, general operations and maintenance.         162,913         162,017           (896)            -0.5
                                                 ===============================================================
Mandated allowances and allotments..............          50,174          49,663           (511)            -1.0
Capital investment..............................             700             684            (16)            -2.3
Nondiscretionary items..........................           5,175           6,812           1,637           +31.6
                                                 ---------------------------------------------------------------
      Total.....................................         218,962         219,176             214            +0.1
                                                 ===============================================================
Staffing                                                     956             956  ..............  ..............
----------------------------------------------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services, and equipment, we submit a fiscal year 2012 
budget request of $219,176,000, an increase of $214,000 or 0.1 percent 
compared to fiscal year 2011. The salary budget request is $77,588,000, 
an increase of $742,000 or 1 percent, and the expense budget request is 
$141,588,000, a decrease of $528,000 or 0.4 percent. The staffing 
request remains flat at 956.
    We present our budget in four categories:
  --general operations and maintenance (salaries and expenses);
  --mandated allowances and allotments;
  --capital investment; and
  --nondiscretionary items.
    The general operations and maintenance salaries budget request is 
$77,588,000, an increase of $742,000 or 1 percent compared to fiscal 
year 2011. The salary budget increase is due to merit funding and other 
adjustments.
    The general operations and maintenance expenses budget request for 
existing and new services is $84,429,000, a decrease of $1,638,000 or 
1.9 percent compared to fiscal year 2011.
    The mandated allowances and allotments budget request is 
$49,663,000, a decrease of $511,000 or 1 percent compared to fiscal 
year 2011. This budget supports State office rents, $18,815,000; 
purchase of computer and office equipment, $13,894,000; voice and data 
communications for Washington, DC and State offices, $12,301,000; 
procurement and maintenance of office equipment for Member office 
constituent services systems, $4,500,000; State office security 
enhancements, $1,913,000; and wireless services and equipment, 
$1,500,000.
    The capital investment budget request is $684,000, a decrease of 
$16,000 or 2.3 percent compared to fiscal year 2011. The fiscal year 
2012 budget request includes funds for the Senate Chamber remote 
broadcast system replacement, $484,000; and data networking initiatives 
and expansions, $200,000.
    The nondiscretionary items budget request is $6,812,000, an 
increase of $1,637,000 or 31.6 percent compared to fiscal year 2011. 
The request funds projects that support the Secretary of the Senate: 
contract maintenance for the Financial Management Information System, 
$3,770,000; support for the payroll system, $2,182,000; and maintenance 
and necessary enhancements to the Legislative Information System, 
$860,000.

    Senator Nelson. Thank you.
    Chief Morse.

                      UNITED STATES CAPITOL POLICE

STATEMENT OF PHILLIP D. MORSE, SR., CHIEF
    Chief Morse. Thank you, Chairman Nelson, Ranking Member 
Hoeven, and members of the subcommittee. I'm honored to be here 
today, and I appreciate the opportunity to present the USCP 
budget for fiscal year 2012.
    I would like to request that my written testimony be 
entered into the record.
    Senator Nelson. It will be entered.
    Chief Morse. I would also like to thank the subcommittee 
for its sustained and unwavering support for the men and women 
of the USCP. Specifically, I would like to express our 
appreciation to the subcommittee, and the Congress, for 
providing the necessary salaries and general expenses funding 
for 2011 to support our personnel and operations.
    As I begin my testimony, I would like to emphasize that my 
management team and I are keenly aware of the economic 
situation our Nation faces today. I understand the 
responsibility I have to submit a budget request that is not 
only accurate, but is reasonable and based on the critical 
requirements necessary to mitigate and address threats and 
risks. The department's fiscal year 2012 budget request, after 
adjusting the fiscal year 2011 appropriated levels, totals $380 
million, and represents an overall increase of 12 percent. The 
department's fiscal year 2012 personnel request reflects our 
continuous efforts, at all levels of management, to effectively 
manage our existing resources to achieve the best possible 
balance of staff-to-mission requirements.
    With that in mind, our requested fiscal year 2012 personnel 
costs support the current authorized staffing levels of 2,243 
positions, as well as a request for three new civilian 
positions for the Office of Inspector General (IG). We're 
requesting an overall increase of 8 percent more than the 
fiscal year 2011 enacted funding level, with rescission.
    We have been very strategic in our hiring of civilian 
positions to best align our resources to our needs. In 
particular, we identified, through a position review, 22 
existent vacant civilian positions for repurposing to meet our 
additional mission requirements, such as the 9 sworn officers 
needed for the security of the new Federal Office Building 8 
(FOB8) and 13 civilian dispatcher positions needed for the 
radio project and mirror site requirements; at current staffing 
levels, the department's fiscal year 2012 overtime projection 
of approximately $36,500,000, to include support for the fiscal 
year 2012 political conventions and pre-Inauguration security 
planning, along with support for Library of Congress (LOC) 
nonreimbursable events, and overtime necessary to secure 
multiyear projects, to include the Capitol Dome skirt and the 
utility tunnel projects.
    The second area of detail is an overall net increase in our 
requested general expenses budget, which is an overall increase 
of 29 percent more than the fiscal year 2011 funding levels. 
The majority of the increase is attributed to the new 
initiatives to address identified threats and risks and for 
support of the 2012 political conventions and Presidential 
Inauguration planning. The increase in the request, just for 
normal annual needs of the Department, excluding the new 
initiatives and convention pre-Inauguration support, is about 5 
percent.
    The seven new initiatives included in our request address 
security and law enforcement services for FOB8; security 
enhancements for the alternate computer facility; security 
designs for utility tunnel systems; design and installation of 
security programs for the Capitol Dome skirt rehabilitation; 
design and installation of security management systems within 
the House and Senate parking garages; software upgrades for the 
Department's fixed-asset management; and departmentwide travel 
management systems. The total funding request for these 
initiatives is $11.8 million.
    With the direct assistance of the USCP Board, we provided 
advisors to assess financial management risk and to provide 
recommended improvements, as well as the oversight 
recommendations of the USCP IG. We have the foundation for 
sound fiscal practices, to include sound budget formulation 
that we are actively implementing and will continuously seek to 
improve.
    In particular, I'm pleased to report that we recently 
closed all eight audit findings related to the U.S. IG's audit 
of the Department's budget formulation process. Further, we're 
working on the resolution of a number of other recommendations 
in order to achieve efficiency and effectiveness in our 
administrative programs. The long-term resolution of the 
recommendations related to internal controls, business 
processes, and material weaknesses remain the highest 
importance to our management team.

                           PREPARED STATEMENT

    Finally, I'd like to thank all the men and women of the 
USCP, both sworn and civilian, for their dedicated service and 
their sacrifice to keep us all safe this past year.
    I appreciate the opportunity, today, that you've given me. 
And I'd be happy to answer any questions that you may have.
    [The statement follows:]

              Prepared Statement of Phillip D. Morse, Sr.

    Chairman Nelson, Ranking Member Hoeven and members of the 
subcommittee, I am honored to be here today, and I appreciate the 
opportunity to present the United States Capitol Police (USCP) budget 
request for fiscal year 2012.
    First, I would like to thank the subcommittee for its sustained and 
unwavering support for the men and women of the USCP. You and your 
staffs have continued to generously support both our mission as well as 
our personnel--not just in a monetary way, but also in private and 
public recognition of our role and responsibilities. The security and 
protection of this great institution is not only our job, but we 
consider it a sacred duty and privilege to serve you, the congressional 
staff, and the millions of visitors from every corner of the world who 
come to the United States Capitol Complex every year. Due in large part 
to your support and that of the Capitol Police Board, the Department 
has had many successes in its continued efforts to become a premier 
security and law enforcement agency operating under established 
controls and efficiencies.
    Specifically, I would like to express our appreciation to the 
subcommittee and the Congress for providing the necessary salaries and 
general expenses funding for fiscal year 2011 to support our personnel 
and operations.
    This fiscal year 2011 appropriation level has allowed the 
Department to address critical salaries requirements, as well as Radio 
Modernization Project (RMP) needs, in fiscal year 2011, which thus 
results in a reduction of those items from our fiscal year 2012 budget 
request.
    As I begin my testimony, I would like to emphasize that my 
management team and I are keenly aware of the economic situation our 
Nation faces today. I understand the responsibility I have to submit a 
budget request that is not only accurate, but that is reasonable, based 
on only critical requirements necessary to mitigate and address threats 
and risks. Our fiscal year adjusted 2012 budget request provides for 
those mission-critical requirements necessary for the Department to 
address the security of the Congress, so that it may conduct it's 
constitutional responsibilities in an open and safe manner without 
disruption from crime or terrorism.
    Our mission-focused request is grounded in the USCP strategic goals 
that describe our mission and frame our budget planning:
  --assessing the threat to the Capitol community;
  --taking proactive measures to mitigate the threat so as to prevent 
        disruption to the legislative process;
  --responding in the event of a disruption so that the Congress can 
        continue to operate; and
  --supporting the USCP's mission through constructive internal 
        business processes and controls that foster effective and 
        efficient mission delivery.
    This budget is strong in support of those goals--with modest 
increases and initiatives to address identified risks and threats--yet 
it is flexible enough to achieve and maintain solid mission-critical 
results with efficient use of resources.
    The proposed fiscal year 2012 budget will address and mitigate 
identified security challenges that may potentially affect the safety 
of the Capitol Complex and our ability to keep up with the changing 
security environment and threat level. In addition, it contains 
requests for a few new initiatives that provide additional security for 
the Capitol Complex and it provides administrative systems to mitigate 
audit risks and findings.
    The Department's funding levels have grown in recent years, due to 
requirements set forth to support an expanding mission load. In the 
last several years, we have merged with the Library of Congress (LOC) 
police while absorbing the jurisdiction over LOC buildings and grounds, 
and upon the opening of the Capitol Visitor Center; we assumed 
additional protection responsibilities for the security operations of 
this critical addition to the Capitol. We will also be gaining an 
additional protective responsibility with the opening of the Federal 
Office Building 8 (FOB8) scheduled to reopen in fiscal year 2012. An 
additional fiscal dynamic we are managing is our implementation of a 
complex RMP.
    At this time, I would like to offer the subcommittee an overarching 
summary of our fiscal year 2012 request. I will follow this summary 
with a discussion of specific budget items of particular significance 
to you and the Department.
    The Department's fiscal year 2012 request totals $380 million and 
represents an overall increase of 12 percent, or $40 million more than 
the fiscal year 2011 enacted level with a rescission funding level of 
$340 million.
    The first subject area that I would like to provide more detail for 
is in the area of personnel salaries and overtime.
    The Department's fiscal year 2012 personnel request reflects our 
continuous efforts at all levels of management to effectively manage 
our existing resources to achieve the best possible balance of staff-
to-mission requirements. We are constantly analyzing our workforce to 
align job functions, assignments, workload, risk management, and 
organizational readiness along with the ever-changing threat 
assessments and mandatory mission requirements of a dynamic 
Congressional community.
    To operate within our current budget, we are currently carrying out 
our mission requirements with 1,775 of our 1,800 sworn positions, below 
our authorized 443 civilian positions, and with only limited training. 
We have received funding in fiscal year 2011 to increase our sworn 
levels to 1,800 at the end of the fiscal year, and to bring on an 
additional 13 civilians as well, but this partial year funding for 
these positions will need to be annualized in fiscal year 2012 in order 
to maintain this staffing strength. Much of our overall increase allows 
the Department to operate at our current authorized staffing levels.
    With regard to our funding request related to personnel, we are 
requesting an overall increase of 8 percent more than the fiscal year 
2011 enacted funding levels with rescission, which includes funding for 
only three new civilian positions for the Office of the Inspector 
General (OIG). The increase in 9 new sworn positions to address the 
additional operational requirements for FOB8 is offset by a net 
reduction of 9 civilian positions from within the Department current 
authorized strength of 443.
    Additionally, we have been very strategic in the hiring of civilian 
positions to best align our resources to our needs. In particular, we 
identified 22 existing vacant civilian positions based on a position 
review for repurposing to meet additional mission requirements such as, 
the 9 sworn officers needed for the security of the new FOB8 and 13 
civilian dispatcher positions needed for the RMP mirror site 
requirements.
    The Department's current authorized sworn strength does not 
entirely provide the necessary resources to meet all our mission 
requirements within the established sworn officer utility or the number 
of work-hours in a year that each officer is available to perform work. 
This ``utility'' number is used to determine overall staffing 
requirements, and balances the utility of available staff with annual 
salary and overtime funding along with known mission requirements such 
as postcoverage, projected unscheduled events such as demonstrations, 
late sessions, holiday concerts, et cetera, and unfunded requirements 
that occur after the budget is enacted, such as unforeseen critical 
emergency situations.
    Thus, mission requirements in excess of available personnel must be 
addressed through the use of overtime, identification of efficiencies 
such as postrealignment and/or reductions, technology, and cutbacks 
within the utility, such as reductions in the number of hours provided 
for training. As a result, our oversight committees are reviewing such 
options to offset mission requirements where possible, such as closing 
lower-priority doors, which will reduce the total hours at posts and 
overtime costs.
    With that in mind, our requested fiscal year 2012 personnel costs 
support the current authorized staffing levels of 2,243 positions, as 
well as a request for 3 new civilian positions for the OIG. This will 
result in the increase of 3 personnel (from 2,243 to 2,246), while 
absorbing the mission requirements associated with FOB8 security and 
the dispatch operations.
    At current staffing levels, the Department's fiscal year 2012 basic 
overtime projection of approximately $33.9 million reflects an increase 
more than the $32 million that was provided for in fiscal year 2011 
with rescission.
    Other requested increases to overtime include an additional 
$215,000 in funding to cover LOC's nonreimbursable events, and $2.4 
million for overtime necessary to secure multi-year AOC initiatives, to 
include the Capitol Dome skirt, and utility tunnel projects. These 
items bring the total fiscal year 2012 overtime request to $36.5 
million which is an increase of $4.5 million.
    The second area of detail is an overall net increase in our 
requested general expenses budget, which includes protective travel; 
hiring, outfitting, and training of new sworn personnel; supplies and 
equipment; management systems; et cetera. While we are requesting an 
overall increase of 29 percent more than the fiscal year 2011 funding 
levels, the majority of the increase request is for new initiatives to 
address identified threats and risks, and for support of the 2012 
political conventions and Presidential Inauguration planning. The 
increase in the request, just for the normal annual needs of the 
Department, excluding new initiatives, and convention and pre-
Inauguration support, is 5 percent.
    These seven new initiatives include:
  --security and law enforcement services for FOB8;
  --security enhancements for the Alternate Computer Facility;
  --security designs for the utility tunnel system;
  --design and installation of a security program for the Capitol Dome 
        Skirt Rehabilitation project;
  --design and installation of security management systems within House 
        and Senate parking garages;
  --software upgrades for the Department's fixed asset system; and
  --a Department-wide travel management system.
    The total funding requested for these new initiatives is $11.8 
million.
    Finally, we are requesting $3 million in general expense funding to 
support the 2012 political conventions and pre-Inauguration planning.
    With your support, the Department continues to successfully perform 
our operational mission and has achieved several key accomplishments 
over the last year that have resulted in greater efficiencies for the 
Department, which include addressing several administrative challenges 
and improving corresponding business practices.
    Operationally, so far this fiscal year, the Department has screened 
more than 3 million visitors to the Capitol Complex; affected more than 
200 arrests; conducted more than 75,000 K-9 sweeps; and screened nearly 
6,500 vehicles. In fiscal year 2010, the Department screened more than 
10 million visitors, affected more than 700 arrests; and conducted more 
than 160,000 K-9 sweeps. These are just a few examples of the many 
operational elements that are conducted daily to ensure the success of 
the Department's core mission.
    With the direct assistance of the Capitol Police Board, who 
provided advisors to assess financial management risks and to provide 
recommended improvements, we have the foundation for sound fiscal 
practices that we are actively implementing and will continuously seek 
to improve upon.
    Included in the sound fiscal practices recommended by the OIG 
through his budget formulation audit and the Board's financial advisors 
through their review of our financial management operations are the 
practices and processes we conducted to create the fiscal year 2012 
budget.
    The Department re-implemented an improved management and budget 
planning methodology which we call the ``Force Development Process''. 
It provides for a transparent decisionmaking process, including reviews 
and approvals by an Investment Review Board made up of key agency 
management, and provides a structure that is results-driven and based 
on meeting operational needs. We also formalized a process for program 
evaluations for selected existing programs, which we plan to expand for 
the fiscal year 2013 process. In addition, in order to ensure the 
accuracy of our budget request, this fiscal year 2012 budget went 
through multiple layers of review and validation by internal and 
external parties, and is traceable to supporting documentation for each 
budget element.
    Additionally, by transitioning our primary vehicle fleet to a 
General Services Administration (GSA)-based fleet leasing program, we 
now have a consistent 5-year life-cycle replacement plan, which saves 
taxpayer dollars over purchasing these primary fleet vehicles, reduces 
repair costs, gives us a predictable annual funding requirement and 
allows us to maintain a consistent state of operational readiness. In 
an effort to take advantage of cross servicing within the legislative 
branch, we also successfully migrated our financial management system 
to the LOC, which saves the Department not just in annual operational 
costs, but in future software upgrade costs through economies of scale 
within the legislative branch. Finally, as a result of programmatic 
efficiencies that enabled the reduction of 11 Hazardous Materials 
Response Team positions, we were able to use those vacant civilian 
positions for security control operators to monitor our alarm system 
which was previously handled by contractors. As a result, the security 
control positions were filled by utilizing USCP employees previously 
transferred to the Department of Labor (DOL) due to worker's 
compensation issues. Overall, this transformation allowed the 
Department to better use available resources to more efficiently 
achieve an operational requirement by returning employees to productive 
work, which allowed us to eliminate a $1.2 million contract for the 
previously contracted-operators and reduce our workers compensation 
charge backs to the DOL by returning employees to duty.
    Further, we continue our work to close audit recommendations and to 
address our material weaknesses from prior audits by working closely 
with our OIG and the Government Accountability Office to address issues 
which have arisen and by providing the evidence necessary to close 
findings. In particular, I am pleased to report that we recently closed 
all eight audit findings related to the USCP OIG's audit of the 
Department's budget formulation process. Further, we are working on the 
resolution of a number of other recommendations in order to achieve 
efficiency and effectiveness of our administrative programs. The long-
term resolution of recommendations related to internal controls, 
business processes and material weaknesses remain of the highest 
importance to our management team.
    As I mentioned in the beginning of my testimony, we are well aware 
of and understand the economic climate that affects our country, the 
legislative branch and the entire Federal Government, and I want to 
assure you that the USCP will successfully adapt our resources and 
continue to safeguard the Congressional community.
    I appreciate the opportunity to appear before you today and would 
be glad to answer any questions you may have at this time.

    Senator Nelson. Thank you, Chief Morse. And thank you all.
    If it's okay, we can try 6-minute rounds of questions. And 
it looks like we'll--maybe I'll just finish that about the time 
the vote is called.
    Ms. Erickson, the fiscal year 2011 enacted level of funding 
for your office included the $4.2 million associated with the 
transfer of the SIS program. Your budget request for fiscal 
year 2012 includes the same level of funding for the SIS 
program. Can you update the subcommittee on the progress being 
made on the transfer of the SIS from the SAA to your office? 
And have you identified any improvements or efficiencies that 
you can find in the implementation of the system?
    Ms. Erickson. Well, the transition has gone very smoothly. 
And I think it's important to remind the subcommittee that the 
idea behind the SIS program was to make the services more 
efficient and cost effective for the Senate. Prior to 2000, 
each office was appropriated a sum of money to purchase online 
subscriptions. And a decision was made, by this subcommittee 
and the Rules Committee, to have one entity be the negotiator 
for these subscriptions, which can be quite costly, as you 
know.
    As part of our education and outreach efforts to Senate 
staff, I think it's fair to say that it was a surprise to some 
of the office administrators that we provided some of these 
services, and that offices were purchasing duplicate 
subscriptions. I think that you'll see some Senate offices will 
achieve cost savings by canceling these subscriptions and 
relying on SIS services.
    Last year, we had a surplus of 0.05 percent. And, with the 
0.2 percent rescission, it cut that amount roughly by half. 
We're currently entering a new procurement stage, and I'm 
pleased to report that we had recommended, based on usage 
statistics, to the Senate Rules Committee, that we eliminate 
one of the service vendors. And they have approved our request. 
We'll see some minor cost savings on that front.
    So, needless to say, with a flat budget, there's not a lot 
of room for error as we enter the procurement negotiations. 
But, I'm hopeful that these services will be maintained, 
because they're valued and used by Senate staff.
    Senator Nelson. Your testimony touches on the fact that 
during fiscal year 2010, the Disbursing Office, in tandem with 
SAA technical support, began implementing a new payroll system. 
What is the status of that Senate payroll replacement project? 
You indicated that phase I should be completed during fiscal 
year 2012. What are the necessary steps? And is everything 
progressing? The status of the replacement projects is what 
we're after.
    Ms. Erickson. The implementation is going well. I will say, 
as you can imagine, anytime you're dealing with payroll, it is 
a high- stakes project. We've been having implementation 
sessions with the vendor who was selected to help with the 
implementation. I've met periodically with the implementation 
group. They meet every 2 weeks for what we call ``fit-gap'' 
sessions. And I think it's fair to say that, so far, everything 
looks good. There's a great deal of work ahead of us.
    But, one thing that I was struck by in attending these 
sessions, is the relatively small number of people, not only 
from the Disbursing Office, but from Terry's shop, in payroll, 
who assist us every 2 weeks in getting the payroll out--the 
small group of people who are working on this project. And 
they're doing this job on top of their already very full-time 
duties of issuing payroll every 2 weeks. I'm pleased to report 
that everything is going well to date. And we will be sure to 
keep you and your staffs informed as we progress on the 
project.
    Senator Nelson. Okay. And what is the cost of the Senate 
Office Personnel System (SOPS)? And is that somehow tied to the 
payroll system? Is it more cost effective to do the personnel 
system in conjunction with the payroll system?
    Ms. Erickson. Sure.
    Senator Nelson [continuing]. In other words, are there 
additional costs associated with adding the personnel system 
later, rather than doing so now, as you're in the 
implementation phase?
    Ms. Erickson. The payroll project will be one that will 
take place in three phases. The first phase will be simply the 
replication of the current system, which we hope to have 
launched by February. The second phase of the project will 
include self-service options, which will allow Senate staff to, 
from their desktops, change their withholdings, their address. 
It will also mean the end of paper paycheck stubs that will be 
mailed to your offices. That will all be sent electronically. 
The third phase of the project will include the SOPS, or 
personnel system, for Senate offices.
    The SAA had asked the vendor who's helping us with the 
implementation, as well as an outside consultant, to do an 
analysis of the risks associated with doing the personnel 
system at the same time as the current payroll system. And they 
recommended that it was too high risk for us to implement at 
this time. So, that will be the third phase of this project.
    Senator Nelson. You mentioned what the new personnel system 
will offer the offices, among other things, interactive ability 
to change certain information would there be some other 
services that would come to the various Senate offices from 
that change?
    Ms. Erickson. Pardon.
    Senator Nelson. Would there be some other benefits, other 
than services, that will come to the Senate offices from this 
changeover?
    Ms. Erickson. Yes, there will. It'll be a much more 
efficient system. And I'd be happy to follow up with the 
subcommittee in more detail on some of the options that would--
--
    Senator Nelson. Sure.
    Ms. Erickson [continuing]. Will be available.
    Senator Nelson. Okay. Thank you. I think that is my time.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    Again, thank you for the hard work that you've done on 
these budgets. And, as you know, we're in challenging times, 
financially, in terms of the Federal budget. So, we're going to 
have to continue to work to find savings where we can. And in 
that effort, we've got our personnel costs, which, in all your 
cases, is obviously a very big part of your budget. It's very 
people intensive. And then we have other expenses. Anticipating 
that, we're going to have to continue to find savings, just 
based on what I expect the overall budget requirements to be, 
there's been discussion of even going back to 2008 funding 
levels.
    So, what I'd like to engage in a little bit is how we would 
go about finding some savings and how we would balance that 
between people and projects. Now, for both Secretary of the 
Senate, SAA, you essentially have flat budgets, and have been 
from, basically, 2010, 2011, now looking at 2012; in the case 
of the USCP, we need to talk a little bit about the 14 percent 
increase you are requesting. I recognize the need for security; 
and, of course, with the tragic event that occurred with 
Representative Gabrielle Giffords, we know that's not only a 
security issue here in Washington, DC, but around the country. 
So, we have to be mindful of those security requirements, too.
    But, let's start, if we could, with the Secretary of the 
Senate. In terms of people and projects now, if we have to hold 
these budgets flat, or even compress them further, talk a 
little bit in terms of what you're realistically able to do 
between people versus some of your other general expenses 
versus any kind of projects that you have going now. How would 
you start to--and I know it may be a little hard for you to get 
into specifics, but that's not what I'm looking for, so much as 
to how you would approach this budgeting process in that 
balance between people, general expenses, and project type 
costs.
    Ms. Erickson. Well, in terms of our operational budget, 
we'll be in great shape if you hold us to our 2008 level of 
funding. Our 2012 budget request is the same level as our 2008 
level of funding on the operations front. With respect to 
staffing, the Secretary of the Senate, over the years, has been 
capped at a level of 253 employees. And I'm pleased to say that 
I think that we're well--we're below that cap on purpose 
because I'm mindful that there may be statutory requirements 
that require me to add full-time equivalents to our budget. An 
example of that would be, in the last Congress there were two 
bills that were proposed, dealing with earmarks, and one that 
would have required us to hire staff who had budgetary 
expertise. I would have had to add staff to my budgets to do 
that.
    Every vacancy that we have, through retirement or 
attrition, we scrutinize carefully to make sure that it's 
necessary to fill it. And at the top of my head right now, I 
can think, in the last few months, that there are four 
vacancies that we currently have that we plan to, hopefully, do 
without by using existing staff.
    Senator Hoeven. Okay.
    Terry.
    Mr. Gainer. We've done some analysis of what it would take 
if we had to reduce the budget by 5, 7, or 10 percent, and then 
tried to analyze what we'd do, from a head count and operations 
perspective. And we do have plans in our mind, if we had to do 
that. I think the head count reduction would come through 
eventual attrition as you stop some programs. So, it is really 
the program area that we'd have to adjust to.
    And I'll give you some ``for-instances''. About 27 percent 
of our operational budget goes for the support of the State 
offices. So, when we've looked at reducing funding, generally 
it's something on the Hill that we change. And if we have to 
reduce substantially, I would really respectfully request, of 
this subcommittee and others, that we take a look at the 454 
offices that we have around the United States, and see if there 
isn't some cost-cutting we could do there. That is a 
substantial portion of our operational budget.
    But, when we look at expenses we've deferred much, as I've 
indicated. And at some point, that bill is going to come due 
potentially slowing things down. The turnover of getting new 
computers or buying new equipment could change dramatically. 
While we keep a high level of response to the Senate community 
to install a computer, move a computer, change a computer, all 
that could change, similar to what we've probably done in our 
own homes if it breaks down; we're not able to pick the phone 
up and have someone there in 15 minutes. So, if the Members and 
the staff could adjust to slower response times, there would be 
money to save. But, operating like that would eventually 
adversely impact your ability to interact with your 
constituents. But, we've at least planned out how we would do 
that, if push came to shove.
    Senator Hoeven. I think that you're thinking in the right 
terms, both of you. You know, we'll see what this number boils 
down to. I'm expecting we're going to end up with some top line 
number for 2012, at some point, here, maybe even as we go 
through these discussions with the administration, in terms of 
the whole debt ceiling issue. We may end up with some top line 
number. We'll see. And then, out of that top line number, of 
course, through the Appropriations Committee, then that puts us 
in a position to actually boil down numbers to some of these 
different budgets. It's tough, from the standpoint that we 
don't have a lot of dollars, obviously, and we're going to have 
to find savings. But, the good part is that we may then have a 
number to come back to you and say, ``Okay, we're going to have 
to try to, you know, live within certain numbers, but then 
you've got some ability to make those decisions.'' And we would 
do everything we could within that number, then, to try to help 
you make it work in the best way possible.
    I think some of the things that you talked about and 
identified-- whether they're exactly the right things to do, or 
not, is something we can work through--but, I think you're 
thinking exactly in the right terms, as far as how we would 
approach the challenge. And, like I said, I think we'll have a 
better idea of what that has to be, as we go forward.
    Chief, you know, obviously, with the security situation, 
that's a tough proposition. And I referenced Representative 
Giffords and the challenge that creates, not only for you, here 
in Washington, DC, but then around the country. How do we--with 
the need for security, not just for Members, but for the 
public--how are you going to approach this? Just start at a 
high level----
    Chief Morse. Sure.
    Senator Hoeven [continuing]. And then get down in some more 
specifics.

               <greek-l>USCP deg.ENVIRONMENTAL ASSESSMENT

    Chief Morse. One thing we do when we formulate our budget 
is, we look at threat and risk. So, we do an environmental 
assessment, and then we do what's called ``force development.'' 
We look at those risks and threats, and we look at what we 
currently do and what we may need to do.
    I'm going to give you one example of where--in the 2012 
budget, when you're looking at a program or operation, how we 
were able to meet a new mission, with respect to threat and 
risk, by not increasing the staffing level of our police 
department. What we did for the FOB8, where we needed eight 
additional officers, we scrubbed vacant civilian positions that 
we had not hired for yet. We reallocated those positions to 
fill those vacancies. That's an example of where we scrubbed a 
program, we were able to utilize vacant positions to reallocate 
for a new mission without asking for an increase in authorized 
strength.
    Another example of where we look at a program or operation 
is with respect to our truck interdiction and monitoring 
program. We've taken information technology, camera systems, 
and new technology, with respect to the lights and the 
intersections, and we will be able to reduce that program by 
reducing officers, reducing vehicles, which then becomes less 
maintenance, less gas, less overtime, and we're able to 
reallocate those officers to other missions.
    So, we will continue to do those scrubs of programs and 
operations to find savings, both in how we do what we do and 
the number of people that we need to do it with.
    Senator Hoeven. Okay. I actually was going to try and see 
if I could work this so the Chairman was back before I went to 
the vote. But, I think, given the time, that I'm going to have 
to excuse myself so that I can go vote. And then, I expect both 
the Chairman and myself will be back pretty shortly.
    Thank you.
    Senator Nelson. I think we can reconvene, here.
    And this is still to Ms. Erickson. Aside from the SIS 
program request, your fiscal year 2012 budget is very 
conservative. What measures are you using, internally within 
your agency, to control the costs?
    Ms. Erickson. Well, with a relatively small budget of $2 
million, I have to say that we're vigilant, on a daily basis, 
of watching our budget.
    Just a few examples. Our Senate library staff, every year, 
review the subscriptions and the database of subscriptions that 
we have. And this year, they were able to find $38,000 in 
savings over the next 3 years. Another example, our Senate 
chief employment counsel staff have eliminated the purchase of 
hardbound legal books, and have achieved $6,000 in annual 
savings. Our Senate Stationery Room tackled a project, at the 
request of Senate office administrators, to provide online 
ordering services to offices. Initially, we thought we would 
contract that out, and then, looking at the costs, we decided 
we'd do it internally, using the resources we have here, 
relying heavily on our Senate Webmaster to achieve some cost 
savings. Now, it may not have all the bells and whistles that 
an outside contractor would have provided us, but I'm confident 
it'll get the job done for Senate offices.
    Other small things we do: Not every staff member has a cell 
phone and BlackBerry. We limit those to individuals who are 
department directors or those who have emergency operation 
responsibilities. In the last 2 years, we've limited staff 
travel to attend training and conferences. So, those are just 
small ways that we try to achieve cost savings for our 
operational budget.
    With respect to salaries, as I mentioned to Senator Hoeven 
earlier, every time we have a vacancy, we scrutinize it to make 
sure that it's one that we really need to fill. And, in 
recognizing the tight economic times that we're in, I can think 
of, off the top of my head, four vacancies that we currently 
have had, in the last few months, that we plan to keep open and 
rely on existing staff to assume those duties.
    Senator Nelson. Well, thank you. And I commend you for the 
steps that you've taken to control costs, and submitting such a 
lean budget. And after giving you all those compliments, I 
guess it might come as a shock that I will ask the question: If 
you had to submit a 5-percent reduction from fiscal year 2011, 
do you have any thoughts about where you might make those kinds 
of reductions?
    Ms. Erickson. Well, we have a lean budget, so it would be 
tough. And many of the services that we provide are ones that 
we have statutory mandates to provide. But, we would do our 
best to scrutinize the budget to come up with those savings. We 
would do as directed by the Appropriations Committee.
    With respect to the SIS program, I have to say that, if we 
took a 5-percent cut, it would bring the level of funding for 
that program back to 2008 levels. And it would require us to 
make drastic cuts in the services provided to Senate offices.
    Senator Nelson. And the Senate offices don't want those 
drastic cuts in their service, do they?
    Ms. Erickson. They do not.
    Senator Nelson. I know.
    Ms. Erickson. In fact, recently, the leadership 
directories, which is one of the services under the SIS 
program, went dark for a few hours, and the phones in our 
Senate library were ringing off the hook with complaints from 
Senate staff. We like to keep them happy.
    Senator Nelson. Well, thank you. I appreciate it very much.
    As we look at the Senate SAA budget, your request, Mr. 
Gainer, is only slightly above 2011 enacted level. And I note 
that you would have been below, except for the 2.2 percent 
across-the-board cut that was applied to that bill. And once 
again, I'd like to commend you for submitting a budget that 
basically reflects a freeze in spending. And I have a couple of 
questions about your request and the current funding levels.
    Number one, does your increase in salary funding for fiscal 
year 2012 include a request for additional staff?
    Mr. Gainer. No, Sir, there are no additional staff 
requests.
    Senator Nelson. How much do you currently have in remaining 
prior year unobligated balances, which you have said you would 
like to see applied?
    Mr. Gainer. There is approximately $10 million of 
unobligated balances, Senator. And we have a plan for that 
money. Part of it goes to completing the work that we're doing 
with the Secretary of the Senate on the payroll system. We 
don't know if we have allocated enough to complete the project, 
so we are reserving some funds, in case there are additional 
requirements. We're reserving some funds that are related to 
the question you had about the personnel system, one large item 
that benefits the entire Senate community. And then, we'd have 
to prioritize those projects that we've deferred over these 
last couple years, and see how we would best use the funds.
    Senator Nelson. Right. And how much of those unobligated 
balances would expire at the end of fiscal year 2011 if not 
used?
    Mr. Gainer. Approximately $5 million will expire.
    Senator Nelson. All right. Unfortunately, if we're going to 
get our fiscal house in order, it's going to take a bit more 
than a freeze. So, I'd like to ask you the same question that I 
asked Ms. Erickson, just a minute ago. Do you have any areas 
that you might identify if you were looking at a 5-percent 
reduction from the previous number?
    Mr. Gainer. Five percent would be about $11 million for us, 
and we have considered that. Again, I believe we've deferred 
all that we should defer. And what we would do, Senator, is 
look to the State offices. Twenty-seven percent our operational 
costs go to support the 454 State offices, including computers, 
installation, network storage, etc. I think we'd have to go 
back to you and the other respective committees to say, ``Is it 
time to take another look at the number of statewide offices we 
have--454--and how they're staffed?'' That would be one way to 
spread the reductions.
    Then, I did mention to Senator Hoeven, if we can change the 
expectations of the Senators and their staff, and 
concomitantly, what your constituents want, we could the slow 
process down. We have a rapid response time on service 
requests. And, like people who have computers at home, it may 
be 3 or 4 years between the time I replace computers. We update 
and replace equipment more quickly here, so our movement toward 
virtual computers and cloud computing would look different. 
Every time a vendor comes out with a new device, we put it in 
our catalog. You pay for it out of your funds, but we have to 
have the systems to support it. We'd have to rethink all that.
    Senator Nelson. And, as a result of preparing for the 
threat in the Government shutdown last month, were you able to 
identify any efficiencies in services that, if implemented now, 
could potentially lead to future savings? I know we all had to 
take a look, internally, at the offices, and ask the basic 
questions about what was essential--not what was unnecessary, 
but what was essential. Did you find anything, in that 
exercise?
    Mr. Gainer. Well, one thing I found is we lost a lot of 
productivity preparing for the shutdown: the cost of about 
$200,000. But, I do not think that we had the ah-ha moment to 
say, ``We can do without that'', because the demand slows down.
    Senator Nelson. Yes. You're subject to whatever demand 
there is out there.
    And that is the same thing for you, Ms. Erickson. Did you 
find the same thing, the slowdown in demand, because everybody 
was busy doing their own thing internally in their own office?
    Ms. Erickson. Well, I'll chime in with Terry, that a lot of 
lost productivity was----
    Senator Nelson. Absolutely.
    Ms. Erickson [continuing]. Lost, that week, prior to the 
potential Government shutdown.
    We took the Antideficiency Act requirements very seriously 
in our operation. And we simply planned to keep open the small 
staff, in the Disbursing Office, that would have to issue the 
payroll during that period. And then, we planned, of course, to 
have our legislative staff here to maintain floor operations. 
But, the rest of our departments were closed, as required by 
the Antideficiency Act.
    Mr. Gainer. Senator, can I have make one remark----
    Senator Nelson. Sure.
    Mr. Gainer [continuing]. On that question?
    Senator Nelson. Sure.
    Mr. Gainer. It did dawn on me that during that whole shut 
down evolution, Christy Prietsch, who runs the Senate-wide 
Employee Assistance Program, saw the work in her office 
magnified 10 times. So, there was no small amount of angst on 
everyone's part. But, I'd also like, when we have an 
opportunity, to talk about some things that might make us all 
more efficient as we go through some of these exercises.
    Senator Nelson. Thank you.
    Terry, can you update us on the progress of the telecom 
modernization project?
    Mr. Gainer. Senator, I can. The good news is, we anticipate 
that the pilot project will be out not much later than the end 
of September. And the pilot project to roll out the new phone 
system that will continue to build on the Watson Program will 
involve a couple of the Senate offices, a portion of my own 
office, and some of the committees.
    It has taken us longer than expected. There have been some 
knockdown drag-out meetings, in my own office, about us being 
behind schedule on that. It's not because of a lack of will, 
but it's due to the evolving and complex nature of the project.
    So, we are now on track to get the pilot up that will have 
some of the other savings that go along with putting in that 
new system, the ease with moving around a phone, changing 
phones, and people being able to get their messages on their 
BlackBerrys. There are all sorts of enhancements that are 
efficiency-oriented. So, by the end of this calendar year, and 
into the beginning of the next calendar year, we'll move 
steadily through the Senate community, replacing all the 
phones.
    Senator Nelson. Do you anticipate the need for any 
additional funding for the project, or do you think we have it 
adequately funded, at the moment?
    Mr. Gainer. I do believe the funding is sufficient now, 
Senator.
    Senator Nelson. Good. Okay.
    Has the Senate community been receptive to the new Watson 
voice messaging system that was necessary that you got put in 
place?
    Mr. Gainer. Very much so. There were the initial hiccups as 
with any new system, but I think we quickly responded to those. 
We've worked with the Rules Committee and others. The response 
to that has been very good. It's helped with call waiting and 
call volume. The other real unique feature is the ability to 
get voicemail messages on your BlackBerry, or from your phone 
to your BlackBerry and your computer.
    Senator Nelson. I understand you're going to be issuing 
smart identification cards. What will the benefit be to that? 
And is there any unusual cost associated with it?
    Mr. Gainer. About one-third of those 454 statewide offices 
are in Federal buildings. And the Federal buildings are rapidly 
moving toward those ID cards. So, to make it more efficient for 
State staff members to get in and out of their offices, it will 
be very important. We've been after smart ID cards since my 
days as the Chief of the USCP. If we all had them, it would be 
a lot easier and more efficient for people to get in and out of 
the building. So, we have spent about $1.4 million on the 
project, so far. I think the annualized cost is somewhere in 
the range of $110,000-a-year; but, as the executive branch 
moves to these, we need to keep up.

     <greek-l>USCP deg.VALIDATING THE USCP FISCAL YEAR 2012 REQUEST

    Senator Nelson. Thank you.
    Chief Morse, your agency and the CBO were the only two 
accounts that received an increased funding from fiscal year 
2010 level in the fiscal year 2011 continuing resolution. And 
it was done to annualize that funding correction due to the 
salary miscalculation at the Department in fiscal year 2010. 
Now, based on the work done by the outside contractors which 
were hired by the USCP Board last year, what steps have you 
taken to validate the accuracy of your fiscal year 2012 budget 
request? And how confident are you that we won't see, or have 
to adjust for, another shortfall at some point in the future?
    Chief Morse. With working with the Board's contractors, 
we've done a number of things. One is, as reported in my 
opening remarks, we have closed all eight recommendations 
associated with the audit of the budget formulation process. 
That enabled us to do several things. One is to go back to what 
had worked very well for us in implementing our Force 
Development Program, our environmental assessment, where we 
have a very responsible and reasonable approach, with respect 
to threats and risks. And that's what our budget is designed 
around.
    We also have implemented a top-down review of our budget to 
include the Investment Review Board, that we have done in the 
past, which includes our managers in the review of the process. 
We have started writing all standard operation procedures (SOP) 
related to the budget formulation process.
    And as an example, what we did, with respect to the 
formulation process itself, was have the people who actually 
work in those positions be a part of the formulation of those 
SOPs so that we would not only know the exact steps to take, 
but we would be a part of writing those SOPs for anyone in the 
future who may come in.
    Another step that we took was to ensure that we reviewed 
our positions there, our position descriptions, and then filled 
the most critical positions within that organization. And, as I 
said, I'm happy to report, we closed all those recommendations. 
The SOPs have been formulated for the process. They continue to 
be done as we move through the execution of our budget. We are 
very confident that we have produced a very solid and accurate 
budget, and one that we will continue to do into the future.
    Senator Nelson. Did the outside contractors coordinate with 
the GAO on the previous work done by the GAO on your budget? In 
other words, was there cooperation, corroboration back and 
forth?
    Chief Morse. We've had very good cooperation, not only with 
the GAO, but with the IG, with respect to the audit findings, 
previous recommendations that have been made. One of the things 
that we wanted to do, and they have been very helpful in doing, 
is ensuring that we're not duplicating any recommendations, 
that we're all on the same page, and that we're doing the most 
important things first, and that were ensuring that the things 
we do are the most efficient and effective for the formulation 
of our budget and the execution of it.

  <greek-l>USCP deg.BUDGET REQUEST AND ITS IMPACT ON THE LEGISLATIVE 
                                 BRANCH

    Senator Nelson. In addition to the increased funding that I 
just mentioned, your department's asking for an additional 
$47.5 million, or 14 percent, in fiscal year 2012. To put it in 
further perspective, this $47.5 million increase is the 
equivalent to 1 percent of the legislative branch bill, as a 
whole. If this bill were held at a freeze, we'd need to cut 
every other agency by 1 percent, which I'm sure makes them very 
pleased, to make up for the increase in funding for the USCP. 
However, it's my goal that we reduce the funding by an 
additional 5 percent, if we can. But, if we fully fund the 
USCP, it means a 6-percent cut to everybody else. So, what do 
you say to your colleagues sitting at the table?
    Chief Morse. Well, you left me in a pretty bad position, 
didn't you? What I would say is, you're safe, and we intend to 
keep it that way.
    Senator Nelson. And you're packing, too.
    Chief Morse. Yes. There you go.
    Well, I would say that--look, I'm very humble, and I took 
responsibility for the miscalculations of 2010. And I take 
responsibility for anything that the USCP, unless it's good; 
and that's where I give the credit to the people that support 
me, like the USCP Board, this subcommittee, and the people that 
are sitting behind me today that work for me.
    I think it's important to say that a lot of our budget 
increases--you know, we have an explanation behind it that's 
very important to get out. One of the things I wanted to say 
was and with Senator Hoeven, I mentioned, too is that, we're 
not all about increases. We're also about, really, effectively 
and efficiently running our police department. We've worked 
with the Senate Sergeant at Arms Rules Committee, as the 
example was given in Mr. Gainer's opening remarks, where we 
saved well more than a half a million dollars. We are working 
with technology, in one of our programs currently, that will 
reduce the number of vehicles, people, gas, and maintenance. We 
scrubbed our open civilian vacancies and were able to 
reallocate those to other mission requirements that were placed 
on us so that we wouldn't have to raise the cost of or, raise 
the size of our police department. We've done a fleet vehicle 
leasing program that this subcommittee reviewed and approved, 
and, over a course of time, saved several million dollars, over 
the next 10 years, with regard to purchasing, which enables us 
to have a refreshed fleet, it enables us to do our mission more 
carefully. We've scrubbed programs within our police 
department, where we have improved the efficiency and 
effectiveness. We were able to save 11 positions. We were then 
able to get rid of a multimillion-dollar contract for alarm 
monitoring, bring that in-house. We looked at USCP employees 
previously transferred to the Department of Labor, and brought 
them back and gave them positions.
    So, we have worked very, very hard to save money, be 
creative in saving money. But, the mission comes first for us, 
and sometimes the mission continues to grow.
    And with respect to the question I heard earlier, with 
respect to a 5-percent cut from the 2011 to the 2008 levels, as 
an example, after the 2008 budget, we incurred two very large 
mission requirements. One was the merger with the LOC, and the 
other was the opening of the Capitol Visitor Center.
    So, all those types of things have to be considered, with 
respect to our budget. And I appreciate all my partners in the 
room, and their contribution and support to our police 
department. But, I also wanted them to know that we work very, 
very hard not to increase our costs, but to find ways to save 
money.
    Senator Nelson. Thank you.
    Senator Hoeven.
    Senator Hoeven. Thanks, Mr. Chairman.
    You know, I think you may be covering the same point that I 
want to explore for just a minute. I thought both Nancy and 
Terry did a very good job of expressing how they would approach 
any further reductions that we may need to make, and I agree 
with that approach.
    In the security area, it's challenging, to say the least, 
because, on the one hand, we can tell Members of Congress and 
the Senators, ``Look, if we have to compress some budgets, 
you're going to have to do without some services. I mean, just 
understand that's what this means. So, that means you may not 
have as many constituent offices in your State, and the 
associated personnel, and so forth, that goes with them.'' But, 
I think, in a very direct way, we can go back to the Members 
and say--and obviously, on the House side, they do it, and, on 
the Senate side, we do it--but, go back to our Members and say, 
``Look, these are the kinds of changes we're going to have to 
make. What do you want? What don't you want? And there's an 
associated cost or reduction that goes with it.'' And I think 
that's how we would, in all likelihood, have to approach most 
of it, other than to the extent we can defer projects or defer 
maintenance, which, as you rightfully said, catches up with 
you. But, I think that's how we'll have to approach these 
things.
    In the security area, it seems to me that is a particularly 
challenging proposition, just given the nature of both the 
additional projects you've been asked to take on and just the 
nature of security, in general, both for elected individuals, 
but also for the public that's here and in these facilities and 
around the country.
    So, we started to get into it a little bit before I left 
for the vote, but I just want you, Chief, to explore for me for 
a minute what realistic possibilities does that give us? Now, I 
notice, right now, it appears that you have a number of vacancy 
positions, relative to your full-time authorized, and you are 
asking for nine more positions for 2012. So, maybe just, if you 
haven't already touched on both your roughly 25 or so vacant 
positions now, and the 9 additional. But then, if you would, 
really touch on--how would I go back to the Members, or how 
would the chairman go back to his Members and say, ``If you 
want some reductions these are the things that are going to 
have to happen?'' What would that dialogue look like?

             <greek-l>USCP deg.FISCAL YEAR 2012 REDUCTIONS

    Chief Morse. Okay, well, with respect to the authorized 
strength, we did take--we have an authorized strength of 443, 
with our civilians. We scrubbed 22 of those positions that are 
currently vacant and said, ``Let's reallocate those instead of 
growing the sworn--or, growing the overall strength of the 
department, let's just reallocate those--nine of those 
positions to the sworn positions, and ask for the funding for 
those, in order to accomplish that new mission of opening a new 
building.'' So, that is where we reallocated, from within, to 
not grow, overall.
    But, with respect to security, it's ever-evolving. The 
threat continuously changes. They're trying to stay one step 
ahead of us, and it's important for us to stay ahead of them. 
Therefore, it's sometimes hard to predict, you know, what the 
next type of emerging threat may be, so we have to, obviously, 
maintain the highest level of technology. So, when you look at 
cutting general expenses, and you look at the agency trying to 
stay within the budget constraints provided, we get into 
deferring life-cycle replacement. You can do that for a time, 
but then it does start to adversely affect security, because 
now you're behind in technology, or the technology you have 
starts to break down on you. So, deferring those costs is not 
something that you want to do to--for too many cycles. You have 
to constantly, as I said, think ahead of the adversary. 
Sometimes that means the responsibility of securing things that 
may be temporary, like some of these projects. These are not 
permanent increases, they're temporary increases, but they're 
needed in order to reduce the risk and threat that those can 
pose while those projects are ongoing.
    So, the only other way, without cutting security, is to cut 
mission. And cut mission is one thing that we worked on, with 
respect to the door-closure plan.
    Senator Hoeven. All right.
    Chief Morse. We simply looked at hours of operation, the 
number of people that are screened through those locations, and 
we looked at the impact that may have on the institution's 
responsibility to be able to work freely. So, we measured that, 
and we were able to find savings. I think we have to continue 
to do that.
    Senator Hoeven. Yes.
    Chief Morse. And I would not recommend that we cut 
security, but that we look at mission, and find other 
innovative ways to reduce the amount of mission that we have, 
which then results in a reduction in overtime, a reduction in 
people; and you are not sacrificing security for that.
    Senator Hoeven. Right. But--and I think that--with your 
indulgence, Mr. Chairman--that does make sense, both in terms 
of timelines--how long facilities are open, the number of 
facilities that are open--that makes sense.
    Chief Morse. Yes. Yes, Sir.
    Mr. Gainer. One of the things that the USCP Board--the 
House SAA, myself, and the AOC--is doing under the Chief's 
leadership, is to reach out to Homeland Security and the Secret 
Service. For instance, we each have an entire operation that 
does screening of vehicles and trucks. So, we said, ``Is there 
efficiency in trying to do something together?'' And the 
Chief's staff have been working very hard with Director 
Sullivan's staff to see how we can merge the systems. We're 
nearing completion. The Congress has given the USCP Board and 
the AOC property where we plan to build the model offsite 
delivery facility. We've entered into discussions with Homeland 
Security and the Secret Service to make that a joint project. 
So, while it doesn't help your numbers here, if the Office of 
Management and Budget were giving credit for something being 
done, this is a way we're trying to minimize stovepipes here in 
the District.
    Senator Hoeven. I think that's right on. I mean, I would 
have to see your reaction across the board. I think it is right 
on. And there may be some opportunities here. And, of course, 
we would give some credit for those savings that we help 
generate with others in any kind of joint endeavor. But, I do 
have to say that I appreciate, very much, your responses to my 
questions. And I agree, I think you're looking at things the 
right way. And so, thank you, again, for the good work that you 
do.

      <greek-l>USCP deg.CONVENTION AND PRE-INAUGURAL SUPPORT COSTS

    Senator Nelson. Thank you, Senator Hoeven.
    Chief, you have $3 million, I think it is, for the coverage 
of conventions and pre-Inaugural support planning. How did you 
arrive at that $3 million? Is it based on prior experience, 
within--that in mind? Or, how did you do that?
    Chief Morse. Yes, we use historical data, and also, site 
location drives the cost. But, in those costs, obviously, are, 
you know, travel, transportation, rental, per diem, et cetera. 
And those costs are derived from previous conventions and, 
obviously, Inauguration support.

                     <greek-l>USCP deg.IG INCREASES

    Senator Nelson. I noticed, on the IG increase, that you 
asked for three additional FTEs for the IG's staff. How many 
staff does the IG currently have, at the present time?
    Chief Morse. Including the IG, four.
    Senator Nelson. Four? Now, you're almost doubling the IG 
staff there. What is the basis for determining that you need to 
add three additional to the current staffing?
    Chief Morse. The request for increase comes from the IG and 
his justifications to the USCP Board. And with their approval, 
those numbers were derived. So, it's not based on my 
justification for increase.
    Senator Nelson. And you'd rather not make him mad.
    Mr. Gainer. Senator, from a USCP Board perspective, of 
which I am the chairman this year--Bill Livingood, the House 
SAA, and I rotate that each year--the Inspector General has 
steadily asked for additional staff over the years, and we've 
steadily said no, except we now see that we're missing some 
opportunities to conduct audits. With the help of those audits 
and investigations, Phil's operation could be more efficient.
    Senator Nelson. So, we could realize some savings, 
ultimately, with more efficiency being pointed out through the 
IG's audits? Is that part of our justification?
    Chief Morse. Yes. I welcome help----
    Senator Nelson. Sure.
    Chief Morse [continuing]. And assistance and 
recommendations. And the ones that I've been getting from the 
USCP Board, obviously, the IGs and the GAO, all have led to 
productive, efficient outcomes.

             <greek-l>USCP deg.RADIO MODERNIZATION PROJECT

    Senator Nelson. How's the radio modernization project 
working out for us?
    Chief Morse. Well, currently--there are five phases in the 
radio modernization project--currently, we're in a combined 
phase 3 and 4. That phase is the acquisition, procurement, and 
testing, and some installation and construction that's ongoing.
    We have two mirror sites. The one mirror site is about 97 
percent complete and on target for its completion date. The 
second mirror site is about 18 percent complete and on target 
for its completion date.
    There are requests for proposals associated with this with 
the money that's been obligated. Those RFPs, a total of five. 
One was released and awarded. The other two have been released 
and are in a phase of either closure or technical inspection. 
And then, the other two are pending release either this month 
or next month.
    Senator Nelson. Do you think that the $7.2 million being 
requested in fiscal year 2012 represents the last installment 
for the project?
    Chief Morse. In the 2011 appropriation that you provided 
us, we were on a diet in our general expenses. By enabling us 
to not change the enacted general expense from the previous 
year, we'll be able to derive the $7.2 million from that 
general expense and, therefore, will rescind that from our 2012 
budget request.
    Senator Nelson. All right.
    I believe that's all the questions that I have.
    Senator Hoeven.
    Senator Hoeven. I don't have any additional questions, 
unless there's any other comment, as a result of this hearing, 
that anybody would like to make.
    Mr. Gainer. Would you mind if I just opined two things?
    We would hope you might consider a single salary and 
expense appropriation for us, as the majority of executive 
branch agencies do, and some of the legislative branch. We have 
about 10 accounts that my Chief Financial Officer says, ``If I 
were dreaming, it would be nice to reduce the number of funds, 
and have the flexibility in the movement of funds, with all the 
appropriate oversight.'' But, maybe take another look at that.
    This one may be more of a stretch. I've long thought, as I 
did in State government, that I wish we could do biennial 
appropriations so that we could do a little better planning on 
the purchase and replacement of equipment and securing 
contracts. In 10 years in State government, I never had any 
success to do that, but, it's a dream, from an agency 
perspective. I don't know how much more of a headache it gives 
your staff, but it makes our job a little bit easier.
    Senator Hoeven. Well, we'll ask the budget analysts to look 
into the salary line.
    And again, Mr. Chairman, as long as it is with your 
agreement.
    Senator Nelson. Sure.
    Senator Hoeven. I agree on the 2-year--matter of fact, I'm 
cosponsoring legislation to go to a 2-year budget cycle. So, I 
absolutely agree with you. And anything we can do, in the 
interim, without legislation, to look at that, I agree. I think 
they're both good ideas. We'll see what we can do.
    Mr. Gainer. Thank you.
    Senator Nelson. I would agree. And I'm looking at perhaps 
sponsoring that legislation, myself. We're looking at it 
internally. But, having gone through biennial budgeting in the 
past, it certainly would avoid having us make a pie a piece at 
a time around here, the way we have to. We would have a more 
comprehensive approach. I think you're absolutely on target. 
And I hope many of my colleagues will feel the same way.
    Mr. Gainer. Thank you, Sir.

                         CONCLUSION OF HEARINGS

    Senator Nelson. Thank you.
    Well, thanks, all of you. I appreciate it very much.
    And we're recessed. Thank you.
    [Whereupon, at 3 p.m., Thursday, May 12, the hearings were 
concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]7


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Ayers, Stephen T., Architect of the Capitol......................     1
    Prepared Statement of........................................     5
    Summary Statement of.........................................     3

Billington, Hon. James H., Librarian of Congress, Library of 
  Congress.......................................................    87
    Prepared Statement of........................................    90
    Questions Submitted to.......................................   115
    Summary Statement of.........................................    88
Boarman, William J., Public Printer, Government Printing Office..    54
    Prepared Statement of........................................    56
    Questions Submitted to.......................................    82
Chrisler, Tamara E., Esq., Executive Director, Office of 
  Compliance.....................................................    18
    Prepared Statement of........................................    20
    Questions Submitted to.......................................    40

Dizard Jr., Robert, Chief of Staff, Library of Congress..........    87
Doby, Chris, Financial Clerk, Office of the Secretary, U.S. 
  Senate.........................................................   121
Dodaro, Gene L., Comptroller General, Government Accountability 
  Office.........................................................    45
    Prepared Statement of........................................    48
    Questions Submitted to.......................................    77
    Summary Statement of.........................................    46
Dwyer, Sheila, Assistant Secretary, Office of the Secretary, U.S. 
  Senate.........................................................   121

Elmendorf, Douglas W., Ph.D., Director, Congressional Budget 
  Office.........................................................    61
    Prepared Statement of........................................    63
    Questions Submitted to.......................................    84
Erickson, Hon. Nancy, Secretary of the Senate, Office of the 
  Secretary, U.S. Senate.........................................   121
    Prepared Statement of........................................   125
    Summary Statement of.........................................   123

Gainer, Hon. Terrance W., Senate Sergeant at Arms, Sergeant at 
  Arms and Doorkeeper............................................   192
    Prepared Statement of........................................   194

Hoeven, Senator John, U.S. Senator From North Dakota:
    Prepared Statement of........................................   190
    Questions Submitted by..........................40, 77, 82, 84, 115
    Statement of.................................................     2

Morse, Phillip D., Sr., Chief, United States Capitol Police......   217
    Prepared Statement...........................................   218
Mulhollan, Daniel P., Director, Congressional Research Service, 
  Library of Congress............................................    87
    Prepared Statement of........................................    92

Nelson, Senator Ben, U.S. Senator From Nebraska, Opening 
  Statements of..........................................1, 45, 87, 121

O'Keefe, Ambassador John, Executive Director, Open World 
  Leadership Center..............................................   101
    Prepared Statement of........................................   102

Pallante, Maria, Acting Register of Copyrights, Copyright Office, 
  Library of Congress............................................    87
    Prepared Statement of........................................    95


                             SUBJECT INDEX

                              ----------                              

                        ARCHITECT OF THE CAPITOL

                                                                   Page

AOC Accomplishments..............................................    15
AOC's Commitment and Staff.......................................     4
Additional Committee Questions...................................    40
Addressing Deferred Projects Within Budget Constraints...........    25
Annual Operating Budget Request..................................    14
Blue Ribbon Panel................................................    26
Budget:
    Challenges...................................................    39
    Cuts and Impact..............................................    22
Capitol:
    Budget Request and Project Prioritization....................     8
    Dome Project.................................................    29
Deferred Maintenance vs. New Projects............................    37
Energy Reduction Requirements....................................    36
Fiscal Year 2012 Capitol Budget Request..........................     7
Gap Analysis.....................................................    35
House Historic Buildings Revitalization Trust Fund...............    38
Integrating Financial Management Systems.........................    35
Life-Safety Enhancements and Energy Efficiency Improvements......    12
Operations Budget Personnel Costs................................    38
Prioritized Projects.............................................     4
Project Prioritization Process...................................    24
Reducing Costs/Services..........................................    30
Utility Tunnel Repairs--Radio Project............................    29

                      CONGRESSIONAL BUDGET OFFICE

Additional Committee Questions...................................    77
CBO Budget.......................................................    61
Cost Estimates...................................................    71
Current Fiscal Year Funding......................................    62
Decrease Funding.................................................    84
Entitlement Analyses.............................................    73
Impact on Analyses...............................................    84
IT Resources.....................................................    71
Recent Funding History...........................................    64
Request for Studies..............................................    72
Some Details of the CBO's Fiscal Year 2012 Budget Request........    65
Staffing:
    Level........................................................    71
    And Hiring...................................................    73
Supplemental Funds...............................................    62

                    GOVERNMENT ACCOUNTABILITY OFFICE

Additional Committee Questions...................................    77
Appendix:
    IV--Serving the Congress and the Nation: The GAO's Strategic 
      Plan Framework.............................................    53
    I--The GAO's 2011 High-Risk List.............................    50
    III--How the GAO Assisted the Nation, Fiscal Year 2010.......    52
    II--Selected Testimony Topics, Fiscal Year 2010..............    51
Constrained Fiscal Year 2012 Budget Request......................    50
Duplication Report...............................................    78
GAO:
    Assistance Helps the Congress Make Informed Decisions........    76
    Balances Resources with Priorities...........................    74
    Field Offices................................................    80
    Resources Used To Oversee the Troubled Asset Relief Program..    68
General Budget...................................................    77
Methodology Behind GAO's Report on Program Duplication--GAO-11-
  318SP..........................................................    69
The:
    GAO Maintains Effective Workforce Relations..................    50
    GAO's:
        Efforts Help the Congress Address Domestic and 
          International Challenges...............................    49
        Mission..................................................    53

                       GOVERNMENT PRINTING OFFICE

Additional Committee Questions...................................    77
Congressional Printing and Binding...............................    82
Fiscal Year 2012 Appropriations Request..........................    59
GPO..............................................................    56
    Estimates of Work............................................    75
    Staffing.....................................................    74
GPO's Support for Congress.......................................    55
Inaugural Printing...............................................    67
Investment Funds.................................................    68
150th Anniversary of the Government Printing Office..............    60
Printing Costs...................................................    66
Revolving Fund...................................................    83
Salaries and Expenses of the Superintendent of Documents.........    83

                          LIBRARY OF CONGRESS

Acknowledgement of Dan Mulhollan.................................    88
Additional Committee Questions...................................   114
Addressing Fiscal Challenges.....................................    89
Broad:
    Perspective of Multiple Disciplines..........................   112
    Scope of the LOC Mission.....................................   108
CRS:
    Request......................................................   110
    Pooled Staff for the Congress................................    92
Cloud Computing..................................................   118
Considered Programs for the Cloud................................   118
Consolidation of Data Center Assets..............................   117
Content Management...............................................   116
Copyright Records Digitization Project...........................    97
Cost of Protecting Electronic Information........................   118
Customer Satisfaction............................................    94
Electronic Serials Project.......................................    98
Fiscal Year 2012 Budget Request..................................    95
Fort Meade Module 5..............................................   115
IT Security Funding..............................................   116
Impact of:
    Fiscal Year 2011 Continuing Resolution.......................   106
    Not Funding IT Security......................................   116
    Personnel Cuts...............................................   108
    Reduced Funding..............................................   115
Infrastructure for the Information Age...........................   110
Legal and Policy Activities......................................    98
Licensing Division Re-Engineering................................    98
Limited Flexibility To Absorb Cuts...............................   109
Minimal Increase in Fiscal 2012 Request..........................   107
Opportunities To Defer Requirements..............................   108
Permanent Damage of Reducing Acquisitions........................   107
Program:
    Funding......................................................    97
    Overview.....................................................    96
Registration of Copyright Claims.................................    97
Restoring Information............................................   116
Sensitive Data Controls..........................................   118
Specifics of CRS Request.........................................   110
Support for the Congress.........................................    93

                          OFFICE OF COMPLIANCE

Additional Committee Questions...................................    40
Budget Cuts......................................................    40
    And Impact...................................................    22
Changes to the CAA...............................................    42
Impact of Budget Cuts............................................    19
Need for Inspectors..............................................    19
Project Prioritization Process...................................    24
Risk-Based Approach to Investigations............................    18
Safety and Health Amendments That Will Result in Cost Savings....    42
What:
    Happens With Cuts Below Current Levels.......................    22
    We:
        Can Do With Fiscal Year 2011 and Fiscal Year 2012 Funding    21
        Cannot Do Even With What We Requested....................    21
Workplace Rights Amendments That Will Result in Cost Savings.....    43

                    OPEN WORLD LEADERSHIP CONFERENCE

Additional Committee Questions...................................   114
Effectiveness of OWLC............................................   101
In-Kind Giving and Support.......................................   113
Investment for the Congress and Asset for Constituents...........   101
Open World Strategic Plan Objectives and Costs...................   113
OWLC and the Congress............................................   103
OWLC's 2011 Activities and Plans for 2012........................   105
Ramifications of Funding at Fiscal Year 2010 Level...............   113
Recent Program Highlights and Results............................   104

                      UNITED STATES CAPITOL POLICE

Budget Request and its Impact on the Legislative Branch..........   231
Convention and Pre-Inaugural Support Costs.......................   234
Environmental Assessment.........................................   225
Fiscal Year 2012 Reductions......................................   233
IG Increases.....................................................   234
Radio Modernization Project......................................   235
Validating the USCP Fiscal Year 2012 Request.....................   230

                              U.S. SENATE

                        Office of the Secretary

Administrative Offices...........................................   149
Bill Clerk.......................................................   128
Captioning Services..............................................   129
Conservation and Preservation....................................   151
Curator..........................................................   151
Daily Digest.....................................................   129
Education and Training...........................................   157
Enrolling Clerk..................................................   133
Executive Clerk..................................................   133
Financial Operations.............................................   136
Gift Shop........................................................   158
Historical Office................................................   159
Human Resources..................................................   164
Implementing Mandated Systems....................................   125
Information Systems..............................................   165
Interparliamentary Services......................................   167
Journal Clerk....................................................   134
Legislative Offices..............................................   127
Library..........................................................   169
LIS Project......................................................   168
Official Reporters of Debates....................................   135
Page School......................................................   179
Parliamentarian..................................................   135
Presenting the Fiscal Year 2012 Budget Request...................   125
Printing and Document Services...................................   180
Public Records...................................................   182
Stationery Room..................................................   183
Web Technology...................................................   183

                    Sergeant at Arms and Doorkeeper

Capitol Facilities...............................................   209
Central Operations...............................................   207
Continuity and Emergency Preparedness Operations.................   196
CVC..............................................................   209
Doorkeepers......................................................   210
Employee Assistance Program......................................   215
Enhancing:
    Security for the Senate......................................   203
    Service to the Senate........................................   201
    Stewardship..................................................   205
Financial Plan for Fiscal Year 2012..............................   215
Intelligence and Protective Services.............................   199
IT...............................................................   200
Media Galleries..................................................   212
Operations.......................................................   206
Parking Operations...............................................   207
Photography Studio...............................................   208
Senate:
    Appointment Desks............................................   210
    Hair Care....................................................   208
    Office of Education and Training.............................   214
    Post Office..................................................   208
    Recording Studio.............................................   211
Transportation and Fleet Operations..............................   207

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
